App. 1
PRECEDENTIAL
UNITED STATES COURT OF APPEALS
FOR THE THIRD CIRCUIT
-----------------------------------------------------------------------

No. 18-3210
-----------------------------------------------------------------------

In re MILLENNIUM LAB
HOLDINGS II, LLC., et al.,
Debtors
OPT-OUT LENDERS,
Appellant
-----------------------------------------------------------------------

On Appeal from the United States District Court
for the District of Delaware
(D.C. No. 1-17-cv-01461)
District Judge: Leonard P. Stark
-----------------------------------------------------------------------

Argued
September 12, 2019
Before: CHAGARES, JORDAN,
and RESTREPO, Circuit Judges.
(Filed December 19, 2019)
-----------------------------------------------------------------------

App. 2
Maya Ginsburg
Thomas E. Redburn, Jr. [ARGUED]
Sheila A. Sadighi
Lowenstein Sandler
One Lowenstein Drive
Roseland, NJ 07068
L. Katherine Good
Aaron H. Stulman
Christopher M. Samis
Potter Anderson & Corroon
1313 N. Market Street
Hercules Plaza, 6th Fl.
P.O. Box 951
Wilmington, DE 19801
Counsel for Appellant
John C. O’Quinn [ARGUED]
Jason M. Wilcox
Kirkland & Ellis
1301 Pennsylvania Avenue, N.W.
Washington, DC 20004
Counsel for Appellee James Slattery
Derek C. Abbott
Joseph C. Barsalona, II
Andrew R. Remming
Morris Nichols Arsht & Tunnell
1201 Market Street – 16th Fl.
P.O. Box 1347
Wilmington, DE 19801
Gregory W. Fox
Michael H. Goldstein
William P. Weintraub
Goodwin Procter
620 Eighth Avenue

App. 3
The New York Times Building
New York, NY 10018
Counsel for Appellee TA Millennium Inc.
Ryan M. Bartley
Pauline K. Morgan
Michael R. Nestor
Young Conaway Stargatt & Taylor
1000 N. King Street
Wilmington, DE 19801
Richard P. Bress
Latham & Watkins
555 11th Street, N.W. – Ste. 1000
Washington, DC 20004
Amy C. Quartarolo
Michael J. Reiss
Latham & Watkins
355 S. Grand Avenue – Ste. 100
Los Angeles, CA 90071
Counsel for Debtor
-----------------------------------------------------------------------

OPINION OF THE COURT
-----------------------------------------------------------------------

JORDAN, Circuit Judge.
We are asked whether the Bankruptcy Court,
without running afoul of Article III of the Constitution,
can confirm a Chapter 11 reorganization plan containing nonconsensual third-party releases and injunctions. On the specific, exceptional facts of this case, we
hold that the Bankruptcy Court was permitted to confirm the plan because the existence of the releases and

App. 4
injunctions was “integral to the restructuring of the
debtor-creditor relationship.” Stern v. Marshall, 564
U.S. 462, 497 (2011) (internal quotation marks and
citation omitted). We further conclude that the remainder of this appeal is equitably moot, and we will therefore affirm the decision of the District Court.
I.

BACKGROUND

The debtors before the Bankruptcy Court and District Court were Millennium Lab Holdings II, LLC
(“Holdings”), its wholly-owned subsidiary, Millennium
Health LLC, and RxAnte, LLC, a wholly-owned subsidiary of Millennium Health LLC, all of which we will
refer to collectively as “Millennium.” Millennium (as
reorganized), along with certain of its direct and indirect pre-reorganization shareholders, specifically TA
Millennium, Inc. (“TA”), TA Associates Management,
L.P., and James Slattery,1 are the Appellees in this
matter.
Millennium provides laboratory-based diagnostic
services. In April 2014, it entered into a $1.825 billion
credit agreement with a variety of lenders, including a
variety of funds and accounts managed by Voya Investment Management Co. LLC and Voya Alternative Asset Management LLC which, for convenience, we will
1

Slattery was the founder of Millennium, has served in highlevel positions in the company, and established trusts “for the
benefit of himself and/or members of his family [and which] own
approximately 79.896 percent of the stock of [Millennium Lab
Holdings, Inc.][,]” a substantial pre-reorganization shareholder of
Millennium. (App. at 981.)

App. 5
refer to collectively as “Voya.” Ultimately, Millennium
used the proceeds from the 2014 credit agreement to
refinance certain of its then-existing financial obligations and to pay a nearly $1.3 billion special dividend
to its shareholders.
In March 2015, following a several-year investigation that dated back to at least 2012, the U.S. Department of Justice (“DOJ”) filed a complaint in the
United States District Court for the District of Massachusetts against Millennium, alleging violations of
various laws, including the False Claims Act. Less than
a month earlier, the Center for Medicare and Medicaid
Services (“CMS”) had notified Millennium that it
would be revoking Millennium’s Medicare billing privileges, the lifeblood of Millennium’s business. In May
2015, Millennium reached an agreement in principle
with the DOJ, CMS, and other government entities to
pay $256 million to settle various claims against it.
Shortly thereafter, however, Millennium concluded
that it lacked adequate liquidity to both service its debt
obligations under the 2014 credit agreement and make
the required settlement payment to the government.
Millennium thus informed the 2014 credit agreement
lenders of the government’s claims and the decision to
settle, prompting the formation of an ad hoc group of
lenders, of which Voya was a member, to begin working
with Millennium and its primary shareholders, TA and
Millennium Lab Holdings, Inc. (“MLH”), to negotiate a
transaction that would allow the company to satisfy
the settlement requirements and restructure its financial obligations. As those negotiations progressed, the

App. 6
ad hoc group began suggesting that there were potential claims against MLH and TA relating to the 2014
credit agreement, including a lack of disclosure regarding the government’s investigation into Millennium’s
business. Millennium, MLH, TA, and the ad hoc group
began discussing how to resolve those potential claims.
While negotiating with the ad hoc group, Millennium informed the government that it could not pay
the $256 million settlement without restructuring its
other financial obligations. The government ultimately
set a deadline of October 2, 2015, “by which the Company was required to finalize a proposal supported
by the prepetition lenders and the Equity Holders[.]”
(App. at 2231.) That deadline was later pushed to October 16 in exchange for, among other things, a $50 million settlement deposit to be paid for by Millennium
and guaranteed by MLH and TA.
On October 15, 2015, Millennium, its equity holders, and the ad hoc group – Voya excepted – entered
into a restructuring support agreement (the “Restructuring Agreement” or “Agreement”), which provided
for either an out-of-court restructuring or a Chapter 11
reorganization of Millennium’s business. Under the
Agreement, MLH and TA agreed to pay $325 million,
which would be used to reimburse Millennium for
the $50 million settlement deposit, pay the remainder
of the $256 million settlement, and cover certain of
Millennium’s fees, costs, and working capital requirements. The Agreement also required Millennium’s equity holders, including MLH and TA, to transfer 100%
of the equity interests in Millennium to the company’s

App. 7
lenders. Voya would receive its share of equity in the
deal. In exchange, MLH, TA, and various others were
to “receive full releases” for themselves and related
parties regarding all claims arising from conduct that
occurred before the Restructuring Agreement, including anything related to the 2014 credit agreement,
and, in the case of a Chapter 11 reorganization, those
individuals and entities covered by the Restructuring
Agreement were to “be subject to a bar order, an injunction and related protective provisions” to enforce the
releases. (App. at 518.) As a result of the Restructuring
Agreement, Millennium was able to enter a final settlement with the government on October 16, 2015,
which required payment of the settlement deposit in
October and payment of the remainder of the settlement by December 30, 2015.
The Restructuring Agreement was reached only
after intensive negotiations. Indeed, the negotiations
were described by participants as “highly adversarial[,]” “extremely complicated[,]” and at “arm’s-length,”
and in those negotiations “the parties all were represented by sophisticated and experienced professionals.” (App. at 2229-30.) MLH and TA rejected the ad
hoc group’s suggestion of potential claims against
them. “[P]rior to substantive negotiations commencing,
it did not appear that [MLH and TA] had signaled a
willingness to pay even any portion of the proposed . . .
settlement.” (App. at 2230.) Rather, they were only
“willing to consider a tender of their equity ownership
of the Company in exchange for broad general releases[.]” (App. at 2230.)

App. 8
From at least mid-August 2015, negotiations took
place “on an almost daily basis[.]” (App. at 2231.) Before September 30, however, and despite “extensive negotiations between the Equity Holders and the Ad Hoc
Group during the prior months, the Equity Holders’
last and ‘best’ offer was, in addition to turning over the
Company’s equity to the Lenders, $275 million[,] and
the Ad Hoc Group . . . had demanded a $375 million
contribution[.]” (App. at 2232-33.)
The impasse was broken during the negotiation
session that occurred on September 30. That session
was viewed as “do or die” for Millennium and as having
“decisive implications for the lenders and the equity”
because, if the October 2 deadline was not met, the government would revoke Millennium’s Medicare billing
privileges. (App. at 2231-32.) In the last event, MLH
and TA increased their offer to $325 million, and the
ad hoc group of lenders agreed to the revised terms.
According to an individual involved in the negotiations, that deal – later embodied in the Agreement –
was “the best possible deal achievable” and left nothing
else “on the table[.]” (App. at 2233.)
The release provisions MLH and TA obtained in
exchange for their contribution, were, in short, “heavily
negotiated among the Debtors, the Equity Holders and
the Ad Hoc Group” and necessary to the entire agreed
resolution. (App. at 2234.) They “were specifically demanded by the Equity Holders as a condition to making the[ir] contribution” and, without them, MLH and
TA “would not have agreed” to the settlement. (App. at
2234.) The contribution was, of course, also necessary

App. 9
to induce the lenders’ support of the Agreement. Thus,
as stated by both the Bankruptcy Court and District
Court after careful fact finding, the deal to avoid corporate destruction would not have been possible without the third-party releases.
After entering into the Restructuring Agreement,
the parties thereto initially sought to reorganize Millennium out of court, and “over 93% of the Prepetition
Lenders by value” agreed to do so. (App. at 1205.) That,
however, was not enough. Voya held out, and Millennium filed its petition for bankruptcy in November
2015. It submitted to the Bankruptcy Court a “Prepackaged Joint Plan of Reorganization of Millennium
Lab Holdings II, LLC, et al.” that reflected the terms of
the Restructuring Agreement.2 (App. at 407.) The plan
contained broad releases, including ones that would
bind non-consenting lenders such as Voya, in favor of
Millennium, MLH, and TA, among others. Those releases specifically covered any claims “arising out of, or
in any way related to in any manner,” the 2014 credit
agreement. (App. at 416.) To enforce the releases, the
plan also provided for a bar order and an injunction
prohibiting those bound by the releases from commencing or prosecuting any actions with respect to the
claims released under the plan.

2

The plan was later amended to eliminate a disputed provision that is not at issue in this appeal.

App. 10
Voya objected to confirmation of the plan.3 It explained that it intended to assert claims against
MLH and TA for what it said were material misrepresentations made in connection with the 2014 credit
agreement. In Voya’s view, at the time of the credit
agreement, Millennium knew of the legal scrutiny it
was under by the government but made “affirmative
representations . . . which specifically indicated that
there was no investigation pending that could result in
a material adverse situation[,]” and Millennium further represented that it was not doing anything potentially illegal. (App. at 1309.) Voya thus asserted that it
had significant legal claims against Millennium and
Millennium’s equity holders, that the releases of the
equity holders were unlawful, and that the Bankruptcy Court lacked subject matter jurisdiction to approve them.
The Bankruptcy Court overruled Voya’s objections
and confirmed the plan on December 14, 2015.4 Voya
then appealed to the District Court, arguing, among
other things, that the Bankruptcy Court lacked the
constitutional authority to order the releases and injunctions. In response, the Appellees, all of whom
are named as released parties in the confirmed plan,
3

The United States Trustee objected as well. Those objections are not at issue on appeal.
4
A few days earlier, on December 9, 2015, Voya had filed suit
against TA, MLH, and various affiliates in the District Court asserting RICO, RICO conspiracy, fraud and deceit, aiding and abetting fraud, conspiracy to commit fraud, and restitution claims. That
case has been stayed pending the present litigation. ISL Loan Tr.
v. TA Assocs. Mgmt., L.P., No. 15-cv-1138 (D. Del.) (D.I. 11).

App. 11
moved to dismiss, pressing especially that the case is
equitably moot. The District Court, however, remanded
the case for the Bankruptcy Court to consider whether
it – the Bankruptcy Court – had constitutional authority to confirm a plan releasing Voya’s claims, in light of
the Supreme Court’s decision in Stern v. Marshall, 564
U.S. 462 (2011).
On remand, the Bankruptcy Court wrote a detailed and closely reasoned opinion explaining its conclusion that it had constitutional authority. It said that
Stern is inapplicable when, as in this instance, the proceeding at issue is plan confirmation, and that, even if
Stern did apply, the limitations imposed by that precedent would be satisfied. Voya appealed and the Appellees moved again to dismiss the matter as equitably
moot.
The District Court, in an equally thoughtful opinion, affirmed the Bankruptcy Court’s ruling on constitutional authority, reasoning, in relevant part, that
Stern is inapplicable to plan confirmation proceedings.
The Court then dismissed the remainder of Voya’s
challenges as equitably moot because the releases and
related provisions were central to the reorganization
plan and excising them would unravel the plan, and
because it would be inequitable to allow Voya to benefit
from the restructuring while also pursuing claims
that MLH and TA had paid to settle. Finally, in the
alternative, the District Court reasoned that, even if
the Bankruptcy Court lacked constitutional authority
to confirm the plan, and even if the appeal were not
equitably moot, the District Court itself would affirm

App. 12
the confirmation order by rejecting Voya’s challenges
on the merits.
This timely appeal followed.
DISCUSSION5

II.

The Parties press a number of arguments, but we
need only address two: first, whether the Bankruptcy
Court had constitutional authority to confirm the plan
releasing and enjoining Voya’s claims against MLH
and TA; and second, whether this appeal, including
Voya’s arguments that the release provisions violate
the Bankruptcy Code, is otherwise equitably moot. Because the answer to both of those questions is yes, we
will affirm.

5

While the Bankruptcy Court’s authority is at issue, it had
jurisdiction to consider this dispute pursuant to 28 U.S.C. §§ 157,
1334. The District Court had jurisdiction under 28 U.S.C. §§ 158(a),
1334, and we have jurisdiction under 28 U.S.C. §§ 158(d), 1291.
U.S. Tr. v. Gryphon at Stone Mansion, Inc., 166 F.3d 552, 553 (3d
Cir. 1999); In re Semcrude, L.P., 728 F.3d 314, 320 (3d Cir. 2013).
“In reviewing the Bankruptcy Court’s determinations, we exercise the same standard of review as did the District Court. We
therefore review the Bankruptcy Court’s legal determinations de
novo and . . . its factual determinations for clear error.” In re Wettach, 811 F.3d 99, 104 (3d Cir. 2016) (citations and internal quotation marks omitted). “We review the [District] Court’s equitable
mootness determination for abuse of discretion.” In re Semcrude,
728 F.3d at 320.

App. 13
A. The Bankruptcy Court Possessed the
Constitutional Authority to Confirm the
Plan Containing the Release Provisions
Voya’s primary argument is that, under the reasoning of Stern v. Marshall, the Bankruptcy Court
lacked the constitutional authority to confirm a plan
releasing its claims.6 To explain why we disagree, we
first consider the reach of Stern and then how the decision applies here.
i. The Reasoning and Reach of Stern v.
Marshall
In Stern, the son of a deceased oil magnate filed
an adversary complaint in bankruptcy court against
his stepmother for defamation and also “filed a proof
of claim for the defamation action, meaning that he
sought to recover damages for it from [the] bankruptcy
estate.”7 564 U.S. at 470. The dispute was part of a long
running battle over the oil magnate’s estate, and the
stepmother – who was the debtor in bankruptcy – responded to the defamation claim by asserting truth as
6

The parties also contest whether the constitutionality of
the Bankruptcy Court’s decision is a threshold issue that must be
decided before assessing equitable mootness. Since we conclude
that the Bankruptcy Court possessed constitutional authority, we
need not decide whether there is a set order of operations.
7
Both the litigation culminating in the Supreme Court’s
Stern decision, and the Stern decision itself, received significant
public attention based on the litigants’ identities. The stepmother
was the late Vickie Lynn Marshall, widely known as Anna Nicole
Smith. The stepson was the late E. Pierce Marshall, son of the
deceased oil magnate, J. Howard Marshall II.

App. 14
a defense and filing her own counterclaim for tortiously interfering with a gift (i.e., a trust of which she
would be the beneficiary) that she had expected to receive from her late husband. Id. The bankruptcy court
granted summary judgment for the stepmother on the
defamation claim and then, after a bench trial, ruled
in her favor on the tortious interference counterclaim.
Id.
The main issue before the Supreme Court was
whether the bankruptcy court had the authority to
adjudicate the counterclaim. The Court first decided
that the bankruptcy court was statutorily authorized
to do so. Id. at 475-78. It said that bankruptcy courts
may hear and enter final judgments in what the bankruptcy code frames as “core proceedings,” and the Court
further ruled that the counterclaim was such a proceeding because, under 28 U.S.C. § 157(b)(2)(C), “core
proceedings include ‘counterclaims by the [bankruptcy]
estate against persons filing claims against the estate.’ ” Stern, 564 U.S. at 475.
Nevertheless, the Supreme Court concluded that
the bankruptcy court’s actions violated Article III of
the U.S. Constitution. Id. at 482. Quoting Northern
Pipeline Construction Company v. Marathon Pipe Line
Company, 458 U.S. 50, 90 (1982) (Rehnquist, J., concurring in judgment), the Court reasoned that, “[w]hen a
suit is made of ‘the stuff of the traditional actions at
common law tried by the courts at Westminster in
1789,’ and is brought within the bounds of federal jurisdiction, the responsibility for deciding that suit rests
with Article III judges in Article III courts.” Stern, 564

App. 15
U.S. at 484. The bankruptcy court had gone beyond constitutional limits when it “exercised the ‘judicial Power
of the United States’ in purporting to resolve and enter
final judgment on a state common law claim[.]” Id. at
487.
The Supreme Court went on to explain that the
counterclaim also not did fall within the “public rights”
exception to the exercise of judicial power contemplated by Article III. Under the public rights exception,
Congress may constitutionally allocate to “legislative”
– i.e., non-Article III – courts the authority to resolve
disputes that arise “in connection with the performance of the constitutional functions of the executive
or legislative departments[.]” Id. at 489 (citation omitted). Although acknowledging that the exception is not
well defined, the Court explained that it is generally
limited to “cases in which the claim at issue derives
from a federal regulatory scheme, or in which resolution of the claim by an expert Government agency
is deemed essential to a limited regulatory objective
within the agency’s authority.” Id. at 490. The Court
had little difficulty concluding that the stepmother’s
counterclaim, which arose “under state common law
between two private parties,” and, at best, had a highly
tenuous connection to federal law, did not “fall within
any of the varied formulations of the public rights exception[.]” Id. at 493. But the Court made clear that it
had never decided and was not then deciding whether
“the restructuring of debtor-creditor relations is in fact
a public right.” Id. at 492 n.7 (citation omitted).

App. 16
The Supreme Court also rejected the stepmother’s
argument that her counterclaim could be decided in
bankruptcy court because the stepson had filed a proof
of claim. Id. at 495. In doing so, though, the Court interpreted two of its previous opinions as concluding
that matters arising in the claims-approval process
could be adjudicated by a bankruptcy court. Id. at
495-97. The Court said that Katchen v. Landy, 382 U.S.
323 (1966), stood for the proposition that a “voidable
preference claim” could be decided by a bankruptcy adjudicator “because it was not possible for the [adjudicator] to rule on the creditor’s proof of claim without
first resolving the voidable preference issue.” Stern,
564 U.S. at 496. It further observed that its decision in
Langenkamp v. Culp, 498 U.S. 42 (1990) (per curiam),
was “to the same effect” and had concluded “that a preferential transfer claim can be heard in bankruptcy
when the allegedly favored creditor has filed a claim,
because then [i.e., after the creditor’s claim has been
filed,] ‘the ensuing preference action by the trustee become[s] integral to the restructuring of the debtorcreditor relationship.’ ” Stern, 564 U.S. at 497 (second
alteration in original) (citation omitted). The Court distinguished that situation from the dispute before it in
Stern because there was little overlap between the
debtor-stepmother’s tortious interference counterclaim
and the creditor-stepson’s defamation claim and “there
was never any reason to believe that the process of adjudicating [the] proof of claim would necessarily resolve [the] counterclaim.” Id. Finally, it explained that,
“[i]n both Katchen and Langenkamp, . . . the trustee
bringing the preference action was asserting a right of

App. 17
recovery created by federal bankruptcy law[,]” but
the stepmother’s counterclaim was “in no way derived
from or dependent upon bankruptcy law; it [was] a
state tort action that exist[ed] without regard to any
bankruptcy proceeding.” Id. at 498-99. The Court concluded by saying “that Congress may not bypass Article III simply because a proceeding may have some
bearing on a bankruptcy case[.]” Id. at 499. In language central to the issue before us, the Court said,
“the question is whether the action at issue stems from
the bankruptcy itself or would necessarily be resolved
in the claims allowance process.” Id.
Stern makes several points that are important
here. First, bankruptcy courts may violate Article III
even while acting within their statutory authority in
“core” matters. Cf. Exec. Benefits Ins. Agency v. Arkison,
573 U.S. 25, 30-31 (2014) (describing “Stern claims” as
“claim[s] designated for final adjudication in the bankruptcy court as a statutory matter, but prohibited from
proceeding in that way as a constitutional matter”).
Thus, even in cases in which a bankruptcy court exercises its “core” statutory authority, it may be necessary
to consider whether that exercise of authority comports with the Constitution.
Second, a bankruptcy court is within constitutional bounds when it resolves a matter that is integral
to the restructuring of the debtor-creditor relationship.
The Stern Court relied on Katchen and Langenkamp as
examples of a bankruptcy court’s constitutionally appropriate adjudication of claims. Of particular note, and
as quoted earlier, the Court in discussing Langenkamp

App. 18
said that it held there that a particular “claim can be
heard in bankruptcy when the . . . creditor has filed a
claim, because then ‘the ensuing preference action by
the trustee become[s] integral to the restructuring of
the debtor-creditor relationship.’ ” Stern, 564 U.S. at
497 (alteration in original) (citation omitted). In other
words, the Court concluded that bankruptcy courts
can constitutionally decide matters arising in the
claims-allowance process, and they can do that because
matters arising in the claims-allowance process are
integral to the restructuring of the debtor-creditor
relationship.8 Id. at 492 n.7, 497 (citations omitted).

8

Again, and as noted on page 15 supra, we recognize that
the Supreme Court declined to determine whether, as a general
matter, “restructuring of debtor-creditor relations is in fact a public right.” Stern, 564 U.S. at 492 n.7 (citation omitted). Thus, the
Court’s conclusion that bankruptcy courts can decide matters integral to the restructuring of debtor-creditor relations may not
have been grounded in public rights doctrine. Indeed, Chief Justice Roberts, the author of Stern, has suggested as much. Cf. Wellness Int’l Network, Ltd. v. Sharif, 135 S. Ct. 1932, 1951 (2015)
(Roberts, C.J., dissenting) (“Our precedents have also recognized
an exception to the requirements of Article III for certain bankruptcy proceedings. When the Framers gathered to draft the Constitution, English statutes had long empowered nonjudicial
bankruptcy ‘commissioners’ to collect a debtor’s property, resolve
claims by creditors, order the distribution of assets in the estate,
and ultimately discharge the debts. This historical practice, combined with Congress’s constitutional authority to enact bankruptcy laws, confirms that Congress may assign to non-Article
III courts adjudications involving ‘the restructuring of debtorcreditor relations, which is at the core of the federal bankruptcy
power.’ ” (internal citations omitted)). We need not identify the
theory behind the Supreme Court’s conclusion, however, because,
regardless, “we are bound to follow [the Court’s] teachings[.]” St.

App. 19
Furthermore, the Supreme Court made it clear that,
for there to be constitutional authority, a matter need
not stem from the bankruptcy itself. That is evident
from its declaration of a two-part disjunctive test. The
Court said that “the question [governing the extent to
which a bankruptcy court may constitutionally exercise power] is whether the action at issue stems from
the bankruptcy itself or would necessarily be resolved
in the claims allowance process.” Id. at 499 (emphasis
added).
The third take-away from Stern is that, when determining whether a bankruptcy court has acted
within its constitutional authority, courts should generally focus not on the category of the “core” proceeding
but rather on the content of the proceeding. The Stern
Court never said that all counterclaims by a debtor are
beyond the reach of bankruptcy courts. Rather, it explained that those that do not “stem[ ] from the bankruptcy itself or would [not] necessarily be resolved in
the claims allowance process” (and therefore would not
be integral to the restructuring of the debtor-creditor
relationship) must be decided by Article III courts. Id.
at 497, 499. And, the Court looked to the content of the
debtor’s counterclaim in applying that test. It compared the factual and legal determinations necessary
to resolve the tortious interference counterclaim to
those necessary to resolve the defamation claim to
assess whether the counterclaim would necessarily
be resolved in the claims-allowance process, and it
Margaret Mem’l Hosp. v. NLRB, 991 F.2d 1146, 1154 (3d Cir.
1993).

App. 20
looked to the basis for the counterclaim to determine
whether it stemmed from the bankruptcy itself.9 Id. at
498-99.
In sum, Stern teaches that the exercise of “core”
statutory authority by a bankruptcy court can implicate the limits imposed by Article III. Such an exercise
of authority is permissible if it involves a matter integral to the restructuring of the debtor-creditor relationship. And, in determining whether that is the case,
we can consider the content of the “core” proceeding at
issue.
ii. The Bankruptcy Court Had Constitutional Authority Under Stern
Applying the foregoing principles to the case at
hand leads to the conclusion that the Bankruptcy
Court possessed constitutional authority to confirm
the plan containing the release provisions. The Bankruptcy Court indisputably had “core” statutory authority to confirm the plan. See 28 U.S.C. § 157(b)(2)(L)
(“Core proceedings include, but are not limited to . . . [,]
confirmations of plans[.]”). The question is whether,
looking to the content of the plan, the Bankruptcy Court
was resolving a matter integral to the restructuring of
9

To be sure, the Supreme Court made clear that the claimsallowance process – a core proceeding under 28 U.S.C. § 157(b)(2)(B)
– is per se integral to the restructuring of the debtor-creditor relationship and, therefore, that the category of proceeding is controlling in that context. Stern, 564 U.S. at 497-99. But we have no
guidance as to whether any other categories of core proceedings
might be treated similarly.

App. 21
the debtor-creditor relationship.10 The only terms at issue are the provisions releasing and enjoining Voya’s
claims.
Those provisions were thoroughly and thoughtfully addressed by the Bankruptcy Court. It held that
“[t]he injunctions and releases provisions are critical
to the success of the Plan” because, “[w]ithout the releases, and the enforcement of such releases through
the Plan’s injunction provisions, the Released Parties
[would not be] willing to make their contributions under the Plan” and, “[a]bsent those contributions, the
Debtors [would] be unable to satisfy their obligations
under the USA Settlement Agreements [i.e., the settlement with the government] and no chapter 11 plan
[would] be feasible and the Debtors would likely [have]
shut down upon the revocation of their Medicare enrollment and billing privileges.” (App. at 24; see also
App. at 3596, 3598 (the Bankruptcy Court stating that
“it is clear that the releases are necessary to both obtaining the funding and consummating a plan” and
that “[w]ithout [MLH and TA’s] contributions, there is
no reorganization”).) Those conclusions are well supported by the record. (App. at 1575-80, 2230, 2233-35;
D. Ct. D.I. 25-2, at *233-34.) Indeed, the record makes
abundantly clear that the release provisions – agreed
to only after extensive, arm’s length negotiations –
were absolutely required to induce MLH and TA to pay
10

The Appellees argue that a bankruptcy court can always
constitutionally confirm a plan. We have our doubts about so
broad a statement but we do not need to address it to decide this
case.

App. 22
the funds needed to effectuate Millennium’s settlement
with the government and prevent the government from
revoking Millennium’s Medicare billing privileges. Absent MLH and TA’s payment, the company could not
have paid the government, with the result that liquidation, not reorganization, would have been Millennium’s sole option. Restructuring in this case was
possible only because of the release provisions.
To Voya, that point is irrelevant.11 Voya contends
that Stern demands an Article III adjudicator decide
its RICO/fraud claims because those claims do not
stem from the bankruptcy itself and would not be resolved in the claims-allowance process. It asserts that
the limiting phrase from Stern, i.e., “necessarily be resolved in the claims allowance process[,]” cannot be
stretched to cover all matters integral to the restructuring. (Opening Br. at 31.) In that regard, Voya argues
that an assertion that something is “integral to the restructuring” is really “nothing more than a description
of the claims allowance process.” (Reply Br. at 13.)
That argument fails primarily because it is not
faithful to what Stern actually says. Had the Stern
Court meant its “integral to the restructuring” language to be limited to the claims-allowance process, it
would not have said that a bankruptcy court may decide
a matter when a “creditor has filed a claim, because
then” – adding its own emphasis to that word – “the
ensuing preference action by the trustee become[s]
11

In fact, Voya does not even argue in its briefing that the
release provisions were not integral to the restructuring.

App. 23
integral to the restructuring of the debtor-creditor relationship.” 564 U.S. at 497 (alteration in original).
That phrasing makes clear that the reason bankruptcy
courts may adjudicate matters arising in the claimsallowance process is because those matters are integral to the restructuring of debtor-creditor relations,
not the other way around. And, as the Appellees correctly observe, Stern is not the first time that the Supreme Court has so indicated. In Granfinanciera, S.A.
v. Nordberg, 492 U.S. 33 (1989) – a case that the Stern
Court viewed as informing its Article III jurisprudence,
564 U.S. at 499 – the Court answered first whether an
action arose in the claims-allowance process and only
then whether it was otherwise integral to the restructuring of debtor-creditor relations. See Granfinanciera,
492 U.S. at 58 (“Because petitioners here . . . have not
filed claims against the estate, respondent’s fraudulent
conveyance action does not arise ‘as part of the process
of allowance and disallowance of claims.’ Nor is that
action integral to the restructuring of debtor-creditor
relations.”).12 If the first step in that analysis were all
12

Voya makes two additional arguments regarding the proper
interpretation of Stern: that courts of appeals have interpreted
Stern as centered on the claims-allowance process, and that the
phrase “integral to the restructuring” is not supported by the Supreme Court’s public rights jurisprudence. As to the former, we
are not convinced that the out-of-circuit cases Voya cites are inconsistent with our reading of Stern. Stern on its face governed in
those cases, so, unlike here, the courts had no need to extract a
principle beyond Stern’s plain terms. See In re Renewable Energy
Dev. Corp., 792 F.3d 1274, 1279 (10th Cir. 2015) (concluding that
Stern provided “all the guidance we need to answer this appeal”
because the case involved the assertion that state law legal malpractice claims against the bankruptcy trustee by clients of the

App. 24

trustee in his capacity as an attorney should be heard in bankruptcy court simply because the malpractice claims were “factually ‘intertwined’ with the bankruptcy proceedings”); In re Fisher
Island Invs., Inc., 778 F.3d 1172, 1192 (11th Cir. 2015) (holding
that Stern did not apply to bar bankruptcy court adjudication of
a claim where, among other things, that claim “was ‘necessarily
resolve[d]’ by the bankruptcy court through the process of adjudicating the creditors’ claims” (alteration in original) (citation omitted)); In re Glob. Technovations Inc., 694 F.3d 705, 722 (6th Cir.
2012) (holding that a bankruptcy court’s resolution of one issue
was permissible under Stern because it was not possible to rule
on a proof of claim without deciding the issue, and concluding that
the bankruptcy court could decide a second issue that could have
been necessary to ruling on a proof of claim but turned out not to
be because the court did “not believe that Stern requires a court
to determine, in advance, which facts will ultimately prove
strictly necessary”); In re Bellingham Ins. Agency, Inc., 702 F.3d
553, 564-65 (9th Cir. 2012) (holding that a bankruptcy court could
not resolve a fraudulent conveyance action similar to that in
Granfinanciera – which the Stern Court made clear could not
have been adjudicated by a bankruptcy court – because it “need
not necessarily have been resolved in the course of allowing or
disallowing the claims against the . . . estate”); In re Ortiz, 665
F.3d 906, 909, 912, 914 (7th Cir. 2011) (concluding that claims
could not be decided by a bankruptcy court because the case essentially matched Stern); see also In re Ortiz, 665 F.3d at 914
(“Non-Article III judges may hear cases when the claim arises ‘as
part of the process of allowance and disallowance of claims,’ or
when the claim becomes ‘integral to the restructuring of the
debtor-creditor relationship[.]’ ” (citations omitted)). Voya also
cites our decision in Billing v. Ravin, Greenberg & Zackin, P.A.,
22 F.3d 1242 (3d Cir. 1994), but that decision predates Stern and
offers no insight into how best to interpret it.
Voya’s second argument, that the rule we adopt today would
not comport with the Supreme Court’s public rights doctrine, similarly is unavailing. As already noted (see supra n. 8), the precise
basis for the Court’s “integral to the restructuring” conclusion is
unstated, and does not necessarily flow from the Court’s public
rights jurisprudence.

App. 25
that was relevant, the second step would not have been
taken.
Voya also raises a “floodgate” argument, saying
that, if we allow bankruptcy courts to approve releases
merely because they appear in a plan, bankruptcy
courts’ powers would be essentially limitless and that
an “integral to the restructuring” rule would mean that
bankruptcy courts could approve releases simply because reorganization financers demand them, which
could lead to gamesmanship. The argument is not
without force. Setting too low a bar for the exercise of
bankruptcy court authority could seriously undermine
Article III, which is fundamental to our constitutional
design.13 It is definitely not our intention to permit any
action by a bankruptcy court that could “compromise”
or “chip away at the authority of the Judicial Branch[,]”
Stern, 564 U.S. at 503, and our decision today should
not be read as expanding bankruptcy court authority.
Nor should our decision today be read as permitting or encouraging the hypothetical gamesmanship
that Voya fears will now ensue. Consistent with prior
decisions, we are not broadly sanctioning the permissibility of nonconsensual third-party releases in bankruptcy
13

Before the founding, “[t]he colonists had been subjected to
judicial abuses at the hand of the Crown, and the Framers knew
the main reasons why: because the King of Great Britain ‘made
Judges dependent on his Will alone, for the tenure of their offices,
and the amount and payment of their salaries.’ ” Stern, 564 U.S.
at 483-84 (quoting The Declaration of Independence ¶ 11). Since
ratification, Article III has served a crucial role in our “system of
checks and balances” and “preserve[s] the integrity of judicial decisionmaking[.]” Id. (citation omitted).

App. 26
reorganization plans. Our precedents regarding nonconsensual third-party releases and injunctions in the
bankruptcy plan context set forth exacting standards
that must be satisfied if such releases and injunctions
are to be permitted, and suggest that courts considering such releases do so with caution. See In re Global
Indus. Techs., Inc., 645 F.3d 201, 206 (3d Cir. 2011)
(en banc) (explaining that suit injunctions must be
“both necessary to the reorganization and fair”); In re
Continental Airlines, Inc., 203 F.3d 203, 214 (3d Cir.
2000) (“The hallmarks of permissible non-consensual
releases [are] fairness, necessity to the reorganization,
and specific factual findings to support these conclusions[.]”). Although we are satisfied that both the
Bankruptcy Court and District Court exercised appropriate – indeed, exemplary – caution and diligence in
this instance, nothing in our opinion should be construed as reducing a court’s obligation to approach the
inclusion of nonconsensual third-party releases or injunctions in a plan of reorganization with the utmost
care and to thoroughly explain the justification for any
such inclusion.
In short, our holding today is specific and limited.
It is that, under the particular facts of this case,
the Bankruptcy Court’s conclusion that the release
provisions were integral to the restructuring was
well-reasoned and well-supported by the record.14
14

At oral argument, counsel for Voya candidly acknowledged
that this is “not the usual case.” https://www2.ca3.uscourts.gov/
oralargument/audio/18-3210InreMilleniumLabHoldings.mp3 (Oral
Arg. at 15:03-07.)

App. 27
Consequently, the bankruptcy court was constitutionally authorized to confirm the plan in which those provisions appeared.15
B. The Remainder of the Appeal Is Equitably Moot
Voya next argues that the District Court erred in
concluding that the remaining issues on appeal are equitably moot. Again, we disagree.
“ ‘Equitable mootness’ is a narrow doctrine by
which an appellate court deems it prudent for practical
reasons to forbear deciding an appeal when to grant
the relief requested will undermine the finality and reliability of consummated plans of reorganization.” In re
Tribune Media Co., 799 F.3d 272, 277 (3d Cir. 2015). At
bottom, “[e]quitable mootness assures [the estate, the
reorganized entity, investors, lenders, customers, and
15

The parties disagree as to whether the Bankruptcy Court’s
decision to confirm the plan even implicates Stern and Article III.
Voya argues that Stern deprived the Bankruptcy Court of
jurisdiction because the release provisions in the confirmed plan
of reorganization constituted a “final judgment” on the merits
of Voya’s state law claims against Millennium. The Appellees
respond that Stern is inapplicable here, or at least readily distinguishable, because there is a distinction between a court approving the settlement of claims and adjudicating claims on the
merits. According to the Appellees, the Bankruptcy Court only
did the former when it approved the plan of reorganization. Our
conclusion that the Bankruptcy Court’s actions were constitutionally permissible assumes Stern’s application. Accordingly, it
ultimately is irrelevant to our decision whether or not the Bankruptcy Court issued a “final judgment” on Voya’s underlying
claims against Millennium, and we do not address that dispute.

App. 28
other constituents] that a plan confirmation order is
reliable and that they may make financial decisions
based on a reorganized entity’s exit from Chapter 11
without fear that an appellate court will wipe out or
interfere with their deal.”16 Id. at 280.
An equitable mootness analysis proceeds by asking two questions: “(1) whether a confirmed plan has
been substantially consummated; and (2) if so, whether
granting the relief requested in the appeal will (a) fatally scramble the plan and/or (b) significantly harm
third parties who have justifiably relied on plan confirmation.” Id. at 278. Voya concedes that the plan here is
substantially consummated, so we focus on the second
question. Answering it shows that the appeal is indeed
equitably moot.

16

One of the benefits of bankruptcy is its ability “to aid the
unfortunate debtor by giving him a fresh start in life[.]”
Stellwagen v. Clum, 245 U.S. 605, 617 (1918); see In re Trump
Entm’t Resorts, 810 F.3d 161, 173-74 (3d Cir. 2016) (“A Chapter
11 reorganization provides a debtor with an opportunity to reduce
or extend its debts so its business can achieve longterm viability,
for instance, by generating profits which will compensate creditors for some or all of any losses resulting from the bankruptcy.”).
Equitable mootness allows that benefit to be realized by, among
other things, encouraging an end to costly and protracted litigation based on arguable blemishes in a reorganization plan. Cf. In
re Tribune, 799 F.3d at 288-89 (Ambro, J., concurring) (“Without
equitable mootness, any dissenting creditor with a plausible (or
even not-so-plausible) sounding argument against plan confirmation could effectively hold up emergence from bankruptcy for
years (or until such time as other constituents decide to pay the
dissenter sufficient settlement consideration to drop the appeal),
a most costly proposition.”).

App. 29
Granting Voya the relief it seeks would certainly
scramble the plan. As the District Court explained,
“[t]he Bankruptcy Court found [Voya’s] releases were
central to the Plan and, far from being clearly erroneous, [that conclusion] is strongly supported by uncontroverted evidence in the record.” (App. at 374.) The
Bankruptcy Court observed, based on unrefuted evidence, that the “third-party releases, all of them, . . .
[were] required to obtain the funding for this plan”
(App. at 3594 (emphasis added)); that “the releases
[were] necessary to . . . consummating a plan” (App. at
3596); and that “[w]ithout [TA and MLH’s] contributions, there is no reorganization.” (App. at 3598.) The
release provisions, carefully crafted through extensive
negotiations, served as the cornerstone of the reorganization and, hence, of Millennium’s corporate survival.
Notably, the confirmed plan contains a severability
provision stating, “no alteration or interpretation [of
the plan] can . . . compel the funding of Settlement
Contribution if the conditions to such funding set forth
in the [Restructuring Agreement] have not been satisfied” (App. at 142), and the Restructuring Agreement,
in turn, says that the settlement contribution is contingent on “a full and complete release of . . . the Released Parties” and an injunction to enforce the release.
(App. at 196 (emphasis added).) As the Bankruptcy
Court recognized, all of the releases were essential to
the plan.
But even if some subset of the release provisions
could be deemed non-essential, it would not be Voya’s.
Voya loaned more than $100 million to Millennium

App. 30
through the 2014 credit agreement. Its lawsuit raises
several claims based on that loan, including RICO,
fraud, and restitution claims.17 The restitution claim
alone seeks “restitution of [Voya’s] funds,” among other
relief (App. at 2355), and presumably the other claims
seek damages based on the loan amount, trebled for
the RICO claims. Opening MLH, TA, and their related
parties to well over $100 million in liability, above the
$325 million that was negotiated and paid to settle
those same claims, would completely undermine the
purpose of the release provisions. And again, based on
the intense, arm’s length negotiations, those provisions
were included because they were essential to obtaining the payment that allowed Millennium’s survival.
Given the centrality of the release provisions to the reorganization, excising them would undermine the fundamental basis for the parties’ agreement.
Furthermore, any do-over of the plan at this time
would likely be impossible and, even if it could be done,
would be massively disruptive. Since the plan was
confirmed, Millennium has paid the government, has
“completed numerous complex restructuring and related transactions,” and has distributed common stock
to the lenders under the 2014 credit agreement. (App.
at 6195, 6199.) In addition, “unsecured creditors [have
17

MLH and TA are named as defendants only as to the restitution count. But defendants on all counts are alleged to be close
affiliates of MLH and TA. Importantly, defendant TA Associates
Management is alleged to control TA, and MLH is alleged to be
the effective alter ego of defendant James Slattery. All counts in
the complaint are directed against TA Associates Management,
Slattery, or both.

App. 31
been] paid the full amount of their allowed claims”
(Supp. App. at 3); Millennium’s lender and equity base
has changed dramatically; the company has sold off
RxAnte; and it “has entered into more than two million
commercial transactions, many of which are with new
counter-parties.” (Supp. App. at 5.) It is inconceivable
that these many post-confirmation developments could
be unwound, particularly those involving the government.
In that same vein, the relief that Voya seeks would
seriously harm a wide range of third parties. If the
plan could somehow be unwound and Millennium put
back in its pre-confirmation position, the interests and
expectations of Millennium’s new lenders and equity
holders – who certainly invested in reliance on the reorganization – would be wholly undermined. RxAnte’s
acquiror would in turn have to unwind that acquisition; contracts and transactions with counter-parties
would be scuttled; and the status of Millennium and
all of its employees and contractors would obviously be
placed in severe jeopardy.
Our decision in In re Tribune is on point. There, a
confirmed plan contained provisions settling certain
claims by the estate against various parties connected
with a leveraged buyout of the debtor. In re Tribune,
799 F.3d at 275-76. The appellant, a creditor, conceded
that the plan was substantially consummated but argued that the relief it sought – reinstatement of settled
causes of action – would not fatally harm the plan or
third parties. Id. at 277, 280. We thought otherwise and
said that allowing the suits barred by the settlement

App. 32
“would knock the props out from under the authorization for every transaction that has taken place, thus
scrambling this substantially consummated plan and
upsetting third parties’ reliance on it.” Id. at 281 (citations and internal quotation marks omitted). We observed that the settlement was “a central issue in the
formulation of a plan of reorganization” and that “allowing the relief the appeal seeks would effectively
undermine the Settlement (along with the transactions entered in reliance on it) and, as a result, recall
the entire Plan for a redo.” Id. at 280-81. It was plain
that third parties would be harmed because, among
other things, “returning to the drawing board would at
a minimum drastically diminish the value of new equity’s investment[,]” which “no doubt was [made] in reliance on the Settlement[.]” Id. at 281. That same
reasoning applies with great force in this case.18
18

Voya tries to distinguish In re Tribune by arguing that the
appellant there sought to scuttle the settlement provisions in
their entirety, unlike here. But eliminating the release provisions
as to Voya would have the same effect as eliminating the release
provisions in their entirety: the plan would fall apart.
Voya also points us to several other decisions it views as demonstrating that we have “found bankruptcy appeals not to be equitably moot where, as here, a party merely seeks revival of discrete
released claims that would not otherwise upset a confirmed plan.”
(Opening Br. at 51.) The cases it highlights, however, unlike the
matter now before us, all involved release provisions that were
not central to the plans at issue. See In re Semcrude, 728 F.3d at
324 (holding that a case was not equitably moot because, among
other things, granting the requested relief “would [not] upset the
[settlement] or . . . cause the remainder of the plan to collapse”
and the amounts involved in the suit would not “destabilize the
financial basis of the settlement”); In re PWS Holding Corp., 228

App. 33
Voya raises several unpersuasive arguments challenging the District Court’s equitable mootness decision. In spite of all the evidence, it contends that
striking the release provisions only as to it would not
cause the plan to collapse. It says that the remainder
of the plan would stay in place, including the release
provisions as to other parties, given that the other
lenders consented. According to Voya, nothing in the
plan would authorize MLH and TA to demand the return of their contribution if the release provisions were
stricken, and it claims that, in fact, the plan anticipates “just such a scenario and gives [MLH and TA] . . .
the ability to access insurance coverage and/or indemnification from Debtors (capped at $3 million) for defense costs.” (Opening Br. at 50.) But, as explained
above, striking the release provisions as to Voya would
certainly undermine the plan. That the plan provides
for “insurance coverage and/or indemnification” as a
contingency does not change that. As previously noted,
the plan says that the settlement payment, the very
payment on which Millennium’s viability as a going
concern depended, could not be compelled absent full
and complete releases from all of Millennium’s prebankruptcy lenders, including Voya.
F.3d 224, 236 (3d Cir. 2000) (rejecting an equitable mootness argument where “[t]he releases (or some of the releases) could be
stricken from the plan without undoing other portions of it”); In
re Continental Airlines, 203 F.3d at 210 (rejecting an equitable
mootness challenge because, among other things, “[n]o evidence
or arguments [were] presented that Plaintiffs’ appeal, if successful, would necessitate the reversal or unraveling of the entire plan
of reorganization”).

App. 34
Voya next argues that granting it relief will not
disturb legitimate third-party expectations. As to that
point, it declares that MLH and TA’s reliance interests
do not count, “both because they are relying on the
Plan to obtain unlawful nonconsensual releases to
which they are not legally entitled and because they
are sophisticated parties who were intimately involved
in constructing the Plan and fully aware of the appellate risks when they allowed it to be consummated.”
(Opening Br. at 53.) But, besides the circularity of its
reasoning, Voya’s position misses the mark, as it ignores the fact that numerous other third parties, including Millennium’s new post-bankruptcy equity holders
and lenders, would be harmed significantly by any effort to unwind the plan.
Voya also raises a series of arguments claiming
that it would be fair to strike the releases as to it while
not returning any of MLH and TA’s contribution and
without requiring Voya to return any of the value it
obtained by way of the reorganization.19 Each of those

19

Voya says that that course of action would not be inequitable because it did not receive any consideration for releasing its
claims; that the plan gave MLH and TA the right to insist that
plan consummation be delayed until all appeals were exhausted,
and they instead assumed the risk of an adverse ruling; that,
“prior to the bankruptcy, [MLH and TA] were willing to make
the same $325 million contribution in the context of an out-ofcourt restructuring, even if they did not receive releases from nonconsenting Lenders holding up to $50 million (subject to increase)
of aggregate principal term loan balance” (Reply Br. at 9); that
MLH and TA attempted to leverage Millennium’s distress to obtain the release provisions; and that MLH and TA were aware at

App. 35
arguments is a non-starter. Voya wants all of the value
of the restructuring and none of the pain. That is a fantasy and upends the purpose of the equitable mootness
doctrine, which is designed to prevent inequitable
outcomes. Cf. In re PWS Holding Corp., 228 F.3d 224,
235-36 (3d Cir. 2000) (“Under the doctrine of equitable
mootness, an appeal should be dismissed . . . if the
implementation of that relief would be inequitable.”
(emphasis added)). “Equity abhors a windfall.” US
Airways, Inc. v. McCutchen, 663 F.3d 671, 679 (3d Cir.
2011), vacated on other grounds, 569 U.S. 88, 106 (2013);
Prudential Ins. Co. of Am. v. S.S. Am. Lancer, 870 F.2d
867, 871 (2d Cir. 1989). Voya would receive a windfall
– at the substantial and uncompensated expense of
MLH and TA – if we were to let it avoid the release
provisions without requiring it to return the value it
obtained through the reorganization consummated on
the basis of those release provisions and without allowing MLH and TA to recover their contribution. Voya’s
arguments also fail by their own terms. The question
of whether Voya received consideration for the releases
is a merits question, not an equitable mootness one.
See In re United Artists Theatre Co., 315 F.3d 217, 227
(3d Cir. 2003) (explaining that non-consensual releases
must be given in exchange for fair consideration,
among other things). And, regardless of formal consideration, it would still be inequitable to let Voya retain the benefits of the settlement and still have the
right to sue. See In re Tribune, 799 F.3d at 281 (“When
the time they obtained the release provisions that our precedents
regarding such provisions were unclear.

App. 36
determining whether the case is equitably moot, we of
course must assume [the appellant] will prevail on the
merits because the idea of equitable mootness is that
even if [the appellant] is correct, it would not be fair to
award the relief it seeks.”).
In the end, the operative question for our equitable mootness inquiry is straightforward: would granting Voya relief fatally scramble the plan and/or harm
third parties. The answer is clearly yes.20 Granting
Voya’s requested relief would lead to profoundly inequitable results, and the District Court did not abuse its
discretion in concluding that the appeal was equitably
moot.
III. CONCLUSION
For the foregoing reasons, we will affirm the decision of the District Court.

20

Nothing in our opinion should be read to imply that review
of reorganization plans involving third-party releases will always
or even often be barred as equitably moot and therefore effectively
unreviewable. Again, our holding today is specific and limited to
the particular facts of this case.

App. 37
UNITED STATES COURT OF APPEALS
FOR THE THIRD CIRCUIT
-----------------------------------------------------------------------

No. 18-3210
-----------------------------------------------------------------------

In re MILLENNIUM LAB
HOLDINGS II, LLC., et al.,
Debtors
OPT-OUT LENDERS,
Appellant
-----------------------------------------------------------------------

On Appeal from the United States District Court
for the District of Delaware
(D.C. No. 1-17-cv-01461)
District Judge: Leonard P. Stark
-----------------------------------------------------------------------

Argued
September 12, 2019
Before: CHAGARES, JORDAN,
and RESTREPO, Circuit Judges.
-----------------------------------------------------------------------

JUDGMENT
-----------------------------------------------------------------------

This cause came to be considered on the record
from the United States District Court for the District
of Delaware and was argued on September 12, 2019.
On consideration whereof,

App. 38
It is now hereby ORDERED and ADJUDGED by
this Court that the Order of the District Court entered
on September 21, 2018, is hereby AFFIRMED. All of
the above in accordance with the opinion of the Court.
Costs shall be assessed against the Appellant.
ATTEST:
s/ Patricia S. Dodszuweit
Clerk

App. 39
IN THE UNITED STATES DISTRICT COURT
FOR THE DISTRICT OF DELAWARE
IN RE:
MILLENNIUM LAB
HOLDINGS II, LLC, et al.,
Debtors.
OPT-OUT LENDERS,
Appellants,
v.
MILLENNIUM LAB
HOLDINGS II, LLC, et al.,
TA MILLENIUM, INC.,
and JAMES SLATTERY,
Appellees.

:
:
:
:
:
:
:
:
:
:
:
:
:
:
:

Chapter 11
Bankr. Case No.
15-12284-LSS
(Jointly Administered)

Civ. No. 17-1461-LPS

Sheila A. Sadighi, Esq., Thomas E. Redburn, Jr., Esq.,
and Michael S. Etkin, Esq., of LOWENSTEIN SANDLER
LLP, Roseland, NJ.
Christopher M. Samis, Esq., and L. Katherine Good,
Esq. of WHITEFORD, TAYLOR & PRESTON LLC,
Wilmington, DE.
Attorneys for Appellants Opt-Out Lenders.

App. 40
Wayne S. Flick, Esq., Amy C. Quartarolo, Esq., and Michael J. Reiss, Esq., of LATHAM & WATKINS LLP, Los
Angeles, CA.
Michael R. Nestor, Esq., John T. Dorsey, Esq., and Ryan
M. Bartley, Esq., of YOUNG CONAWAY STARGATT &
TAYLOR, LLP, Wilmington DE.
Attorneys for Appellees Debtors.
John C. O’Quinn, Esq., Jason M. Wilcox, Esq., and Edmund G. LaCour Jr., of KIRKLAND & ELLIS LLP,
Washington, DC.
Joshua A. Sussberg, Esq. and AnnElyse S. Gibbons,
Esq., of KIRKLAND & ELLIS LLP, New York, NY.
Domenic E. Pacitti, Esq., of KLEHR HARRISON
HARVEY BRANZBURG LLP, Wilmington DE.
Attorneys for Appellee James Slattery.
Michael H. Goldstein, Esq., William P. Weintraub, Esq.,
and Gregory W. Fox, Esq., of GOODWIN PROCTER
LLP, New York, NY.
Robert M. Braceras, Esq. of GOODWIN PROCTER
LLP, Boston, MA.
Derek C. Abbot, Esq., Andrew R. Remming, Esq., Daniel B. Butz, Esq., of MORRIS NICHOLS ARSHT &
TUNNELL LLP, Wilmington, DE.
Attorneys for Appellees TA Millennium, Inc. and
TA Associates Management, L.P.

App. 41
OPINION
(Filed Sep. 21, 2018)
STARK, U.S. District Judge:
INTRODUCTION1

I.

On December 14, 2015, the Opt-Out Lenders (together “Voya”),2 appealed the order (B.D.I. 195)3 (“Confirmation Order”), entered by the Honorable Laurie Selber
Silverstein, Bankruptcy Judge for the United States
Bankruptcy Court for the District of Delaware (“Bankruptcy Court”), confirming the above-captioned debtors’
Amended Prepackaged Joint Plan of Reorganization
(B.D.I. 182) (as amended, the “Plan”). See In re Millennium Lab Holdings, II, LLC, Civ. No. 16-110-LPS D.I.
1

The Court has considered and found helpful the following
secondary sources: Ben H. Logan, A New Millennium of Article III
Analysis: Which Court – a Bankruptcy Court or a District Court –
Must Decide Whether to Confirm a Plan that Contains a Nonconsensual Third-Party Release? (Part I), 37 BANKR. LAW LETTER NO.
12 (December 2017) & (Part II) 38 BANKR. LAW LETTER NO. 1 (January 2018); Ralph Brubaker, A Case Study in Federal Bankruptcy
Jurisdiction: Core Jurisdiction (or Not) to Approve Non-Debtor
“Releases” and Permanent Injunctions in Chapter 11, 38 BANKR.
LAW LETTER NO. 2 (February 2018); Eamonn O’Hagan, On a
“Related” Point: Rethinking Whether Bankruptcy Courts Can
“Order” the Involuntary Release of Non-Debtor, Third-Party Claims,
23 Am. Bankr. Inst. L. Rev. 531 (2015).
2
Appellants included within the defined term “Voya” are set
forth on Exhibit A to the Opt-Out Lenders’ Notice of Appeal.
(B.D.I. 478)
3
The docket of the Chapter 11 cases, In re Millennium Lab
Holdings II, LLC, et al., Case No. 15-12284-LSS (Bankr. D. Del.),
is cited herein as “B.D.I. ___.” Citations to pages of Appellants’
Appendix (D.I. 30) are referenced as “A___.”

App. 42
1 (“2016 Appeal”). Millennium Lab Holdings II, LLC,
and its affiliated reorganized debtors (collectively, the
“Debtors”), joined by certain Equity Holders,4 moved to
dismiss the 2016 Appeal as moot.5 On March 20, 2017,
the Court issued a Memorandum Opinion and Order
denying the motion to dismiss and remanding to the
Bankruptcy Court to consider whether it had the constitutional authority to approve the releases contained
in the Plan. See In re Millennium Lab Holdings, II,
LLC, 242 F. Supp. 3d 322, 337-38, 340 (D. Del. 2017)
(“Memorandum Opinion”). On October 3, 2017, Judge
Silverstein issued an opinion, In re Millennium Lab
Holdings II, LLC, 575 B.R. 252 (Bankr. D. Del. 2017)
(“Remand Opinion”), which held that the Bankruptcy
Court had constitutional authority to approve the releases as part of confirmation of the Plan and further
held that Voya had forfeited and waived any challenge
to the Bankruptcy Court’s constitutional authority.
On October 16, 2017, Voya appealed the Remand
Opinion (D.I. 1); as part of its appeal, Voya also seeks
to reassert the issues it had raised in its 2016 Appeal.
The Debtors have again moved to dismiss the appeal
on the basis of equitable mootness (D.I. 23, 24) (“Motion to Dismiss”).

4

The Equity Holders who would fund the Plan are nondebtor Millennium Lab Holdings, Inc. (“MLH”), non-debtor TA
Millennium, Inc., TA Associates Management, L.P., James Slattery,
and Howard Appel (collectively, the “Equity Holders”).
5
In re Millennium Lab Holdings, II, LLC, Civ. No. 16-110LPS, at D.I. 6.

App. 43
The parties have fully briefed the Motion to Dismiss (D.I. 23, 24, 25, 35, 38) and the merits of the
appeal of the Remand Opinion (D.I. 31, 32, 42). On July
12, 2018, the Court heard oral argument on both the
Motion to Dismiss and the merits. (D.I. 52) The parties
subsequently submitted supplemental briefing. (D.I.
48, 49, 50, 51)
For the reasons stated below, the Court (i) affirms
the Remand Opinion with respect to the Bankruptcy
Court’s constitutional authority to approve the Plan
releases, (ii) dismisses as equitably moot all other issues raised on appeal by Voya in connection with the
Confirmation Order, and (iii) holds, in the alternative,
that the Confirmation Order is affirmed.
II.

BACKGROUND
A. Plan Confirmation

The background of the Chapter 11 cases is set
forth in detail in the Court’s prior Memorandum Opinion.6 Voya’s7 appeal of the Confirmation Order concerns
6

Millennium, 242 F. Supp. 3d at 328-36.
Appellants are investment funds and accounts managed by
Voya Investment Management Co. LLC and Voya Alternative Asset Management LLC. Appellants were lenders of approximately
$106.3 million of aggregate principal amount of senior secured
debt issued in April 2014 pursuant to a $1.825 billion senior secured credit facility (the “Credit Facility”) which was governed by
a credit agreement dated April 16, 2014 (the “Credit Agreement”)
among, inter alia, Debtors Millennium Lab Holdings II, LLC
(“Holdings”) and Millennium Health, LLC, f/k/a Millennium Laboratories, LLC (“Millennium”), and several other lenders.
7

App. 44
a matter of some controversy: the approval of nonconsensual third-party releases (i.e., the involuntary
extinguishment of a non-debtor, third-party’s claim
against another non-debtor, third party) as part of a
Chapter 11 plan of reorganization.
The day before the plan confirmation hearing,
Voya filed a civil action in this Court (the “RICO/fraud
action”), which is stayed pending the outcome of this
appeal.8 Voya’s complaint asserts RICO and common
law fraud claims (collectively, the “RICO/fraud claims”)
against certain defendants who are “Released Parties”9
under the Plan.10 The claims arise out of loans made
8

ISL Loan Tr. v. TA Assocs. Mgmt., L.P., Civ. No. 15-1138LPS (D. Del).
9
The Released Parties under the Plan are non-debtor Millennium Lab Holdings, Inc. (“MLH”), non-debtor TA Millennium
(“TA”) (together with MLH, hereinafter referred to as the “NonDebtor Equity Holders”), James Slattery, and Howard Appel.
(Civ. No. 16-110-LPS, D.I. 14 at A15, Art. 1.143 (Plan))
10
The Plan provided the basis for the continuation of the
Debtors’ business. Specifically, the Plan provided for a $325 million contribution by the Non-Debtor Equity Holders, consisting of
$178.75 million from MLH and $146.25 million from TA. The
funds were used as follows: $256 million to fund Millennium’s settlement of the DOJ claims (see Millennium, 242 F. Supp. 3d at
329-30), $50 million to pay certain lenders in exchange for their
early commitment to support Millennium’s restructuring, and
$19 million for operating capital. (Civ. No. 16-110-LPS D.I. 14 at
A92, A94, A169-A170) In exchange for the $325 million contribution, the proposed Plan provided the Non-Debtor Equity Holders
with full releases and discharges of any and all claims against
them and related parties – including any claims brought directly
by non-Debtor lenders such as Appellants – and including claims
relating to the $1.3 billion special dividend that had been paid to
the Non-Debtor Equity Holders while the Debtors were in the

App. 45
under the Credit Agreement, Voya’s participation in
those loans, and Millennium’s inability to repay them.
(See e.g., A2012)
Voya raised a litany of objections to confirmation
of the Plan.11 In pre-confirmation briefing, it appeared
that Voya was challenging the Bankruptcy Court’s
lack of constitutional authority, albeit in a section asserting the Bankruptcy Court’s lack of subject matter

midst of the DOJ Investigation. (See B.D.I. 195-1, Plan at Art. X
at H-K; Civ. No. 16-110-LPS D.I. 14 at A2208) The proposed Plan
provided no ability for parties to “opt out” of the third-party releases, meaning the releases would be granted upon confirmation
of the Plan regardless of whether a creditor consented. (See Plan,
Art. X at H-K) The proposed Plan also permanently enjoined Appellants from commencing or prosecuting claims released pursuant to the Plan against MLH, TA, or their Related Parties (as
defined in the Plan). (See id.)
11
In addition to various objections regarding the content and
adequacy of the Disclosure Statement, Voya argued that the
Bankruptcy Court lacked either “arising in” or “related to” subject
matter jurisdiction to approve the nonconsensual third-party release contained in the Plan. (See B.D.I. 122 at 17-25; B.D.I. 174
at 4-9) Voya further asserted that, even if the Bankruptcy Court
had subject matter jurisdiction, the proposed approval of the releases under section 105(a) of the Bankruptcy Code would contravene other sections of the Bankruptcy Code, including section
524(e), so the Bankruptcy Court lacked statutory authority to approve the release provisions. (See B.D.I. 122 at 26-28) Voya further argued that the Plan could not be confirmed unless it
permitted creditors to opt out of the third-party release (see id. at
29-31) – and, even if the Plan were so amended, exceptional circumstances did not exist to justify limiting the liability of a nondebtor to another non-debtor under Third Circuit law. (See id. at
31-32) (citing In re Continental Airlines, 203 F.3d 203, 213 n. 9
(3d Cir. 2000) (“Continental II”))

App. 46
jurisdiction.12 (See B.D.I. 122 at 17) In response to this
argument, Debtors accused Voya of reading Stern13
too broadly, countering that “Stern leaves intact [the
Bankruptcy Court’s] constitutional authority” to approve the third-party releases. (See B.D.I. 131 at 1719) Debtors argued that courts have rejected Stern
challenges regarding the Bankruptcy Courts’ constitutional authority, including in connection with the consideration and approval of nonconsensual third-party
releases in a plan. (See id. at 17-18) Debtors argued
that confirmation of the Plan is “a unitary omnibus
civil proceeding for the reorganization of all obligations
12

Voya’s brief included the following:
The jurisdiction of the Bankruptcy Courts is statutorily
defined, and is confined to the boundaries of that statutory definition. Stern v. Marshall, 131 S. Ct. 2594,
2603 (2011) (noting that Bankruptcy Courts may only
“hear and enter final judgments in all core proceedings
arising under title 11, or arising in a case under title
11”); see also Wellness Int’l Network, Ltd. v. Sharif, 135
S. Ct. 1932, 1945 (2015) (observing that “bankruptcy
courts possess no free-floating authority to decide
claims traditionally heard by Article III courts”); 28
U.S.C. § 157(a). Rather, Bankruptcy Courts may only
enter final judgments on non-core matters with the
consent of the affected parties. Wellness, 135 S. Ct. at
1949. Because the Third-Party Release would impact
direct, non-bankruptcy claims held by non-Debtors
against other non-Debtors and which would not trigger the Court’s jurisdiction, the Court does not have
jurisdiction to approve the Third-Party Release without the consent of the Third Party Releasing Parties.
[Voya] ha[s] not given such consent.
(B.D.I. 122 at 17) (emphasis added)
13
Stern v. Marshall, 131 S. Ct. 2594 (2011).

App. 47
of the debtor and disposition of all its assets” unique
to bankruptcy and “not an adjudication of the various
disputes it touches upon.” (See B.D.I. 131 at 18) (quoting In re Charles Street African Methodist Episcopal
Church of Boston, 499 B.R. 66, 99 (Bankr. D. Mass.
2013))
In a bench ruling on December 11, 2015, the Bankruptcy Court overruled Voya’s objections to the nonconsensual third-party releases and confirmed the Plan.
(See B.D.I. 206, 12/11/15 Hr’g. Tr.) Addressing Voya’s
subject matter jurisdiction arguments, the Bankruptcy
Court held that it had, at the very least, “related to”
subject matter jurisdiction over the claims based on
contractual indemnification and fee advancement obligations that satisfied the Pacor14 test under Third Circuit law. (See id. at 13:1-15:22) The Bankruptcy Court
further noted that “Stern v. Marshall does not change
the conclusion that this Bankruptcy Court has jurisdiction”:
The holding in Stern was meant to be a narrow one; one that does not, quote, “meaningfully change the division of labor” between
the Bankruptcy Court and the District Court.
To this end, debtors cite cases rejecting a
Stern challenge, regarding the Bankruptcy
Court’s constitutional authority to consider approval of third-party releases in a
plan, including Judge Drain’s decision in
MPM Silicone[s], but not any decisions in this
district. These Courts may be correct. But
14

Pacor v. Higgins, 743 F.2d 984 (3d Cir. 1984).

App. 48
because of the necessities of this case, I have
not had time to address that argument. But I
need not do so, given my finding that I have
related-to jurisdiction. Having decided I have
jurisdiction, I now turn to whether thirdparty releases are appropriate in this case. . . .
(See id. at 15:23-16:13 (emphasis added))15 Thus, while
the Bankruptcy Court’s confirmation ruling included a
finding that it had “related to” subject matter jurisdiction over the claims, its ruling, if any, on constitutional
authority was unclear. The Bankruptcy Court then
turned to whether the third-party release was fair and
necessary to the reorganization, applying five factors
articulated in Master Mortgage16 and ultimately returning to the Continental hallmarks. (See id. at 17:926:14) Having found the releases were fair and necessary to the reorganization, the Bankruptcy Court entered the Confirmation Order. (B.D.I. 195)
B. 2016 Appeal of Plan Confirmation Order
On the same day, Voya filed its appeal of the Confirmation Order along with a motion for stay pending
appeal (B.D.I. 204) (“Stay Motion”). The Stay Motion
15

The Plan Confirmation Order simply stated that the Bankruptcy Court had jurisdiction under 28 U.S.C. § 1334(a) to approve the injunction, bar order, exculpation, and releases set forth
in Article X of the Plan. (See Civ. No. 16-110-LPS D.I. 14, Plan
Confirmation Order at A2094)
16
See B.D.I. 206, 12/11/15 Hr’g Tr. at 17:9-24:18 (referring to
In re Master Mortgage Inv. Fund, Inc., 168 B.R. 930, 935 (Bankr.
W.D. Mo. 1994)).

App. 49
was subsequently denied by the Bankruptcy Court.
(B.D.I. 227, 232)17 Voya did not seek a stay in this Court
or the Third Circuit, and the Debtors filed a notice of
the occurrence of the Plan’s effective date on December
18, 2015 (the “Effective Date”). (B.D.I. 229) The Reorganized Debtors filed a motion to dismiss the appeal as
equitably moot (Civ. No. 16-110-LPS D.I. 6, 7, 8), which
the parties briefed along with the merits of the appeal
(id. at D.I. 13, 24, 31). Following oral argument (id. at
D.I. 44), the Court issued the Memorandum Opinion.
The Memorandum Opinion declined to rule on the
motion to dismiss the appeal as equitably moot in light
of the constitutional issue raised. See Millennium, 242
F. Supp. 3d at 337-38. The Memorandum Opinion remanded the case to the Bankruptcy Court to consider
whether, or clarify its ruling that, it had constitutional
authority to approve the non-consensual release of
Voya’s claims, and to conduct any further proceedings
the Bankruptcy Court might deem just and necessary.
See id. at 340.

17

In the bench ruling, the Bankruptcy Court stated:
As I found at confirmation, this is a package deal. The
releases were necessary to induce the equity holders to
make their three-hundred-and-twenty-five-million-dollar payment to the debtors, and to induce the ad hoc
[lender] group’s support of the [RSA] and the plan.
Without the releases, there will be no cash contribution
available to pay the government settlements, and the
lenders, including Voya, would not receive the equity of
the company, valued at in excess of $900 million.
(B.D.I. 232, 12/18/15 Hr’g Tr. at 14:20-15:3)

App. 50
C. Remand Opinion
On remand, Judge Silverstein ordered the parties
to submit supplemental briefing on the constitutional
issue and on whether Voya had waived any arguments.
See Millennium, 575 B.R. at 289. Following this supplemental briefing, Judge Silverstein issued the Remand Opinion. It is comprehensive and well-reasoned.
In the Remand Opinion, Judge Silverstein “reject[ed] Voya’s expansive reading of Stern, which not
only applies Stern outside of the narrow context in
which it was made, but far beyond the holding of any
court, and which would, if accepted, dramatically
change the division of labor between the bankruptcy
and district courts.” Id. at 255-56. Judge Silverstein began the Remand Opinion with a thorough examination
of Stern’s limited context18 and narrow holding. The
18

As the Bankruptcy Court explained:
In Stern, Vickie Lynn Marshall filed a chapter 11
bankruptcy case in the Central District of California.
Prior to filing her bankruptcy petition, Vickie, who was
the third wife of the elderly and very wealthy J. Howard Marshall, filed suit in Texas state probate court
(“Texas Litigation”) against Pierce Marshall, J. Howard’s son, for tortious interference with an inter vivos
gift. In the Texas Litigation, Vickie asserted that
Pierce had fraudulently induced J. Howard to exclude
Vickie from J. Howard’s living trust (and, later, his
will) even though, Vickie asserted, J. Howard meant to
give her one-half of his estate.
Pierce initiated an adversary proceeding in
Vickie’s bankruptcy case seeking both damages for
defamation and a declaration that the defamation
claim was nondischargeable under 11 U.S.C. § 523(a).
Pierce also filed a proof of claim for damages due to

App. 51

defamation. Vickie defended Pierce’s defamation claim
in the adversary proceeding and filed a counterclaim
for tortious interference with the gift she believed J.
Howard sought to give her. Vickie’s counterclaim appeared to mirror, at least in part, the state law complaint she filed in the Texas Litigation.
The bankruptcy judge entered orders in the adversary proceeding all in Vickie’s favor. As to Pierce’s defamation claim, the judge granted summary judgment
for Vickie, thus denying Pierce any recovery. After a
bench trial on Vickie’s counterclaim for tortious interference, the bankruptcy judge awarded Vickie over
$400 million in compensatory damages and $25 million
in punitive damages. In the meantime, the judge in the
Texas Litigation presided over a jury trial and entered
judgment in favor of Pierce on his defamation claim.
In post-trial proceedings, Pierce re-asserted an argument that Vickie’s counterclaim was not a core proceeding and thus the bankruptcy judge was limited to
submitting proposed findings of fact and conclusions of
law to the district court for review de novo on that
claim. The bankruptcy court rejected Pierce’s argument finding that counterclaims are core based on
§ 157(b)(2)(C). On appeal the district court disagreed
holding that while Vickie’s counterclaim fell within the
literal language of § 157(b)(2)(C), the Supreme Court’s
decision in Marathon precluded the court from holding
that “any and all” counterclaims are core. Eventually,
the Ninth Circuit agreed with the district court’s legal
conclusion, holding that “a counterclaim under
§ 157(b)(2)(C) is properly a ‘core’ proceeding ‘arising in
a case under’ the Code only if the counterclaim is so
closely related to a [creditor’s] proof of claim that the
resolution of the counterclaim is necessary to resolve
the allowance or disallowance of the claim itself.” The
Supreme Court granted certiorari.
Millennium, 575 B.R. at 264-265 (footnotes omitted).

App. 52
Remand Opinion explains that it was in the context of
Stern’s discussion of Katchen,19 Langenkamp,20 and
Granfinanciera21 – all lawsuits brought by trustees
seeking affirmative recoveries (id. at 266) – that the
Supreme Court announced a disjunctive test (the “Disjunctive Test”) for whether a bankruptcy judge can enter a final order on a trustee’s counterclaim:
Congress may not bypass Article III simply
because a proceeding may have some bearing
on a bankruptcy case; the question is whether
the action at issue stems from the bankruptcy
itself or would necessarily be resolved in the
claims allowance process.
Stern, 131 S. Ct. at 2618 (emphasis added). In Stern,
Vickie’s counterclaim for tortious interference with an
alleged gift failed the Disjunctive Test, as it did not
“stem” from the bankruptcy itself – it did not derive
from bankruptcy law and it existed without regard to
the bankruptcy proceeding – and it was not necessarily
resolved in the claims allowance process, as there
never existed a reason to believe that the process of
ruling on Pierce’s defamation claim would necessarily
resolve Vickie’s counterclaim. See Millennium, 575
B.R. at 266-67.
As Judge Silverstein explained, under the “Narrow Interpretation” of Stern, a bankruptcy court lacks
constitutional authority to enter a final judgment on a
19
20
21

Katchen v. Landy, 382 U.S. 323 (1966).
Langenkamp v. Culp, 498 U.S. 42 (1990).
Granfinanciera, S.A. v. Nordberg, 492 U.S. 33 (1989).

App. 53
state law counterclaim that is not resolved in the process of ruling on a creditor’s proof of claim. Id. at 268.
The Narrow Interpretation finds support in the Supreme Court’s own characterization of the holding and
its statement: “ ‘[w]e do not think the removal of counterclaims such as Vickie’s from core bankruptcy jurisdiction meaningfully changes the division of labor in
the current statute.’ ” See id. (quoting Stern, 131 S. Ct.
at 2620). Under the “Broad Interpretation” of Stern,
Judge Silverstein explained, “a bankruptcy judge cannot enter a final judgment on all state law claims, all
common law causes of action or all causes of action
under state law.” Id. at 268-69. The Broad Interpretation finds support in the varying language used in
Stern that did not consistently limit the discussion to
a “Vickie-type” counterclaim. Id. Under either interpretation, it is clear that Stern was decided in the context of “a state law claim or counterclaim brought by
the debtor-in-possession or trustee.” Id. at 269. That is,
as Judge Silverstein explained, “Stern is limited to
claims based on state law that are commenced in the
context of traditional civil litigation, or generically
‘Debtor/Trustee v. Defendant.’ ” Id.
Judge Silverstein concluded that the Judges in
this District who have expressed a view have consistently applied the “Narrow Interpretation.” Id. at 269;
see also id. at 269-70 (describing Judge Walrath’s view
as expressed in In re Wash. Mut. Inc., 461 B.R. 200
(Bankr. D. Del. 2011), vacated in part, 2012 WL
1563880 (Bankr. D. Del. Feb. 24, 2012), as “Broadest
Interpretation”).

App. 54
Judge Silverstein noted that the parties had
pointed the Court to only two post-Stern cases addressing the constitutionality of bankruptcy judges entering
final orders confirming plans containing third-party
releases: Charles Street and MPM Silicones.22 Judge
Silverstein found both of these cases supported her
conclusion that, unlike the “action” in Stern, the “operative proceeding” before her was confirmation of the
Plan. Plan confirmation is an enumerated core proceeding, meaning, she felt, the Bankruptcy Court
clearly had statutory authority. As to constitutional
authority, under either the Narrow Interpretation or
the Broad Interpretation, Stern, in the view of Judge
Silverstein, was inapplicable:
Adopting the Narrow Interpretation, Stern is
inapplicable as confirmation of a plan is not “a
state law counterclaim that is not resolved in
the process of ruling on a creditor’s proof of
claim.” Adopting the Broad Interpretation,
the same is true; Stern is inapplicable as confirmation of a plan is not a state law claim of
any type. Under both of these interpretations,
then, my constitutional analysis stops. My inquiry is limited to the statutory framework,
and I can enter a final order confirming Millennium’s Plan as a constitutional matter.
575 B.R. at 271.

22

In re MPM Silicones, LLC, 2014 WL 4436335 (Bankr.
S.D.N.Y. Sept. 9, 2014), aff ’d, 531 B.R. 321 (S.D.N.Y. 2015), aff ’d
in part, rev’d in part, 874 F.3d 787 (2d Cir. 2017).

App. 55
Even under the Broadest Interpretation, the Remand Opinion concluded, the outcome is the same. In
Washington Mutual, Judge Walrath did not import
Stern’s Disjunctive Test into plan confirmation proceedings: rather, Judge Walrath “tailored her constitutional argument to the proceeding in front of her.” Id.
at 270. “To the extent a Stern analysis requires a specific look at releases (and it is not clear that it does),
those releases must comply with applicable provisions
of the Bankruptcy Code”:
Courts that permit releases in appropriate
circumstances often look to §§ 1129(a)(1),
1123(b)(6), and 105. Courts that do not permit
releases often cite § 524(e). Regardless, courts
are interpreting federal law. As the Seventh
Circuit held, whether these releases are legally permissible is a matter the bankruptcy
court has the power to determine. In the Third
Circuit, nonconsensual third party releases
are permissible in plans of reorganization if
they meet the Continental standard of fairness and necessity to the reorganization.
Id. at 272 (internal footnotes omitted). Judge Silverstein further noted that consideration of the factors
against which a third-party release is measured compel the bankruptcy judge to examine the terms of the
plan or reorganization, the outcome of the solicitation
of the plan, and the necessity of the release to the success of the plan. Id. “These factors do not ask the bankruptcy judge to examine or make rulings with respect
to the many claims that may be released by virtue of
the third party releases. An order confirming a plan

App. 56
with releases, therefore, does not rule on the merits of
the state law claims being released.” Id.
The Remand Opinion further noted that, even if
the Bankruptcy Court were to import Stern’s Disjunctive Test into its analysis, those factors would be satisfied:
[I]f I were going to import the Stern Disjunctive Test into Millennium’s plan confirmation
proceeding, it would be closer to the Debtors’
analysis. First, however, I would conclude that
confirmation of the Plan, as the operative proceeding, satisfies the first standard articulated in the Disjunctive Test. For all of the
reasons set forth above, I would find that the
Plan (and/or the releases) “stem(s) from the
bankruptcy case” and thus I can, consistent
with the Constitution, enter a final order confirming Millennium’s Plan. Second, I would
also conclude that the confirmation of the
Plan satisfies the second standard articulated
in the Disjunctive Test. As I already found, the
releases were integral to confirmation and
thus integral to the restructuring of the
debtor-creditor relationship. Thus, the releases would be “necessarily resolved in the
confirmation process” or “necessarily resolved
in the process of restructuring the debtorcreditor relationship.”
Finally, even under the Voya Interpretation,
on the facts of this case I would determine
that the RICO Lawsuit was “necessarily [ ] resolved in the claims allowance process.” As
previously discussed, the Plan settlements

App. 57
were comprehensive in nature. The settlements provided for the contribution of $325
million in exchange for the releases by the
Debtors and third parties (including Voya),
the settlement with the USA Settling Parties,
as well as the allowance and treatment of
claims under the Existing Credit Agreement.
The settlement was global in nature: the
claims under the Existing Credit Agreement
were “Allowed,” but only in the context of the
Plan funded by the Non-Debtor Equity Holders, which required the third party releases.
Voya held such a claim, and so its claim was
“Allowed” by virtue of the Plan. As third party
releases were essential to the allowance of
those claims, the RICO Lawsuit was necessarily resolved in the claims allowance process.
Id. at 275 (footnotes omitted).
The Bankruptcy Court noted that a final order on
a core issue that may have a preclusive effect on a third
party lawsuit does not necessarily violate Stern. See id.
at 275-76. The Bankruptcy Court further determined,
after a thorough review of the record and supplemental
briefing, that even if it lacked constitutional authority
to enter a final order confirming the Plan, Voya had
forfeited the right to contest the Bankruptcy Court’s
authority by not raising that argument. See id. at 28895. Finally, the Bankruptcy Court determined that,
even if Voya was entitled to a hearing on the merits of
the RICO/fraud action in the context of confirmation,
Voya waived that right as well. See id. at 296-98.

App. 58
III. JURISDICTION
The Court has jurisdiction over all final judgments, orders, and decrees pursuant to 28 U.S.C.
§ 158(a)(1). An order confirming a plan of reorganization is a final order. The Remand Opinion clarifies the
basis for the Bankruptcy Court’s rulings in the Confirmation Order.
In conducting its review of the issues on appeal,
this Court reviews the Bankruptcy Court’s findings of
fact for clear error and exercises plenary review over
questions of law. See Am. Flint Glass Workers Union v.
Anchor Resolution Corp., 197 F.3d 76, 80 (3d Cir. 1999).
The Court must “break down mixed questions of law
and fact, applying the appropriate standard to each
component.” Meridian Bank v. Alten, 958 F.2d 1226,
1229 (3d Cir. 1992).
IV. CONTENTIONS
Voya argues that the Bankruptcy Court erred in
concluding that it had constitutional authority to enter
the Confirmation Order approving non-consensual
third-party releases over Voya’s objection. (See D.I. 31)
Voya contends that the Bankruptcy Court was required to apply Stern’s Article III Disjunctive Test to
its RICO/fraud claims and, had it done so, it would
have concluded that Voya’s RICO/fraud claims do not
satisfy that test. (Id. at 14-18)
Conversely, Debtors argue that the Remand Opinion properly concluded that Stern’s narrow holding had

App. 59
no effect on the Bankruptcy Court’s authority to approve such releases in the context of plan confirmation.
(See D.I. 32 at 19-20) Unlike the bankruptcy court in
Stern, which conducted a bench trial and ruled on the
merits of a state law claim, the Bankruptcy Court here
determined only that the bankruptcy-specific standards for approving nonconsensual releases in a plan
were satisfied. (See id. at 2, 14-15) When claims are
“integral” to core bankruptcy processes, Debtors argue,
the Bankruptcy Court has constitutional authority to
extinguish them. (See id. at 17) According to the Debtors, while that ruling may have impaired Voya’s claims,
the ruling does not adjudicate the merits of those
claims. (See id.) Moreover, Debtors contend, Voya consented to the Bankruptcy Court’s constitutional authority to enter a final order confirming the Plan, thus
repeatedly waiving the constitutional arguments Voya
raises here. (See id. at 18)
Notwithstanding any merits of the appeal, Debtors again move to dismiss the appeal as equitably
moot. (D.I. 24 at 11-17) Debtors argue that the Plan
has been substantially consummated since the Effective Date, effectuating a complete change of ownership
and control of the successor Reorganized Debtors; substantially all transfers of property contemplated by the
Plan have been completed; and other substantial distributions under the Plan have been made and are continuing. (See id. at 11-12) Debtors contend that Voya
failed to exhaust its opportunities to seek a stay of the
Confirmation Order, and cannot now ask the Court to
unwind the global settlement and releases that serve

App. 60
as the foundation of the Plan while retaining the full
benefit of the $325 million settlement contribution. (Id.
at 12-16) In the view of Debtors, the relief sought in
the appeal threatens both to fatally scramble the Plan
and significantly harm third parties who have justifiably relied on the Plan Confirmation Order. (See id. at
17-19)
Conversely, Voya argues that the Court should
strike the releases and injunction from the Plan as applied to Voya so that its RICO/fraud action may proceed here. (D.I. 35 at 4) Voya contends that the relief
sought in the appeal is limited and consists solely of
modifying the Plan to strike the non-consensual releases of Voya’s (and only Voya’s) claims against other
non-debtors (and the accompanying Plan injunction),
which would neither fatally scramble the Plan nor
harm any third parties who have justifiably relied on
these Plan provisions. (See id. at 17-19) Voya urges
that these releases can be struck without any ripple
effect or injury to third-parties, with the exception of
the Equity Holders. (See id.) To Voya, regardless of the
outcome of the appeal, the Plan, as well as the myriad
transactions executed under its auspices, will remain
in place, and, according to Voya, the Debtors’ business
will continue as it has since the Plan was confirmed.
(See id. at 1-2)

App. 61
V.

DISCUSSION
A. Debtors’ Procedural Argument

As an initial matter, Debtors argue that because
equitable mootness turns on whether this Court can
equitably provide Voya any relief, that analysis should
precede any ruling on the merits of Voya’s arguments,
including any arguments Voya may make under Stern.
(See D.I. 24 at 10)23 According to Debtors, Stern’s holding that bankruptcy courts lack constitutional authority to adjudicate certain claims on a final basis is not a
threshold issue for this Court. (See id.) Voya disagrees,
arguing that because its appeal “implicates the Bankruptcy Court’s constitutional power to act, under wellestablished Supreme Court precedent, this Court is obligated to first decide whether the Bankruptcy Court
had such power before considering whether the appeal
should be dismissed under the judge-made equitable
mootness doctrine.” (D.I. 35 at 9)
This Court has already declined to consider dismissal of the appeal based on the judge-made equitable mootness doctrine prior to considering the
constitutionality of the Bankruptcy Court’s ruling below. See Millennium, 242 F. Supp. 322 at 337-38. Case
law addressing jurisdiction, as opposed to constitutional authority, is consistent with this approach. As
Voya persuasively argues:
In the analogous context of Article III standing – a component of Article Ill’s “case” or
23

Following oral argument, supplemental briefing was filed
on this issue. (See D.I. 48, 49)

App. 62
“controversy” requirement and prerequisite to
the constitutional exercise of the “judicial
power of the United States” – the Supreme
Court has twice held that an appellate court,
before it decides any other issue presented by
the appeal, must first verify that the plaintiff
had Article III standing sufficient to confer on
the lower court power to hear the case. See
Steel Co. v. Citizens for a Better Env’t, 523 U.S.
83, 93-104 (1998); Bender v. Williamsport Area
Sch. Dist., 475 U.S. 534, 541-42 (1986). The
Supreme Court grounded this requirement in
the “inflexible” rule, itself a product of separation of powers concerns and Article Ill’s limitations on federal court power, that “every
federal appellate court has a special obligation to ‘satisfy itself not only of its own jurisdiction, but also that of the lower courts in a
cause under review[.]’ ” Bender, 475 U.S. at
541 (quotation omitted); see also Steel Co., 523
U.S. at 94 (same) (quotation omitted). “The requirement that jurisdiction be established as
a threshold matter ‘spring[s] from the nature
and limits of the judicial power of the United
States’ and is ‘inflexible and without exception.’ ” Id. at 94-95 (quotation omitted).
In other words, this threshold jurisdictional
inquiry is necessary because a federal court
must initially determine in every case whether
it, and any lower court whose decision it
is reviewing, “is authorized” to act pursuant
to the Constitution and federal statutes. See
Bender, 475 U.S. at 541; see also Steel Co., 523
U.S. at 101 (same) (citation omitted). . . . That
the constitutional defect may technically not

App. 63
be jurisdictional does not matter if it goes to
the very power of the lower court to act consistent with Article III and separation of powers principles.
(D.I. 35 at 9-10)
Even if Voya’s argument is incorrect, Debtors did
not contest this approach prior to remand. (See Civ. No.
16-110-LPS D.I. 44, 10/7/16 Hr’g Tr. at 46:19-47:5)
Thus, the Court perceives no reason to now change
course on this procedural issue.
B. Debtors’ Waiver Argument
Debtors argue that Voya waived and/or forfeited
the argument that the Bankruptcy Court lacked constitutional authority to approve the releases in the
confirmation proceedings below. (See D.I. 32 at 52-59)
On remand, the Bankruptcy Court directed the parties
to brief, inter alia, whether the Bankruptcy Court’s
lack of authority to approve any release of Voya’s
RICO/fraud claims was raised by Voya in plan confirmation briefing. The Remand Opinion contains an alternative holding that Voya both forfeited and waived
any constitutional adjudicatory authority objection to
the Bankruptcy Court’s ability to enter a final order confirming the plan. See Millennium, 575 B.R. at
288-95.
Voya argues that it consistently maintained
throughout the Chapter 11 proceedings that the merits
of its RICO/fraud claims, which have been at all times
pending in this Court, were not before the Bankruptcy

App. 64
Court and could not be decided there. (See D.I. 31 at 910) Voya further contends that, under Third Circuit
law, a Stern argument cannot be waived. (See id. at 9)
(citing In re Linear Electric Company, Inc., 852 F.3d
313, 320 n.32 (3d Cir. 2017)) Conversely, Debtors assert
that Voya not only failed to raise its constitutional authority argument during the confirmation proceeding,
but also affirmatively consented – on multiple occasions – to the Bankruptcy Court’s authority to enter a
final order on the proceeding, and went so far as to expressly disclaim the constitutional authority argument. (See D.I. 32 at 52-59)
Voya’s Stern argument does appear in its confirmation briefing (see B.D.I. 122 at 17) and the Debtors
responded to it (see B.D.I. 131 at 17-18). Subsequently,
however, it appears that Voya indicated it was no
longer pressing the argument. (See e.g., A2580) (Voya
stating it had “cited Stern solely for the proposition
that the [Bankruptcy] Court’s jurisdiction is subject
to statutory boundaries, not to assert” constitutional
authority argument regarding Releases) (emphasis
added) On the other hand, Debtors never argued in the
2016 Appeal, prior to remand, that Voya had waived or
forfeited the constitutional authority argument below.
(See Civ. No. 16-110-LPS D.I. 7, 24, 33)
Because the Court is affirming the Bankruptcy
Court’s holding that it had constitutional authority to
grant the releases contained in the Plan, the Court
need not decide whether also to affirm on the Bankruptcy Court’s alternate basis for its decision. Hence,
other than stating that this Court is not affirming on

App. 65
the basis of forfeiture or waiver, the Court is not resolving whether Voya did forfeit and/or waive its constitutional argument.
C. Constitutional Authority to Approve the
Releases
Nonconsensual third party releases are not per se
impermissible in this Circuit. In Continental, the Third
Circuit reviewed case law on nonconsensual third
party releases, including cases holding that such releases were per se impermissible, before stating: “[t]he
hallmarks of permissible nonconsensual releases –
fairness, necessity to the reorganization, and specific
factual findings to support these conclusions – are all
absent here,” Continental II, 203 F.3d at 214. As Judge
Silverstein noted in her Certification Opinion,24 these
Continental II hallmarks have been referenced in numerous appellate decisions since 2000. See, e.g., In re
PWS Holding Corp., 228 F.3d 224, 247 (3d Cir. 2000)
(discussing Continental II, and noting “[w]e [the Third
Circuit] did not treat § 524(e) as a per se rule barring
any provision in a reorganization plan limiting the liability of third parties”); In re United Artists Theatre
Co. v. Walton (In re United Artists Theatre Co.), 315 F.3d
24

The Bankruptcy Court certified for direct appeal to the
Third Circuit the issue of “whether a bankruptcy court has the
authority to grant nonconsensual third party releases over objection.” See In re Millennium Lab Holdings II, LLC, et al., 543 B.R.
703 (Bankr. D. Del. 2016) (“Certification Opinion”). On February
22, 2016, the Third Circuit denied Appellants’ petition for permission to appeal pursuant to 28 U.S.C. § 158(d)(2). The 2016 Appeal
was docketed in this Court days later, on February 26, 2016.

App. 66
217, 227 (3d Cir. 2003) (“The ‘hallmarks of permissible
non-consensual releases’ are ‘fairness, necessity to the
reorganization, and specific factual findings to support
these conclusions.’ Added to these requirements is
that the releases ‘were given in exchange for fair consideration.’ ”) (internal citations omitted). In Global
Industrial, the Third Circuit expressly adopted the
Continental hallmarks in its holding. See In re Global
Industrial Technologies, Inc., 645 F.3d 201, 206 (3d Cir.
2011).
In the prior Memorandum Opinion, this Court
stated it was persuaded by Voya’s argument that
the Plan’s releases, which permanently extinguished
Voya’s RICO/ fraud claims, was tantamount to adjudication of those claims on their merits, See Millennium,
242 F. Supp. 3d at 339. The Court further stated that
the view that Stern’s constitutional limitations on a
bankruptcy judge’s power should apply as much to
plan confirmation as to any other bankruptcy-related
proceeding was a view having much superficial appeal.
See id. On remand, Judge Silverstein carefully articulated why the Court should not have been so persuaded.
1. Stern’s Article III Disjunctive Test
Voya argues that the Bankruptcy Court erred in
concluding that it had constitutional authority to release and enjoin Voya’s claims as part of the Plan,
notwithstanding that plan confirmation is a constitutionally core proceeding. (D.I. 31 at 19) To Voya, the fact

App. 67
that the Bankruptcy Court entered a final judgment
disposing of Voya’s claims in the context of an order
confirming a reorganization does not insulate that
judgment from analysis under Stern’s Article III test.
According to Voya, Stern holds that Article III authorizes bankruptcy courts to adjudicate and enter final
judgment on claims that (i) “stem[ ] from the bankruptcy itself ” or (ii) “would necessarily be resolved in
the claims allowance process” – a standard that the
RICO/ fraud claims do not meet. Stern, 131 S. Ct. at
2618; see also 11 U.S.C. § 502 (setting forth statutory
process for “allowance of claims or interests”). According to Voya, regardless of whether the Bankruptcy
Court had constitutional authority to enter final judgment on the issue of plan confirmation, it had no authority under Article III to enter a final judgment on
Voya’s claims through approval of the releases: “Voya’s
claims are the ‘action’ the Bankruptcy Court needed
constitutional authority to adjudicate, which it did not
have.” (D.I. 31 at 24) Thus, according to Voya, the relevant inquiry is not whether plan confirmation is core,
but whether the other proceedings – that is, the
RICO/fraud claims – affected by plan confirmation are
core.
Conversely, Debtors argue that the only relevant
proceeding before the Bankruptcy Court was plan confirmation, not each and every proceeding that may be
affected by plan confirmation. (See D.I. 32 at 28) Debtors argue Stern did not address any other types of proceedings listed in § 157(b)(2) and did not address
whether a bankruptcy court’s ability to “hear and

App. 68
determine” a constitutionally core proceeding is limited by the effects the court’s order might have on related non-core proceedings. (See id. at 24) According to
Debtors, all that Stern concluded was “that Congress,
in one isolated respect, exceeded” Article III’s limitations by giving bankruptcy courts “authority to enter a
final judgment on a state law counterclaim that is not
resolved in the process of ruling on a creditor’s proof of
claim.” (Id.) (citing Stern, 131 S. Ct. at 2620)
As the Bankruptcy Court points out, even if it
were ever appropriate to import Stern’s Disjunctive
Test into a context other than a state law cause of action filed by a debtor or trustee, Voya does not point to
anything in Stern, or cases interpreting Stern, suggesting that the pertinent action is something other than
the operative proceeding before the bankruptcy judge
– which, here, is plan confirmation. The Court agrees
with Judge Silverstein’s conclusion that “Stern did not
address, either expressly or by implication, any context
other than counterclaims,” nor did it “announce a
broad holding addressing every facet of the bankruptcy
process.” Millennium, 575 B.R. at 274.
Judge Silverstein reasoned in the alternative
that even if the Bankruptcy Court were required to import Stern’s Disjunctive Test into another context, here
the “action” at issue – the plan confirmation proceeding – would satisfy the factors. See id. at 275. Even under Voya’s interpretation, “on the facts of this case I
would determine that the RICO Lawsuit was ‘necessarily [ ] resolved in the claims allowance process’ ” and
that “the Plan (and/or releases) ‘stem[med] from the

App. 69
bankruptcy itself.’ ” Id. Voya argues these conclusions
were erroneous. (See D.I. 31 at 29-30) To Voya, “[t]he
only connection between the Releases and the allowance of certain claims against the estate is that they
are both contained in the same Plan – because that is
what the Debtors and other parties wanted (over
Voya’s objection).” (Id. at 31) Voya also disputes the
Bankruptcy Court’s conclusion that “the releases were
integral to confirmation and thus integral to the restructuring of the debtor-creditor relationship.” (D.I. 31
at 32) Anyway, in Voya’s view, while “satisfying that
standard might be sufficient to provide ‘related to’ jurisdiction, it does not provide constitutional authority.”
(Id.) According to Voya, nothing in Langenkamp,
Katchen, Stern or any other Supreme Court opinion
suggests that actions are “integral to the restructuring
of the debtor-creditor relationship” where the actions
would not necessarily be resolved as part of the claims
allowance process. (Id. at 33)
As further explained below, the Court concludes
that the Bankruptcy Court was correct in holding that
plan confirmation is the operative proceeding, and in
holding that Stern did not require application of the
Disjunctive Test in the context of plan confirmation.
Therefore, it is not necessary for the Court to determine whether the Disjunctive Test would be satisfied
in this case.

App. 70
2. Preclusive Effect on Third Party Action
In the Remand Opinion, Judge Silverstein discusses In re AOV Indus., 792 F.2d 1140, 1145 (D.C. Cir.
1986), in which the D.C. Circuit approved confirmation
of a plan that included nonconsensual third party releases. In AOV, the party challenging the plan relied
on N. Pipeline Constr. Co. v. Marathon Pipe Line Co.,
458 U.S. 50 (1982) (plurality opinion), to argue that because the claims released by the plan were only “related” to the bankruptcy, the bankruptcy court lacked
constitutional authority to confirm a plan that released those claims. The AOV court rejected this argument, holding that confirmation proceedings are “at
the core of bankruptcy law,” and that while a confirmation order “may have an impact on claims outside the
scope of the immediate proceedings, we do not read
Marathon and its progeny to prohibit all bankruptcy
court decisions that may have tangential effects.” AOV,
792 F.2d at 1140.
Voya distinguishes AOV on the grounds that the
release there would have only “tangential effects” on
the released claims, while the Plan here “directly extinguishes a third-party claim through a final judgment.” (D.I. 31 at 28 n.7) This contention is unavailing.
As Debtors correctly note, AOV concerned releases of
claims, which presumably released claims, and did
not just tangentially affect them. The Bankruptcy
Court cites numerous other cases which support its
conclusion that determining whether a bankruptcy
court has constitutional authority to issue a final order
on a proceeding requires looking at the proceeding –

App. 71
here, the confirmation plan proceeding – not on its incidental effects – which, here, would be its impact on
Voya’s RICO/fraud claims.25
The Court agrees with the conclusion reached by
the Bankruptcy Court.

25

See Millennium, 575 B.R. at 282 (citing In re Linear Elec.
Co., 852 F.3d 313, 319-20 (3d Cir. 2017) (considering claims alleging violations of automatic stay and concluding “the Bankruptcy
Court could constitutionally determine whether the liens violated
the automatic stay,” even if doing so extinguished state law
rights); In re Lazy Days’ RV Center Inc., 724 F.3d 418, 423 (3d Cir.
2013) (rejecting Stern challenge to bankruptcy court order that
effectively resolved pending state law contract claim between two
non-debtors)). See also Fisher Island Invs., Inc. v. Solby+Westbrae
Partners (In re Fisher Island Invs., Inc.), 778 F.3d 1172, 1192 n.13
(11th Cir. 2015) (holding bankruptcy court had constitutional authority to resolve state-law claim because “[t]he bankruptcy court
necessarily had to determine” issue for bankruptcy process to continue, and even if state-law issue was “not generally a core issue,
the facts of this case make it core”); Hart v. Heritage Bank (In re
Hart), 564 F. App’x 773, 776-77 (6th Cir. 2014) (holding Stern did
not preclude entry of final order by bankruptcy judge even though
that order would appear to indirectly preclude certain state law
claims); Charles Street, 499 B.R. at 99 (holding that while Chapter 11 plan might implicate numerous claims, including claims
affected by plan’s third-party releases, “the merits of ” such claims
“are not in controversy” and “[c]onfirmation of a plan is not an
adjudication of the various disputes it touches upon”); MPM Silicones, 2014 WL 4436335, at *2 (concluding that court “continue[d]
to have the power . . . on a Constitutional basis under Stern v.
Marshall” to confirm plan with third party releases because “[t]he
issues all involve fundamental aspects of the adjustment of the
debtor/creditor relationship”).

App. 72
3. Adjudication on the Merits
The Bankruptcy Court found no support for Voya’s
argument that the Confirmation Order approving the
Plan’s release and injunction was an adjudication on
the merits of Voya’s claims. See Millennium, 575 B.R.
at 283-85. Voya argues that entry of the Confirmation
Order containing releases constitutes a final adjudication of its RICO/fraud action, and under Stern, those
claims “are the ‘action’ the Bankruptcy Court needed
constitutional authority to adjudicate.” Id. For support,
Voya cites CoreStates26 and Digital Impact27 – but, as
the Remand Opinion points out, neither of these cases
examines a bankruptcy judge’s constitutional power
to enter an order.28 Voya has conceded that no case
26

CoreStates Bank N.A. v. Huls Am., Inc., 176 F.3d 187 (3d
Cir. 1999).
27
In re Digital Impact, Inc., 223 B.R. 1 (Bankr. N.D. Okla.
1998).
28
The Court viewed these cases as supporting Voya’s position prior to remand, but neither case is controlling. As the Bankruptcy Court points out, the creditor in CoreStates, 176 F.3d at
196-97, argued that its contract claim against another creditor
should not be barred by a confirmation order because, under
Marathon, the bankruptcy court lacked constitutional authority
to finally adjudicate the claim. Because the claim was at least “related to” the bankruptcy, and thus “could have been brought as a
non-core ‘related’ proceeding during the confirmation proceeding,” the Third Circuit held that the confirmation order could have
preclusive effect on that claim. Id. at 196-97. Voya cited Digital
Impact for its statement that the release before it was “equivalent
to issuing a final judgment” in favor of the released party, which
the Court found persuasive in the Memorandum Opinion. See
Millennium, 242 F. Supp. 3d at 339. However, as the Bankruptcy
Court observed, Digital Impact was a “pure jurisdictional case” in
which the “judge found that she did not have even ‘related to’

App. 73
explicitly states that a confirmation order containing a
release is a final judgment on the released claims.
(A5531)
Debtors argue that Voya’s view of the confirmation
proceeding ignores the “fundamental difference between approval of a settlement of claims” – or approval
of a plan that releases claims – “and a ruling on the
merits of the claims.” (D.I. 32 at 36) (internal quotation
marks omitted) Prior to remand, this Court was also
persuaded by Appellant’s argument that the Plan’s release, which permanently extinguished the RICO/fraud
claims, was tantamount to resolution of those claims
on the merits against Voya. See Millennium, 242
F. Supp. 3d at 339. According to the Debtors, the Bankruptcy Court correctly concluded that when a bankruptcy or Article III court confirms a plan with
releases, it applies bankruptcy-specific law and adjudicates only that core proceeding, not the underlying
claim. See Millennium, 575 B.R. at 272 (citing 11 U.S.C.
§§ 105(a), 1123(b)(6), 1129(a)(1)).
The Court agrees with Judge Silverstein’s observation regarding the real nature of this dispute:
“[t]aking the position that third party releases in a
plan are equivalent to an impermissible adjudication
of the litigation being released is, at best, a substantive
jurisdiction over any potential/theoretical third party litigation
against [the released party] because the outcome of that litigation would not have any effect on the administration of the estate.” Millennium, 575 B.R. at 283. Voya conceded on remand that
Digital Impact did not hold that a plan’s release of a claim is constitutionally equivalent to adjudication of that claim. (See A5531)

App. 74
argument against third party releases, not an argument that confirmation orders containing releases
must be entered by a district court.” Millennium, 575
B.R. at 283. As Debtors point out, Voya’s real disagreement is with the Third Circuit’s precedent in Continental II – which, like many circuits, concluded that
third party releases may be approved when certain
standards are met. Voya’s constitutional arguments
fail.
D. Equitable Mootness of Remaining Issues
on Appeal
Prior to remand, Debtors had argued that the appeal must be dismissed as equitably moot. The Court
declined to consider this contention prior to determining whether a constitutional defect in the Bankruptcy
Court’s decision deprived that court of the power to issue that decision. See Millennium, 242 F. Supp. 3d at
337-38. Satisfied that no constitutional defect exists,
the Court will consider the Motion to Dismiss.
Equitable mootness is a judge-made abstention
doctrine which finds applicability in the limited context of an appeal following the confirmation of a plan
of reorganization by a bankruptcy court. See In re
SemCrude, 728 F.3d 314, 317 (3d Cir. 2013). “Once effective, reorganizations typically implement complex
transactions requiring significant financial investment.”
Id. Notwithstanding an aggrieved party’s statutory
right to appeal, and a federal court’s “virtually unflagging obligation” to exercise the jurisdiction conferred

App. 75
on it, Colo. River Water Conservation Dist. v. United
States, 424 U.S. 800, 817 (1976), in some circumstances, granting the relief requested in the appeal
“would disrupt the effected plan or harm third parties,”
SemCrude, 728 F.3d at 317. Parties seeking to dismiss
an appeal as equitably moot contend that “even if the
implemented plan is imperfect, granting the relief requested [in the appeal] would cause more harm than
good.” Id. In light of the responsibility of federal courts
to exercise their jurisdictional mandate, the Third Circuit has cautioned that an appellate court must “proceed most carefully before dismissing an appeal as
equitably moot.” Id. at 318. “Before there is a basis to
forgo jurisdiction, granting relief on appeal must be almost certain to produce a perverse outcome – chaos in
the bankruptcy court from a plan in tatters and/or significant injury to third parties. Only then is equitable
mootness a valid consideration.” Id. at 320 (internal citations and quotation marks omitted).
In In re Continental Airlines, 91 F.3d 553, 560 (3d
Cir. 1996) (en banc) (hereinafter, “Continental I”), the
Third Circuit established five prudential factors to be
considered in determining whether to dismiss an appeal of a bankruptcy order as equitably moot: “(1)
whether the reorganization plan has been substantially consummated, (2) whether a stay has been obtained, (3) whether the relief requested would affect
the rights of parties not before the court, (4) whether
the relief requested would affect the success of the
plan, and (5) the public policy of affording finality
to bankruptcy judgments.” More recently, to reduce

App. 76
uncertainty in applying Continental I’s “interconnected and overlapping” factors, In re Philadelphia
Newspapers, LLC, 690 F.3d 161, 168 (3d Cir. 2012),
the Third Circuit collapsed these five factors into a
two-step inquiry, see In re Tribune Media Co., 799 F.3d
272, 278 (3d Cir. 2015). The Court must assess: “(1)
whether a confirmed plan has been substantially consummated; and (2) if so, whether granting the relief requested in the appeal will (a) fatally scramble the plan
and/or (b) significantly harm third parties who have
justifiably relied on plan confirmation.” SemCrude, 728
F.3d at 321.
Debtors, as the parties seeking dismissal of the appeal on equitable mootness grounds, bear the burden
of proving that, weighing these factors, dismissal is
warranted. See id. Because dismissal of an appeal over
which the Court has jurisdiction “should be the rare
exception and not the rule,” any such dismissal must
“also be based on an evidentiary record, and not speculation.” Id.
1. Obtaining a Stay and Substantial
Consummation
Substantial consummation is defined in the Bankruptcy Code to mean the:
(A) transfer of all or substantially all of the
property proposed by the plan to be transferred;
(B) assumption by the debtor or by the successor to the debtor under the plan of the

App. 77
business or of the management of all or
substantially all of the property dealt
with by the plan; and
(C) commencement of distribution under the
plan.
11 U.S.C. § 1101(2). “Satisfaction of this statutory
standard indicates that implementation of the plan
has progressed to the point that turning back may be
imprudent.” SemCrude, 728 F.3d at 321.
“Whether a plan has been substantially consummated often depends . . . on whether a stay has been
issued.” Id. at 322. Here, Voya sought from the Bankruptcy Court a stay pending appeal of the Confirmation Order; however, relief was denied, and Voya did
not exhaust its remedies by seeking a stay in an appellate court. The Third Circuit has held that, “[b]ecause
of the nature of bankruptcy confirmations, . . . it is obligatory upon appellant . . . to pursue with diligence all
available remedies to obtain a stay of execution of the
objectionable order . . . if the failure to do so creates a
situation rendering it inequitable to reverse the orders
appealed from.” Nordhoff Invs., Inc. v. Zenith Electronics Corp., 258 F.3d 180, 186-87 (3d Cir. 2001) (internal
quotations marks and citations omitted). Debtors argue that Voya’s failure to fully exhaust its opportunities for a stay pending appeal by applying for stay
relief in this Court, while retaining all of the benefits
of the Plan, was a strategic choice, and weighs in favor
of equitable mootness and dismissal. (See D.I. 24 at 20)
(citing Mac Panel Co. v. Virginia Panel Corp., 283 F.3d
622, 625 (4th Cir. 2002) (“Although [appellant] initially

App. 78
applied to the bankruptcy court for a stay, its request
was denied, and it chose neither to appeal to the district court nor to seek an independent stay in the district court or in this court. By making that strategic
choice, [appellant] allowed the reorganization plan to
go into effect, taking the risks that attended such a decision.”) Voya responds that its decision not to appeal
the Bankruptcy Court’s denial of the stay motion is
irrelevant, as “the relief it seeks does not threaten the
plan of reorganization’s existence.” (D.I. 25 at 20 n.13)
(citing cases) Voya adds that the Equity Holders
waived the non-appealability requirement, allowing
Debtors to consummate the Plan, despite knowing of
the risk that this Court or the Court of Appeals could
strike the releases after the Equity Holders had made
their $325 million contribution. (See D.I. 35 at 6, 13)
In such circumstances, Voya insists, equity favors Voya
and not dismissal of its appeal. (See id. at 6-7 n. 7 &
13)
While a plan’s substantial consummation often
depends on whether a stay has been issued, “neither
the Bankruptcy Code nor any other statute predicates the ability to appeal a bankruptcy court’s ruling on obtaining a stay.” SemCrude, 728 F.3d at 322.
“Though Appellants would have been wise to seek a
stay to stop the prospect of equitable mootness in its
tracks, their statutory right to appeal, as noted, is
not premised on their doing so.” Id. at 323. Here,
then, Voya’s failure to obtain a stay does not weigh
in favor of either party.

App. 79
Nevertheless, it is agreed by both sides that the
Plan is substantially consummated. (See D.I. 52,
7/12/18 Hr’g Tr. at 12:6-11; 24:7-9) The record supports
this finding.29 Thus, Debtors have met their burden to
show satisfaction of the elements of § 1101(2) of the
Bankruptcy Code and have further carried their burden of establishing that the Plan has been substantially consummated.
2. Success of the Plan and Harm to
Third Parties
“If [the substantial consummation] threshold is
satisfied, a court should continue to the next step in
the analysis. It should look to whether granting relief will require undoing the plan as opposed to modifying it in a manner that does not cause its collapse.”
SemCrude, 728 F.3d at 321. “It should also consider
the extent that a successful appeal, by altering the
plan or otherwise, will harm third parties who have
acted reasonably in reliance on the finality of plan
29

Debtors have submitted evidence that since the Effective
Date: the Equity Holders have honored their obligation to pay
$325 million; equity ownership and control of the Debtors has
been completely restructured and changed; the Reorganized
Debtors assumed management of the Debtors’ property and business operations; a series of significant and complex financing and
operational transactions have been effectuated pursuant to the
Plan; hundreds of millions of dollars of settlement payments have
been made in connection with government settlements pursuant
to the Plan; settlement agreements have been executed and effectuated; and governmental investigations and litigations have
ceased or been dismissed with prejudice. (See Civ. No. 16-110LPS, D.I. 8 (Hardaway Decl.) at ¶¶ 8-9; Keane Decl. ¶¶ 5-12)

App. 80
confirmation.” Id. (citing Continental II, 203 F.3d at
210; Continental I, 91 F.3d at 562). For the reasons
stated below, the Court concludes that (i) Voya seeks to
strike the Plan’s releases, which would severely undermine the Plan and necessarily harm third parties;
(ii) the Court cannot equitably strike the releases
solely as to Voya’s RICO/fraud claims while allowing
Voya to keep its share of the Equity Holders’ contribution; and (iii) because it is unclear what other practicable relief would permit Voya to pursue its claims
against the Equity Holders, the appeal meets the criteria for equitable mootness.
a. Modification of the Plan to Strike
the Releases
The parties agree that the relevant question is not
whether the Court has the legal power to excise the
Plan’s releases but whether it may equitably do so. (See
7/12/18 Hr’g Tr. at 7:4; 13:1-12; 15:3-15:8; 19:13-20:11;
33:24-34:6) Debtors argue that the Bankruptcy Court’s
findings, based on uncontroverted evidence, were clear
that confirmation of the Plan, and the reorganization
and preservation of the Debtors’ business as a going
concern, was not possible without the global settlement and $325 million settlement contribution paid
by the Equity Holders in exchange for the releases
granted to them under the Plan. To Debtors, then, it
would be inequitable to allow Voya to keep its share of
the Equity Holders’ contribution yet allow claims
against the Equity Holders to go forward; thus, the
Court cannot equitably strike the Equity Holders’

App. 81
releases without ordering the return of their $325 million contribution, which forms the economic basis for
the reorganization. Debtors further assert that granting such relief would cause difficult (perhaps impossible), time-consuming, and unmanageable problems
regarding the retroactive revocation of the settlements, including with governmental regulators, that
allowed the Debtors to survive as a going concern.
Debtors liken the situation here to that confronted
by the Third Circuit in Tribune, which dismissed an
appeal as equitably moot.30 In Tribune, 799 F.3d at 276,
the appellants sought “modification of the confirmation
order to reinstate the LBO-Related Causes of Action
that the [plan] Settlement resolved so that the claims
[could] be fully litigated or re-settled.” The Tribune
Court dismissed, as equitably moot, the appeal seeking
to sever the plan settlement releases because “allowing
the relief the appeal seeks would effectively undermine
the Settlement (along with the transactions entered in
reliance on it) and, as a result, recall the entire Plan
for a redo.” Id. at 281. Debtors argue the relief sought
by Voya here would likewise undermine the global settlement, which the Bankruptcy Court found to be the
“centerpiece of the plan” because without the global
30

The Tribune decision also addresses a second, separate appeal of the confirmation order by a trustee that was found not to
be equitably moot, where the relief requested by the trustee involved only a minor intercreditor dispute (e.g., solely regarding
the allocation of distributions between two classes of creditors),
the relief sought was not central to the plan, and there was “no
chance that [an allocational] modification would unravel the
Plan.” Tribune, 799 F.3d at 282-83.

App. 82
settlement, there would have been no operating business (or going concern value) to administer in a reorganization. (D.I. 24 at 10)
Voya asserts that if the releases were really the
Plan’s centerpiece, there would be a “provision allowing for a complete unwind” of the Plan in the event the
releases were stricken on appeal. (See D.I. 35 at 14).
But the Plan contains no such provision.
Voya has not identified any case holding that a
provision should be viewed as integral to a plan only
where the parties specify that, if the provision does not
survive appellate scrutiny, the plan must be dissolved.
Here, as the Debtors point out, such a provision likely
would have been impossible, as the DOJ had leveled a
“credible threat to destroy the Company” if the government was not paid $256 million by December 31, 2015,
and it seems inconceivable that the parties to the Plan
could ever force DOJ later to return settlement payments. (See D.I. 38 at 5-6)
Debtors argue that a successful appeal, which
would result in striking the releases and unwinding
the Plan, will harm third parties that have justifiably
relied on the Plan, including (i) parties to the global
settlement who consummated that settlement; (ii) the
Debtors’ unsecured creditors, who were granted recoveries otherwise unavailable absent the global settlement and Plan; (iii) the Debtors’ vendors, customers,
and approximately 1,200 employees, who benefit from
the Reorganized Debtors operating as a going concern;
and (iv) market participants and investors trading in

App. 83
and relying upon the securities and debt issued pursuant to the Plan. (D.I. 24 at 18) Voya counters that no
legitimate third party reliance interests will be
harmed if the releases are stricken, and the only parties who stand to lose anything from a successful appeal are the non-debtor tortfeasors who defrauded
Voya. (D.I. 35 at 17)
The Court agrees with Debtors that the releases
cannot equitably be excised as they were the very centerpiece of the Plan. The Bankruptcy Court made a
specific finding that the releases were the inducement
for the Equity Holders’ $325 million contribution, and
without this contribution, there could not have been
the reorganization from which Voya benefitted. “Without the releases, there will be no cash contribution to
pay the government settlements, and the lenders, including [Voya], would not receive the equity of the company, valued at in excess of $900 million.” (12/11/15
Hr’g Tr. at 22) The releases shared an “integral nexus”
with feasibility of the Plan: but for the Equity Holders’
$325 million contribution, there would have been no
plan of reorganization, and but for the third-party releases, the Equity Holders would not have made the
$325 contribution. Continental I, 91 F.3d at 564. Excising the releases in this particular Plan would “knock
the props out from under the authorization of every
transaction that has taken place” pursuant to the Plan.
Tribune, 799 F.3d at 281.
If unwound, third parties who reasonably relied
on Plan confirmation would be injured. Voya has conceded that third parties have engaged in “myriad

App. 84
transactions” pursuant to the Plan. (See D.I. 35 at 1;
see also D.I. 25 (Keane Decl.) at ¶¶ 5-12) The revocation of the global settlement would certainly “require a
sufficient redistribution of assets to destabilize the financial basis of the settlement.” SemCrude, 728 F.3d
at 324. The Court agrees with Debtors that third parties, most of whom are not participating in this appeal,
have relied upon the global settlement and Plan confirmation and will be harmed if the Confirmation Order is reversed or vacated.
b. Modifying the Plan to Strike the
Releases Solely as to Voya’s RICO/
Fraud Claims
Voya argues that Tribune is distinguishable because appellants in that case sought to revoke a settlement under the applicable plan “in its entirety,”
whereas Voya seeks only to strike a component of the
Plan. (See D.I. 35 at 16) According to Voya, “the relief
sought consists solely of excising from the Plan the
unlawful non-consensual releases of and injunction
against Voya’s (and only Voya’s) RICO and state law
fraud claims against other non-debtor third parties,”
relief which can be granted without undermining the
global settlement or returning the Equity Holders’
contribution. (See id. at 1) Voya argues that the Third
Circuit has held, on several occasions, that appeals are
not equitably moot where, as here, “a party merely
seeks revival of discrete released claims that would not
otherwise upset a confirmed plan.” (Id. at 14)

App. 85
Voya points out that the Equity Holders received
a release of $1.8 billion dollars in claims in exchange
for their $325 million contribution, and the RICO/fraud
action asserts only $316 million in claims. Thus, were
the Court to strike the release of Voya’s RICO/fraud
claims, the Equity Holders would still have received
substantial value for their contribution under the
Plan. Voya further argues that nothing in the Plan
gives the Equity Holders the right to demand the return of their $325 million monetary contribution following Plan consummation if the non-consensual
releases and injunction are struck on appeal. (See id.
at 5, 12-13) Indeed, Voya argues, the Plan even contemplates what should occur if the releases are stricken,
as it provides $3 million of insurance to help the Equity Holders cover the costs of defending litigation
brought by parties like Voya. (See id. at 13-14 citing
A1722)
The Court is not persuaded that it could, as a practical matter, limit its relief solely to striking the releases relating to Voya’s RICO/fraud claims. The
Bankruptcy Court found those releases were central to
the Plan and, far from being clearly erroneous, is
strongly supported by uncontroverted evidence in the
record. For instance, the Bankruptcy Court found the
releases to be the “centerpiece of the plan,” stating that
the “unrefuted evidence is that the third-party releases . . . [were] required to obtain the funding for this
plan,” the releases were necessary to consummate the
Plan, and that without the Equity Holders’ $325 million payment, “there is no reorganization.” (12/11/15

App. 86
Hr’g Tr. at 11-12, 21-25) These findings were based on
the testimony of five witnesses, none of whom did Voya
choose to cross-examine.
It follows from the centrality of the releases to the
Plan that taking the releases out of the Plan would
necessarily lead to the unraveling of the Plan. Among
other things, the Court would have to permit the Equity Holders to seek to reclaim their contributions
made pursuant to the Plan. Voya seeks to keep its
share of the settlement consideration received under
the consummated Plan while also pursuing the very
claims against the Equity Holders that they paid to
settle. Particularly given the central importance of the
releases to the Plan – and to Debtors’ ongoing viability
and, thus, to creditors’ (including Voya’s) recoveries –
this would not be an equitable outcome.
Notwithstanding the Bankruptcy Court’s unrefuted findings, Voya argues striking the releases is justified because the releases were unlawful, and the
Equity Holders, despite paying $325 million for the releases, were never entitled to them in the first place.
The Court is not persuaded by Voya’s equitable arguments. (See D.I. 35 at 18) (citing Tribune, 799 F.3d at
278) Voya objected to the Plan’s releases, and the
Bankruptcy Court overruled the objection, in accordance with the Bankruptcy Court’s application of controlling Third Circuit precedent and based upon
specific findings of fact supporting the fairness of the
releases and their necessity to the Debtors’ reorganization.

App. 87
The Court’s decision is not inconsistent with cases
in this circuit holding that plan releases in other contexts may be disturbed on appeal without implicating
equitable mootness concerns. Unlike those cases, the
uncontroverted evidentiary record here clearly establishes the central, critical nature of the challenged relief and the urgencies that required the parties to
finalize negotiations and proceed to confirmation before a looming life-or-death deadline for the Debtors.
c. Other Practicable Relief
The Court is persuaded that, upon consideration
of the Third Circuit’s two-part inquiry, and the uncontroverted evidence, the Debtors have carried their burden of demonstrating that each factor is supported by
the evidentiary record and that dismissal of this appeal is required to avoid the collapse of the Plan and
harm to third parties. However, the Court is also mindful of the Third Circuit’s guidance in Tribune: “[W]hen
a court applies the doctrine of equitable mootness, it
does so with a scalpel rather than an axe. To that end,
a court may fashion whatever relief is practicable instead of declining review simply because full relief is
not available.” Tribune, 799 F.3d at 278 (internal quotation marks and citation omitted). The Court has
carefully considered the specific relief sought on appeal
and whether some form of partial or other relief may
be fashioned with respect thereto. Voya ultimately
seeks to pursue its RICO/fraud claims against the Equity Holders. This could only occur if the Court eliminates the Plan’s releases (and injunction). Voya has not

App. 88
articulated how any other form of partial or other relief
is available for the Court to consider.31
E. Remaining Issues on Appeal
As explained above, the Court is affirming the Remand Opinion with respect to the Bankruptcy Court’s
constitutional authority and is dismissing all other issues on appeal as equitably moot. In the alternative,
were the Court to have reached contrary conclusions
on constitutional authority and/or equitable mootness,
the Court would also affirm the Confirmation Order by
rejecting on the merits the other issues raised on appeal by Voya.32 Although Voya did not proceed in the
manner it should have to be certain to preserve all of
the issues it had initially raised in the 2016 Appeal,33
31

Because the Court finds that the appeal must be dismissed
as equitably moot, the Court does not reach Debtors’ additional
argument that the Appeal is constitutionally moot. (See D.I. 24 at
17 n.20)
32
The Court provides this alternative analysis because of the
high burden that exists for equitable mootness, the parties have
devoted a great deal attention to these additional issues, and the
appeal has been pending for quite a while.
33
Debtors are generally correct that “a party cannot preserve
an appellate argument by merely ‘trying to incorporate arguments’ it made ‘somewhere else.’ ” (D.I. 32 at 3) (citing Papp v.
Fore-Kast Sales Co., 842 F.3d 805, 816 (3d Cir. 2016)) Among
other things, Voya’s practice is inconsistent with the page limits
imposed on briefs. A strong argument can be made that issues
Voya briefed only in the 2016 Appeal – and to which it did not
devote any portion of its briefing in the current appeal – have been
waived. Nonetheless, because the Court does have full briefing on
these issues (from the pre-remand briefing), the Memorandum
Opinion did not indicate the status of those issues, and there

App. 89
the Court will treat Voya’s appellate issues as neither
waived, nor forfeited, and will address them now.
1. Subject Matter Jurisdiction
Voya argued that the Bankruptcy Court erred in
determining that it had subject matter jurisdiction
over Voya’s RICO/fraud claims. Under the Third Circuit’s decision in Pacor, the Bankruptcy Court has “related to” jurisdiction over third-party claims if the
outcome of the proceeding could conceivably have any
effect on the estate being administered in bankruptcy.
See Pacor, Inc. v. Higgins, 743 F.2d 984, 994 (3d Cir.
1984). The Bankruptcy Court based its decision on the
fact that defendants in the RICO/fraud action are indemnified under the Debtors’ operational agreements.
Voya argues that the indemnification obligations
do not automatically state a right to indemnification
because its RICO/fraud claims are outside the scope of
the indemnification obligations, as they arise in fraud
and intentional conduct. Indemnification of such intentional conduct, according to Voya, would be prohibited
by applicable law. Debtors respond that Voya is ignoring the Debtors’ contractual obligations to advance defense costs to the indemnified released parties before
any final determination on the merits and without regard to the substance of the underlying putative claims
against them. See, e.g., In re Lower Bucks Hosp., 488
appears to have been confusion among the parties as to how the
appeal would proceed post-remand, the Court will treat the issues
as not having been waived.

App. 90
B.R. 303, 315-16 (E.D. Pa. 2013) (finding “related to”
subject matter jurisdiction where debtor was required
to assume defense costs prior to any finding of liability).
The Court agrees with Debtors. As the Bankruptcy
Court stated, “to find that the indemnification obligations do not have any conceivable effect on the debtors,
I need to assume that Voya will be successful in its lawsuit or any lawsuit it might bring. And I also need to
assume that it wouldn’t subsequently amend its claims
to include non-fraud-related causes of action. The[ ]
cases cited by Voya . . . do not address these issues.”
(12/11/15 Hr’g Tr. at 14:20-15:1)
2. Statutory Authority to Approve the
Releases under Continental II and the
Master Mortgage Factors
Voya’s remaining arguments concern the Bankruptcy Court’s statutory authority to approve the Plan
releases under the Bankruptcy Code. Courts that permit releases in appropriate circumstances often look
to §§ 1129(a)(1),34 1123(b)(6),35 and 105.36 See Global
Indus., 645 F.3d at 206 (citing Continental II and
34

11 U.S.C. § 1129(a)(1) (providing court shall confirm plan
only if “plan complies with the applicable provisions of this title”).
35
11 U.S.C. § 1123(b)(6) (plans may “include any other appropriate provision not inconsistent with the applicable provisions of this title”).
36
11 U.S.C. § 105(a) (“The court may issue any order process,
or judgment that is necessary to carry out the provisions of this
title.”).

App. 91
noting that, under Third Circuit precedent, to show
appropriateness of injunction of claims under § 105(a)
requires showing with specificity that injunction is
necessary to reorganization and is fair). In its analysis,
the Bankruptcy Court made specific findings as to the
Master Mortgage factors but ultimately returned to the
Continental II hallmarks of “fairness, necessity to the
reorganization.” (12/11/15 Hr’g Tr. 16:12-26:14) On appeal, Voya argues that the Bankruptcy Court’s findings
do not satisfy the Master Mortgage factors, which are:
(1) an identity of interest between the debtor
and the third party, such that a suit against
the non-debtor is, in essence, a suit against
the debtor or will deplete assets of the estate;
(2) substantial contribution by the non-debtor
of assets to the reorganization; (3) the essential nature of the injunction to the reorganization to the extent that, without the injunction,
there is little likelihood of success; (4) an
agreement by a substantial majority of creditors to support the injunction, specifically if
the impacted class or classes “overwhelmingly” votes to accept the plan; and (5) provision in the plan for payment of all or
substantially all of the claims of the class or
classes affected by the injunction.
168 B.R. at 935. However, the Master Mortgage factors,
while helpful guideposts, are not controlling; also, they
are not “an exclusive list of considerations, nor are they
a list of conjunctive requirements,” Id.; see also In re
710 Long Ridge Road Operating Co., II, LLC, 2014 WL
886433, at *14 (Bankr. D.N.J. Mar. 5, 2014) (holding

App. 92
Master Mortgage guideposts are “not considered requirements for the approval of third-party releases,
but . . . may be instructive to the court”); In re Metromedia Fiber Network, Inc., 416 F.3d 136, 142 (2d Cir.
2005) (deciding whether to grant third party release “is
not a matter of factors and prongs”). As noted above,
the Third Circuit’s decision in Continental II, 203 F.3d
at 214, sets forth the controlling standard for approval
of non-consensual releases.
Nonetheless, Voya argues “the facts of this case” do
not satisfy three of the five guideposts set forth Master
Mortgage: (i) identity of interest; (ii) substantial contribution by the released party; and (iii) payment of “all,
or substantially all” of the affected classes’ claims.
(See Civ. No. 16-110 D.I. 13 at 40-51) Debtors contend
that even if the Master Mortgage guideposts were requirements in the Third Circuit (they are not), and
even if all of the guideposts needed to be satisfied
(they do not), the Bankruptcy Court’s extensive findings upon the substantial and uncontroverted record
below nevertheless satisfy each of the Master Mortgage
guideposts, including the three argued by Voya on appeal. (Civ. No. 16-110-LPS, D.I. 24 at 45-54). The Court
agrees with Debtors.
a. Identity of Interest
Voya argues that the Bankruptcy Court erred in
finding an “identity of interest” between the defendants in the RICO/fraud action and the Debtors under
the Master Mortgage factors. (See Civ. No. 16-110 D.I.

App. 93
13 at 46-47) In the Court’s view, the Bankruptcy Court
correctly found that each of the Equity Holders, like
the other released parties under the Plan, were covered by the Debtors’ indemnification, advancement,
and defense obligations. (See 12/11/15 Hr’g Tr. at 18)
Thus, claims brought against the released parties may
be viewed as suits against the Debtors, or at minimum
as suits that threaten to deplete the Debtors’ assets,
which is sufficient here to establish identity of interest.
See In re Seaside Engineering & Surveying, Inc., 780
F.3d 1070, 1079-80 (11th Cir. 2015) (finding identity of
interest between debtor and released parties, who
were debtor’s key employees, where debtor would deplete its assets defending released parties against litigation); see also In re MAC Panel Co., 2000 WL
33673757, at *11 (Bankr. M.D.N.C. Feb. 24, 2000) (finding identity of interest exists where releasees have potential indemnification claims against debtor).
Voya counters that the causes of action it asserts
for fraud and willful misconduct are not indemnifiable.
However, the Bankruptcy Court found that the Debtors are obligated to advance defense costs without regard to the type or substance of Voya’s claims. See
12/11/15 Hr’g Tr. at 14-15; see also Nat’l Heritage
Found. Inc. v. Behrmann, 2013 WL 1390822, at *5 n.9
(E.D. Va. Apr. 3, 2013) (recognizing identity of interest
may arise out of advancement obligations). Moreover,
Voya’s position incorrectly presumes it will prevail on
each of its speculative claims. (See 12/11/15 Hr’g Tr. at
14-15)

App. 94
b. Substantial Contribution
Voya argues the Bankruptcy Court erred in finding that the Equity Holders are making a “substantial
contribution” to the reorganization under the Master
Mortgage factors. (See Civ. No. 16-110-LPS D.I. 13 at
47-51) The Bankruptcy Court considered the uncontroverted record and found that the Released Parties, including the defendants to the RICO/fraud complaint,
contributed substantial assets to the reorganization.
(See 12/11/15 Hr’g Tr. at 19) (detailing contributions of
defendants, including TA, MLH, Slattery, Appel, and
related parties) On appeal, Voya questions the “quantum” of contributions by Slattery and Appel; characterizes the Equity Holders’ contributions as payments but
“not truly a contribution” or payment of “actual assets;”
and insists the Equity Holders’ agreement to forego
valuable legal rights (e.g., to object to the plan or settlement) was merely a “forfeiture of their equity holding.” (Civ. No. 16-110-LPS D.I. 13 at 47-50) However,
as Debtors correctly argue, Voya waived its argument
regarding the “quantum” of contributions by Slattery
and Appel by failing to raise it below and failing to provide any evidentiary basis in support. The Bankruptcy
Court’s finding of substantial contribution by the Equity Holders was based on the uncontroverted record
and testimony of five witnesses. Voya did not crossexamine those witnesses or submit competing evidence
on this point. (12/11/15 Hr’g Tr. at 21) (noting record on
substantial contributions was “unrebutted” and “unrefuted”) Even had Voya properly raised this argument

App. 95
in the Bankruptcy Court, the record provides no basis
to disturb the Bankruptcy Court’s ruling.
c. Payment for All or Substantially
All of the Claims in the Affected
Class
Voya challenges the Bankruptcy Court’s findings
regarding whether there is payment of “all, or substantially all,” class 2 claims. (See Civ. No. 16-110-LPS D.I.
13 at 40) Voya asserts error in the Bankruptcy Court’s
holding that the pertinent inquiry is “whether [Voya]
received reasonable [or fair] compensation in exchange
for the release.” (A2401) Debtors contend that the Plan
provides for “all or substantially all” affected claims to
be paid as it “provides for payments to all classes of
claims in excess of the liquidation value of those
claims.” (See Civ. No. 16-110-LPS D.I. 24 at 51-52) (citing cases and explaining “factor five is met because the
nonconsenting parties [received] more than they would
in a liquidation”); see also In re Condustrial, Inc., 2011
WL 3290389, at *5-6 (Bankr. D.S.C. Aug. 1, 2011) (explaining impacted class would receive payment of “all
or substantially all” as “the [p]lan provide[d] for the
releasing parties to receive payment in an amount in
excess of any funds they would receive from an orderly
liquidation of the [d]ebtor”).
Here, the Bankruptcy Court found, among other
things, that payments and distributions to be made to
class 2 creditors under the Plan dwarfed any recoveries for class 2 claims in a wipeout liquidation. (See

App. 96
12/11/15 Hr’g Tr. at 25-26) Specifically, the Court
found:
[T]he contributions [of the released parties]
. . . facilitate[d] distributions to creditors, including those in Class 2, . . . [and] those distributions are enormously greater in a
reorganization, versus a liquidation.
[T]he contributions made by [the Equity Defendants] are absolutely essential to the reorganization of this debtor. Without the
contributions, there is no reorganization.
While Voya would have me speculate as to
other options, I do not see one. CMS will revoke the debtors’ license, and there will be no
ongoing business if payment is not made to
the [government] by December 30th.
[T]here is an enormous disparity between
the reorganization value and the liquidation value of this company. . . . Without
this settlement, this case turns into litigation.
Inherent in that litigation is the uncertainty
of success, expenses and delay in obtaining recoveries. Over 90 percent of the creditors
prefer recoveries from an ongoing business. [And] [a]ll parties were at the table in
the negotiation in this settlement contained
in a plan.
These findings were not clearly erroneous. The Master
Mortgage factor is satisfied.
In sum, then, Voya’s arguments provide no basis
to disturb the Bankruptcy Court’s conclusion that the

App. 97
Plan releases were necessary to the reorganization and
fair.
VI. CONCLUSION
For the reasons explained above, the Court affirms
the Remand Opinion with respect to the Bankruptcy
Court’s constitutional authority to approve the Plan’s
releases, and grants the Motion to Dismiss all remaining issues on appeal as equitably moot. Alternatively,
the Court affirms the Confirmation Order with respect
to all remaining issues raised on appeal. A separate
Order will be entered.

App. 98
IN THE UNITED STATES DISTRICT COURT
FOR THE DISTRICT OF DELAWARE
IN RE:
MILLENNIUM LAB
HOLDINGS II, LLC, et al.,
Debtors.
OPT-OUT LENDERS,
Appellants,
v.
MILLENNIUM LAB
HOLDINGS II, LLC, et al.,
TA MILLENIUM, INC.,
and JAMES SLATTERY,
Appellees.

:
:
:
:
:
:
:
:
:
:
:
:
:
:
:

Chapter 11
Bankr. Case No.
15-12284-LSS
(Jointly Administered)

Civ. No. 17-1461-LPS

ORDER
(Filed Sep. 21, 2018)
At Wilmington, this 21st day of September, 2018,
for the reasons set forth in the accompanying Memorandum issued this date, IT IS HEREBY ORDERED
that:
1. The Remand Opinion is AFFIRMED with respect to the Bankruptcy Court’s constitutional authority to approve the Plan releases.
2. With respect to all other issues raised on appeal by Voya in connection with the Confirmation

App. 99
Order and Remand Opinion, the appeal is DISMISSED as equitably moot,
3. Alternatively, the Confirmation Order is AFFIRMED.
4. The Clerk is directed to CLOSE Civ. No, 171461-LPS.
/s/ Leonard P. Stark
HON. LEONARD P. STARK
UNITED STATES
DISTRICT JUDGE

App. 100
IN THE UNITED STATES BANKRUPTCY COURT
FOR THE DISTRICT OF DELAWARE
In Re:

Chapter 11

Millennium Lab
Holdings II, LLC, et. al.,

Case No.
15-12284 (LSS)

Debtors.

(Jointly Administered).
OPINION

(Filed Oct. 3, 2017)
On December 14, 2015, I entered an order confirming a plan of reorganization for then-debtors Millennium Lab Holdings II, LLC and certain of its affiliates
(“Millennium” or “Debtors”). 1 The plan provided for
third party releases in favor of various non-debtor entities, including, as relevant here, certain of the Debtors’ equity holders who contributed $325 million to the
estate as part of a settlement contained in the plan. At
the confirmation hearing, I overruled the objection
filed by Voya,2 which did not assent to the third party
1

The Debtors are Millennium Lab Holdings II, LLC, Millennium Health, LLC and RxAnte, LLC.
2
Voya, also known as the Opt-Out Lenders, means ISL Loan
Trust; ISL Loan Trust II; NN (L) Flex – Senior Loans; NN (L) Flex
– Senior Loans Select; Voya CLO 2012-1, Ltd.; Voya CLO 2012-2,
Ltd.; Voya CLO 2012-3, Ltd.; Voya CLO 2012-4, Ltd.; Voya CLO
2013-1, Ltd.; Voya CLO 2013-2, Ltd.; Voya CLO 2013-3, Ltd.;
Voya CLO 2014-1, Ltd.; Voya CLO 2014-2, Ltd.; Voya CLO 20143, Ltd.; Voya CLO 2014-4, Ltd.; Voya CLO 2015-1, Ltd.; Voya
High Income Floating Rate Fund; Voya Prime Rate Trust; Voya
Senior Income Fund; Voya Floating Rate Fund; Axis Specialty
Limited; California Public Employees’ Retirement System; The

App. 101
releases and found that the Debtors had met their burden of proof to show that the releases were warranted
under Continental. 3 Voya appealed. Now, on remand
from the district court, I have been asked to “consider
whether, or clarify [my] ruling that, [I, as a] Bankruptcy Court had constitutional adjudicatory authority to approve the nonconsensual release of Appellants’
direct non-bankruptcy common law fraud and RICO
claims against the Non-Debtor Equity Holders.”4 I conclude that I did.5 In so concluding, I reject Voya’s expansive reading of Stern,6 which not only applies Stern
outside of the narrow context in which it was made, but
far beyond the holding of any court, and which would,
if accepted, dramatically change the division of labor
between the bankruptcy and district courts.

City of New York Group Trust; Medtronic Holdings Switzerland
GMbH; New Mexico State Investment Council; Voya Investment
Trust Co. Plan for Employee Benefit Investment Funds-Voya Senior Loan Trust Fund; and Voya Investment Trust Co. Plan for
Common Trust Funds-Voya Senior Loan Common Trust Fund.
3
Gillman v. Continental Airlines (In re Continental Airlines), 203 F.3d 203 (3d Cir. 2000).
4
See Opt-Out Lenders v. Millennium Lab Holdings II, LLC
(In re Millennium Lab Holdings II, LLC), No. 16-110-LPS, 2017
WL 1032992, at *14 (D. Del. Mar. 20, 2017) (“Remand Decision”).
The “Non-Debtor Equity Holders” are TA Associates Management, L.P., T.A. Millennium, Inc., Millennium Lab Holdings, Inc.,
James Slattery and Howard J. Appel.
5
To answer the district court’s inquiry directly, I did not previously rule on my constitutional adjudicatory authority to enter
a confirmation order approving nonconsensual releases.
6
Stern v. Marshall, 131 S. Ct. 2594 (2011).

App. 102
Because I find that I had constitutional adjudicatory authority to approve, in a final order, the nonconsensual third party releases, I need not strike the
nonconsensual release of Voya’s claims from the confirmation order, nor make and submit to the district court
additional proposed findings of fact and conclusions of
law regarding the final disposition of Voya’s RICO
claims. Even if I am wrong, however, I still would not
do so. Not only did Voya forfeit and/or waive any argument that I did not have constitutional adjudicatory
authority to enter the confirmation order by not raising it at the confirmation hearing or at any time prior
to entry of the order confirming the plan, Voya also independently waived its right to any trial on the merits
of its RICO claims in the context of confirmation. Thus,
to the extent that it is ever appropriate to have a hearing on the merits of claims being released by third parties in connection with confirmation—as opposed to, or
in addition to, a hearing on the merits of the releases
themselves or any settlement in which they are contained—Voya made a calculated decision not to put the
merits of its RICO claims at issue during the confirmation hearing. I will not consider the merits now.

App. 103
BACKGROUND7
A. The Confirmation Hearing
On November 10, 2015, the Debtors filed voluntary petitions under chapter 11 of title 11 of the United
States Code8 together with their prepackaged plan of
reorganization (“Plan”) and accompanying disclosure
statement.9 The filing was the culmination of a sevenmonth process in which Millennium entered into multiple settlements, including a terms sheet with the
United States and certain individual states, and a restructuring support agreement with both an ad hoc
group of bondholders and the Non-Debtor Equity Holders. After an attempted out-of-court restructuring effort failed to garner the required support, the Debtors
filed their bankruptcy petitions.
The Plan provided for a global resolution of claims
related to the Debtors’ April 2014 $1.825 billion senior
secured credit facility, the proceeds of which funded a
$1.3 million dividend to Millennium’s equity holders,
paid off certain debt and provided for working capital.
As part of the lender group, Voya funded $106.3 million
of the loan. Under the Plan, in exchange for an Allowed
7

The background of this case is discussed in my Bench Ruling (defined infra) and in In re Millennium Lab Holdings II, LLC,
543 B.R. 703 (Bankr. D. Del. 2016). I discuss here only background necessary to address the questions on remand.
8
11 U.S.C. §§ 101–1532 (2012) (“Bankruptcy Code”).
9
Prepackaged Joint Plan of Reorganization of Millennium
Lab Holdings II, LLC, et al., Nov. 10, 2015, D.I. 14; Disclosure
Statement for Prepackaged Plan of Reorganization (“Disclosure
Statement”), Nov. 10, 2015, D.I. 15.

App. 104
Claim (that is, a claim allowed under § 502 of the
Bankruptcy Code), each lender, including Voya, received its pro rata share of: (i) a new $600 million term
loan; (ii) 100% of the beneficial ownership interests of
the reorganized Debtors; and (iii) any recoveries from
a trust created to pursue the Debtors’ retained causes
of action.
On December 10, 2015, I held a combined hearing
on confirmation of the Plan and the adequacy of the
Disclosure Statement. Prior to that hearing, Voya filed
two objections. 10 Voya did not object to the overall
compromise embodied in the Plan, which allowed
the claims of all bondholders, brought $325 million
into the estate (permitting the Debtors to reorganize
and make the distributions required under the Plan)
and included releases of both debtor and third party
claims against the Non-Debtor Equity Holders.
Instead, Voya only objected to the inclusion in the
Plan of releases of claims that creditors, including
Voya, might assert against the Non-Debtor Equity
Holders and an accompanying bar order and injunction. As to the releases, Voya made the following
10

Memorandum of Law of the Opt-Out Lenders in Opposition to (I) Approval of the Disclosure Statement, (II) Approval of
the Class 2 Ballot, and (III) Confirmation of the Prepackaged
Joint Plan of the Reorganization of the Millennium Lab Holdings
II, Dec. 4, 2015, D.I. 122 (“Initial Confirmation Objection”); Supplemental Memorandum of Law of the Opt-Out Lenders in Opposition to (I) Approval of the Disclosure Statement, (II) Approval of
the Class 2 Ballot, and (III) Confirmation of the Prepackaged
Joint Plan of Reorganization of Millennium Lab Holdings II, et al.
(“Supplemental Confirmation Objection”), Dec. 9, 2015, D.I. 174.

App. 105
arguments: (i) that I did not have subject matter jurisdiction to grant nonconsensual third party releases; (ii)
that third party releases are impermissible; (iii) that
the Plan must permit parties to opt-out of the releases;
and, in any event, (iv) that the releases did not meet
the Continental standard. To crystalize its claims
against the Non-Debtor Equity Holders, the day before
the confirmation hearing, Voya filed a complaint asserting RICO and common law fraud claims against
those entities in the United States District Court for
the District of Delaware (the “RICO Lawsuit”), which
remains pending before the Honorable Gregory M.
Sleet.11
On December 11, 2015, I issued a bench ruling12
confirming the Plan and addressing all of the issues
raised by the parties, save one. As part of that ruling, I
held that, at the very least, I had “related to jurisdiction.”13 I made this ruling because Voya argued (relying on Combustion Engineering14) that I did not have
subject matter jurisdiction over the RICO Lawsuit,
which was fatal to my ability to grant the third party
releases as to Voya. I also stated that Stern did not
change my conclusion on Voya’s jurisdictional argument. At no time before I ruled did Voya argue that I
lacked constitutional adjudicatory authority to enter a
confirmation order containing releases or to otherwise
11

ISL Loan Tr. v. TA Assocs. Mgmt., L.P., Case No. 15-1138
(D. Del.) (GMS).
12
Bench Ruling, Dec. 11, 2015, D.I. 206 (“Bench Ruling”).
13
Bench Ruling Hr’g Tr. 13:1–2.
14
In re Combustion Eng’g, 391 F.3d 190 (3rd Cir. 2004).

App. 106
enter a final order approving the nonconsensual releases in the Plan.
As part of my Bench Ruling, I informed the parties
that (i) I was not in a position to rule on the bar order
provision, as it had not been the subject of argument
and I had not, independently, had a chance to fully
understand it; and (ii) I had not yet reviewed the proposed form of confirmation order. After some discussion, I agreed that the parties could submit further
briefing on the bar order provision and continued the
hearing. But, before the conclusion of the hearing, the
staff attorney for the Office of the United States Trustee commented on the proposed form of order and
asked me to pay particular attention to paragraph LL,
which she said contained detailed proposed findings on
the injunctions and releases. I then asked: “Does any
other party have [a] question or clarification they need
to make on the record?”15 As reflected in the transcript,
there was no response. The hearing was then recessed
until December 15.
Prior to the continued hearing, the Debtors filed a
letter on the docket informing me that, with the consent of Voya and all other necessary parties, the bar
order provision was deleted from the Plan.16 The letter
also informed me that: (i) Voya had no further objections to the Plan that had not been ruled upon; and (ii)
the Office of the United States Trustee believed that
15

Bench Ruling Hr’g Tr. 35:25–36:2.
Letter Regarding Form of Proposed Confirmation Order,
Dec. 14, 2015, D.I. 194.
16

App. 107
the findings in paragraph LL of the proposed order regarding releases should be stricken in favor of a reference to the Bench Ruling, and the Debtors disagreed.
After considering the letter, on December 14, 2015, I
entered an order confirming the Plan.
B. The Appeal and the Request for Certification to the Third Circuit
That same day, Voya filed its Notice of Appeal17 together with an emergency motion requesting certification of a direct appeal to the Third Circuit 18 and a
motion for stay pending appeal.19 Voya argued that a
direct appeal would “enable the Third Circuit to clarify
two crucial legal issues that remain undetermined
in this Circuit: whether nonconsensual releases of

17

Notice of Appeal of Findings of Fact, Conclusions of Law
and Order (I) Approving the (A) Prepetition Solicitation Procedures, (B) Forms of Ballots, (C) Adequacy of Disclosure Statement
Pursuant to Sections 1125 and 1126(c) of the Bankruptcy Code,
and (D) Form and Manner of Notice of Combined Hearing and
Commencement of Chapter 11 Cases, and (II) Confirming the Prepackaged Joint Chapter 11 Plan of Reorganization of Millennium
Lab Holdings II, LLC, et al., Dec. 14, 2015, D.I. 202 (“Notice of
Appeal”).
18
Opt-Out Lenders’ Emergency Motion for Certification of
Direct Appeal to the United States Court of Appeals for the Third
Circuit Pursuant to 28 U.S.C. § 158(D)(2), Dec. 14, 2015, D.I. 203
(“Certification Motion”).
19
Motion of the Opt-Out Lenders for Stay Pending Appeal of
Order Confirming Amended Prepackaged Joint Plan of Reorganization of Millennium Lab Holdings II, LLC, et al., Dec. 14, 2015,
D.I. 204 (“Stay Motion”).

App. 108
non-debtors’ direct claims against other non-debtors
are permissible and if so, under what circumstances.”20
Thereafter, Voya filed its Statement of the Issues
on Appeal21 identifying the following questions.
1. Can Bankruptcy Courts exercise “related
to” jurisdiction over a non-debtor’s direct
claims against other non-debtors for fraud
and other willful misconduct on the basis of
contractual indemnification agreements by
the debtor of the other non-debtors that expressly and/or as a matter of law preclude indemnification for acts of fraud, wilfull [sic]
misconduct, and violations of the Racketeer
Influenced and Corrupt Organization (RICO)
Act?
2. Do Bankruptcy Courts have the authority
to release a non-debtor’s direct claims against
other non-debtors for fraud and other willful
misconduct without the consent of the releasing non-debtor?
3. Assuming arguendo that Bankruptcy
Courts do have authority to release a nondebtor’s direct claims against other nondebtors for fraud and other willful misconduct
without the consent of the releasing nondebtor, what standard of law governs the

20

Certification Motion ¶ 5.
Designation of Record and Statement of Issues on Appeal
Pursuant to Fed. R. Bankr. P. 8009(A), Dec. 28, 2015, D.I. 246
(“Voya’s Statement of Issues on Appeal”).
21

App. 109
approval of such releases where no consideration is paid for the release?
4. Can services performed by a debtor’s directors, officers, and employees in connection
with the debtor’s reorganization constitute a
financial contribution to the debtor’s estate?
5. Can a financial contribution made by a
non-debtor to a debtor’s estate be a financial
contribution also made “on behalf of ” other,
and otherwise non-contributing, non-debtors?
6. Assuming arguendo that the Bankruptcy
Court (a) properly determined that it had subject-matter jurisdiction and legal authority to
release the non-debtor Opt-Out Lenders’ direct claims against other non-debtors for
fraud and other willful misconduct without
the Opt-Out Lenders’ consent and (b) applied
the correct legal standard to its review of such
releases, did the Bankruptcy Court err in concluding that the facts of this case warranted
such a release?
At no time before me on the Stay Motion or the Certification Motion did Voya argue that the appeal involved a question of my constitutional authority to
enter a final order confirming the Plan.
C. The Remand Decision
On March 20, 2017, the district court issued its
Memorandum Opinion remanding the case for further
proceedings. As the district court explained in the Remand Decision:

App. 110
It is unclear to what extent the Bankruptcy
Court had the opportunity to consider what is
now the main issue on appeal—the Bankruptcy Court’s authority post-Stern to enter
a final order discharging Appellants’ nonbankruptcy claims against non-debtors without Appellants’ consent—given the lack of
time and attention the parties ascribed to this
issue in their briefing and arguments below.
What is clear is that the Bankruptcy Court
had no occasion to explain its reasoning on
this issue.22
Accordingly, the district court remanded the bankruptcy case for further proceedings on the following:
1.

To consider whether, or clarify [my] ruling that, [I, as a] Bankruptcy Court had
constitutional adjudicatory authority to
approve the nonconsensual release of Appellants’ direct non-bankruptcy common
law fraud and RICO claims against the
Non-Debtor Equity Holders.

2.

If not, to submit proposed findings of fact
and conclusions of law regarding the final
disposition of these claims through the
Confirmation Order, or, alternatively, to
strike the nonconsensual release of Appellants’ claims from the Confirmation
Order.23

22
23

Remand Decision at *10.
Remand Decision at *14.

App. 111
The parties made their submissions on remand and, on
July 27, 2017, I heard extensive argument. The matter
is now ripe for decision.
D. The Parties’ Positions
On remand, the parties each proffer their interpretation of Stern. Voya asserts its application of Stern
to this matter is “straightforward.” But, at argument
on remand, Voya’s counsel admitted that no party has
ever articulated its position.24
Voya posits that in analyzing whether I have constitutional adjudicatory authority to enter a final order
confirming a plan containing nonconsensual third
party releases, I should:
•

either ignore or consider irrelevant that I
am presiding over confirmation of a
plan;25

•

consider the operative proceeding before
me for Stern purposes to be the RICO
Lawsuit;26

24

Mr. Redburn: I’m not sure anybody has really actually
articulated this issue in the way it’s being articulated to
this Court before.
Oral Argument on Remand, Hr’g Tr. 101:24–102:1, July 27, 2017,
D.I. 456 (“Oral Argument on Remand”). See generally discussion
at Oral Argument on Remand, Hr’g Tr. 100:21–102:1.
25
Oral Argument on Remand, Hr’g Tr. 117:14–18.
26
Mr. Redburn: It goes back to what I said earlier in the
argument which is that for Stern purposes the analysis
takes place at the level of the claims to which judgment is

App. 112
•

apply Stern to the RICO Lawsuit; and

•

hold that Stern prevents the bankruptcy
court from entering a final order on confirmation because the RICO Lawsuit does
not stem from the bankruptcy itself, nor
must it necessarily be resolved in the
claims allowance process.

Voya further asserts that Stern stands for the proposition that because Voya chose to filed its RICO Lawsuit
in the district court, Voya has an absolute right to have
the merits of its claims determined in the context of
that civil lawsuit. Voya asserts that granting the third
party releases over its objection constitutes an “adjudication” of the RICO Lawsuit, which is prohibited so
neither the bankruptcy court nor the district court can
enter a confirmation order containing releases. Indeed,
Voya argues that no court can enter any order which
impacts its RICO Lawsuit. 27 Voya’s true argument,
being entered upon, not the proceeding in which judgment
is entered.
Id. 117:9–13.
27
Permeating its written submission on remand and at argument is Voya’s real position: even the district court cannot enter an order confirming a plan that contains third party releases.
See, e.g., Opt-Out Lenders’ Opening Brief on Remand Issues at
31, May 19, 2017, D.I. 439 (“Article III, as consistently interpreted
by the Supreme Court, grants a party the right to an adjudication
on the merits by an Article III judge of claims within the core of
Article III judicial power. It does not authorize either Article III
or non-Article III tribunals to summarily extinguish a common
law claim over the plaintiff ’s objection without any form of merits-based adjudication whatsoever,”); Opt-Out Lenders’ Reply
Brief on Remand Issues at 13, June 12, 2017, D.I. 444 (“Voya’s
consistent position from the beginning of plan confirmation

App. 113
therefore, is not a Stern argument as Stern addresses
which judge—an Article III judge or an Article I
judge—must issue the confirmation order, not whether
the order should issue at all.
The Debtors 28 respond to Voya’s argument on
Voya’s terms, that is, they assume Stern is applicable.
The Debtors contend Stern stands for the proposition
that bankruptcy judges have constitutional authority
to resolve matters that are “ ‘integral to the structuring
of the debtor-creditor relationship.’ ”29 The Debtors argue that it is the relationship of the claim to the bankruptcy process that is important, not the nature of the
claim itself. The Debtors further posit that if it is necessary for the bankruptcy judge to rule on a matter in
proceedings was that this Court lacks the power or authority to
grant non-consensual releases of Voya’s claims against other nondebtors through a final plan confirmation order, that the proper
forum for adjudication of Voya’s claims against the Non-Debtor
Equity Holders was the District Court in which the Fraud Action
was filed, and that the releases had to be stricken form the Plan
in order to comply with Article III.”); Oral Argument on Remand,
Hr’g Tr. 128:23–129:3, (The Court: So notwithstanding Continental Judge Stark can’t [enter a confirmation order with nonconsensual releases] even though that’s Third Circuit Law? Mr.
Redburn: Correct, because the Article III and due process required adjudication of those claims on the merits.”)
28
The Debtors, TA Millennium, Inc. and James Slattery filed
combined briefs on remand. When used in reference to positions
on remand, the term “Debtors” will refer collectively to these parties.
29
Supplemental Brief of the Debtors, TA Millennium, Inc.,
and James Slattery Regarding the Court’s Adjudicatory Authority and Related Issues on Remand from the District Court 10–16,
May 19, 2017, D.I. 437.

App. 114
the context of plan confirmation, then the judge has
the constitutional power to enter a final judgment on
that core bankruptcy proceeding, even if it impacts
state law claims. Here, they contend, it was necessary
for me to approve the releases because both the feasibility and the implementation of the Plan required the
contribution from the Non-Debtor Equity Holders. The
Debtors conclude, therefore, that the Stern standard is
met because my determination that the Continental
hallmarks were satisfied means that the releases were
integral to the debtor-creditor relationship and necessarily resolved as part of confirming the Plan.
DISCUSSION
I.

Bankruptcy Jurisdiction

Bankruptcy jurisdiction is conferred in 28 U.S.C.
§ 1334, titled “Bankruptcy cases and proceedings.”
With exceptions not applicable here, district courts
have original and exclusive jurisdiction in all bankruptcy cases, i.e., the main proceeding.30 District courts
also have original but not exclusive jurisdiction of all
“civil proceedings arising under title 11, or arising in
or related to cases under title 11.”31 Because this jurisdiction is granted to the district court, bankruptcy
judges exercise bankruptcy jurisdiction only to the extent the district court refers the case or proceeding to
the bankruptcy judge. 32 In the District of Delaware,
30
31
32

28 U.S.C. § 1334(a).
28 U.S.C. § 1334(b).
28 U.S.C. § 157(a)–(b).

App. 115
there is a standing order referring all bankruptcy
cases and their attendant civil proceedings to bankruptcy judges.33
Bankruptcy cases and civil proceedings arising in
and arising under title 11 are “core” proceedings, while
civil proceedings related to cases under title 11 are denominated “non-core.” The distinction is significant because bankruptcy judges can both hear and determine
core proceedings, meaning that bankruptcy judges can
enter final orders in these proceedings subject to appeal to the district court. On the other hand, bankruptcy judges can only hear, but not determine, noncore proceedings, meaning that the bankruptcy judge
must enter proposed findings of fact and conclusions of
law for review by the district court under Federal Rule
of Bankruptcy Procedure 9033.
If the proceeding before the court is neither core
nor non-core, then it does not fall within the subject
matter jurisdiction granted to district courts in § 1334
and neither the district court nor the bankruptcy judge
may enter an order in the matter.
“Confirmations of plans” is one of sixteen core proceedings listed in § 157(b)(2).34 The foremost treatise
on bankruptcy places these sixteen enumerated core
proceedings into five categories: (i) matters of administration; (ii) avoidance actions; (iii) property of the
33

United States District Court for the District of Delaware
Amended Standing Order of Reference, In re Standing Order of
Reference Re: Title 11, February 29, 2012.
34
28 U.S.C. § 157(b)(2)(L).

App. 116
estate; (iv) omnibus categories; and (v) cases filed under chapter 15.35 Confirmations of plans is in the first
category together with matters concerning the administration of the estate, allowance and disallowance of
claims against the estate and exemptions, estimations
of claims for purposes of confirming a plan, orders with
respect to obtaining financing, motions to terminate
the automatic stay, dischargability determinations and
objections to discharges. 36 As Collier states with respect to matters of administration, such as confirmations of plans:
There has never been any doubt about the
constitutional authority of a nontenured judge
to enter final orders in such matters, which
are unique to bankruptcy cases. This has been
true since the regime of the Bankruptcy
Act and remains true today, even under Marathon, Granfinanciera, S.A. v. Norberg and
Stern v. Marshall. This category of core proceedings has produced almost no litigation regarding bankruptcy court authority.37

35

See 1 COLLIER ON BANKRUPTCY ¶ 3.02[3] (Alan N. Resnick
& Henry J. Sommer eds., 16th ed.).
36
See id at ¶ 3.02[3][a].
37
Id. (citations omitted).

App. 117
II.

A Bankruptcy Judge has Constitutional
Adjudicatory Authority to Enter a Confirmation Order Containing Nonconsensual
Third Party Releases
A

Decisional law Applying Marathon and
Stern Uniformly Hold that Bankruptcy
Judges have such Authority
1. The Marathon Decision

Before Stern, there was Marathon.38
In Marathon, the Supreme Court of the United
States concluded that Congress’s broad grant of jurisdiction to bankruptcy judges in the Bankruptcy Act
of 1978 (“Act”) was unconstitutional. This ruling was
made in the context of civil litigation asserting state
law causes of action. In Marathon, the plaintiff/debtor
Northern Pipeline sued defendant Marathon Pipe Line
by filing a complaint in the bankruptcy court in which
Northern Pipeline’s bankruptcy case was pending.
Northern Pipeline asserted state law claims sounding
in breaches of contract and warranty, misrepresentation, coercion and duress. Marathon moved to dismiss
the complaint asserting that the Act unconstitutionally conferred judicial powers on non-Article III judges.
In a plurality opinion, the Supreme Court agreed with
Marathon. Striking down the entire Act—as opposed
to so much of the Act as permitted the bankruptcy
judge to render judgment on the state law action—
upended the bankruptcy community and created
38

N. Pipeline Constr. Co. v. Marathon Pipe Line Co., 458 U.S.
50 (1982) (plurality opinion).

App. 118
significant uncertainty regarding bankruptcy jurisdiction.39 In the wake of congressional inaction after the
Marathon decision, on December 3, 1982, the Judicial
Conference of the United States proposed emergency
model rules, which each judicial circuit approved for
adoption by district courts as local rules. 40 Congress
subsequently adopted the Emergency Rules as part of
the Bankruptcy Amendments and Federal Judgeship
Act of 1984, the current statute conferring bankruptcy
jurisdiction.41
In the heyday/melée of Marathon, the United
States Court of Appeals had occasion to address
whether bankruptcy judges have constitutional authority to enter final orders confirming plans of reorganization containing third party releases. In In re
AOV Industries, Inc.,42 a case having strong parallels
to Millennium, the bankruptcy court approved such a
plan over objection. AOV consisted of an integrated
group of coal mining, processing, exporting and trading
companies. Its exclusive European marketing agent,
Steag Handel GmbH (“Steag”), was also a major creditor. Pre-bankruptcy, AOV needed working capital; it
raised that cash by negotiating a stock purchase agreement through which Sleigh, Ltd. (“Sleigh”) acquired a
50% interest in AOV. Once Sleigh took control of AOV,
39

See generally Benjamin Weintraub & Alan N. Resnick,
Bankruptcy Court Jurisdiction Under the Judicial Conference
Emergency Rule, 16 UCC L.J. 59 (1983).
40
See id.
41
Amendments since 1984 are not relevant to this analysis.
42
792 F.2d 1140 (D.C. Cir. 1986).

App. 119
AOV filed its bankruptcy case. Two pieces of litigation
figured prominently in AOV Industries: (i) a postpetition lawsuit by AOV against Sleigh surrounding the
stock acquisition; and (ii) a prepetition lawsuit by
Hawley Fuel Coalmart (“Hawley”) against Steag asserting that Steag guaranteed AOV’s indebtedness to
Hawley.
After negotiations, AOV, Sleigh and Steag entered
into a plan contribution agreement that formed the basis of AOV’s plan of reorganization. Sleigh and Steag
collectively agreed to forego over $51 million in claims
against AOV for, respectively, 100% of the AOV stock
and a $2.6 million security interest in AOV’s assets.
Further, as a “critical component” of the plan, Sleigh
and Steag agreed to contribute $3 million of a $4.5 million fund for unsecured creditors. This fund, however,
would not be available unless all but a few creditors
gave Sleigh and Steag releases.43 One of those required
to give a release if he wanted a distribution was AOV’s
founder Hubert Bruce.
AOV’s creditors voted overwhelmingly in favor of
the plan. Bruce, however, challenged the bankruptcy
court’s jurisdiction to render a binding judgment on
the plan based on the recent Marathon decision.
43

The $4.5 million fund was available to unsecured creditors
“on the Consummation Date if releases are received from creditors except for Hawley Fuel Coal, Inc., Ambrose Branch Coal Co.,
their affiliates and any other creditor or creditors whose claims,
when taken as a whole, do not exceed $300,000.” Id. at 1143. In
this respect, the releases appear to be consensual, if coerced. The
opinion does not turn on the nature of the releases.

App. 120
Mindful of this challenge, the bankruptcy judge certified the case to the district court pursuant to the bankruptcy Emergency Rules then in effect. 44 Brace and
Hawley also took a direct appeal of the bankruptcy
court’s ruling to the district court. In the consolidated
certification/appeal proceeding, the district court rejected the constitutional challenge and held that the
bankruptcy court could enter a final order on confirmation consistent with Marathon.
On further appeal, the D.C. Circuit described
Bruce’s argument as follows: (i) the confirmation of the
debtor’s plan could only be approved by the district
court because the confirmation hearing was “outside
the core of normal bankruptcy proceedings” as the plan
involved the release of “non-bankruptcy claims—those
held by one creditor against another creditor”; (ii)
Bruce had separate, outstanding claims against both
Sleigh and Steag, which the plan significantly affected;
therefore, (iii) such releases are prohibited because it
permits an Article I court to influence cases that can
only be resolved by an Article III court.45

44

Model Emergency Rule § (e)(2)(A)(ii) permitted the bankruptcy court to certify that “circumstances require that the order
or judgment [entered by the bankruptcy judge] be approved by a
district judge, whether or not the matter was controverted before
the bankruptcy judge or any notice of appeal or application for
leave to appeal was filed.” See generally Weintraub & Resnick, 16
UCC L.J. 59 (1983).
45
The court does state that Bruce “never specifies, however,
how his claims are affected.” AOV Indus., 792 F.2d at 1145.

App. 121
Keenly aware of the recent jurisdictional upheaval, the D.C. Circuit began its ruling with an analysis of bankruptcy jurisdiction following Marathon.
The court acknowledged the Supreme Court’s holding
that Congress had overstepped its bounds in the Bankruptcy Reform Action of 1978 by impermissibly—and
unconstitutionally—granting Article I judges judicial
power reserved for Article III courts. The court also recognized the Emergency Rules subsequently adopted by
Congress in the Bankruptcy Amendments and Federal
Judgeship Act of 1984, which distinguished between
related and core proceedings. Acknowledging the state
of play, the D.C. Circuit Court soundly rebuffed Bruce’s
expansive reading of Marathon:
We reject Bruce’s argument and his reading of
Marathon. The approval of a disclosure statement and the confirmation of a reorganization
plan are clearly proceedings at the core of
bankruptcy law; appellant cities no authority
for the notion the court’s actions were “related” proceedings within the meaning of the
Emergency Rule or the 1984 Bankruptcy
Amendments. See 28 U.S.C. § 157(b)(2)(L)
(core proceedings include “confirmations of
plans”): Emergency Rule § (d)(3)(A) (“related
proceedings do not include . . . matters concerning the administration of the estate . . .
[or] proceedings in respect to the confirmation
of plans”). Although the bankruptcy’s
court’s decision may have an impact on
claims outside the scope of the immediate proceedings, we do not read Marathon and its progeny to prohibit all

App. 122
bankruptcy court decisions that may
have tangential effects. The expansive
reading of Marathon urged on us by
Bruce would limit the power of these article I courts to a far greater degree than
we believe Congress or the Supreme
Court intended.46
The only other circuit court that appears to have
addressed the issue is the Seventh Circuit. In a single
sentence, the Seventh Circuit adopted the AOV Industries position, stating: “As a preliminary matter, we
note that a bankruptcy court does have the power to
determine the legality of provisions, including releases,
incorporated into a reorganization plan.”47
2. The Stern Decision
Stern followed Marathon by twenty-nine years. It
did not change much.
In Stern, Vickie Lynn Marshall filed a chapter 11
bankruptcy case in the Central District of California.
Prior to filing her bankruptcy petition, Vickie, 48 who
was the third wife of the elderly and very wealthy J.
Howard Marshall, filed suit in Texas state probate
court (“Texas Litigation”) against Pierce Marshall, J.
46

Id. at 1145–46 (emphasis added).
In re Specialty Equip. Cos., 3 F.3d 1043, 1045 (7th Cir.
1993) (citing AOV Indus., 792 F.2d at 1145, and 28 U.S.C.
§ 157(b)(2)(L), and noting that the appellants were really questioning the legitimacy of the releases).
48
I will continue the Supreme Court’s practice of referring to
the parties by their first names.
47

App. 123
Howard’s son, for tortious interference with an inter vivos gift. In the Texas Litigation, Vickie asserted that
Pierce had fraudulently induced J. Howard to exclude
Vickie from J. Howard’s living trust (and, later, his will)
even though, Vickie asserted, J. Howard meant to give
her one-half of his estate.
Pierce initiated an adversary proceeding in
Vickie’s bankruptcy case seeking both damages for defamation and a declaration that the defamation claim
was nondischargeable under 11 U.S.C. § 523(a). Pierce
also filed a proof of claim for damages due to defamation. Vickie defended Pierce’s defamation claim in the
adversary proceeding and filed a counterclaim for tortious interference with the gift she believed J. Howard
sought to give her. Vickie’s counterclaim appeared to
mirror, at least in part, the state law complaint she
filed in the Texas Litigation.
The bankruptcy judge entered orders in the adversary proceeding all in Vickie’s favor. As to Pierce’s defamation claim, the judge granted summary judgment
for Vickie, thus denying Pierce any recovery. After a
bench trial on Vickie’s counterclaim for tortious interference, the bankruptcy judge awarded Vickie over
$400 million in compensatory damages and $25 million in punitive damages. In the meantime, the judge
in the Texas Litigation presided over a jury trial and
entered judgment in favor of Pierce on his defamation
claim.
In post-trial proceedings, Pierce re-asserted an argument that Vickie’s counterclaim was not a core

App. 124
proceeding and thus the bankruptcy judge was limited
to submitting proposed findings of fact and conclusions
of law to the district court for review de novo on that
claim. The bankruptcy court rejected Pierce’s argument finding that counterclaims are core based on
§ 157(b)(2)(C). On appeal the district court disagreed
holding that while Vickie’s counterclaim fell within the
literal language of § 157(b)(2)(C), the Supreme Court’s
decision in Marathon precluded the court from holding
that “any and all” counterclaims are core. Eventually,
the Ninth Circuit agreed with the district court’s legal
conclusion, holding that “a counterclaim under
§ 157(b)(2)(C) is properly a ‘core’ proceeding ‘arising in
a case under’ the Code only if the counterclaim is so
closely related to a [creditor’s] proof of claim that the
resolution of the counterclaim is necessary to resolve
the allowance or disallowance of the claim itself.”49 The
Supreme Court granted certiorari.
In its opinion, the Supreme Court first addressed
the bankruptcy court’s statutory authority to enter a
final order on Vickie’s counterclaim. The Court rejected
Pierce’s argument that Vickie’s counterclaim was in a
new category of proceedings—namely, core proceedings that do not arise in or arise under title 11. Instead,
the Court recognized core proceedings are “at most,
those that arise in title 11 cases or arise under title
11”50 and that each of the sixteen types of proceedings
enumerated in § 157 are core. Thus, the Court agreed
49

In re Marshall, 600 F.3d 1037, 1058 (9th Cir. 2010) (quotation omitted).
50
Stern, 131 S. Ct. at 2605 (quotation omitted).

App. 125
with Vickie that “§ 157(b)(2)(C) permits the bankruptcy court to enter a final judgment on her tortious
interference claim.”51
Notwithstanding the finding that as a statutory
matter the bankruptcy judge could enter a final order
on Vickie’s counterclaim, the Court ruled that Article
III of the Constitution precluded it. The Court held
that Vickie’s state law counterclaim was not a public
right under any of its admittedly inconsistent and various formulations of that doctrine articulated to date.52
Vickie’s counterclaim was not related to federal governmental action;53 it did not flow from a federal statutory scheme; 54 nor was it “completely dependent
upon” adjudication of a claim created by federal law.55
The Court also held that the bankruptcy court does not
qualify as an authority (such as a federal agency) limited to a “particularized area of the law.”56
The Supreme Court also conducted a lengthy examination of Vickie’s counterclaim in light of the preference actions brought by the trustees in Katchen and
Langenkamp. In each of those cases, a preference defendant filed a proof of claim against the estate. The
Court held that the defendants were not entitled to an
Article III adjudicator because the trustee’s claims
51
52
53
54
55
56

Id.
See id. at 2611.
See id. at 2613.
See id. at 2614.
See id.
See id. at 2615.

App. 126
could be determined as part of the claims allowance
and disallowance process. 57 The Supreme Court also
noted that in both Katchen and Langenkamp, the trustee was asserting a right of recovery created by federal
bankruptcy law. By contrast, Vickie’s counterclaim, “is
in no way derived from or dependent upon bankruptcy
law; it is a state tort action that exists without regard
to any bankruptcy proceeding.” 58 And, the Supreme
Court noted the discussion in Granfinanciera distinguishing between suits to augment the estate (such as
fraudulent conveyance claims and Vickie’s counterclaim) and “creditors’ hierarchically ordered claims to
a pro rata share of the bankruptcy res.”59
It was in the context of its discussion of Katchen,
Langenkamp and Granfinanciera (all lawsuits brought
by trustees seeking affirmative recoveries), that the Stern
Court announced a disjunctive test (the “Disjunctive
57

See Katchen v. Landy, 382 U.S. 323 (1966) (holding that
the plenary proceeding the creditor sought could be entertained
in the bankruptcy court because the same issues arose as part of
the claim allowance/disallowance process, and offering no opinion
on whether the referee would have summary jurisdiction over a
trustee’s claim for affirmative relief that could not be disposed of
in connection with ruling on objections to a proof of claim (cited
in Stern, 131 S. Ct. at 2616)); Langenkamp v. Culp, 498 U.S. 42,
(1990) (holding that when a creditor files a proof of claim, “the
ensuing preference action by the trustee become[s] integral to the
restructuring of the debtor-creditor relationship through the
bankruptcy court’s equity jurisdiction.”) (cited in Stern, 131 S. Ct.
at 2617).
58
Stern, 131 S. Ct. at 2618.
59
Id. at 2614 (quoting Granfinanciera, S.A. v. Nordberg, 492
U.S. 33, 56 (1989)).

App. 127
Test”) for whether a bankruptcy judge can enter a final
order on a trustee’s counterclaim:
Congress may not bypass Article III simply
because a proceeding may have some bearing
on a bankruptcy case; the question is whether
the action at issue stems from the bankruptcy
itself or would necessarily be resolved in the
claims allowance process.60
Vickie’s counterclaim failed the Disjunctive Test.
Vickie’s counterclaim did not “stem” from the bankruptcy itself as it did not derive from bankruptcy law
and it existed without regard to the bankruptcy proceeding. And it was not necessarily resolved in the
claims allowance process because there never existed
a reason to believe that the process of ruling on Pierce’s
proof of claim would necessarily resolve Vickie’s counterclaim. Thus, the Court ruled that the bankruptcy
judge lacked the constitutional authority to “enter a final judgment on a state law counterclaim that is not
resolved in the process of ruling on a creditor’s proof of
claim.”61 In doing so, it emphasized its narrow ruling
stating: “[w]e do not think the removal of counterclaims such as Vickie’s from core bankruptcy jurisdiction meaningfully changes the division of labor in the
current statute.”62
The actual outcome of Stern—that a bankruptcy
judge cannot enter a final order on a trustee’s state law
60
61
62

Id. at 2618 (emphasis added).
Id. at 2620.
Id.

App. 128
counterclaim against a creditor that is not resolved in
the process of ruling on the creditor’s proof of claim—
tread little new ground. As Chief Justice Roberts observed: if you substitute “tort” for “contract”—and, I
would add, “counterclaim” for “claim”—you have Marathon. 63 What was novel about Stern is that Vickie’s
counterclaim falls into one of the enumerated categories of core proceedings in § 157(b)(2). For the first
time, the Supreme Court held that notwithstanding
the statutory designation of a proceeding as core, a
bankruptcy judge could not enter a final judgment in
that proceeding. Unlike Marathon, however, the Supreme Court did not find the entirety of Congress’s referral of core proceedings to bankruptcy judges to be
unconstitutional, mandating a congressional fix. Upon
finding “one isolated” instance of constitutional infirmity, the Stern Court dealt with that instance; it did
not expand its holding to the entirety of § 157(b)(2).
The parties directed me to only two post-Stern
cases addressing the constitutionality of bankruptcy
judges entering final orders confirming plans containing third party releases. 64 In the first case, Charles

63

Id. at 2615.
As opposed to objecting to the merits of the releases themselves, which is a typical objection, an objection to the bankruptcy
court’s ability to enter a final order approving third party releases
is rare. See infra Part I. Our independent research did not reveal
reported cases post-Stern analyzing constitutional authority to
enter final confirmation orders containing releases other than
those cited by the parties.
64

App. 129
Street African Methodist Episcopal Church of Boston,65
the bankruptcy judge determined he had constitutional authority to enter a final confirmation order containing releases even though he considered the
proposed third party release inappropriate on the facts
before him and ultimately did not confirm the debtor’s
plan. In Charles Street, the debtor filed its bankruptcy
petition because it was facing foreclosure by its largest
creditor, OneUnited. OneUnited’s loans were secured
by the church property and one of the loans was the
subject of a disputed guarantee from the First Episcopal District of the African Methodist Episcopal Church
(“FEDAME”). A complex plan was proposed, which, as
relevant here, contained a release of FEDAME’s guaranty obligations. OneUnited objected to the plan on
nineteen different grounds, including that the releases
were an impermissible means of implementation. Specifically, OneUnited contended that: (i) the bankruptcy
court lacked subject matter jurisdiction to approve a
plan containing releases; (ii) the bankruptcy court
lacked constitutional authority to adjudicate a plan
containing third party releases; (iii) § 524(e) prohibits
the grant of third party releases; (iv) third party releases cannot be approved over objection; (v) equity
barred the release because FEDAME fraudulently induced OneUnited to rely on the guarantee and false
financial statements; and (vi) the release did not meet
the Master Mortgage standards.

65

In re Charles St. Afr. Methodist Episcopal Church of Bos.,
499 B.R. 66 (Bankr. D. Mass. 2013).

App. 130
In analyzing OneUnited’s objection, Judge Bailey
first concluded that he had subject matter jurisdiction
under § 1334(b) over confirmation of plans, which “is
the matter before the Court” and is “the quintessential
bankruptcy matter.”66 Next, he concluded that he had
constitutional authority to enter a final order confirming a plan with releases. Judge Bailey determined the
operative proceeding was the confirmation hearing,
which stems from federal law. Indeed, he declared confirmation of a plan to be a public right. And he rejected
the same argument now made by Voya on remand, concluding that approval of the release in the plan was not
tantamount to adjudication of FEDAME’s guaranty,
and thus Stern did not preclude him from entering a
final order confirming a plan containing third party releases. In ruling, Judge Bailey determined that confirmation of a plan is not an adjudication of all the
disputes it may touch.
In the second case, MPM Silicone, Judge Drain
came to the same conclusion. In a bench ruling confirming a plan of reorganization containing releases,
Judge Drain stated: “I also should note, because this
was raised in the objection, that I firmly believe that I
have jurisdiction over [releases] for the reasons that I
stated at the beginning of this ruling, and that I can
issue a final order on it within the confines of Stern v.
Marshall, given that this is in the context of the

66

Id. at 99.

App. 131
confirmation of the plan, and pertains ultimately to the
debtors’ rights under the Bankruptcy Code.”67
B. Bankruptcy Judges have Constitutional
Adjudicatory Authority to Enter Final
Orders Confirming Plans Containing
Nonconsensual Releases Under Any Interpretation of Stern
1. The Various Interpretations of Stern
In the immediate aftermath of Stern, courts and
commentators debated its implications. Some supported a narrow interpretation of Stern: Stern stands
for the sole proposition that a bankruptcy judge
“lacked constitutional authority to enter a final judgment on a state law counterclaim that is not resolved in the process of ruling on a creditor’s proof of
claim” (the “Narrow Interpretation”). To support this
view, courts and commentators point to Chief Justice
Roberts’ repeated and express statements that the
practical consequences of the decision would not be significant, that the limitation imposed by Stern would
not “meaningfully change[ ] the division of labor in the
current statute” and that “the question presented [to
67

MPM Silicones, LLC, No. 14-22503-rdd, 2014 WL 4436335,
at *34 (Bankr. S.D.N.Y. Sept. 9, 2014). Earlier, Judge Drain
stated: “I clearly have jurisdiction with regard to [ ] issues, which
arise under sections 510(a), 502(b)(2), 506(b), 1129(a) and (b) of
the Bankruptcy Code, pursuant to 28 U.S.C. sections 157(a)–(b)
and 1334(b), as these issues arise under the Bankruptcy Code and
in the chapter 11 case, let alone that they’re clearly related to the
chapter 11 case.” Id. at *1.

App. 132
the Court] was a ‘narrow’ one.” Others supported a
broad interpretation of Stern, not limited to counterclaims: that a bankruptcy judge cannot enter a final
judgment on all state law claims, all common law
causes of action or all causes of action under
state law (the “Broad Interpretation”). Support for the
Broad Interpretation comes from the varying language
used in Stern, which does not consistently limit the discussion to a “Vickie-type” counterclaim. Under both the
Narrow Interpretation and the Broad Interpretation,
Stern is limited to a state law claim or counterclaim
brought by the debtor-in-possession or trustee. In other
words, Stern is limited to claims based on state law
that are commenced in the context of traditional civil
litigation, or generically “Debtor/Trustee v. Defendant.”68
After considering these opposing viewpoints, it appears that my colleagues on the Delaware bench who
have specifically taken a position have consistently
adopted the Narrow Interpretation. Our research of reported decisions reveals that in adopting the Narrow
Interpretation, Judge Sontchi concluded that Stern
was “not applicable” to a complaint asserting equitable
subordination,69 Judge Gross concluded that Stern did
68

For a fulsome and thoughtful discussion of the Narrow Interpretation and the Broad Interpretation, see In re USDigital,
Inc., 461 B.R. 276 (Bankr. D. Del. 2011).
69
USDigital, 461 B.R. at 292 (Sontchi, J.) (“Count 15, which
asserts a claim for equitable subordination, is a non-enumerated
core proceeding under section 157(b)(2). Moreover, as it does not
involve a state law counterclaim to a proof of claim filed by the
trustee, the Supreme Court’s holding in Stern is not applicable.

App. 133
not preclude him from entering final orders on fraudulent conveyance and preference actions brought to augment the estate,70 Judge Walsh concluded that he could
enter final orders on the core preference, postpetition
transfer, fraudulent transfer, and unjust enrichment
claims before him,71 and Judge Carey concluded that
Stern was not a factor when ruling on a motion to enforce releases in a confirmation order.72

The inquiry in this case is limited to the statutory framework.
Thus, Count 15 is a core proceeding under both the statute and
the Constitution.”) (citations omitted).
70
Burtch v. Seaport Capital, LLC (In re Direct Response Media, Inc.), 466 B.R. 626, 644 (Bankr. D. Del. 2012) (Gross, J.) (“The
Supreme Court expressly took measures to limit the reach and
breadth of its opinion and its interpretation by lower courts. The
Court adopts the Narrow Interpretation and holds that Stern only
removed a non-Article III court’s authority to finally adjudicate
one type of core matter, a debtor’s state law counterclaim asserted
under § 157(b)(2)(C). By extension, the Court concludes that
Stern does not remove the bankruptcy courts’ authority to enter
final judgments on other core matters, including the authority to
finally adjudicate preference and fraudulent conveyance actions
like those at issue before this Court.”).
71
Zazzali v. 1031 Exch. Grp. (In re DBSI), 467 B.R. 767, 772
(Bankr. D. Del. 2012) (Walsh, J.) (“I agree with my colleagues that
Stern’s holding should be read narrowly and thus restricted to the
case of a “state-law counterclaim that is not resolved in the process of ruling on a creditor’s proof of claim.” Stern, 131 S. Ct. at
2620. I note also that numerous other recent decisions have
agreed with the narrow interpretation. See, e.g., Kirschner v.
Agoglia (In re Refco, Inc.), 461 B.R. 181 (Bankr. S.D.N.Y. 2011);
Fox v. Picard (In re Madoff ), 848 F. Supp. 2d 469 (S.D.N.Y. 2012).
Thus, I find that Stern is not applicable to this action, as it does
not involve a state-law counterclaim by the estate.”).
72
In re WCI Cmtys., Inc., No. 09-52250, 2012 WL 1981713
n.14 (Bankr. D. Del. June 1, 2012) (Carey, J.) (“The parties offered

App. 134
Judge Walrath, in her opinion in WaMu,73 did not
specifically take a position on the Narrow Interpretation or the Broad Interpretation. Rather, the approach
she took might be labeled the “most broad” interpretation, meaning that bankruptcy judges should examine
their ability to enter final orders in all enumerated
or unenumerated core proceedings (“Broadest Interpretation”).74 In WaMu, the plan of reorganization’s
central component was a global settlement of claims
and counterclaims among the debtors, the creditors’
committee and multiple major parties in the case. Certain major groups of creditors contended that although
Judge Walrath could conduct the confirmation hearing
she could only present proposed findings of fact and
conclusions of law to the district court because the settlement of the estate’s claims could only be determined
by an Article III court.75
supplemental submissions after the United States Supreme
Court’s decision in Stern v. Marshall 564 U.S. ___, 131 S.Ct. 2594
(2011). The Espinals argue that Stern requires that the “State
Law” claims raised in the State Court Action be transferred to the
Article III district court or to the State Court. The underlying
merits of the claims made in the State Court Action are not before
me; therefore, Stern v. Marshall does not pose a challenge to this
Court’s jurisdiction.”).
73
In re Wash. Mut., Inc., 461 B.R. 200 (Bankr. D. Del. 2011),
vacated in part, No. 08-12229, 2012 WL 1563880 (Bankr. D. Del.
Feb. 23, 2012).
74
In Charles Street, Judge Bailey appears to have adopted
the Broadest Interpretation by entertaining the possibility that
the grant of authority in § 157(b)(2)(L)—confirmation of a plan—
could be unconstitutional. 499 B.R. at 99–100.
75
The objectors had argued in their written submissions that
the court did not have authority to conduct the confirmation

App. 135
Judge Walrath rejected the objectors’ argument
for three separate reasons. First, she recognized the
historical practice of approval of settlements dating
back to the Bankruptcy Act. She noted that compromises are integral to bankruptcy cases, that compromises are often included in plans of reorganization,
and that confirmation of a plan is “within the bankruptcy court’s core jurisdiction.” 76 Second, Judge
Walrath looked at the nature of settlement approval.
She observed the “fundamental difference” between
approving a settlement of a claim and adjudicating the
merits of a claim. She ruled that a court does not need
jurisdiction over the underlying claims in order to approve a compromise of them. She also examined the
standard the court considers when approving a settlement and held that the standard, which is the “lowest
point in the range of reasonableness” establishes that
the court is not ruling on the merits of the claims being
settled.77 Finally, Judge Walrath found the approval of
the global settlement “particularly within the core jurisdiction” of the bankruptcy court because it dealt
hearing at all, but they modified their position at the commencement of the confirmation hearing. See Wash. Mut., 461 B.R. at
213.
76
Id. at 215 (quoting AOV Indus., 792 F.2d at 1145–46 (“The
approval of a disclosure statement and the confirmation of a reorganization plan are clearly proceedings at the core of bankruptcy
law. . . . Accordingly, we find that the bankruptcy court had jurisdiction to approve [them].”)).
77
“The lowest point in the range of reasonableness is far
from the standard required for an Article III court to enter a final
determination on the merits of the claims.” Id. at 216 (quotation
omitted).

App. 136
with a determination of whether property is property
of the estate.
At bottom, Judge Walrath concluded she had jurisdiction to both hear and determine confirmation of the
WaMu plan, which incorporated the global settlement.
In her Broadest Interpretation of Stern, Judge Walrath
did not try to squeeze the proverbial “square peg” of
confirmation into the proverbial “round hole” of trustee
claims and counterclaims. In other words, Judge
Walrath did not import the Disjunctive Test into her
analysis; she tailored her constitutional argument to
the proceeding in front of her.
2. The Operative Proceeding is Confirmation of a Plan, Which is Governed
by a Federal Standard
In this matter, the operative proceeding for purposes of a constitutional analysis is confirmation of a
plan. Confirmation of a plan is not a “claim” or “counterclaim.” It is not an “action” as the word is used in
Stern.78 The confirmation process is commenced by the
filing of a disclosure statement, which, once approved,
78

In context, the word “action” in Stern means a complaint
or counterclaim: “Granfinanciera’s distinction between actions
that seek to ‘augment the bankruptcy estate’ and those that seek
‘a pro rata share of the bankruptcy res,’ ibid., reaffirms that Congress may not bypass Article III simply because a proceeding may
have some bearing on a bankruptcy case: the question is whether
the action at issue stems from the bankruptcy itself or would
necessarily be resolved in the claims allowance process.” Stern,
564 U.S. at 499 (emphasis added).

App. 137
may be noticed out together with the plan and ballots
soliciting acceptances and rejections. 79 In addition to
classifying claims and specifying treatment for those
claims, plans may seek approval of sales, assumption
or rejection of contracts, substantive consolidation, equitable subordination and, as it did here, approval of
settlements and releases. An objection transforms the
confirmation hearing into a contested matter.80
“Confirmations of plans” is an enumerated core
proceeding under 28 U.S.C. § 157(b).81 As such, I have
statutory authority to enter a final judgment on confirmation of a plan under Stern.82 The question then becomes whether I have constitutional authority to do so.
Adopting the Narrow Interpretation, Stern is inapplicable as confirmation of a plan is not “a state law counterclaim that is not resolved in the process of ruling on
a creditor’s proof of claim.” Adopting the Broad Interpretation, the same is true: Stern is inapplicable as
confirmation of a plan is not a state law claim of any
type. Under both of these interpretations, then, my
constitutional analysis stops. My inquiry is limited to
the statutory framework, and I can enter a final order
confirming Millennium’s Plan as a constitutional matter.83

79
80
81
82
83

See FED. R. BANKR. P. 3017.
See FED. R. BANKR. P. 3020(b)(1).
28 U.S.C. § 157(b)(2)(L).
See Stern, 131 S. Ct. at 2605.
See USDigital, 461 B.R. at 292.

App. 138
The outcome is the same if I adopt the Broadest
Interpretation. First, confirmation of a plan is a “proceeding[ ] at the core of bankruptcy law,”84 or, in other
words, a quintessential “core” proceeding.85 Confirmation of a plan is the goal of chapter 11 cases, and is
“historically a core competency of the bankruptcy
court.”86 “Confirmations of plans,” which are “matters
of administration” are “unique to bankruptcy cases.”87
Second, in confirming a plan, even one with releases, the judge is applying a federal standard. To confirm a plan, it must satisfy each subsection of § 1129(a)
and (b), as applicable. To the extent a Stern analysis
requires a specific look at releases (and it is not clear
that it does), those releases must comply with applicable provisions of the Bankruptcy Code. Courts that permit releases in appropriate circumstances often look to

84

AOV Indus., 792 F.2d at 1145.
Charles St., 499 B.R. at 99.
86
In re Manchester Oaks Homeowners Ass’n, Inc., No. 11–
10179–BFK, 2014 WL 961167, at *7 (Bankr. E.D. Va. Mar. 12,
2014). See also id. at *8 (“This case does not involve the entry of
a money judgment, and does not raise the kind of systemic concerns at issue in Stern.”).
87
See 1 COLLIER ON BANKRUPTCY ¶ 3.02[3][a].
85

App. 139
§§ 1129(a)(1), 88 1123(b)(6) 89 and 105.90 Courts that do
not permit releases often cite § 524(e). 91 Regardless,
courts are interpreting federal law. As the Seventh Circuit held, whether these releases are legally permissible is a matter the bankruptcy court has the power to
determine.92
In the Third Circuit, nonconsensual third party
releases are permissible in plans of reorganization if
they meet the Continental standard of fairness and
necessity to the reorganization.93 In my Bench Ruling,
I held that the releases in the Millennium Plan met
that standard after examining the Continental hallmarks and the Master Mortgage factors.94 The Master
88

11 U.S.C. § 1129(a)(1) (The court shall confirm a plan only
if: “The plan complies with the applicable provisions of this title.”).
89
11 U.S.C. § 1123(b)(6) (plans may “include any other appropriate provision not inconsistent with the applicable provisions of this title.”).
90
11 U.S.C. § 105(a) (“The court may issue any order process,
or judgment that is necessary to carry out the provisions of this
title.”).
91
11 U.S.C. § 524(e) (“Except as provided in subsection (a)(3)
of this section, discharge of a debt of the debtor does not affect the
liability of any other entity on, or the property of any other entity
for, such debt.”).
92
Specialty Equip., 3 F.3d at 1045. See also discussion supra
concerning AOV Indus., Charles St., and MPM Silicones.
93
Bench Ruling Hr’g Tr. 24:19-22. See also Continental, 203
F.3d at 214 (“The hallmarks of permissible non-consensual releases—fairness, necessity to the reorganization, and specific factual findings to support these conclusions. . . .”).
94
Bench Ruling Hr’g Tr. 16:12–26:14.

App. 140
Mortgage factors, like the Dow factors95 (or any other
standard in circuits that permit third party releases),
are a federal, judicially-created yardstick against
which a third party release is measured:
The Master Mortgage Court cites five factors
to consider in allowing a release of a third
party as part of a plan of reorganization:
(1) an identity of interest between the debtor
and the third party, such that a suit against
the non-debtor is, in essence, a suit against
the debtor or will deplete assets of the estate;
(2) substantial contribution by the non-debtor
of assets to the reorganization; (3) the essential nature of the injunction to the reorganization to the extent that, without the injunction,
there is little likelihood of success; (4) an
agreement by a substantial majority of creditors to support the injunction, specifically if
the impacted class or classes “overwhelmingly”
votes to accept the plan; and (5) provision in
the plan for payment of all or substantially all
of the claims of the class or classes affected by
the injunction.96
The above five factors compel the bankruptcy judge
to examine the terms of the plan of reorganization,
the outcome of the solicitation of the plan and the necessity of the injunction to the success of the plan.
95

See Class Five Nev. Claimants v. Dow Coming Corp. (In re
Dow Corning Corp.), 280 F.3d 648, 657–58 (6th Cir. 2002).
96
In re Zenith Elecs. Corp., 241 B.R. 92, 110 (Bankr. D. Del.
1999) (citing In re Master Mortg. Inv. Fund, 168 B.R. 930, 937
(Bankr. W.D. Mo.)).

App. 141
These factors do not ask the bankruptcy judge to examine or make rulings with respect to the many claims
that may be released by virtue of the third party releases. 97 An order confirming a plan with releases,
therefore, does not rule on the merits of the state law
claims being released.98
Further, there is no state law equivalent to confirmation of a plan. And, third party releases do not
exist without regard to the bankruptcy proceeding.99
Rather, a ruling approving third party releases is a
97

Cf. AOV, 792 F.2d at 1153 (in determining whether it could
grant effective relief to objector Hawley on its objection that the
plan discriminated among creditors, the D.C. Circuit stated: “The
[favorable state court] holding for Steag does not affect the propriety of the Plan’s treatment of appellant, any more than the
verdict favorable to Hawley would have. The current case is not
concerned with the merits of the underlying claims; the focus is on
whether the Plan as devised treats some creditors unfairly.”) (emphasis added); In re WCI Communities, Inc., No. 09–52250 (KJC),
2012 WL 1981713 n. 14 (reorganized debtor filed an adversary
proceeding against putative state court class action plaintiffs to
enforce releases and injunction in confirmation order channeling
certain claims to a trust. In finding jurisdiction, Judge Carey
stated: “the underlying claims in the State Court Action are not
before me; therefore Stern v. Marshall does not pose a challenge
to this Court’s jurisdiction.”).
98
See, e.g., Charles St., 499 B.R. at 99 (“Confirmation of a
plan is not an adjudication of the various disputes it touches
upon—the Guaranty being here but one of many; it is a total reorganization of the debtor’s affairs in a manner available only in
bankruptcy.”).
99
Cf. Stern, 131 S. Ct. at 2618 (“Vickie’s claim, in contrast,
is in no way derived from or dependent upon bankruptcy law; it
is a state tort action that exists without regard to any bankruptcy
proceeding.”).

App. 142
determination that the plan at issue meets the federally created requisites for confirmation and third party
releases.100 Thus, looking to historical context, the nature of confirmation and the standard the judge applies to determine whether releases are appropriate, a
bankruptcy judge has constitutional adjudicatory authority to enter a final confirmation order containing
non-consensual third party releases.101
3. Voya’s Interpretation Finds no Basis
in Stern
Voya does not agree with the Narrow, Broad, or
Broadest Interpretation of Stern. Voya rejects both the
Narrow Interpretation and the Broad Interpretation
as it applies Stern outside the context of traditional
100

Cf. In re Okwonna-Felix, No. 10–31663–H4–13, 2011 WL
3421561 (Bankr. S.D. Tex. Aug. 3, 2011) (“In the dispute at bar,
the Debtor is requesting this Court to approve a settlement under
an express bankruptcy provision, i.e., Bankruptcy Rule 9019.
This Rule gives bankruptcy courts discretion to approve a compromise. State law has no equivalent to Bankruptcy Rule 9019.
Moreover, the factors which bankruptcy courts are required to review in making a determination of whether or not to approve a
settlement have been developed entirely by the federal courts, including the Supreme Court of the United States. See United
States v. Key, 397 U.S. 322 (1970); Rivercity v. Herpel (In re Jackson Brewing Co.), 624 F.2d 599, 602 (5th Cir. 1980). Accordingly,
because the resolution of the Motion is not based on state common
law, but entirely on federal bankruptcy law (both the Rule and
the case law instructing how to apply the Rule), the holding in
Stern is inapplicable, and this Court has the constitutional authority to enter a final order in this contested matter pursuant to
28 U.S.C. §§ 157(a) and (b)(1).”).
101
See Wash. Mut., 461 B.R. at 213–17.

App. 143
civil litigation, i.e., § 157(b)(2)(C) (a counterclaim by a
debtor à la Vickie’s counterclaim), a complaint filed by
the trustee to augment the estate (à la Northern Pipeline’s breach of contract suit against Marathon) or an
objection to a proof of claim (à la Pierce’s proof of
claim). Voya also rejects the Broadest Interpretation as
it recognizes but ignores the context of the proceeding
before the court (confirmation of a plan). Rather, Voya
contends that because it filed the RICO Lawsuit, the
Stern analysis I must do in the confirmation context
focuses on that lawsuit. Voya inserts its claims in the
RICO Lawsuit into the Stern Disjunctive Test and contends that they neither stem from the bankruptcy itself nor are resolvable in the claims allowance process
(the “Voya Interpretation”). Voya, therefore, concludes
that I cannot enter a final order confirming a plan that
releases those claims.
Assuming that it is ever appropriate to import the
Disjunctive Test into a context other than a state law
cause of action filed by a trustee/debtor (i.e., complaint
or counterclaim),102 Voya does not point to anything in
Stern, or in any case interpreting Stern, suggesting
that the “action at issue” should be a proceeding other
than the operative proceeding before the bankruptcy
judge. The Stern Court looked at Vickie’s counterclaim
in the adversary proceeding before the bankruptcy
court and in light of Pierce’s proof of claim. It did not,
102

I would be remiss if I did not point out prior to the conclusion of my analysis that RICO claims, which are the predominant
claims asserted in the RICO Lawsuit, are not claims based on
state law.

App. 144
for example, look at the Texas Litigation Vickie commenced prepetition. Nor did it rule on the basis that a
court properly exercising bankruptcy jurisdiction
could not affect the Texas Litigation. And, there was no
other “action at issue” before the bankruptcy judge to
look at; certainly confirmation of a plan was not before
the bankruptcy judge. Focused as it was on an actual
claim, albeit a counterclaim in an adversary proceeding (and comparing Vickie’s counterclaims to the claims
asserted in Katchen, Langenkamp, Granfinanciera and
Marathon), the Stern Court defined what was constitutional in that context—a counterclaim by the debtor/
trustee against a third party.103 The Stern Court examined Pierce’s right to an Article III adjudication on
Vickie’s counterclaim and found that Vickie’s claim “is
in no way derived from or dependent upon bankruptcy
law,”104 neither was there “reason to believe that the process of ruling on Pierce’s proof of claim would necessarily
result in the resolution of Vickie’s counterclaim.”105
Voya’s inverse reasoning finds no justification in
Stern. Stern did not address, either expressly or by
implication, any context other than counterclaims;
the Supreme Court certainly did not announce a broad
holding addressing every facet of the bankruptcy
103

Cf. Cottonwood P’ship, L.L.P. v. Kivisto (In re SemCrude
L.P.), No. 11-1174 (SLR), 2012 WL 5554819, at *3 (D. Del. Nov.
15, 2012) (affirming the bankruptcy court’s decision to look at the
motion before it—a motion to enjoin—and not the subject matter
of the underlying litigation pending in a different court when conducting its jurisdictional analysis).
104
Stern, 131 S. Ct. at 2618.
105
Stern, 131 S. Ct. at 2617–18.

App. 145
process. Stern did not hold, as Voya suggests, that regardless of which articulated (or unarticulated) core
proceeding is before the court, the bankruptcy judge
cannot, consistent with the Constitution, enter a final
order in that core proceeding if that order affects a
party’s entitlement to have a debtor’s or trustee’s state
law claim heard by an Article III court. All the more,
Stern does not endorse the Voya Interpretation—that
“[u]nder Stern, Article III prevents a bankruptcy court
from entering final judgment disposing of a non-bankruptcy claim against a non-debtor that is not resolved
as part of the claim resolution process, regardless of
the proceeding (adversary proceeding, contested matter, plan confirmation, etc.).”106
But, if I were going to import the Stern Disjunctive
Test into Millennium’s plan confirmation proceeding, it
would be closer to the Debtors’ analysis.107 First, however, I would conclude that confirmation of the Plan, as
the operative proceeding, satisfies the first standard
articulated in the Disjunctive Test. For all of the reasons set forth above, I would find that the Plan (and/or
the releases) “stem(s) from the bankruptcy case” and
thus I can, consistent with the Constitution, enter a
106

Opt-Out Lenders’ Opening Brief on Remand Issues at 19.
The Debtors’ position is most akin to the Broadest Interpretation in that they extend the Disjunctive Test beyond
§ 157(b)(2)(C). But, the Debtors do not argue that the court should
look at “whether the action at issue”—i.e., the confirmation proceedings (or the releases)—“stems from the bankruptcy itself.”
Rather, the Debtors import the Disjunctive Test and contend that
the court must look at whether the releases “would necessarily be
resolved in the confirmation process.”
107

App. 146
final order confirming Millennium’s Plan. Second, I
would also conclude that the confirmation of the Plan
satisfies the second standard articulated in the Disjunctive Test. As I already found, the releases were integral to confirmation and thus integral to the
restructuring of the debtor-creditor relationship. Thus,
the releases would be “necessarily resolved in the confirmation process” or “necessarily resolved in the process of restructuring the debtor-creditor relationship.”
Finally, even under the Voya Interpretation, on the
facts of this case I would determine that the RICO
Lawsuit was “necessarily [ ] resolved in the claims allowance process.” As previously discussed, the Plan
settlements were comprehensive in nature. The settlements provided for the contribution of $325 million in
exchange for the releases by the Debtors and third parties (including Voya), the settlement with the USA Settling Parties, as well as the allowance and treatment
of claims under the Existing Credit Agreement.108 The
settlement was global in nature: the claims under the
Existing Credit Agreement were “Allowed,” but only in
the context of the Plan funded by the Non-Debtor Equity Holders, which required the third party releases.
Voya held such a claim, and so its claim was “Allowed”
108

The Plan provided: “Class 2 consists of all Existing Credit
Agreement Claims, The Existing Credit Agreement Claims are
Allowed Claims in an aggregate outstanding principal amount
of $1,752,812,500, plus any and all accrued interest, fees and
other amounts due and payable under the Existing Loan Documents except Prior Agent Indemnity Claims.” Prepackaged Joint
Plan of Reorganization of Millennium Lab Holdings II, LLC, et al.
at 22, Nov. 10, 2015, D.I. 14.

App. 147
by virtue of the Plan. As third party releases were essential to the allowance of those claims, the RICO Lawsuit was necessarily resolved in the claims allowance
process.109
C. A Bankruptcy Judge’s Final Order on a
Core Issue That May Have a Preclusive
Effect on a Third Party Lawsuit Does
Not Violate Stern
Voya also contends that it is unconstitutional for a
bankruptcy judge to enter a final order in any context
if that final order might affect a lawsuit filed by a creditor against a third party. Voya is incorrect. While the
Third Circuit has not directly ruled on the question before me on remand, it has ruled that Stern does not
prevent a bankruptcy judge from entering final orders
in statutorily core proceedings notwithstanding the orders’ collateral impact on state law claims.
In In re Lazy Days’ RV Center Inc., 110 the bankruptcy court re-opened a confirmed bankruptcy case at
the request of the reorganized debtor in order to rule
on whether a purchase option in an assigned lease
that was the subject of a prepetition settlement agreement incorporated into a plan of reorganization survived in light of § 365(f ) of the Bankruptcy Code.
109

See Fisher Island Invs., Inc. v. Solby+Westbrae Partners
(In re Fisher Island), 778 F.3d 1172, 1192 n.13 (11th Cir. 2015)
(noting that even if ownership of a debtor is not generally a core
issue, the facts of the case made it core as the issue was the central one in the case).
110
724 F.3d 418 (3d Cir. 2013).

App. 148
Post-confirmation, the reorganized debtor attempted
to exercise the purchase option, but the landlord refused to honor it. The landlord and the reorganized
debtors each filed separate lawsuits in Florida state
court to determine their respective rights under the
lease. The reorganized debtors also filed an emergency
motion in the bankruptcy court seeking a ruling that
the lease’s anti-assignment clause was unenforceable.
The bankruptcy judge ruled that the anti-assignment
provision in the lease was unenforceable and that the
landlord’s refusal to honor the purchase option violated the settlement agreement. On appeal, the district
court vacated the bankruptcy judge’s order finding it
to be an advisory opinion. On further appeal, the Third
Circuit reversed the district court’s ruling and remanded.
Among the issues on appeal, the Third Circuit addressed the landlord’s argument that the bankruptcy
judge unconstitutionally “asserted subject matter jurisdiction over a private rights dispute.”111 The court
quickly dispatched this argument, ruling that unlike
Stern, Granfinanciera and Marathon, which “dealt
with the difficult question of when a bankruptcy court
may constitutionally exercise jurisdiction over common law claims”:
By contrast, the Bankruptcy Court in this
case did not decide a question of state common
law, but rather determined whether, in light
of 11 U.S.C. § 365(f )(3), an anti-assignment
111

Id. at 423.

App. 149
clause survived the Settlement Agreement it
had confirmed as part of a Chapter 11 bankruptcy. Here, the Reorganized Debtors’
claim for relief was based on a federal
bankruptcy law provision with no common law analogue, so the Stern line of
cases is plainly inapposite.112
In analyzing the Stern argument, the court looked at
the proceeding before it—the motion to reopen the
bankruptcy case and the request for a declaration of
rights under a section of the Bankruptcy Code. It did
not look at the Florida state law claims. The Third Circuit was not oblivious to the state law litigation, however, as the landlord also argued that the mandatory
abstention provision of 28 U.S.C. § 1334(c)(2) required
the bankruptcy court to defer to pending state law litigation.113 The Third Circuit quickly dispatched of this
argument as well:
As we noted already, although this proceeding may have been provoked by
112

Id. at 423 (citing Travelers Indem. Co. v. Bailey, 557 U.S.
137 (2009)) (emphasis added).
113
§ 1334(c)(2) provides:
Upon timely motion of a party in a proceeding
based upon a State Law claim or State law cause of
action, related to a case under title 11 but not arising
under title 11 or arising in a case under title 11, with
respect to which an action could not have been commenced in a court of the United States absent jurisdiction under this section, the district court shall
abstain from hearing such proceeding if an action is
commenced, and can be timely adjudicated, in a State
forum of appropriate jurisdiction.

App. 150
state court actions and surely impacted
them, the proceeding in the Bankruptcy
Court was founded upon a quintessentially federal claim, viz., whether the
anti-assignment clause was invalid under 11
U.S.C. § 365(f )(3). Furthermore, this dispute “aris[es] in a case under the title 11”
as the Bankruptcy Court was asked to interpret and enforce a reorganization plan which
was entered as part of Lazy Days’s Chapter 11
bankruptcy.114
Applying Lazy Days here shows that the Stern line
of cases is inapposite. The Third Circuit in Lazy Days
focused on the operative proceeding in front of the
bankruptcy judge, not the state law claims. Here, the
operative proceeding is confirmation of a plan of reorganization under § 1129 of the Bankruptcy Code, a
proceeding “based on a federal bankruptcy law provision with no common law analogue.” And, even if the
operative proceeding is more narrow—namely, Millennium’s request for confirmation of a plan that includes
third party releases—the Stern line of cases is still inapposite. There is no state law analogue; third party
114

Lazy Days, 724 F.3d at 424 (emphasis added). The Third
Circuit reversal of the district court’s opinion also demonstrates
the Third Circuit was aware that the bankruptcy court’s ruling
would impact the pending state court litigation. In the district
court opinion, the judge stated that: “it is crystal clear that the
reorganized debtors went to the Bankruptcy Court to get an opinion that could be submitted to the Florida courts” and found,
therefore, that the bankruptcy court had issued an advisory opinion on the survivability of the purchase option, which was the subject of the Florida litigation.

App. 151
releases in chapter 11 plans are quintessentially federal in nature. Whether this requested relief is permissible or not is based entirely on federal bankruptcy
law—the Continental hallmarks.
Even more recently (on March 20 of this year), the
Third Circuit held in Linear Electric Company, Inc.115
that Stern did not prevent a bankruptcy judge from entering a final order “discharging” construction liens
filed by a non-debtor supplier against real property
owned by a non-debtor. Pursuant to New Jersey state
law, a supplier who sells materials on credit to a contractor who then incorporates those materials into
property owned by a third party may file a lien against
the third parties’ real property if the supplier goes unpaid. Linear, the contractor/debtor, filed its chapter 11
petition at a time when two of its suppliers had not
been paid in full. The suppliers thereafter filed construction liens on the real property into which Linear
had incorporated their materials. Linear immediately
filed a motion with the bankruptcy court to discharge
the liens against the real property (owned by a nondebtor) as violating the automatic stay asserting that
the liens were, in actuality, against the funds the nondebtor owed Linear (i.e., Linear’s accounts receivable).
The bankruptcy judge granted the motion and the nondebtor owner paid its outstanding account payable to
Linear. The bankruptcy judge also held the suppliers’

115

In re Linear Elec. Co., Inc., 852 F.3d 313 (3d Cir. 2017).

App. 152
construction liens to be void ab initio for violation of
the automatic stay.116
On appeal, the suppliers argued that the bankruptcy judge could not enter a final order invalidating
their state law construction liens consistent with the
constitutional proscriptions found in Stern because
their filed state law liens against the non-debtor owner
were private rights entrusted to Article III courts. The
Third Circuit disagreed. While acknowledging that
bankruptcy judges cannot enter final orders on certain
state common law claims between private parties
without their mutual assent, the Third Circuit found
that Congress could assign cases involving “public
rights” to non-Article III courts. The Third Circuit
described public rights cases as those cases “in which
the claim at issue derives from a federal regulatory
scheme, or in which resolution of the claim by an
expert government agency is deemed essential to a
limited regulatory objective within the agency’s authority.” 117 Looking at the operative proceeding—the
motion alleging violation of the automatic stay—the
court held:
Those claims arise under the federal
bankruptcy laws. As such, any rights at
issue are rights created by Congress, and
such rights are public rights. Article III
116

The bankruptcy judge did rule that the date of the filing
of the liens could be treated as a notice under 11 U.S.C. § 546(b),
which generally provides relation back lien protection against the
debtor’s interests. See Linear, 852 F.3d at 319.
117
Id. at 320 & n.31 (quoting Stern, 131 S. Ct. at 2613).

App. 153
does not prevent a non-Article III court from
resolving cases regarding public rights; thus
the Bankruptcy Court could constitutionally
determine whether the liens violated the automatic stay.118
Linear is significant for multiple reasons. PostStern and Wellness Int’l Network, Ltd. v. Sharif,119 the
Third Circuit has spoken more definitively than the
Supreme Court on bankruptcy and public rights. The
Third Circuit has now declared that claims arising under the federal bankruptcy laws are public rights.120 In
Linear the “claim arising under the federal bankruptcy
laws” was the debtor’s motion for violation of the automatic stay arising under section 362 of the Bankruptcy
Code; here, it is the Debtors’ request for confirmation
of a plan arising under section 1129 of the Bankruptcy
Code (or, more narrowly, the third party releases under
the Continental hallmarks.) As such, the Third Circuit
has effectively endorsed the view that confirmation of
a plan is a public right.
Further, the posture of Linear and Millennium are
similar, compelling similar results. Although not
stated in Linear, it seems clear that the direct claim of
the suppliers to a construction lien on the non-debtor
owner’s real property interests would be, at most, “related to” the bankruptcy case, while the motion for violation of the automatic stay is core. Notwithstanding
118
119
120

Id. at 320 (emphasis added).
135 S. Ct. 1932 (2015).
See Linear, 852 F.3d at 319–20.

App. 154
the decision on the merits, the Third Circuit recognized
that the suppliers had two sources of recovery; they
could have asserted liens against both the debtor’s accounts receivable and the non-debtors’ real property.121
Thus, the bankruptcy court’s ruling that the construction liens were void ab initio “surely impacted” any
claims that the non-debtor suppliers had against the
non-debtor’s real property interests. 122 There is no
question, then, that, if the proper standard is met, a
bankruptcy judge may enter a final order in a core matter that impacts or even precludes a state law action
between two non-debtors.123
121

See id. at 323 (“Hence the text of the Construction Lien
Law provides no reason to believe that the liens are not also
against Linear Electric’s accounts receivable (in addition to the
development owners’ real property interests.”) (second emphasis
added).
122
It might be argued that the automatic stay will lift once a
discharge is granted or the case is dismissed so there is no harm
to the supplier. But, because New Jersey lien law requires the
supplier’s lien to be lodged of record within, at most, 120 days following the date the material was supplied for which payment is
claimed, N.J. STAT. ANN. § 2A:44A-6(a)(2), the Third Circuit’s ruling left the suppliers without a remedy against the non-debtor
owner. “For better or for worse, the automatic stay requires that
[the suppliers] wait as Linear Electric’s bankruptcy case proceeds
and receive whatever they will receive under bankruptcy law
without resort to other mechanisms to claim greater payments.”
Id. (emphasis added).
123
A Westlaw search revealed seven Third Circuit cases that
cite Stern, The other five are:
(1) In re Prosser, 574 F. App’x 82, 84 (3d Cir. 2014) (holding
in context of turnover action and without discussion, that Stern
“does not alter this [subject matter jurisdiction] analysis, because
this case does not involve a counterclaim, nor is it solely based on

App. 155

state law.”). This panel appears to adopt the Narrow Interpretation.
(2) Holber v. Suffolk Constr. Co. (In re Red Rock Servs.,
Co.), 642 F. App’x 110, 114–15 (3d Cir. 2016) (non-debtor subcontractor filed proof of claim in contractor/debtor’s bankruptcy
case asserting damages for breach of contract; debtor filed adversary proceeding against subcontractor asserting same; Third Circuit held that the bankruptcy court had constitutional authority
to enter a final order on all state law claims because they were
“inextricably interlinked with the claims flowing from the adversary proceeding and, consequently, from the federal bankruptcy
statutory regime.” The state law claims had to be resolved to determine whether the debtor and the creditor had claims against
each other.) This panel appears to adopt the Broad Interpretation
of Stern, and suggests that the claims process is part of the federal
bankruptcy statutory scheme.
(3) Carr v. New Century TRS Holdings, Inc. (In re New
Century TRS Holdings, Inc.), 544 F. App’x 70, 73–74 (3d Cir.
2013) (Creditor and debtor settled creditor’s state law damages
claim based on fraud and violation of the Truth-in-Lending Act.
Creditor subsequently asserted that debtor had fraudulently induced her into settling claim and asserted that the bankruptcy
court did not have authority to enter a final order on her claims.
The Third Circuit distinguished Vickie’s counterclaim and held
that the creditor’s fraudulent inducement was “irreversibly intertwined” with the previous settlement of the creditor’s claims.).
This panel appears to adopt the Broad Interpretation.
(4) One2One Commc’ns, LLC v. Quad/Graphics, Inc. (In re
One2One Commc’ns, LLC), 805 F.3d 428, 433 (3d Cir. 2015)
(in the context of a concurring opinion discussing equitable mootness, Judge Krause states: “Thus, the Court in Stern made clear
that non-Article III bankruptcy judges do not have the constitutional authority to adjudicate a claim that is exclusively based
upon a legal right grounded in state law despite appellate review
of the bankruptcy judge’s decision by an Article III judge. However, Stern did not consider the authority of bankruptcy judges
to make final determinations regarding other kinds of claims
and counterclaims brought by debtors and creditors, nor did
Stern consider whether Article III requires appellate review of a

App. 156
The Third Circuit is not the only circuit drawing
this conclusion. The Sixth Circuit in In re Hart124 also
ruled Stern did not preclude the entry of a final order
by a bankruptcy judge even though that order would
appear to indirectly preclude certain state law claims.
In Hart, the bankruptcy judge entered a judgment
finding a bank’s loans to debtor Hart nondischarge
able under § 523(a)(2)(B) of the Bankruptcy Code. At
the bank’s request and over Hart’s Stern objection, the
bankruptcy judge also entered judgment on the
amount of each non-dischargeable loan. The Sixth Circuit distinguished Stern both factually and legally.
bankruptcy judge’s decisions by an Article III judge. Accordingly,
we are obligated to apply this Court’s equitable mootness doctrine
notwithstanding Stern.”). Judge Krause’s discussion suggests the
Broad Interpretation. She also suggests that a bankruptcy judge
can enter a final order confirming a plan containing releases. See
id. at 445 (“Although Article III judges decide whether an appeal
is equitably moot, bankruptcy courts control nearly all of the variables in the equation, including whether a reorganization plan is
initially approved, whether a stay of plan implementation is
granted, whether settlements or releases crucial to a plan are approved and executed, whether property is transferred, whether
new entities (in which third parties may invest) are formed, and
whether distributions (including to third parties) under the plan
begin—all before plan challengers reach an Article III court.”).
(5) Tribune Media Co. v. Aurelius Capital Mgmt. (In re
Tribune Media Co.), 799 F.3d 272 (3d Cir. 2015) (mentioning
Stern in concurring opinion responding to Judge Krause’s concurrence in One2One; not relevant for current analysis).
In sum, the Third Circuit has either adopted the Narrow Interpretation (Prosser), the Broad Interpretation (RedRock, New Century, One2One (concurrence) or the Broadest Interpretation (Lazy
Days, Linear) in each of its reported decisions.
124
Hart v. S. Heritage Bank (In re Hart), 564 F. App’x 773
(6th Cir. 2014).

App. 157
Factually, unlike Vickie, Hart did not assert a counterclaim in the nondischargeability proceeding; only the
bank’s claim was before the bankruptcy court. Legally,
unlike Vickie’s counterclaim, the bank’s claim against
Hart arose in the bankruptcy case and was an enumerated core matter under § 157(b)(2)(I)–(J).125 The court
also concluded that the bankruptcy court could enter a
final order on the amount of a claim in the dischargeability context under Sixth Circuit precedents.126
Hart rejected the debtor’s argument that the
bankruptcy judge lacked constitutional authority to
enter a final judgment because of pending state court
litigation even though it precluded Hart from filing
and pursuing counterclaims in that litigation. As relevant here, the Sixth Circuit recognized the distinction
between entering a judgment that directly extinguished counterclaims filed in state court (which arguably exceeded the bankruptcy court’s constitutional
authority) and entering a monetary judgment on dischargeability (a federal issue that indirectly precluded
Hart from filing her counterclaim in state court). As
the Sixth Circuit observed: “Hart should not be able to
125

Consisting of “determinations as to the dischargeability of
particular debts,” and “objections to discharges.” See 28 U.S.C.
§ 157(b)(2)(I)–(J).
126
The panel deciding Hart may have felt constrained by its
previous rulings, as the Hart court recognized that “bankruptcy
courts’ well-settled statutory and constitutional authority to
make dischargeability determinations is distinct from the question of whether the bankruptcy courts may enter a final monetary
judgment after determining the amount of the discharge.” Hart,
564 F. App’x at 776 n.1.

App. 158
escape the collateral effects of the bankruptcy court’s
decision made under proper authority.”127
In In re Fisher Island Investments, Inc., 128 the
Eleventh Circuit held that a bankruptcy judge had
both statutory and constitutional authority to enter a
final order determining which of two non-debtor entities owned three alleged debtors in the context of
involuntary bankruptcy filings. The involuntary bankruptcy proceedings were “but a small part of global litigation” over the ownership and control of a wealthy
businessman’s assets, a dispute “spawn[ing] litigation
in the Republic of Georgia, the United Kingdom, Liechtenstein, the British territory of Gibraltar, and both
state and federal courts in the United States.”129
Prepetition, two factions (the Redmond Group and
the Zeltser Group) were litigating the ownership issues in New York and California. When the petitioning
creditors filed the involuntary petitions, they also
moved for joint administration of the cases and to appoint a trustee to take control of the alleged debtors’
assets. The Zeltser Group answered the involuntary
petition on behalf of the alleged debtors consenting to
all the relief sought. The Redmond Group claimed it
was the authorized representative of the alleged debtors, moved to strike the Zeltser Group’s answer and alleged that the involuntary petitions were improperly
filed to stay the state court ownership litigation.
127
128
129

Id. at 777.
Fisher Island, 778 F.3d 1172.
Id. at 1177.

App. 159
Ultimately, the bankruptcy judge ruled in favor of the
Redmond Group. Zeltser appealed.
At the circuit court level, the court ruled that the
ownership dispute was “core” and that the bankruptcy
judge had both statutory and constitutional authority
to enter a final judgment. The court determined that
resolution of the ownership issue was critical to the administration of the alleged debtors’ estates and directly affected the debtor-creditor relationship thus
falling within the catch-all enumerated core proceedings of §§ 157(b)(2)(A) and (O).130 It further concluded
that the bankruptcy judge necessarily had to determine who owned the alleged debtors in order to adjudicate the involuntary petitions and the $32 million in
alleged debt because one faction admitted the debt and
the other did not.131 Alternatively, the Eleventh Circuit
found that the Zeltzer Group consented to the bankruptcy court’s final adjudication of the ownership issue
by its actions and representations and even invoked
the aid of the bankruptcy court on the issue.
As for Stern, the Eleventh Circuit determined that
its “narrow holding” was “wholly inapplicable.” 132 It
130

28 U.S.C. § 157(b)(2)(A) (core proceedings include “matters concerning the administration of the estate”); § 157(b)(2)(O)
(core proceedings include “other proceedings affecting the liquidation of the assets of the estate or the adjustment of the debtorcreditor or the equity security holder relationship, except personal injury tort or wrongful death claims.”).
131
It is unclear from the opinion whether the Zeltzer Group
actually contested the debt, contested the involuntary petition, or
both.
132
Fisher Island, 778 F.3d at 1192.

App. 160
recognized that the ownership issue resembled Vickie’s
counterclaim as it was a state law claim that did not
involve public rights, or stem from the federal regulatory scheme. Further, the ownership issue did not involve a particularized area of the law nor was it
determined by bankruptcy law. And although the court
concluded that the ownership issue was “necessarily
resolved by the bankruptcy court through the process
of adjudicating the creditors’ claims,” the claims process was not the proof of claim process referenced by
the Stern court as the “relevant parties” did not file a
proof of claim. Rather, the “claims process” appears to
be the involuntary petition itself. 133 As the court repeatedly emphasized, determining the authorized representative of the debtor was a threshold issue in the
case because it was necessary to determine whether
the involuntary petition was contested or not.134 Thus,
the Eleventh Circuit ruled that the bankruptcy judge
could enter a final order on the ownership issue, notwithstanding its substantial impact on the pending
proceedings in other courts.135

133

There is no suggestion in the opinion that the three creditors who filed the involuntary petition were in any way involved
in the ownership dispute.
134
In an interesting footnote, the 11th Circuit stated that
even if ownership of a debtor is not generally a core issue, the
facts of the case made it core as the issue was the central one in
the case. See Fisher Island, 778 F.3d at 1192 n.13.
135
I recognize that in Lazy Days, Hart and Fisher Island,
each objecting party received some sort of adjudication on at least
a part of the actual merits of its claims whereas here there has
been no hearing on the merits of the RICO Lawsuit. The hearings

App. 161
Here, the entry of the order confirming Millennium’s Plan did collaterally impact the RICO Lawsuit—I undoubtedly provided the Non-Debtor Equity
Holders with a defense that they can use in any continuation of the RICO Lawsuit before Judge Sleet.
Whether that defense is the affirmative defense of res
judicata (as Voya contends), release,136 a Rule 12(b)(1)
mootness defense,137 issue preclusion, or a defense that
the claim should be barred by reason of § 1141 of the
Bankruptcy Code,138 the confirmation order has surely
impacted the RICO Lawsuit. But, as can be seen from
AOV Industries, Specialty Equipment, Lazy Days, Linear, Hart, Fisher Island and any number of other cases,
the objectors received, however, were not the Article III adjudications they requested.
136
FED. R. CIV. P. 8(C) lists release as an affirmative defense.
(“In responding to a pleading, a party must affirmatively state
any avoidance or affirmative defense, including . . . release. . . .”).
Release is a concept distinct from res judicata, another enumerated affirmative defense.
137
Voya’s claims may have been made moot due to the impossibility of recovery. See In re AE Liquidation, Inc., 435 B.R.
894, 903 (Bankr. D. Del. 2010) (rejecting a res judicata theory
with respect to two counts in adversary proceeding seeking to prevent a sale of aircraft that would convey clear title to a buyer because they were not the same cause of action as a § 363 sale
motion, but holding that those counts were made moot by the entry of the sale order transferring the aircraft free and clear of
claims, and thus bankruptcy judge no longer had jurisdiction over
those two counts of the complaint).
138
See e.g. CoreStates Bank, N.A. v. Huls Am., Inc., 176 F.3d
187, 194 n.4 (3d Cir. 1999) (suggesting that issue preclusion or
§ 1141(a) may be the more appropriate defense, but analyzing
claim preclusion/res judicata because the district court and the
parties primarily treated the case as one of claim preclusion).

App. 162
a bankruptcy court order that impacts a litigant’s state
law claims even when litigation is pending does not violate Marathon or Stern.139 This conclusion holds true
139

Other reported decisions in which courts have held that a
bankruptcy judge has constitutional adjudicatory authority postStern to issue an order in a core proceeding that impacts state law
claims include: (i) In re Safety Harbor Resort and Spa, 456 B.R.
703 (Bankr. M.D. Fla. 2011) (finding that a bankruptcy judge has
constitutional adjudicatory authority to impose creditor suggested “lock up” restrictions on the reorganized debtor’s business
operations and non-debtor guarantors’ assets as condition to confirming plan containing third party releases; lock up restrictions
were an integral part of the order confirming the plan and confirmation of a plan is core; also finding guarantor consent by virtue
of controlling interest in debtor as proponent of the plan); (ii) In
re Catholic Bishop of N. Alaska, 525 B.R. 723, 730 (D. Alaska
2015) (over Stern objection, holding that even if parties had not
waived their right to challenge bankruptcy judge’s constitutional
adjudicatory authority by not raising it prior to appeal, bankruptcy judge had authority to determine state law adverse possession property rights in context of non-debtor/purchaser’s
motion to enforce § 363 sale order because it “was necessary for
the proper administration of the bankruptcy estate”); In re Owner
Mgmt. Serv., LLC Trustee Corps., 530 B.R. 711 (Bankr. C.D. Cal
2015) (holding that post-Stern, bankruptcy judges can continue to
enter final orders on substantive consolidation) (citing In re LLS
America, 2011 WL 4005447 (Bankr. E.D. Wash. Sept. 8, 2011)
aff ’d In re LLS Am., LLC, 2012 WL 2042503 (9th Cir. BAP June
5, 2012) (“Substantive consolidation does not exist outside the
context of a bankruptcy proceeding. It is only available in a bankruptcy proceeding commenced under the federal bankruptcy
scheme. Although not expressly provided for in the Bankruptcy
Code, it has been a tool utilized by bankruptcy courts since
the Bankruptcy Act of 1898. Clearly, substantive consolidation is
a core matter as it “arises under” Title 11 or “arises in” a case
under Title 11. . . . The narrow holding of Stern v. Marshall does
not apply to the Motion for Substantive Consolidation.”)); In re
Land Resource, LLC, 505 B.R. 571, 581–82 (M.D. Fla. 2014) (holding that the bankruptcy court had constitutional adjudicatory

App. 163
even if that impact effectively precludes adjudication
of the merits of a state law claim.
Voya argues, primarily based on Digital Impact140
and CoreStates (or perhaps a combination of the two),
that the entry of a confirmation order containing releases constitutes an “adjudication” of its RICO Lawsuit, which Stern prohibits. Voya’s reliance on these
cases is misplaced. Taking the position that third party
releases in a plan are equivalent to an impermissible
adjudication of the litigation being released is, at best,
a substantive argument against third party releases,
not an argument that confirmation orders containing
releases must be entered by a district court. Indeed,
neither of these cases examine a bankruptcy judge’s
constitutional power to enter an order.
Moreover, Voya’s position rests on backwards reasoning—it examines the legal consequence of the confirmation order to find fault with the entry of the order,
rather than examining the propriety of issuing the confirmation order in the first instance. Citing Digital
Impact and CoreStates, Voya starts from a general
premise that a confirmation order containing third
party releases is res judicata with respect to the claims
it releases. Because res judicata requires that the
authority to enter order approving settlement that contained permanent injunction and bar order permanently enjoining nondebtors from pursuing claims against other non-debtors, and that
Stern is inapposite and should not be extended beyond its narrow
holding).
140
In re Dig. Impact, Inc., 223 B.R. 1 (Bankr. N.D. Okla.
1998).

App. 164
impacted action (the RICO Lawsuit) be based on the
same cause of action as the prior suit (the confirmation
order),141 Voya reasons that the confirmation order is
an adjudication on the RICO Lawsuit. And, because
the RICO Lawsuit is non-core, Voya concludes that I
cannot enter the confirmation order approving third
party releases because I could not enter a final order
in the non-core RICO Lawsuit absent its consent,
which it does not give.142 This is not the law.
First, as admitted by Voya’s counsel at argument,
Digital Impact does not hold that confirmation of a
plan of reorganization is an adjudication of the merits
of the RICO Lawsuit.143 Rather, Digital Impact states

141

“Claim preclusion requires: (1) a final judgment on the
merits in a prior suit involving; (2) the same parties or their privities; and (3) a subsequent suit based on the same cause of action.”
CoreStates, 176 F.3d at 194.
142
See Opt-Out Lenders’ Opening Brief on Remand Issues
17–18.
143
The Court: But isn’t confirmation what was in
front of me?
Mr. Redburn: Let me be clear about what I’m saying. Yes, confirmation is what was in front of you.
When you asked me what was in front of you I interpreted that as what was the claim as to which the
Court entered judgment and there were two things;
confirmation, but by through the release injunction
and bar order that was contained in the confirmation
plan that Your Honor confirmed—sorry, plan of reorganization that Your Honor confirmed that was a judgment that was entered on Voya’s claim.
The Court: And who says that other than Digital Impact? What case says that other than Digital Impact?

App. 165
that the release before it was “equivalent to issuing a
final judgment” in favor of the released party.144 Even
so, it is no more “equivalent to a final judgment” than
any other order issued by a bankruptcy judge that may
be used in subsequent litigation to establish a defense,
including the orders entered in Lazy Days, Linear, Hart
or Fisher Island.145
Second, Digital Impact is a pure jurisdictional
case. In Digital Impact, the bankruptcy judge held a
confirmation hearing and sua sponte raised two issues:
(i) whether the court could confirm a plan that did not
pay priority administrative claimants in full; and (ii)
whether the court had jurisdiction or power to enter an
order releasing a third party (Dickerson) from claims
Mr. Redburn: That’s an excellent question. The way
I would respond to it is I don’t have a specific case that
says that explicitly; however—
The Court: Because the case of Digital Impact
doesn’t say that either.
Mr. Redburn: I agree with that, however, it’s a matter of simple logic. What the effect of the release injunction and bar order is the exercise of judicial power to
extinguish a claim as a matter of law. If that’s not what
a judgment is I don’t know what is.
Oral Argument on Remand, July 27, 2017, Hr’g Tr. 80:21–81:19,
D.I. 456 (emphasis added).
144
Dig. Impact, 223 B.R. at 12.
145
See n. 136, 137, 138 supra. Until a litigant attempts to use
a bankruptcy order as a defense in subsequent litigation, and the
presiding court performs its analysis, it is not certain which defensive theory, if any, might be the most appropriate. The NonDebtor Equity Holders may also have the ability to bring a motion
to enforce the confirmation order.

App. 166
relating to his participation in the case. After post trial
briefing and argument, the Digital Impact judge found
that she did not have even “related to” jurisdiction over
any potential/theoretical third party litigation against
Dickerson because the outcome of that litigation would
not have any effect on the administration of the estate.146 The Digital Impact judge also questioned her
jurisdiction under § 1334 to grant releases at all—not
whether she or the district court must enter the final
order granting the releases. It is in this context that
Digital Impact cites Western Real Estate Fund (which
holds that section 524(e) prohibits third party releases)
for the proposition that a confirmation order containing releases is “equivalent” to a ruling on the merits of
the litigation it touches.147
Third, an analysis of CoreStates does not assist
Voya; rather, it is fatal to Voya’s theory. CoreStates analyzed the claim preclusive effect of a specific confirmation order and held that where a subsequent claim
arose from the same cause of action as a claim actually
asserted in the bankruptcy case and resolved by the
confirmation order, claim preclusion was applicable.148

146

The plan required simultaneous funding and distributions to creditors on the effective date. Dig. Impact, 223 B.R. at
12. Dickerson also waived any claims that he had against the estate. Id. at 5.
147
Id. While the Digital Impact judge does not adopt the
§ 524(e) statutory argument against releases, she states that
§ 524(e) embodies an important policy. See id. at 10.
148
CoreStates, 176 F.3d at 195–99. In its conclusion, the
Third Circuit stresses that CoreStates’ claims in subsequent

App. 167
It did not, as Voya suggests, hold that every confirmation order is res judicata on every issue raised in a
post-confirmation lawsuit. 149 More importantly, Voya
ignores the first ruling of the CoreStates Court: that a
confirmation order has claim preclusive effect on a “related to” proceeding if that proceeding otherwise meets
the requisites for res judicata.
CoreStates involved an intercreditor dispute between two lenders (CoreStates and Huls) regarding
which of them was entitled to funds from their mutual
borrower/debtor United Chemical Technologies. Prepetition, CoreStates, Huls and United Chemical were
parties to a subordination agreement under which
Huls agreed to hold in trust for CoreStates any funds
it might receive in a United Chemical bankruptcy, and
to immediately deliver any such funds to CoreStates.
When United Chemical subsequently filed its bankruptcy case, it sponsored a plan by which it proposed
to pay CoreStates over time and permit CoreStates
to retain certain liens. Huls was to receive $600,000
in cash on its claim. CoreStates objected to the plan
on the basis that the payment to Huls unfairly discriminated between creditors, but CoreStates did not
specifically base its objection on the subordination
litigation are precluded “because of the coincidence of several unusual circumstances.” CoreStates, 176 F.3d at 206.
149
Indeed, the following year, the Third Circuit held that a
confirmation order did not bar a subsequent lawsuit because the
later claim did not arise from the same cause of action as a claim
actually asserted in the earlier bankruptcy case. E. Minerals &
Chems. Co. v. Mahan, 225 F.3d 330, 339 (3d Cir. 2000) (discussing
CoreStates).

App. 168
agreement. CoreStates’ objection was overruled and
the plan was confirmed, After multiple appeals and
payment of the $600,000 to Huls, an amended plan was
confirmed; the amended plan did not change Huls’ plan
treatment or purport to change CoreStates’ rights visà-vis Huls. After confirmation, CoreStates sued Huls in
the district court on the subordination agreement, and
Huls raised a res judicata defense. Based on the specific facts and posture of the case, the district court
granted Huls’s motion to dismiss.
On appeal, CoreStates challenged not only the district court’s specific application of the doctrine of res
judicata, but whether the doctrine could be applied at
all. CoreStates argued that the preclusive effect of
bankruptcy court orders should be limited. Specifically,
CoreStates argued that the claim preclusion doctrine
should not “preclude claims that [fall] within the noncore ‘related’—as opposed to the core—bankruptcy jurisdiction.”150 In a several page discussion, the Third
Circuit recognized and discussed a split among the circuits with respect to the question of whether a bankruptcy judge—which can only hear, but not determine,
a non-core matter (absent consent)—could enter a confirmation order that could bar the prosecution of that
non-core matter. Siding with the majority of circuits,
and examining the Restatement (Second) of Judgments, the Third Circuit concluded that it could.151 The
Third Circuit was persuaded that a limitation on the
150
151

CoreStates, 176 F.3d at 195.
Id.

App. 169
judicial power of a judge is not a limitation on jurisdiction, and thus not a limitation on the preclusive effect
of the judge’s order. The Third Circuit, thus, ruled that
a confirmation order has preclusive effect with respect
to a non-core, “related to” proceeding if the proceeding
otherwise meets the requisites of the res judicata doctrine.152
CoreStates runs counter to Voya’s argument. It
comports with the conclusion reached from an analysis
of the Third Circuit’s decisions in Lazy Days and Linear, that an order entered by a bankruptcy judge may
“surely impact” state law claims.
D. Adopting the Voya Interpretation Would
Dramatically Change the Division of Labor Between the Bankruptcy and District Courts
Finally, I feel compelled to briefly address Voya’s
assertion on remand that under the Voya Interpretation “the vast majority of activities in which a bankruptcy court engages on a day-to-day basis, such as
issuing DIP financing orders, approving asset sales, allowing or disallowing claims against a debtor’s estate,
are entirely unaffected by Stern.”153 Voya makes this
proclamation in its opening brief on remand without
any analysis. As acknowledged at argument, however,
152

Voya’s res judicata argument is at odds with its position
that the merits of the RICO Lawsuit were not in front of me at
confirmation. See Part IV, infra.
153
Opt-Out Lenders’ Opening Brief on Remand Issues at 22.

App. 170
Voya recognizes at least two times when district courts
would be compelled to enter the final order approving
a debtor’s requested relief: (i) any § 363 sale of assets
in which a purchaser seeks to be free of successor liability—which is every § 363 sale of assets; and (ii) requests to compel annual meetings of stockholders.154
In addition to the contexts already examined in this
Opinion,155 I would add: (i) substantive consolidation of
debtors, and/or debtors and non-debtors (in which the
rights of creditors and non-creditors against nondebtor entities are rearranged); (ii) recharacterization
and/or subordination (in which state law debts are
transformed); (iii) requests to establish notice procedures to preserve a debtor’s net operating losses by
prohibiting trading in stock without certain advance
notice (in which trades in derogation of those procedures are declared void ab initio); and (iv) a sale of
property subject to a co-debtor stay (in which the court
compels the sale of a non-debtors’ interest in property). 156 Voya suggests that consent may permit the

154

Oral Argument on Remand, Hr’g Tr. at 119:16–122:20.
Those contexts are: (i) stay violation motions (in which
state law lien rights against third parties are adjudicated); (ii) involuntary proceedings (in which ownership issues between two
non-debtors are adjudicated); (iii) interpretation of previous orders (in which state law contractual rights are adjudicated) and
(iv) non-dischargeability litigation (in which judgment is entered
on state law claims).
156
These are not random thoughts. Since the Remand Decision, I have been asked to (i) approve a § 363 sale motion with
successor liability provisions, (ii) establish procedures for preservation of net operating losses, (iii) approve a sale of co-debtor
155

App. 171
bankruptcy court to enter a final order in these instances, but it seems at least arguable that consent
would be withheld to leverage a party’s position. As
Judges Krause and Ambro noted in their respective
discussions of equitable mootness in their separate
concurring opinions in One2One and Tribune, there is
ample room for gamesmanship by both debtors and
creditors in the bankruptcy context.157
While recognizing that even a slight encroachment by Congress into the prerogative of the Judicial
Branch cannot be tolerated, Chief Justice Roberts was
convinced that his ruling in Stern did not “change all
that much.”158 The main reason is that the bankruptcy
system already contemplates that certain state law
claims, such as Vickie-type counterclaims, are to be
property, and (iv) interpret a previous order approving substantive consolidation.
157
See, eg., One2One, 805 F.3d at 453 (Krause, J., concurring) (“we should be even less solicitous of parties who act
opportunistically or advocate unlawful plan provisions during
confirmation”); Tribune, 799 F.3d at 288–89 (Ambro, J., concurring) (“Without equitable mootness, any dissenting creditor with
a plausible (or even not-so-plausible) sounding argument against
plan confirmation could effectively hold up emergence from bankruptcy for years (or until such time as other constituents decide
to pay the dissenter sufficient settlement consideration to drop
the appeal), a most costly proposition.”) Indeed, the O’Hagan article cited by Voya appears to fall into this category. The author
describes his article as a look at “an underutilized—yet potent—
procedural weapon.” Eamonn O’Hagan, On a “Related” Point: Rethinking Whether Bankruptcy Courts Can “Order” the Involuntary
Release of Non-Debtor, Third-Party Claims, 23 AM. BANKR. INST.
L.R. 531, 531 (2015).
158
Stern, 131 S. Ct. at 2620.

App. 172
ultimately resolved by non-bankruptcy judges. As
Chief Justice Roberts observed, district court judges
review de novo and enter final orders in lawsuits that
allege “related to” claims, and bankruptcy courts must
or may abstain from ruling on state law disputes that
can be timely adjudicated. 159 But, there is no established alternative framework for ruling on core proceedings interpreting federal law that touch upon state
law rights.
For all of these reasons, I conclude that I had constitutional adjudicatory authority to enter a final order
confirming Millennium’s Plan.160

159

See 28 U.S.C. §§ 157(c), 1334 (c)(1)–(2).
As many courts before me, I performed a “related to” analysis in the first instance because that is the argument that Voya
made. Finding that I had at least “related to” jurisdiction, and
with this being the only non-merits challenge, I determined I had
subject matter jurisdiction and proceeded to analyze the merits of
the requested relief.
Given the analysis I have just performed (and the significant
time we have spent in chambers to be in a position to respond to
the district court’s question on remandA), I question whether this
“related to” analysis is the proper analytical framework to begin
with as it relates to confirmation of a plan containing releases.B
Some courts do not perform such an analysis. The circuit courts
deciding AOV Industries and Specialty Equipment held that the
bankruptcy court can rule on the legality of release provisions in
a plan consistent with the Constitution, and they ruled without
performing a “related to” analysis. Further, courts do not conduct
this analysis in other contexts in which third party litigation is
impacted.
Our research did not reveal the genesis of this analytical
framework, and an attempt to trace it back to its origins did not
supply a satisfying result. But at least one commentator has
160

App. 173

suggested it was improperly imported from decisions addressing
the court’s ability to issue injunctions temporarily staying third
party litigation.C Having immersed ourselves in the Stern question presented by the Remand Decision, I believe that to the extent a “related to” analysis is relevant to third party releases in
the confirmation context, it may act as a check on the outer boundaries of permissible releases, as a substantive matter.D In that regard, I agree with Judge Frank that perhaps many reported
decisions conflate, as Voya did in many ways here, subject matter
jurisdiction with the substantive merits.E Where I may part ways
with Judge Frank, however, is his suggestion that this distinction
may be wholly academic in most cases. If the “related to” analysis
is appropriate in the confirmation context, there would appear to
be no principled reason not to perform a “related to” analysis in
the many other contexts in which bankruptcy judges rule on matters that may impact private rights between non-debtors.
A

There is no denying the complexity of the cases interpreting the
Supreme Court’s holdings in the Article I/Article III arena.
Kirschner, 461 B.R. at 191 (citing cases). And, although distinct
from jurisdictional questions, a byproduct of answering the question on remand is the re-thinking of the entire framework of confirmation of plans containing releases.
B
I am not the first to do so. See In re Lower Bucks Hosp., 471 B.R.
419, 448 n.45 (Bankr. E.D. Pa. 2012), aff ’d sub nom. Bank of N.Y.
v. Becker (In re Lower Bucks Hosp.), 488 B.R. 303 (E.D. Pa. 2013),
aff ’d sub nom. In re Lower Bucks Hosp., 571 F. App’x 139 (3d Cir.
2014); Charles St., 499 B.R. at 99 (“It may or may not be appropriate for a court exercising bankruptcy jurisdiction to confirm a
plan containing a third-party release—and, if it is appropriate,
the manner and degree of relation of the released claim to the case
are certainly factors in the analysis—but the court undoubtedly
has jurisdiction to adjudicate the plan, even without recourse to
its related-to jurisdiction,”).
C
These injunctions are unmoored to confirmation of plans. See
generally Ralph Brubaker, Nondebtor Releases and Injunctions in
Chapter 11: Revisiting Jurisdictional Precepts and the Forgotten
Callaway v. Benton Case, 72 AM. BANKR. L.J. 1 (1988). While I do
not necessarily agree with Professor Brubaker’s conclusions, I

App. 174
III. Voya Both Forfeited and Waived any Constitutional Adjudicatory Authority Objection to my Ability to Enter a Final Order
Confirming the Plan
Even assuming that I did not have constitutional
adjudicatory authority to enter a final order confirming Millennium’s Plan, Voya forfeited the right to
appreciate the thought put into analyzing the genesis of the
framework.
D
Judge Frank was not confronted with this direct question either, but he posited:
Because there is no express provision of the Bankruptcy Code authorizing the confirmation of plans that
include third party releases, the decisional law on the
subject permitting confirmation of such plans appears
to be a judicial gloss on the statute, albeit one grounded
in 11 U.S.C. § 105. Viewed from that perspective, arguably, it may be more accurate to conceptualize a ruling,
in a particular case, that the bankruptcy court lacks
the authority to approve a particular third-party release or impose a particular injunction because the
nexus between the released or enjoined matter and the
bankruptcy case is too attenuated, as a decision of substantive bankruptcy law—i.e., establishing the boundary line of permissible plan provisions—rather than a
decision based on subject matter jurisdiction under 28
U.S.C, § 1334(b). But see Tenn. Student Assistance
Corp. v. Hood, 541 U.S. 440, 447 (2004) (suggesting
that the exercise of bankruptcy jurisdiction involves in
rem proceedings “premised on the debtor and his estate”).
Lower Bucks, 471 B.R. at 448 n.45.
E
Lower Bucks, 471 B.R. at 448 n.45 (“There is a reasonable case
to be made that [the objector] and perhaps the courts in some reported decisions, have conflated subject matter jurisdiction with
the substantive merits.”).

App. 175
contest my authority by not raising the argument.
Voya also implicitly consented 161 to my authority,
thereby waiving the right to contest it.
Waiver and forfeiture are commonly confused
terms. “Although jurists often use the words interchangeably,” 162 waiver and forfeiture have different
meanings. “[F]orfeiture is the failure to make the
timely assertion of a right[;] waiver is the ‘intentional
relinquishment or abandonment of a known right.’ ”163
In 2015, the Supreme Court ruled in Wellness that
litigants may consent to a bankruptcy court’s constitutional adjudicatory authority to enter final orders.164 If
litigants consent, any objection to a bankruptcy court’s

161

As Mr. Weintraub pointed out at argument, the use of the
word “consent” in the context of this case can be confusing as it is
used in myriad contexts. See Oral Argument on Remand, Hr’g Tr.
146:6–148:5. I will use the word “consent” when referring to
whether a party agrees that the bankruptcy court may enter a
final order on a matter (or has impliedly consented, or waived/forfeited the argument). I will use the word “assent” when referring
to whether a party has agreed to the grant of third party releases.
Lest anyone is confused, I find that Voya did not assent to the
granting of third party releases, but that it did consent (or
waived/forfeited any objection) to the entry of a final order on confirmation.
162
Kontrick v. Ryan, 540 U.S. 443, 458 n.13 (2004). While I
have attempted to adhere closely to these definitions in this Opinion, I believe certain intentional actions can constitute both a forfeiture and a waiver of a right.
163
Id. (quoting United States v. Olano, 507 U.S. 725, 733
(1993)).
164
Wellness, 135 S. Ct. at 1948–49.

App. 176
authority is waived. 165 Consent may be express or
implied, 166 but in either event must be knowing and
voluntary. 167 After the Supreme Court’s decision in
Wellness confirmed that litigants can consent to a
bankruptcy judge’s constitutional adjudicatory authority, many courts have found implied consent when
a party appears before a bankruptcy judge without
raising a constitutional objection. 168 While Wellness

165

Id., see also Commodity Futures Trading Comm’n v. Schor,
478 U.S. 833, 848 (1986) (“the entitlement to an Article III adjudicator is ‘a personal right’ and thus ordinarily ‘subject to
waiver.’ ”).
166
See, e.g., Wellness, 135 S. Ct. at 1948 (“[n]othing in the
Constitution requires that consent to adjudication by a bankruptcy court be express.”); Roell v. Withrow, 538 U.S. 580, 590
(2003) (“the Article III right is substantially honored” by permitting waiver based on “actions rather than words.”).
167
See Wellness, 135 S. Ct. at 1948 (citing Roell, 538 U.S. at
588 n.5).
168
See Mandel v. Jones, No. 4:12-cv-87, 2016 WL 4943366, at
*5 (E.D. Tex. Sept. 16, 2016) (holding that parties may impliedly
consent when a bankruptcy judge hears evidence and testimony
without objection by the parties) (citing In re McCollom Interests,
LLC, 551 B.R. 292, 300 (Bankr. S.D. Tex. 2016) (“[T]his Court
held two hearings during which two of the Firm’s attorneys appeared and gave testimony; and the Firm never objected to this
Court’s constitutional authority to enter a final order. . . . If these
circumstances do not constitute implied consent, nothing does.”));
Campbell v. Carruthers (In re Campbell), 553 B.R. 448, 452
(Bankr. M.D. Ala. 2016) (misprint in published decision, but
available in Westlaw version) (concluding that a defendant’s failure to appear and defend against claims in an adversary proceeding, despite service of the summons, constituted knowing and
voluntary consent to a non-Article III adjudicator within the
meaning of Wellness) (and cases cited therein); In Matter of Smiley, 559 B.R. 215, 217 (Bankr. N.D. Ind. 2016) (finding implied

App. 177
primarily focused on consent, the Supreme Court also
recognized that a party can forfeit a constitutional
right.169 Both the concept of implied consent and forfeiture increase judicial efficiency and check gamesmanship.
On remand, I asked the parties to brief the issue
of whether Voya had waived any argument that I
lacked constitutional adjudicatory authority to enter a
final order confirming Millennium’s Plan. I did so for a
simple reason—I believed I had ruled on all objections
fairly raised at the confirmation hearing. I did not remember the words “constitutional adjudicatory authority,” “proposed findings of fact and conclusions of
law,” “report and recommendation,” or the like in any
of Voya’s confirmation submissions or in Voya’s argument at confirmation. But, recognizing that I could be
incorrect, I asked the parties to identify the portions of
the record in which Voya made its Stern argument.170
In its submissions on remand, Voya identified the
following portions of the record: (i) its “Local Rule
9013-1(h) reservation of rights;” and (ii) Paragraph 24
consent when litigants “actively participate in the proceeding,
knowing their rights, but choose not to assert them”).
169
Wellness, 135 S. Ct. at 1949 (The Supreme Court left it to
the Seventh Circuit on remand to decide “whether Sharif ’s actions evinced the requisite knowing and voluntary consent,” if so,
consent waives the right to an Article III judge, “and also
whether, as Wellness contends, Sharif forfeited his Stern argument below.”).
170
In requesting this briefing, I trust I have not erred or
hopelessly ventured beyond the scope of the questions presented
to me by the Remand Decision.

App. 178
of Voya’s Initial Confirmation Objection. 171 Voya also
pointed to the Debtors’ statements and written submissions regarding Stern as well as its own lack of assent to the releases. I will address each of these items
in order.
Delaware Local Bankruptcy Rule 9013-1(h) (the
“Local Rule”) provides:
All objections or other responses to a motion
filed pursuant to this Rule [which pertains to
any motion or application filed in a main
bankruptcy case, see L.R. 9013-1(a)] shall contain a statement that the filing party does or
does not consent to the entry of final orders or
judgments by the Court if it is determined
that the Court, absent consent of the parties,
cannot enter final orders or judgments consistent with Article III of the United States
Constitution. If no such statement is included,
the filing party shall have waived the right to
contest the authority of the Court to enter final orders or judgments.172
The Local Rule appears to serve two purposes. It draws
one bright line for waiver determinations: if a party
does not include the proposed statement in its filing
171

Opt-Out Lenders’ Reply Brief on Remand Issues at 11,
June 12, 2017, D.I. 444.
172
Del. Bankr. L.R. 90134(h), http://www. deb.uscourts.gov/
court-info/local-rules-and-orders/local-rules?items_per_page=All
(emphasis added). The current version of Local Rule 9013-1(h)
was added to Delaware Local Bankruptcy Rules in 2013. Compare
L.R. 90134(h) (2012) with L.R. 9013-1(h) (2013), http://www.deb.
uscourts.gov/local-rules-and-orders.

App. 179
(and has not actually made a constitutional argument),
the party has waived its right to contest the bankruptcy judge’s entry of a final order on the proceeding
before the court.173 Conversely, if a party includes the
proposed statement in its filing, the Local Rule appears
to provide a “safe harbor” and the constitutional adjudicatory authority issue is not waived by way of that
initial filing.174
By pointing to the Local Rule, Voya equates not
waiving the right with actually making the argument.
But, they are not the same, and the rule does not suggest as much. Reciting the statement in the Local Rule
is no substitute for timely making the argument
clearly and unequivocally in a subsequent filing. 175

173

Additionally, the Local Rule provides parties and counsel
with notice of the need to object to entry of final orders by a bankruptcy judge. Cf. In re Campbell, 553 B.R. at 452 (implied consent
exists when defendant ignores summons containing language
stating that a failure to respond to the summons will be deemed
consent to entry of a judgment by the bankruptcy court) (misprint
in published decision, but available in Westlaw version). Voya
does not argue that it was not aware of the ability or need to challenge my constitutional authority to enter a final order.
174
Indeed, it is not uncommon for a party to put such a statement in its Notice of Appearance.
175
Of course, placing the statement in a submission in which
a constitutional adjudicatory authority argument is actually
made is entirely unnecessary as the argument has not been
waived. Conversely, placing the statement in a submission ought
to mean that the constitutional argument was not made in it.

App. 180
Failure to make the argument negates any previous
“reservation” of the right to do so.176
In any event, Voya did not insert the Local Rule
verbatim into its submission. Instead, Voya changed
the language of the Local Rule in its filing to state:
By submitting this Memorandum of Law, the
Opt-Out Lenders do not consent to the entry
of a final judgment or order on any issue, including but not limited to confirming the Plan,
if it is determined that this Court, absent the
consent of the parties, lacks jurisdiction to enter a final order or judgment consistent with
Article III of the United States Constitution.177
The next sentence stated:
FOR THE AVOIDANCE OF DOUBT, THE
OPT-OUT LENDERS DO NOT CONSENT,
AND HEREBY OBJECT, TO THE THIRDPARTY RELEASE, BAR ORDER, AND
PLAN INJUNCTION (TO THE EXTENT
THE BAR ORDER AND/OR PLAN INJUNCTION WOULD IMPAIR THE OPT-OUT
LENDERS’ DIRECT CLAIMS AGAINST
NON-DEBTOR ENTITIES).178
Although Voya’s editing of the Local Rule only changed
a few words—from “if it is determined that the Court,
176

Voya places its modified Local Rule statement in a “reservation of rights” section, which is a common misnomer.
177
See Initial Confirmation Objection ¶ 75 (emphasis added).
178
Id.

App. 181
absent consent of the parties, cannot enter final orders
or judgments” to “if it is determined that this Court,
absent the consent of the parties, lacks jurisdiction to
enter a final order or judgment”—the changes are significant. Voya changed the words to reflect a jurisdictional argument (the subject matter jurisdiction
argument it raised) rather than a constitutional argument. Ultimately, however, Voya’s true focus was the
next sentence, which signaled in all caps and bolded
text, that Voya did not assent to the third party releases.
The Local Rule is not a trump card for parties to
hide behind, allowing them to wait and see how the
judge rules before crying “Stern.” If a party has a constitutional objection to the bankruptcy judge’s adjudicatory authority to enter final orders, it is incumbent
upon the party to place that objection squarely before
the judge. In expedited proceedings, such as Millennium’s confirmation hearing, it is all the more critical
that the specific argument be brought to the judge’s attention at the hearing as well. The insertion in a
party’s submission of the statement in the Local Rule
(modified or not)—with nothing more—is not sufficient
to make a constitutional objection.179
179

See, e.g., In re Ins. Brokerage Antitrust Litig., 579 F.3d
241, 262 (3d Cir. 2009) (“[T]he crucial question regarding waiver
is whether defendants presented the argument with sufficient
specificity to alert the district court.” (internal quotation and citation omitted)); Shell Petroleum, Inc. v. U.S., 182 F.3d 212, 218
(3d Cir. 1999) (“a party still must unequivocally put its position
before the trial court at a point and in a manner that permits the
court to consider its merits.” (citation omitted)); Keenan v. City of

App. 182
Voya suggests that Paragraph 24 of its Initial Confirmation Objection provides the “something more.”
Paragraph 24 is the first of four paragraphs under the
substantive heading “The Court Does Not Have Jurisdiction To Approve The Third-Party Release Or Related Provisions Of The Plan.” It reads, in full:
The jurisdiction of the Bankruptcy Courts is
statutorily defined, and is confined to the
boundaries of that statutory definition. Stern
v. Marshall, 564 U.S. 462, 131 S. Ct. 2594,
2603 (2011) (noting that Bankruptcy Courts
may only “hear and enter final judgments in
all core proceedings arising under title 11, or
arising in a case under title 11”); see also Wellness Int’l Network, Ltd. v. Sharif, 135 S. Ct.
1932, 1945 (2015) (observing that “bankruptcy courts possess no free-floating authority to decide claims traditionally heard by
Article III courts”); 28 U.S.C. § 157(a). Rather,
Bankruptcy Courts may only enter final judgments on non-core matters with the consent
of the affected parties. Wellness, 135 S. Ct. at
1949. Because the Third-Party Release would
impact direct, non-bankruptcy claims held by
non-Debtors against other non-Debtors and
which would not trigger the Court’s jurisdiction, the Court does not have jurisdiction to
approve the Third-Party Release without the
consent of the Third Party Releasing Parties.

Phila., 983 F.2d 459, 471 (3d Cir. 1992) (“[T]he crucial question
regarding waiver is whether defendants presented the argument
with sufficient specificity to alert the [trial] court.”).

App. 183
The Opt-Out Lenders have not given such
consent.180
Nowhere in this paragraph does Voya challenge my
constitutional authority to enter a final order confirming Millennium’s Plan. Read in context, this paragraph
appears to be the first paragraph of an introductory jurisdictional section, citing Stern and Wellness for general jurisdictional principles.181 And, it is yet another

180

Initial Confirmation Objection ¶ 24.
The entirety of the section reads as follows:
25. Bankruptcy Courts have core jurisdiction over
four specific types of matters: “(1) cases under [the
Bankruptcy Code], (2) proceeding[s] arising under [the
Bankruptcy Code], (3) proceedings arising in a case under [the Bankruptcy Code], and (4) proceedings related
to a case under [the Bankruptcy Code].” Binder v. Price
Waterhouse & Co., LLP (In re Resorts Int’l, Inc.), 372
F.3d 154, 162 (3d Cir. 2004) (citation and internal quotation marks omitted); see also 28 U.S.C. § 1334(a)—
(b).
26. A proceeding solely between non-debtor parties based on non-bankruptcy law can never fall within
a Bankruptcy Court’s “arising under” jurisdiction. Rather, such proceedings can only lie within a Bankruptcy Court’s “related to” jurisdiction, and then only
“if the outcome could alter the debtor’s rights, liabilities, options, or freedom of action (either positively or
negatively) and which in any way impacts upon the
handling and administration of the bankrupt estate [.]”
Pacor, Inc. v. Higgins, 743 F.2d 984, 994 (3d Cir. 1984)
(citations omitted); see also In re Combustion Eng’g,
Inc., 391 F.3d 190, 226 (3d Cir. 2004). The Third Circuit
has reaffirmed the Pacor test, subject to the limitations
discussed below. See, e.g., id.; In re Federal-Mogul
Global, Inc., 300 F.3d 368 (3d Cir. 2002).

181

App. 184
statement that Voya does not assent to third party releases. In any event, the argument that Voya now
makes is not contained in Paragraph 24.
At oral argument, Voya admitted that its position
on remand is novel and that nobody has “really articulated this issue in the way it’s being articulated to this
Court before.”182 On that basis, it is all the more important that Voya articulate its position fully and with
specificity, in both its written submissions and at oral
argument. Any general discussion of or general reference to Stern did not make a constitutional adjudicatory authority argument.183

27. The Court “cannot simply presume it has jurisdiction in a bankruptcy case to permanently enjoin
third-party . . . actions against non-debtors.” Gillman
v. Continental Airlines (In re Continental Airlines), 203
F.3d 203, 214, n.12 (3d Cir. 2000). Thus, as a threshold
issue to confirmation of the Plan, the Court must evaluate whether it has jurisdiction to release and enjoin
claims of non-consenting non-Debtors against other
non-Debtors. The Opt-Out Lenders respectfully submit
that the Court does not have such jurisdiction and thus
should not confirm the Plan as proposed.
Id. at ¶ 25–27.
182
Oral Argument on Remand, Hr’g Tr. 100:21–102:1.
183
See, e.g., United States v. Perminter, No. 10-204, 2012 WL
642530 (W.D. Pa. 2012) (“While the Government did cite to Samson in its opposing brief, ‘simply citing a case in the District Court
is not sufficient to raise all arguments that might flow from it.’ ”
(citations omitted)); In re Inv. Sales Diversified, Inc., 49 B.R. 837
(Bankr. D. Minn. 1985) (while both parties cited to and argued for
and against the application of a previous decision, defendants did
not plead or effectively raise collateral estoppel and so that defense was waived); Walsh v. Mellas, 837 F.2d 789, 799–800 (7th

App. 185
Moreover, the Debtors’ references to Stern in their
written submission or in argument do not assist Voya
here. It [sic] its confirmation submission, the Debtors
apparently treated the above paragraph 24 (with its
citation to Stern) as a possible constitutional argument
and responded to it accordingly.184 Voya filed its Supplemental Confirmation Objection in response. 185
Although Voya’s Supplemental Confirmation Objection
Cir. 1988) (“In Walsh I, the defendants ‘raised’ the defense in their
answer to plaintiff ’s complaint, but failed to bring the argument
to the court’s attention, despite their having had numerous opportunities to do so. The cases holding that an omission of this
character constitutes a waiver of the right to present that issue
on appeal are legion. The mere fact that an obscure reference to
defendants’ ‘good faith’ is contained in one of the defendants’
pleadings does not suffice to preserve that issue for appeal. [A]
trial judge may properly depend upon counsel to apprise him of
the issues for decision. He is not obligated to conduct a search for
issues which may lurk in the pleadings.” (citations and footnotes
omitted)).
184
See Debtors’ Response to Voya’s Objection to Confirmation of Proposed Chapter 11 Plan at 17–19, Dec. 7, 2015, D.I. 131;
Oral Argument at Dec. 10 Hearing, Hr’g Tr. 33:2–34:2.
185
The introductory paragraph to Voya’s submission reads:
“The Opt-Out Lenders, as defined in the Memorandum of Law of
the Opt-Out Lenders in Opposition to (I) Approval of the Disclosure Statement, (II) Approval of the Class 2 Ballot, and (III) Confirmation of the Prepackaged Joint Plan of Reorganization of
Millennium Lab Holdings II, et al., by and through their undersigned counsel, hereby submit this supplemental memorandum of
law in response to the briefs submitted by TA (the ‘TA Br.’), D.I.
124, the Debtors (the ‘Debtors’ Br.’), D.I. 131, and James Slattery
(the ‘Slattery Br.’ and collectively with the TA Br. and the Debtors’ Br., the ‘Confirmation Briefs’), D.I. 136. In response to the
arguments set forth in the Confirmation Briefs, the Opt-Out
Lenders respectfully state as follows . . . ” Supplemental Confirmation Objection 1.

App. 186
replies to the Debtors’ “arising in” and “related to” jurisdictional arguments, it does not reply at all to the
Debtors’ constitutional argument. The words “Stern” or
“constitution” do not appear in the Supplemental Confirmation Objection, nor does Voya object to the entry
of a final order in connection with confirmation or request that proposed findings of fact and conclusions of
law be submitted to the district court.186 Failure to respond to an argument simply cannot be construed as
making an argument.187
Similarly, Voya failed to respond to the Debtors’
preemptive Stern comments made at argument. At no
time during the confirmation hearing did Voya utter
the word Stern, make any constitutional adjudicatory
authority argument, or contend that I was limited to
submitting proposed findings of fact and conclusions
of law to the district court. Nor did Voya speak up
once I concluded my Bench Ruling or even after I
asked whether any party had a question or clarification it needed to make on the record. While the United
States Trustee offered comments on the proposed
form of order immediately after my Bench Ruling and
186

Voya does, again, “reserve” whatever rights it previously
“reserved” in paragraph 75 of its Initial Confirmation Objection.
Supplemental Confirmation Objection ¶ 39.
187
See Diaz v. Bullock, No. 13–5192 (JLL), 2014 WL 5100560,
at *3 (D.N.J. Oct. 10, 2014) (“Plaintiff did not respond to Defendants’ jurisdictional arguments at all, which constitutes a waiver
of this issue.”); Walker v. E.I. du Pont de Nemours and Co., 199
F. Supp. 3d 883, 896 (D. Del. 2016) (plaintiff abandons claim
stated in complaint where he fails to mention it in his opposition
to a motion for summary judgment).

App. 187
subsequently as reflected in the Debtors’ December 14,
2015 letter, Voya stood silent.188
Voya’s actions after the confirmation order was entered provide further evidence that Voya did not raise
a Stern objection to my entry of the confirmation order.
Voya immediately appealed the confirmation order,
and as reflected in Voya’s Statement of the Issues on
Appeal, Voya did not identify my entry of a final order
as an issue on appeal. Rather, consistent with its theory of the case, Voya appealed my decision that the
RICO Lawsuit was “related to” the bankruptcy case
(Issue 1), the substantive issue of whether nonconsensual releases are ever permissible (Issue 2), the standard for assessing third party releases if they are
permissible (Issue 3), issues surrounding the appropriate financial contribution to support a release; (Issues
4 and 5) and whether I properly applied the correct legal standard to the facts of the case, assuming both
subject matter jurisdiction and that releases are permissible (Issue 6). Because Voya appealed every ruling
I made, had Voya raised the Stern issue prior to the
entry of the confirmation order, no doubt its Statement
188

Typically, I would be skeptical of the Debtors’ argument
that Voya consented to the entry of a final order when it failed to
specifically object to such in the context of the settlement of the
order. The settlement of an order is not the time to re-hash objections. Standing alone, I would reject this argument. But, in context, I find it another indication that Voya waived and/or forfeited
any Stern argument. Further, I reject Voya’s argument that it believed I had ruled on the constitutional issue and, if not, that
there was no “meeting of the minds.” See, e.g., Oral Argument on
Remand, Hr’g Tr. 213:12–213:20. Voya’s contractual standard is
not relevant.

App. 188
of Issues on Appeal would have included a question of
whether I erred in entering a final order confirming the
Plan.
Finally, Voya points to its statements, both verbally and in writing, that it “does not consent” to the
third party releases as an indication that it was objecting to the entry of a final order on a constitutional basis. It is undisputed that Voya did not assent to the
grant of third party releases. That was the crux of
Voya’s objection, the very issue at the heart of the confirmation hearing, and the reason for evaluating the
Continental hallmarks and the Master Mortgage factors. The question is not whether Voya assented to the
third party releases or whether the releases were permissible (a question addressed by any number of reported decisions), but whether Voya objected to the
entry by a bankruptcy judge of a final confirmation order approving those releases (an argument rarely
made).
As is plain, I believe that Voya simply did not
make the argument, which constitutes a forfeiture. The
Debtors contend that Voya made a strategic decision to
hold the argument in reserve in order to both obtain
the consideration under the Plan and to have the ability to ask for a direct certification to the Third Circuit
on whether nonconsensual third party releases are
ever permissible. In other words, the Debtors contend
that Voya’s litigation strategy was to get to the Third
Circuit as soon as possible. To support their conclusion,
the Debtors point to the following: (i) Voya’s true argument was that no judge—neither a bankruptcy judge

App. 189
nor a district judge—could impose a release on Voya
without its assent because of a lack of subject matter
jurisdiction; (ii) Voya never asked in court that I issue
proposed findings of fact and conclusions of law; (iii)
Voya did not ask the Debtors’ counsel to include in his
December 14, 2015, letter a request that I issue proposed findings of fact and conclusions of law; and (ix)
Voya needed a final order as a predicate for seeking a
direct appeal to the Third Circuit.189
To the extent that Voya intended to keep its constitutional objection in its back pocket to be used on
appeal if it was not successful before me, such gamesmanship is prohibited, establishes intent and implied
consent and therefore constitutes waiver. 190 On the
other hand, if Voya simply wanted a final order entered
to be in a position to file the Certification Motion (without giving thought one way or the other to Stern’s constitutional proscriptions), this was also an intentional
189

Oral Argument on Remand, Hr’g Tr. at 140-157. I note
that the Certification Motion was filed on the same day that the
confirmation order was entered on the docket.
190
See, e.g., Wellness, 135 S. Ct. at 1948 (implied consent increases judicial efficiency and checks gamesmanship); see also
Roell, 538 U.S. at 590 (“Inferring consent in these circumstances
thus checks the risk of gamesmanship by depriving parties of the
luxury of waiting for the outcome before denying the magistrate
judge’s authority.”); Stern, 131 S. Ct. at 2608 (the consequences of
“a litigant . . . ‘sandbagging’ the court—remaining silent about his
objection and belatedly raising the error only if the case does not
conclude in his favor—can be particularly severe. If Pierce believed that the Bankruptcy Court lacked the authority to decide
his claim for defamation, then he should have said so—and said
so promptly.” (citations omitted)).

App. 190
act resulting in implied consent to my constitutional
adjudicatory authority, and therefore constitutes
waiver.
But even if I credit Voya’s contention that it either
preserved its constitutional adjudicatory argument
through its modified Local Rule language or made such
an argument in its written submission, Voya fares no
better. It is beyond dispute that Voya did not make a
constitutional adjudicatory authority argument or request that I enter proposed findings of fact and conclusions of law at the confirmation hearing. Voya had
plenty of opportunity to do so.191 To the extent, therefore, that Voya’s written submission could ever be considered to evidence an intent not to consent to final
orders, its failure to raise the Stern issue at argument
constitutes a waiver or abandonment of that right.192
To summarize:
•

Voya did not include in its Initial Confirmation Objection the statement found in Local
Rule 9013-1(h) and so, per the Local Rule,
Voya waived the right to contest my authority
to enter a final order confirming the Plan;

•

Voya did not actually make a constitutional
adjudicatory authority argument in either its
Initial Confirmation Objection or its Supplemental Confirmation Objection and so Voya
forfeited its right to contest my authority to

191

Voya’s entire oral argument on its confirmation objection
was twenty minutes of a five-hour hearing.
192
See n.187, supra.

App. 191
enter a final order confirming the Plan as it
did not timely assert that right;
•

To the extent Voya made a strategic decision
to hold its constitutional authority argument
in reserve for appeal in order to receive its
Plan consideration and to seek direct certification to the Third Circuit, Voya waived any
constitutional right to contest my authority to
enter a final order confirming the Plan;

•

To the extent that Voya was not acting strategically with respect to a Stern argument, but
simply wanted a final order so that it could
seek direct certification to the Third Circuit,
Voya waived any constitutional right to contest my authority to enter a final order confirming the Plan; and

•

To the extent that Voya believed it made a
constitutional adjudicatory authority argument in its Initial Confirmation Objection, its
failure to respond to the Debtors’ constitutional argument both in its Supplemental
Confirmation Objection and during oral argument at the confirmation hearing constituted
a waiver and an abandonment of the right to
contest my authority to enter a final order
confirming the Plan.

For the above reasons, I conclude that Voya waived
or forfeited any argument that it was entitled to have
an Article III court enter a final order confirming Millennium’s Plan.

App. 192
IV. Even if Voya was Entitled to a Hearing on
the Merits of the RICO Lawsuit in the Context of Confirmation, Voya Waived that
Right
In its Remand Decision, the District Court provided two options in the event that I concluded I did
not have constitutional adjudicatory authority to enter
the order confirming Millennium’s Plan: strike the
third party release relative to Voya’s claims in the
RICO Lawsuit, or submit proposed findings of fact and
conclusions of law on them. Because I conclude that I
did have such authority, I need not do either.
But, even if I found to the contrary, I would not
take either path here. If I am wrong, and I did not have
constitutional adjudicatory authority to enter a final
order, the district court may treat the confirmation order as proposed findings of fact and conclusions of
law.193 While the district court would have to enter the
final order confirming the Plan, the standard for third
party releases is still the same. Third party releases
may be granted in the context of confirmation if the
plan proponent can prove that it meets the Continental
hallmarks of fairness and necessity to the reorganization. Stern does nothing to change that standard; Stern
speaks only to which judge must enter the final order.
Voya consistently and repeatedly took the position—at the confirmation hearing and on remand—
193

United States District Court for the District of Delaware
Amended Standing Order of Reference, In re Standing Order of
Reference Re: Title 11, February 29, 2012.

App. 193
that the merits of the claims in its RICO Lawsuit were
not before me. Voya’s argument at confirmation was
that I did not have subject matter jurisdiction over the
RICO Lawsuit and therefore could not grant the releases, and in any event, the releases were not warranted under the Continental hallmarks and/or the
Master Mortgage five factor test. As set out in Part II,
that standard considers the terms of the plan, the outcome of the solicitation and the necessity of the injunction to the success of the plan; the standard does not
look at the merits of the claims being released nor did
Voya argue that it does. Thus, the gravamen of Voya’s
objection did not put the merits of its claims against
the Non-Debtor Equity Holders at issue.
In fact, Voya took the exact opposite view. Voya
was clear that it was not putting the merits of the
RICO Lawsuit at issue in the confirmation hearing,
and balked at the Debtors’ suggestion that it had to.
Voya succinctly summed up its position in its Supplemental Confirmation Objection made the day prior to
the confirmation hearing:
The Plan Proponents’ suggestion that [Voya
is] somehow required to prove the merits of
their claims in the Plan confirmation process
in order to avoid having a release imposed
against their will is utterly without merit. It
is for the District Court to adjudicate the merits of [Voya’s] claims. Consistent with fundamental principles of bankruptcy jurisdiction
and substantive bankruptcy law, this Court
cannot lawfully compel the release of those

App. 194
claims, regardless of its view as to their
likelihood of success.194
The very idea that the merits were before me ran directly counter to the main thrust of Voya’s argument
that no court (not the bankruptcy court nor the district
court) could enter an order approving third party releases because Voya was entitled to a hearing on the
merits of its RICO Lawsuit by Judge Sleet in the context of that lawsuit.195
On remand, Voya made the same argument—that
the merits of its RICO Lawsuit were not in front of
me—and therefore Voya should not, and could not, put
on evidence regarding its claims against the NonDebtor Equity Holders. In its recently submitted proposed findings of fact and conclusions of law,196 Voya
asks me to make the following finding:
194

Supplemental Confirmation Objection ¶ 38 n.15 (emphasis added).
195
While perhaps Voya could have asserted an alternate position, it did not do so.
196
The parties were invited to submit proposed findings of
fact and conclusions of law in support of their submissions on remand and both parties did. D.I. 438, 463. Not surprisingly, the
submissions are widely divergent, not only as to the findings and
conclusions themselves, but with respect to the topics they cover.
The Debtors’ submission included findings and conclusions with
respect to the claims asserted in the RICO Lawsuit based on general evidence submitted at confirmation and the proposition that
I could judge the claims based on the survey standard used in the
settlement context. Of course, the Debtors’ proposed findings and
conclusions found Voya’s claims had no merit. Voya’s proposed
findings and conclusions did not go to the merits of its claims
against the Non-Debtor Equity Holders. Rather, Voya’s findings

App. 195
48. As the District Court observed, this
Court “did not conduct any proceedings on the
merits of the [RICO Lawsuit], and [the District] Court is not in any position at this point
to adjudicate those claims (on which, among
other things, no discovery has been taken).”
Opinion at 27. The [RICO Lawsuit] was not
filed in this Court, was not referred to this
Court by the District Court, and was not (nor
could it have been, as no Debtor was a party)
removed to this Court for adjudication.
Simply put, the merits of the [claims asserted
in the RICO Lawsuit] have never been presented to or considered by this Court. Accordingly, this Court is not in a position to conduct
any proceedings on the merits of the [RICO
Lawsuit] or to submit to the District Court
any findings of fact or conclusions of law on
the merits, or any other final disposition, of
the [the claims asserted in the RICO Lawsuit].197
At no time, therefore, did Voya put on, or intend to put
on, any evidence with respect to its claims against the
Non-Debtor Equity Holders. Instead, Voya asserted
that the merits of its claims were not relevant to the
confirmation hearing.

stated, among other things, that I could not reach the merits of
the claims as they were not before me.
197
Voya’s Proposed Findings of Fact and Conclusions of Law
at 26, Aug. 16, 2017, D.I. 463 (footnote omitted) (emphasis added).
Consistent with its true position, Voya never asked for discovery
nor did it ask that the confirmation hearing be delayed because it
needed discovery.

App. 196
As previously discussed, on remand, Voya now
maintains that the grant of releases in the confirmation order was an actual adjudication of its claims in
the RICO Lawsuit. Voya cannot have it both ways. If
the entry of the confirmation order was an actual adjudication of Voya’s claims, then it was incumbent on
Voya to submit evidence on the merits of its claims at
the confirmation hearing.198 It did not do so.199
Based on the foregoing, even if I had concluded
that I did not have the constitutional adjudicatory authority to enter a final order confirming the Plan, I
would not now submit proposed findings of fact and
198

Debtors cite several cases for the proposition that a party
objecting to plan confirmation must provide evidence in support
of its objection. See [Proposed] Findings of Fact and Conclusions
of Law, and Order Granting Third Party Releases and Related
Relief Provided in Debtors’ Confirmed Chapter 11 Plan and the
Confirmation Order ¶ 124, May 19, 2017, D.I. 438 (citing In re
Hercules Offshore, Inc., 565 B.R. 732, 766 (Bankr. D. Del. 2016));
In re All Land Invs., LLC, 468 B.R. 676, 688 (Bankr. D. Del. 2012);
In re Tribune Co., 464 B.R. 126, 151 (Bankr. D. Del. 2011). While
I do not know that I agree with this conclusion in every context, I
do here. In this case, it is an appropriate conclusion to reach in
the face of an argument that the entry of the confirmation order
was an adjudication of the merits of Voya’s claims. Accordingly, I
find that on the facts and arguments made in this case, Voya did
not meet its burden of proof to present evidence on the merits of
its claims in the RICO Lawsuit.
199
Voya is also arguing on remand that its asserted right to
a jury trial in the RICO Lawsuit supports the position that I could
not enter a final order confirming Millennium’s Plan. This appears to be yet another after-the-fact argument as Voya did not
raise its right to a jury trial during the confirmation hearing or in
proceedings before the district court on appeal. See Oral Argument on Remand, Hr’g Tr. 76:9–12, 77:13–78:17.

App. 197
conclusions of law to the district court on the merits of
Voya’s RICO Lawsuit. To the extent that Voya was entitled to any hearing on the merits of its claims in connection with the confirmation hearing, it consciously
chose not to avail itself of that opportunity. And, it continues to make that choice. To the extent Voya had a
right to a hearing on the merits of its RICO Lawsuit in
connection with plan confirmation, Voya intentionally
relinquished that right. It has, therefore, been waived.
CONCLUSION
The district court remanded this case to me so that
I could rule on my constitutional adjudicatory authority to issue Millennium’s confirmation order. In doing
so, the district court recognized that remanding this
case to me “was far from ideal at this stage of the Chapter 11 proceedings,” but believed that “given [my] experience and expertise, [I] should rule on this issue
first.” I trust this Opinion will aid the district court on
appeal.
Dated: October 3, 2017
/s/ Laurie Selber Silverstein
LAURIE SELBER SILVERSTEIN
UNITED STATES
BANKRUPTCY JUDGE

App. 198
IN THE UNITED STATES DISTRICT COURT
FOR THE DISTRICT OF DELAWARE
IN RE:
MILLENNIUM LAB
HOLDINGS II, LLC, et al.,

:
:
:
:
Debtors.
:
__________________________ :
:
OPT-OUT LENDERS,1
:
Appellants,
:
:
v.
:
MILLENNIUM LAB
:
HOLDINGS II, LLC, et al., :
TA MILLENIUM, INC.,
:
and JAMES SLATTERY,
:
Appellees.
:

Chapter 11
Bankr. Case No.
15-12284-LSS
(Jointly
Administered)
Civ. No. 16-110-LPS.
CORRECTED
OPINION, ADDING
FOOTNOTE 4,
ISSUED ON
MARCH 20, 2017

MEMORANDUM OPINION
(Filed Mar. 20, 2017)
Millennium Lab Holdings II, LLC, and its affiliated reorganized debtors (collectively, the “Debtors”),
move this Court (D.I. 6) (the “Motion to Dismiss”)2
to dismiss the appeal filed by ISL Loan Trust and certain affiliated funds (collectively, “Appellants”) from an
1

Appellants are identified in Appellants’ Brief in Support of
Appeal from Bankruptcy Court Order Confirming Debtors’ Plan
of Reorganization. (D.I. 13 at 1)
2
The Motion to Dismiss (D.I. 6) is joined by James Slattery
(D.I. 10) as well as TA Millennium, Inc. and TA Associates Management L.P. (D.I. 11).

App. 199
order (B.D.I. 195)3 (“Confirmation Order”) entered by
the United States Bankruptcy Court for the District of
Delaware (“Bankruptcy Court”) confirming the Debtors’ Amended Prepackaged Joint Chapter 11 Plan of
Reorganization (B.D.I. 182) (as amended, the “Plan”),
on the basis that the appeal is equitably moot. For the
reasons stated below, the Court will deny the Motion
to Dismiss without prejudice and remand to the Bankruptcy Court for further proceedings.
INTRODUCTION4

I.

The appeal of the Confirmation Order concerns a
matter of some controversy: the approval of nonconsensual third-party releases (i.e., the involuntary extinguishment of a non-debtor, third-party’s claim against
another non-debtor, third party) as part of a chapter 11
plan of reorganization. Here, the Plan released a nondebtor, third-party’s direct, non-bankruptcy, common law fraud and RICO claims against non-debtor
equity holders. The issues on appeal include, inter alia,
3

The docket of the Chapter 11 cases, In re Millennium Lab
Holdings II, LLC, et al., Case No. 15-12284-LSS (Bankr. D. Del.),
is referred to herein as “B.D.I. ___.”
4
In the original version of this Opinion (issued on March 17,
2017), the Court inadvertently failed to include a citation to an
insightful article that was of substantial assistance to the Court
as it evaluated the issues addressed here. The article is entitled
On a “Related” Point: Rethinking Whether Bankruptcy Courts
Can “Order” the Involuntary Release of Non-Debtor Third-Party
Claims, 23 Am. Bankr. Inst. L. Rev. 531 (2015), and was written
by Eamonn O’Hagan. The Court apologizes to Mr. O’Hagan for its
oversight.

App. 200
(1) whether the Bankruptcy Court had subject matter
jurisdiction to approve the nonconsensual third-party
releases, and (2) whether the Bankruptcy Court had
constitutional authority to permanently release the
claims post-Stern.5
A. Adjudicatory Authority and Subject Matter Jurisdiction
Article III imposes a structural limitation on the
power of an Article I court to enter final orders or judgments on state law claims without the parties’ consent.
As the Supreme Court explained in Wellness Int’l Network, Ltd. v. Sharif.
Article III, § 1, of the Constitution provides
that “[t]he judicial Power of the United States,
shall be vested in one supreme Court, and in
such inferior Courts as the Congress may
from time to time ordain and establish.” Congress has in turn established 94 District
Courts and 13 Courts of Appeals, composed of
judges who enjoy the protections of Article III:
life tenure and pay that cannot be diminished.
Because these protections help to ensure the
integrity and independence of the Judiciary,
“we have long recognized that, in general,
Congress may not withdraw from” the Article
III courts “any matter which, from its nature,
is the subject of a suit at the common law. . . .”
Congress has also authorized the appointment of bankruptcy and magistrate judges,
5

Stern v. Marshall, 131 S. Ct. 2594 (2011).

App. 201
who do not enjoy the protections of Article III,
to assist Article III courts in their work. . . .
Congress’ efforts to align the responsibilities
of non-Article III judges with the boundaries
set by the Constitution have not always been
successful. . . . [R]ecently in Stern, this Court
held that Congress violated Article III by authorizing bankruptcy judges to decide certain
claims for which litigants are constitutionally
entitled to an Article III adjudication.
135 S. Ct. 1932, 1938-39 (2015) (internal citations
omitted). It is clear from these recent Supreme Court
cases that parties have a constitutional right to have
their common law claims adjudicated by an Article III
court, and that right cannot be abridged by Congressional action.
Federal bankruptcy jurisdiction is a Congressional creation under 28 U.S.C. § 1334(b), which provides that “district courts shall have original and
exclusive jurisdiction of all cases under title 11,” and
original but not exclusive jurisdiction of all civil proceedings arising under title 11, or arising in or related
to cases under title 11.” The authority of Bankruptcy
Courts to oversee bankruptcy matters derives from 28
U.S.C. § 157(a), which sets out that “[e]ach district
court may provide for any or all cases under title 11
and any or all proceedings arising under title 11 or
arising in or related to a case under title 11 shall be
referred to the bankruptcy judges for the district.”
Despite the District Court’s general referral of
bankruptcy matters to the Bankruptcy Court, the

App. 202
extent of the Bankruptcy Court’s adjudicatory authority depends on the type of proceeding before it and is
subject to the bounds of the constitutional limitations
described above. Thus, Bankruptcy Courts may “enter
appropriate orders and judgments” only in “cases under title 11” and “core proceedings arising under title
11, or arising in a case under title 11.” 28 U.S.C.
§ 157(b)(1). When a matter is not a “core” proceeding
but rather is “related to” a bankruptcy case, Bankruptcy Courts have authority only to “hear” the matter
and submit proposed findings of fact and conclusions
of law to the Article III District Court. 28 U.S.C.
§ 157(c)(1).6 This limitation on the power of Article I
judges to enter final orders in non-core proceedings
protects a party’s constitutional right to have its common law claims adjudicated by an Article III court. An
exception to this limitation applies where all of the
parties to the proceeding consent to the Bankruptcy
Court’s entry of final orders. See 28 U.S.C. § 157(c)(2);
Wellness, 135 S. Ct. at 1942 (holding that Article III
permits consent-based adjudication by Bankruptcy
Court).

6

The District Court may then “accept, reject or modify the
proposed findings of fact or conclusions of law, receive further evidence, or recommit the matter to the bankruptcy judge with instructions.” Fed. R. Bankr. P. 9033(d). Any final order of judgment
shall be entered by the district judge after considering the bankruptcy judge’s proposed findings and conclusions and after reviewing de novo those matters to which any party has timely and
specifically objected. See 28 U.S.C. § 157(c)(1).

App. 203
B. Subject Matter Jurisdiction Over Nonconsensual Third-Party Releases
The permanent release of a non-debtor, thirdparty’s claim against another non-debtor, third party –
whether through a chapter 11 plan or otherwise – is
an exercise of the Bankruptcy Court’s “related to” jurisdiction. See In re Combustion Eng’g, Inc., 391 F.3d
190, 224, 233 (3d Cir. 2005) (holding that chapter 11
plan could not permanently enjoin third-party claims
because “related to” jurisdiction did not exist over such
claims); In re Congoleum Corp., 362, B.R. 167, 190-91
(Bankr. D.N.J. 2007) (stating that “first hurdle” to approval of release is establishing that court had related
to jurisdiction). This is because a non-debtor’s prebankruptcy claim against another non-debtor does not
“aris[e] under title 11” and does not “aris[e] in a case
under title 11.” 28 U.S.C. § 157(b)(1); see also In re Digital Impact, Inc., 223 B.R. 1, 11 (Bankr. N.D. Okla.
1998) (holding that controversies are not “cases under”
title 11 where parties thereto are not debtors in bankruptcy, and that controversies did not “arise under”
Code, because “controversies contemplated [between
the parties] are not limited to causes of action under
the Bankruptcy Code, such as avoidance actions”).
Thus, a proceeding solely between non-debtor parties
based on non-bankruptcy law can only be heard by
Bankruptcy Courts under “related to” jurisdiction, and
then only “if the outcome could alter the debtor’s
rights, liabilities, options, or freedom of action (either
positively or negatively) and which in any way impacts
upon the handling and administration of the bankrupt

App. 204
estate.” Pacor, Inc. v. Higgins, 743 F.2d 984, 994 (3d Cir.
1984); see also Celotex Corp. v. Edwards, 514 U.S. 300,
307 n.5 (1995) (“Proceedings ‘related to’ the bankruptcy include . . . suits between third parties which
have an effect on the bankruptcy estate.”). As such,
whether a Bankruptcy Court has “related to” subject
matter jurisdiction over the nonconsensual release of
third-party claims is frequently litigated. Once established, a common plan objection is based on the statutory edict that a Bankruptcy Court exercising “related
to” jurisdiction over non-core proceedings cannot issue
final orders or judgments but is instead limited to issuing proposed findings of fact and conclusions of law.
See 28 U.S.C. § 157(c)(1).
Conversely, plan proponents frequently argue that
because Congress included “confirmations of plans” in
its list of “core proceedings” under the statute, the nonconsensual release of third-party claims is an exercise
of the Bankruptcy Court’s “arising in” or “arising under” jurisdiction when accomplished in the context of
the plan, and therefore the Bankruptcy Court has authority to enter a final order releasing those claims.
See 28 U.S.C. § 157(b)(2). The weakness of this argument is its treatment of a chapter 11 plan as a jurisdictional and adjudicatory “blank check.” Indeed,
courts have repeatedly rejected this type of jurisdictional and adjudicatory bootstrapping.7
7

See, e.g., Combustion Eng’g, 391 F.3d at 224-25 (explaining
that even if Bankruptcy Code § 105(a) provides statutory authority for Bankruptcy Court to approve third-party release, “[section]
105 does not provide an independent source of federal subject

App. 205
C. Adjudicatory Authority Post-Stern
In Stern, the Supreme Court held it unconstitutional for Congress to give Bankruptcy Courts – which
are not established under Article III of the Constitution – final adjudicatory authority over a bankruptcy
estate’s defamation counterclaim against an estate
creditor, notwithstanding that such counterclaims are
among the proceedings that Congress has listed as
“core.” See 131 U.S. at 2600-01 (concluding that although Bankruptcy Court had statutory authority to
enter final judgment on certain counterclaims pursuant to 28 U.S.C. § 157(b)(2)(C), it lacked constitutional
authority to render final judgment). According to the
Supreme Court, the counterclaim at issue did not fall
within the narrow “public rights” exception to Article
III requirements;8 rather, the claim arose under state
matter jurisdiction. . . . ‘Related to’ jurisdiction must therefore exist independently of any plan provision purporting to involve or
enjoin claims against non-debtors.”); Digital Impact, 223 B.R. at
11 (“If proceedings over which the Court has no independent jurisdiction could be metamorphisized into proceedings within the
Court’s jurisdiction by simply including their release in the proposed plan, this court could acquire infinite jurisdiction”).
8
As explained by the Supreme Court, the “public rights” exception is limited “to cases in which the claim at issue derives
from a federal regulatory scheme, or in which the resolution of the
claim by an expert government agency is deemed essential to a
limited regulatory objective within the agency’s authority. In
other words, it is still the case that what makes a right ‘public’
rather than private is that the right is integrally related to particular federal government action.” Stern, 131 S. Ct. at 2613. Applied to bankruptcy, the Supreme Court held that the “public
rights” exception extended no farther than to claims that “stem[ ]
from the bankruptcy itself or would necessarily be resolved in the
claims allowance process.” Id. at 2618. By contrast, claims

App. 206
law between private parties and was, therefore, a matter of “private right, that is, of the liability of one individual to another.” Id. at 2611-12, 2614 (internal
quotations omitted). That the defendant filed a proof of
claim in the bankruptcy case did not alter this conclusion because: (i) the counterclaim did not arise from
the bankruptcy itself; and (ii) it was not necessary to
resolve the counterclaim as part of the process of allowing or disallowing the creditor’s proof of claim. See
id. at 2611. Stern made clear the limitation on a Bankruptcy Court’s authority to enter a final order on a noncore claim for which the claimant has a constitutional
right to adjudication by an Article III court. The Supreme Court later clarified that parties could consent
to final adjudication by a non-Article III court. See
Wellness, 135 S. Ct. at 1944-45.
Following Stern, it is clear that regardless of
whether the Bankruptcy Court has subject matter jurisdiction over proceedings – both core and non-core –
it cannot enter a final order releasing third-party
claims unless it has constitutional authority to do so
as well.

“between two private parties” based on state common law or statutes that are not closely intertwined with a federal regulatory
program are “private” rights that must be adjudicated by an Article III Court. See id. at 2614.

App. 207
II.

BACKGROUND
A. Events Leading to Chapter 11 Filing

Appellants9 were lenders of approximately $106.3
million of aggregate principal amount of senior secured debt issued in April 2014 pursuant to a $1.825
billion senior secured credit facility (the “Credit Facility”) which was governed by a credit agreement dated
April 16, 2014 (the “Credit Agreement”) among, inter
alia, Debtors Millennium Lab Holdings II, LLC (“Holdings”) and Millennium Health, LLC, f/k/a Millennium
Laboratories, LLC (“Millennium”), and several other
lenders (the “Lenders”). (See D.I. 14 at A108, A1128)
The Credit Facility was issued as part of a “dividend
recapitalization” transaction for the benefit of what
would then be the non-debtor stockholders of Millennium’s parent company, Holdings. (D.I. 14 at A108) The
stock of Holdings was owned approximately 55% by
non-debtor Millennium Lab Holdings, Inc. (“MLH”),10
and approximately 45% by non-debtor TA Millennium,
Inc. (“TA”)11 (MLH and TA, collectively, the “Non-Debtor
9

Appellants are investment funds and accounts managed by
Voya Investment Management Co. LLC and Voya Alternative Asset Management LLC.
10
The stock of non-debtor MLH was owned in “various
amounts” by 14 different trusts. (See B.D.I. 181, Ex. B (Guarantee
Agreement)) Seven of the 14 trusts were established by Millennium founder, Chairman and former-CEO James Slattery (“Slattery”) for the benefit of himself and/or various members of his
family; these seven trusts collectively owned approximately 79.896%
of the stock of non-debtor MLH. (Id.)
11
TA is an affiliate of private equity firm TA Associates Management, L.P.

App. 208
Equity Holders”). (Id.) Of the $1.775 billion of term
loan proceeds under the Credit Facility, nearly $1.3 billion was paid out as a special dividend to the NonDebtor Equity Holders. (B.D.I. 206, 12/11/15 Hr’g. Tr.
at 8:9-8:13; D.I. 14 at A2386)
The Debtors are providers of laboratory-based diagnostic testing services that derive significant revenue from Medicare and Medicaid reimbursements.
(D.I. 9 at M7) As such, they are subject to substantial
regulation and oversight, including by federal and
state agencies. (D.I. 14 at A107) As of early 2012, the
United States Department of Justice (the “DOJ”) was
conducting joint criminal and civil investigations into
Millennium (the “DOJ Investigation”). (Id. at A109) In
the course of the DOJ Investigation (and prior to the
issuance of the Credit Agreement), Millennium met
with the DOJ “on numerous occasions” to discuss the
allegations under investigation and produced to the
DOJ approximately 11 million pages of documents.
(Id.) In December 2014, the DOJ confirmed to Millennium that the DOJ would pursue claims against Millennium. (Id.) By February 2015, the Centers for
Medicare & Medicaid Services (“CMS”) notified Millennium that it was revoking Millennium’s Medicare
billing privileges based on billings submitted for 59 deceased patients. (Id.) On May 4, 2015, Millennium received a notification that its Medicare billing privileges
would be revoked also on account of its alleged submission of fraudulent claims for services without valid
physician orders. (Id.)

App. 209
On May 21, 2015, Millennium disclosed to its
Lenders that it had entered into an agreement in principle with the DOJ, CMS, and various other government entities, to settle inter alia claims under the
False Claims Act for Medicare fraud for a settlement
payment of approximately $250 million. (See D.I. 14 at
A867) On October 29, 2015, Millennium sought approval from its Lenders to restructure its debt obligations through either an out-of-court transaction or a
prepackaged plan of reorganization. (Id. at A80) Consummation of an out-of-court transaction was not
achieved. On November 10, 2015, the Debtors filed voluntary petitions for relief under Chapter 11 of the
Bankruptcy Code. Contemporaneously therewith, the
Debtors filed their Plan (B.D.I. 14) and accompanying
Disclosure Statement (B.D.I. 15).
B. The Proposed Nonconsensual ThirdParty Release and Related Provisions
The Plan provided a basis for the continuation of
the Debtors’ business. Relevant to this appeal, the Plan
also provided for a $325 million contribution by the
Non-Debtor Equity Holders, specifically $178.75 million from MLH and $146.25 million from TA. Of the
Non-Debtor Equity Holders’ $325 million contribution,
$256 million would fund Millennium’s settlement of
the DOJ’s claims, $50 million would be paid to certain
Lenders in exchange for their early commitment to
support Millennium’s restructuring, and the remaining $19 million could be used as Millennium operating
capital. (D.I. 14 at A92, A94, A169-A170) In exchange

App. 210
for the $325 million contribution, the proposed Plan
provided the Non-Debtor Equity Holders with full releases and discharges of any and all claims against
them and related parties – including any claims
brought directly by non-Debtor lenders such as Appellants – and including claims relating to the $1.3 billion
special dividend that had been paid to the Non-Debtor
Equity Holders while the Debtors were in the midst of
the DOJ Investigation. (See B.D.I. 195-1, Plan at Art.
X at H-K; D.I. 14 at A2208) The proposed Plan provided
no ability for parties to “opt-out” of the third-party releases, meaning the releases would be granted upon
confirmation of the Plan regardless of whether a creditor consented. (See Plan, Art. X at H-K) The proposed
Plan also permanently enjoined Appellants from commencing or prosecuting claims released pursuant to
the Plan against MLH, TA, or their Related Parties (as
defined in the Plan). (See id.)
C. The Fraud Action
On December 9, 2015, prior to the plan confirmation hearing, Appellants filed a complaint in this Court
(the “Fraud Action”) against MLH, TA, TA Associates
Management, L.P., and two corporate executives who
are beneficiaries of the Plan’s third-party releases,
James Slattery and Howard Appel (“Defendants”). (See
ISL Loan Trust v. TA Associates Management, L.P., et
al., Civ. No. 15-1138 (GMS) (D. Del.)) The complaint demands a jury trial and asserts the following causes of
action: (i) violation of RICO and conspiracy to violate
RICO (18 U.S.C. §§ 1962(c) & (d)), based on allegations

App. 211
that Defendants engaged in fraudulent billing practices, including sending illegal reimbursement requests to Medicare and state Medicaid agencies; (ii)
fraud and deceit based on intentional misrepresentation, aiding and abetting fraud, and conspiracy to commit fraud, based on allegations that Defendants made
false and misleading representations, for the purpose
of inducing Appellants to enter into the Credit Agreement, regarding the accuracy of Debtors’ financial records, Debtors’ compliance with applicable laws, and
the existence of pending investigations and litigation
against the Debtors; and (iii) restitution, based on allegations that, as a result of the fraudulent inducement, Defendants received a benefit of more than $100
million of loans issued under the Credit Agreement,
which benefits Defendants have retained at Appellants’ expense. (See Civ. No. 15-1138 (GMS), D.I. 7
(redacted complaint)) The Fraud Action is currently
stayed pending the outcome of this appeal. (See id.,
D.I. 11)
D. Appellants’ Objections to Plan Confirmation
Appellants raised a litany of objections to confirmation of the Plan. In addition to various objections
regarding the content and adequacy of the Disclosure
Statement, Appellants argued that the Bankruptcy
Court lacked either “arising in” or “related to” subject matter jurisdiction to approve the nonconsensual
third-party release contained in the Plan. (See B.D.I.
122 at 17-25; B.D.I. 174 at 4-9) Appellants further

App. 212
asserted that, even if the Bankruptcy Court had subject matter jurisdiction, the proposed approval of the
releases under section 105(a)12 of the Bankruptcy Code
would contravene other sections of the Bankruptcy
Code, including section 524(e), and hence the Bankruptcy Court lacked statutory authority to approve the
release provisions.13 (See B.D.I. 122 at 26-28) Appellants further argued that the Plan could not be confirmed unless it permitted creditors to opt out of the
third-party release (see id. at 29-31), and even if the
Plan were so amended, exceptional circumstances did
not exist to justify limiting the liability of a non-debtor
to another non-debtor under Third Circuit law. (See id.
at 31-32 (citing In re Continental Airlines, 203 F.3d
203, 213, n. 9 (3d Cir. 2000) (“Continental II”))

12

Section 105(a) permits Bankruptcy Courts to “issue any order, process, or judgment that is necessary or appropriate to carry
out the provisions of [the Bankruptcy Code.]” 11 U.S.C. § 105(a).
However, section 105(a) cannot be used to craft new remedies that
contravene existing statutory provisions, Law v. Siegel, 134 S. Ct.
1188, 1194 (2014), or create substantive rights that are otherwise
unavailable under applicable law, In re Dairy Mart Convenience
Stores, Inc., 351 F.3d 86, 92 (2d Cir. 2003).
13
The Bankruptcy Code provides that the discharge of a
debtor’s indebtedness “does not affect the liability of any other
entity on, or the property of any other entity for, such debt.” 11
U.S.C. § 524(e). Notwithstanding section 524(e), the Bankruptcy
Code grants Bankruptcy Courts the ability to enjoin non-debtors’
claims against other non-debtors with respect to asbestos-related
liability. See 11 U.S.C. § 524(g) (authorizing non-debtor releases
in asbestos liability cases when specified conditions are satisfied,
including creation of trust to satisfy future claims); Combustion
Eng’g, 391 F.3d at 236 n.48 (discussing same).

App. 213
In pre-confirmation briefing, Appellants’ Plan objection did no more than touch upon the Bankruptcy
Court’s lack of adjudicatory authority, in a section addressing its lack of subject matter jurisdiction (and
seemingly conflating those concepts):
The jurisdiction of the Bankruptcy Courts is
statutorily defined, and is confined to the
boundaries of that statutory definition. Stern
v. Marshall, 131 S. Ct. 2594, 2603 (2011)
(noting that Bankruptcy Courts may only
“hear and enter final judgments in all core
proceedings arising under title 11, or arising
in a case under title 11”); see also Wellness
Int’l Network, Ltd. v. Sharif, 135 S. Ct. 1932,
1945 (2015) (observing that “bankruptcy courts
possess no free-floating authority to decide
claims traditionally heard by Article III courts”);
28 U.S.C. § 157(a). Rather, Bankruptcy Courts
may only enter final judgments on non-core
matters with the consent of the affected parties. Wellness, 135 S .Ct. at 1949. Because the
Third-Party Release would impact direct,
non-bankruptcy claims held by non-Debtors
against other non-Debtors and which would
not trigger the Court’s jurisdiction, the Court
does not have jurisdiction to approve the
Third-Party Release without the consent of
the Third Party Releasing Parties. [Appellants] have not given such consent.
(B.D.I. 122 at 17) (emphasis added)
In response, Debtors accused Appellants of reading Stern too broadly, asserting instead that Stern had

App. 214
left intact the Bankruptcy Court’s constitutional authority to approve the third-party releases. (See B.D.I.
131 at 17) Debtors argued that courts in this jurisdiction and others have rejected Stern challenges regarding the Bankruptcy Courts’ constitutional authority,
including in connection with the consideration and approval of nonconsensual third-party releases in a plan.
(See id. at 17-18) Debtors argued that adjudication of
the Plan is “a unitary omnibus civil proceeding for the
reorganization of all obligations of the debtor and disposition of all its assets” unique to bankruptcy and “not
an adjudication of the various disputes it touches
upon.” (See B.D.I. 131 (quoting In re Charles Street African Methodist Episcopal Church of Boston, 499 B.R.
66, 99 (Bankr. D. Mass. 2013))
The foregoing is the extent of the pre-confirmation
briefing on the Bankruptcy Court’s adjudicatory authority. (See D.I. 174 (Appellants’ supplemental plan
objection, focusing on subject matter jurisdiction and
not mentioning lack of adjudicatory authority under
Stern))
E. The Confirmation Ruling
On December 10, 2015, the Bankruptcy Court held
a contested hearing to consider the adequacy of the
Disclosure Statement and confirmation of the Plan; at
the hearing the Bankruptcy Court’s lack of adjudicatory authority was only briefly addressed. (See B.D.I.
190 at 33-34) The Debtors referred to the Stern argument as a “total red herring.” (Id. at 33) Because Stern

App. 215
addressed a Bankruptcy Court’s constitutional authority to adjudicate state law claims, and because and the
Plan did not adjudicate any claims, the Debtors argued
Stern’s holding was inapplicable. (See id. at 33-34)
Debtors cited two cases from outside of this circuit, In
re MPM Silicones LLC, 2014 WL 4436335, at *2
(Bankr. S.D.N.Y. Sept. 9, 2014), which overruled a
Stern challenge to a plan’s nonconsensual third-party
releases, and the Charles Street case, which held that
plan confirmation, including any third-party releases
contained in the plan, were matters coming within the
“public rights” exception, such that Congress may constitutionally assign them to a non-Article III adjudicator. (See id. at 33-34 (citing Charles Street, 499 B.R. at
99)) No further mention of the issue of the Bankruptcy
Court’s adjudicatory authority was made at the confirmation hearing.14
In a bench ruling on December 11, 2015, the Bankruptcy Court overruled Appellants’ objection to the
nonconsensual third-party releases and confirmed the
Plan. (See B.D.I. 206, 12/11/15 Hr’g. Tr.) Addressing
Appellants’ subject matter jurisdiction arguments, the
Bankruptcy Court held that it had, at the very least,
“related to” subject matter jurisdiction over the
claims based on contractual indemnification and fee
14

The remaining arguments presented by the Debtors, Appellants, and the Office of the United States Trustee focused on
whether the Bankruptcy Court had subject matter jurisdiction to
approve the nonconsensual third-party releases; if so, whether
the Third Circuit permitted nonconsensual third-party releases;
if so, what standard applied; and whether the Plan releases met
that standard. (See B.D.I 190)

App. 216
advancement obligations that satisfied the Pacor15 test
under Third Circuit law. (See id. at 13:1-15:22) The
Bankruptcy Court further noted that “Stern v. Marshall does not change the conclusion that this Bankruptcy Court has jurisdiction”:
The holding in Stern was meant to be a narrow one; one that does not, quote, “meaningfully change the division of labor between the
Bankruptcy Court and the District Court.” To
this end, debtors cite cases rejecting a Stern
challenge, regarding the Bankruptcy Court’s
constitutional authority to consider approval
of third-party releases in a plan, including
Judge Drain’s decision in MPM Silicones, but
not any decisions in this district. These Courts
may be correct. But because of the necessities
of this case, I have not had time to address
that argument. But I need not do so, given
my finding that I have related-to jurisdiction. Having decided I have jurisdiction, I
now turn to whether third-party releases are
appropriate in this case . . .
(See id. at 15:23-16:11 (emphasis added))16 Thus while
the Bankruptcy Court’s confirmation ruling included a
finding that it had “related to” subject matter jurisdiction over the claims, its ruling did not address whether
15

Pacor v. Higgins, 743 F.2d 984 (3d Cir. 1984).
The Plan Confirmation Order simply stated that the Bankruptcy Court had jurisdiction under 28 U.S.C. § 1334(a) to approve the injunction, bar order, exculpation, and releases set forth
in Article X of the Plan. (See D.I. 14, Plan Confirmation Order at
A2094)
16

App. 217
the Bankruptcy Court lacked adjudicatory authority to
enter a final order releasing those claims.
The Bankruptcy Court then turned to whether the
third-party release was fair and necessary to the reorganization, applying five factors articulated in Master
Mortgage17 and ultimately returning to the Continental II hallmarks. (See id. at 17:9-26:14) Having found
the releases were fair and necessary to the reorganization, the Bankruptcy Court entered the Confirmation
Order. (B.D.I. 195)
On the same day, Appellants filed this appeal
along with a motion to stay the Confirmation Order
(B.D.I. 204) (“Stay Motion”).18 The Stay Motion was
subsequently denied by the Bankruptcy Court. (B.D.I.
227) Appellants did not seek a stay in this Court or the
Third Circuit, and the Debtors filed a notice of the occurrence of the Plan’s effective date on December 18,
2015 (the “Effective Date”). (B.D.I. 229)

17

See B.D.I. 206, 12/11/15 Hr’g. Tr. at 17:9-24:18 (referring
to In re Master Mortgage Inv. Fund, Inc., 168 B.R. 930, 935
(Bankr. W.D. Mo. 1994)).
18
In the bench ruling, the Bankruptcy Court stated: “[T]his
is a package deal. The releases were necessary to induce the
equity holders to make their three-hundred-and-twenty-fivemillion-dollar payment to the debtors, and to induce the ad hoc
[lender] group’s support of the [RSA] and the plan. Without the
releases, there will be no cash contribution to pay the government
settlements, and the lenders, including [Appellants], would not
receive the equity of the company, valued at in excess of $900 million.” (See B.D.I. 232, 12/18/15 Hr’g. Tr. at 14:20-15:3)

App. 218
F. Certification of Direct Appeal
Contemporaneously with their appeal, Appellants
also filed a motion pursuant to 28 U.S.C. § 158(d)(2)(A)
for certification of a direct appeal to the Third Circuit
(B.D.I. 203) (“Certification Motion”) with respect to
several issues, including Issue 2: whether Bankruptcy
Courts “have the authority to release a non-debtor’s direct, fraud-based claims for willful misconduct against
other non-debtors without the consent of the releasing
non-debtor?” (B.D.I. 203 at 5) Although this issue
speaks of “authority” to release claims – presumably
referring to adjudicatory authority under Stern – the
arguments raised in support of certification centered
on permissibility of non-consensual third-party releases under Third Circuit precedent.
Appellants argued that in Continental II, the
Third Circuit merely recognized that some courts look
to whether a non-consensual third-party release is fair
and necessary to the reorganization, and that those
courts have recognized certain “hallmarks of permissible non-consensual releases.” (See id. at 7 (citing Continental II, 203 F.3d at 214)) According to Appellants,
however, the Third Circuit expressly declined to adopt
that or any other standard for approving nonconsensual third-party releases, observing in a later opinion
that Continental II merely “left open the possibility
that some small subset of non-consensual third-party
releases might be confirmable where the release is
‘both necessary [to the plan of reorganization] and
given in exchange for fair consideration.’ ” In re Lower
Bucks Hospital, 571 App’x 139, 144 (3d Cir. 2014)

App. 219
(quoting Continental II, 203 F.3d at 214, n.11). Because
“the Third Circuit has never ruled that releases of nondebtors’ claims against other non-debtors are permissible at all outside the context of asbestos related
mass tort liability, and thus never pronounced a binding legal standard for assessing whether such releases
are permissible,” Appellants argued that direct appeal
of this issue would “enable the Third Circuit to clarify
two crucial legal issues that remain undetermined in
this Circuit: whether non-consensual releases of nondebtors’ direct claims against other non-debtors are
permissible and if so, under what circumstances.”
(B.D.I. 203 at 3-4)
Arguing against certification of this issue, Debtors
responded that post-Stern, Bankruptcy Courts in this
and other circuits have rejected arguments that they
lack subject matter jurisdiction and authority to approve third-party releases in core proceedings such as
plan confirmation. (See B.D.I. 234 at 9) Appellants
countered that the release at issue “is the most expansive non-debtor release ever approved in this District”
(see B.D.I. 203 at 3) and that a Plan provision “that releases and enjoins a vast universe of direct claims
against numerous non-Debtors represents an incredibly expansive view of the Bankruptcy Court’s powers,
barring [Appellants’] direct claims (pending in an
Article III court) against non-Debtors without their
consent” (B.D.I. 203 at 8). In reply, Appellants further
argued that the Debtors and other parties had, throughout the bankruptcy proceedings, repeatedly mischaracterized their reliance on Stern:

App. 220
The only propositions for which [Appellants]
have cited Stern are that (a) absent the consent of all affected parties, the [Bankruptcy]
Court’s subject matter jurisdiction is subject
to strict statutory boundaries and (b) as an Article I court, the [Bankruptcy] Court lacks the
power to restrict a future Article III court’s
ability to award damages to [Appellants] on
account of their claims against [Non-Debtor
Equity Holders].
(See B.D.I. 243 at 7) This comprises the extent of briefing on the Bankruptcy Court’s lack of authority in connection with the Certification Motion.
At a hearing on the Certification Motion on December 30, 2015, Appellants argued that the issue
should be certified for direct appeal in order to resolve
conflicting decisions within the Third Circuit. Appellants argued that the Confirmation Order conflicted
with decisions within this District that did not permit
nonconsensual third-party releases. (See B.D.I. 253,
12/30/15 Hr’g. Tr.) Conversely, Debtors argued that the
different outcomes in cases addressing third-party releases within the Third Circuit are driven by the
unique facts of each case and, thus, were not conflicting
decisions. Lack of adjudicatory authority was not the
focus of these proceedings.
On January 12, 2016, the Bankruptcy Court certified for direct appeal to the Third Circuit, as a question of law requiring the resolution of conf licting
decisions pursuant to 158(d)(2)(A)(ii), the issue of
“whether a bankruptcy court has the authority to

App. 221
grant nonconsensual third party releases over objection.” In re Millennium Lab Holdings, 543 B.R. 703
(Bankr. D. Del. 2016). In a thorough memorandum
opinion, the Bankruptcy Court first concluded that
there is controlling precedent in the Third Circuit
regarding the efficacy of nonconsensual third party
releases, citing “[t]he hallmarks of permissible nonconsensual releases – fairness, necessity to the reorganization, and specific factual findings to support these
conclusions . . . ” – which the Third Circuit set forth in
Continental II and referred to again in Global Industrial.19 See id. at 713. The Bankruptcy Court further
concluded that the Confirmation Order, which approved the third-party releases without Appellants’
consent, conflicted with the Bankruptcy Court’s prior
holding in the Washington Mutual case,20 which held
19

Continental II identified the hallmarks of permissible nonconsensual releases – fairness, necessity to the reorganization,
and specific factual findings to support those conclusions – but in
the absence of those factors, declined to “speculate upon whether
there are circumstances under which we might validate a nonconsensual release that is both necessary and given in exchange for
fair consideration.” Continental II, 203 F.3d at 214. In Global Industrial, the Third Circuit specifically relied in the Continental II
hallmarks in remanding to the Bankruptcy Court to make sufficient findings so that, if there was a subsequent appeal, “a determination can be made on whether there is a legitimate basis for
concluding that [the injunction is] necessary to the reorganization
and fair.” See In re Global Industrial, 645 F.3d 201, 215 (3d Cir.
2011).
20
In re Washington Mutual, 442 B.R. 314, 352 (Bankr. D.
Del. 2011) (“This Court has previously held that it does not have
the power to grant a third party release of a non-debtor. . . . Rather, any such release must be based on consent of the releasing
party (by contract or the mechanism of voting in favor of the plan).

App. 222
that any third-party release of a non-debtor must be
based on the consent of the releasing party (by contract
or the mechanism of voting in favor of the plan). (See
id. at 715) Because a resolution of these conflicting decisions under Third Circuit law was required, the
Bankruptcy Court granted certification on this particular issue. (See id. at 717).21 Relevant to this appeal,
the Washington Mutual decision, issued in January
2011, pre-dates the Supreme Court’s decisions in Stern
(June 2011) and Wellness (May 2015), and the memorandum opinion granting certification does not include
any discussion of Stern or its progeny. Rather, the
memorandum opinion addresses the issue on whether
a third-party release of a non-debtor must be based on
the consent of the releasing party, regardless of the
type of claim at issue. On February 22, 2016, the Third
Circuit denied Appellants’ petition for permission to

Therefore, the original language in the Plan that would mandate
third party releases even in the place of an indication on the ballot
that the party did not wish to grant the release would not pass
muster.”) (internal citations omitted). Ultimately, over objection,
the Washington Mutual Court found that a “release for distribution” provision did not violate the best interest of creditor test and
was purely voluntary. See In re Washington Mutual, 461 B.R. 200
(Bankr. D. Del. 2011).
21
The Bankruptcy Court held: “Here, all of the cases within
the Third Circuit cited by the parties recognize Continental, even
Washington Mutual. But, my interpretation [of ] what is meant
by Continental’s hallmarks – fairness and necessity to the reorganization – differs from that of the Washington Mutual court.
Accordingly, I find that Issue 2 meets the criteria of section
158(d)(2)(A)(ii).” Millennium, 543 B.R. at 715.

App. 223
appeal pursuant to 28 U.S.C. § 158(d)(2), and the appeal was docketed in this Court on February 26, 2016.
The Debtors’ Motion to Dismiss the Appeal on the
basis of equitable mootness has been fully briefed. (D.I.
6, 7, 8, 9, 10, 11, 28, 33, 34, 35) Merits briefing is also
complete. (D.I. 12, 13, 14, 24, 25, 26, 27, 31, 32) On October 7, 2016, the Court heard oral argument on the
Motion to Dismiss and the merits of the appeal. (D.I.
44)
III. PARTIES’ CONTENTIONS
Appellants raise several issues on appeal, but
their principal challenge centers on the Bankruptcy
Court’s lack of adjudicatory authority: “The key question presented by this appeal is whether non-debtor
Appellants’ direct, state law and federal RICO claims
against certain non-debtors, with respect to which Appellants have a constitutional right to adjudication by
an Article III Court, can be released and permanently
enjoined by an Article I Bankruptcy Court without Appellants’ consent.” (See D.I. 13 at 2) Appellants argue
that regardless of whether Continental II intended to
approve nonconsensual third-party releases in any
context, that decision predated Stern, and Continental
II is inconsistent with Stern. The impact of Stern is
that a finding of “related to” subject matter jurisdiction
under the statute does not end the inquiry. The Bankruptcy Court must have constitutional adjudicatory
authority as well. Appellants argue that the release and
permanent injunction of their direct, non-bankruptcy

App. 224
claims against other non-debtors is a final order, which
the Supreme Court’s decisions in Stern and Wellness
forbid.22 (Id.)
Conversely, Debtors argue that Stern left intact
the Bankruptcy Court’s constitutional authority to approve a plan of reorganization including third-party releases and that courts in this District have rejected
Stern challenges regarding a Bankruptcy Court’s authority to do so. (See D.I. 21 at 31-34) Debtors further
argue that even if the Bankruptcy Court lacked the
necessary constitutional authority to enter a final order approving the nonconsensual releases of Appellants’ claims, review and approval of the Confirmation
Order by this Court moots Appellants’ constitutional
authority argument. (See id. at 35)
By the Motion to Dismiss, Debtors contend that,
notwithstanding any merits of the appeal, it must be
dismissed as equitably moot, as the Plan has been substantially consummated since the Effective Date. (See
D.I 7 at 14 (arguing that complete change of ownership
and control of successor Reorganized Debtors has
been effected; substantially all transfers of property
contemplated by Plan have been completed; and other
22

Appellants further argue that the Bankruptcy Court
lacked statutory authority to enter the Confirmation Order approving non-consensual third-party releases over Appellants’ objection; the Bankruptcy Court lacked subject matter jurisdiction
to approve the releases; and even if the Bankruptcy Court had
authority and jurisdiction to approve the releases, the Bankruptcy Court erred in holding that the facts of this case warranted
that extraordinary relief. (See D.I. 13 at 2-3)

App. 225
substantial distributions under Plan have been made
and are continuing)) In support of dismissal, Debtors
argue that Appellants failed to exhaust their opportunities to seek a stay of the Confirmation Order, and
cannot now ask the Court to unwind the global settlement and releases that serve as the foundation of the
Plan, while retaining the full benefit of the $325 million settlement contribution. (Id. at 2) Debtors argue
that the relief sought in the appeal threatens both to
fatally scramble the Plan and significantly harm third
parties who justifiably have relied on the Plan Confirmation Order. (Id.)
IV. JURISDICTION AND STANDARDS OF REVIEW
A. Appeal of the Confirmation Order
This Court has jurisdiction over all final judgments, orders, and decrees of the Bankruptcy Court
pursuant to 28 U.S.C. § 158(a)(1). An order confirming
a plan of reorganization is a final order. When reviewing a case on appeal, the Court reviews the Bankruptcy
Court’s legal determinations de novo, its factual findings for clear error, and its exercise of discretion for
abuse thereof. See In re United Healthcare Systems,
Inc., 396 F.3d 247, 249 (3d Cir. 2005).
B. Motion to Dismiss Appeal as Equitably
Moot
Equitable mootness is a judge-made abstention
doctrine which finds applicability in the limited context

App. 226
of bankruptcy, usually in an appeal following the confirmation of a plan of reorganization. See In re SemCrude, 728 F.3d 314, 317 (3d Cir. 2013). “Once effective,
reorganizations typically implement complex transactions requiring significant financial investment.” Id.
Notwithstanding an aggrieved party’s statutory right
to appeal, and a federal court’s “virtually unflagging
obligation” to exercise the jurisdiction conferred on
them, Colo. River Water Conservation Dist. v. United
States, 424 U.S. 800, 817 (1976), in some circumstances
granting the relief requested in the appeal “would disrupt the effected plan or harm third parties.” SemCrude, 728 F.3d at 317. Parties seeking to dismiss an
appeal as equitably moot contend that “even if the implemented plan is imperfect, granting the relief requested [in the appeal] would cause more harm than
good.” Id. In light of the responsibility of federal courts
to exercise their jurisdictional mandate, the Third Circuit has cautioned that an appellate court must “proceed most carefully before dismissing an appeal as
equitably moot.” Id. at 318. “Before there is a basis to
forgo jurisdiction, granting relief on appeal must be
almost certain to produce a perverse outcome – chaos
in the bankruptcy court from a plan in tatters and/
or significant injury to third parties. Only then is
equitable mootness a valid consideration.” Id. at 320
(citing In re Phila. Newspapers LLC, 690 F.3d 161,
168 (3d Cir. 2012) (internal citations and quotations
omitted)).
In In re Continental Airlines, 91 F.3d 553 (3d Cir.
1996) (en banc) (“Continental I”), the Third Circuit

App. 227
established five prudential factors to be considered in
determining whether to dismiss an appeal of a bankruptcy order as equitably moot.23 More recently, to
reduce uncertainty in applying Continental I’s “interconnected and overlapping” factors, Phila. Newspapers, 690 F.3d at 168, the Third Circuit collapsed these
five factors into a two-step inquiry. See In re Tribune
Media Co., 799 F.3d 272, 278 (3d Cir. 2015). The Court’s
considerations should be as follows: “(1) whether a confirmed plan has been substantially consummated; and
(2) if so, whether granting the relief requested in the
appeal will (a) fatally scramble the plan and/or (b) significantly harm third parties who have justifiably relied on plan confirmation.” Id. at 278 (citing SemCrude,
728 F.3d at 321).
V.

DISCUSSION
A. Equitable Mootness

Debtors’ arguments in favor of dismissal on equitable mootness grounds are persuasive. Appellants,
however, argue that equitable mootness cannot prevent this Court’s review of the Stern issue. Appellants
argue that the appeal implicates the Bankruptcy
Court’s constitutional power to act, and under wellestablished Supreme Court precedent this Court is
23

See Continental I, 91 F.3d at 560 (“(1) whether the reorganization plan has been substantially consummated, (2) whether a
stay has been obtained, (3) whether the relief requested would
affect the rights of parties not before the court, (4) whether the
relief requested would affect the success of the plan, and (5) the
public policy of affording finality to bankruptcy judgments.”)

App. 228
obligated to decide whether the Bankruptcy Court had
such power before considering whether the appeal
should be dismissed under the judge-made equitable
mootness doctrine. (See D.I. 28 at 16-19) (citing Steel
Co. v. Citizens for a Better Environment, 523 U.S. 83,
93-104 (1998); Bender v. Williamsport Area School
Dist., 475 U.S. 534, 541-42 (1986)) Conversely, Debtors
argue that in the One2One24 and Tribune,25 the Third
Circuit has made clear that “Stern does not in any way
impact dismissals for equitable mootness.” (See D.I. 33
at 9-10) However, neither of those cases involved a
claim that the Bankruptcy Court had acted in violation
of Article III or Stern. Thus, the Court agrees with Appellants that it cannot consider the Debtors’ motion to
dismiss the appeal on equitable mootness grounds
without first determining whether a constitutional defect in the Bankruptcy Court’s decision deprived that
court of the power to issue that decision.26

24

In re One2One Commc’ns, LLC, 805 F.3d 428 (3d Cir.

2015).
25

Tribune, 799 F.3d at 286.
Debtors noted at oral argument that they had “no objection
to Your Honor dismissing this case as equitably moot except for
dealing with the so-called Stern v. Marshall issue . . . ” (D.I. 44,
10/7/16 Hr’g. Tr. at 46) “Your Honor can decide, and we cited
many cases that have decided, that say that Bankruptcy Court
subject matter jurisdiction to confirm plans, the central role that
bankruptcy courts play under the Bankruptcy Code is completely
unaffected by Stern v. Marshall. There is Third Circuit authority
to that effect and there are many other cases. So we have no problem with Your Honor deciding that limited issue, if you feel a need
to, but [the Debtors] don’t think you need to.” (Id. at 46-47)
26

App. 229
The Court turns to Appellants’ Stern argument.
B. Lack of Adjudicatory Authority
The Bankruptcy Court held that it had, at a minimum, “related to” subject matter jurisdiction under
Pacor, based on its holding that certain “indemnification rights and the advancement rights . . . provide a
sufficient nexus, such that I have jurisdiction.” (B.D.I.
206, 12/11/15 Hr’g. Tr. at 13:1-14:2) The Bankruptcy
Court further held that “Stern v. Marshall does not
change the conclusion that this Bankruptcy Court has
jurisdiction.” (Id. at 15:23-15:24 (emphasis added)
This Court agrees. However, as discussed above,
subject matter jurisdiction is not the end of the inquiry,
as the Bankruptcy Court must have constitutional authority as well. It is unclear to what extent the Bankruptcy Court had the opportunity to consider what is
now the main issue on appeal – the Bankruptcy
Court’s authority post-Stern to enter a final order discharging Appellants’ non-bankruptcy state law claims
against non-debtors without Appellants’ consent –
given the lack of time and attention the parties ascribed to this issue in their briefing and arguments below. What is clear is that the Bankruptcy Court had no
occasion to explain its reasoning on this issue. As the
Bankruptcy Court explained: “because of the necessities of this case, I have not had time to address that
argument. But I need not do so, given my finding
that I have related-to jurisdiction.” (Id. at 16:416:11 (emphasis added))

App. 230
Appellants argue that by holding that statutory
“related to” jurisdiction is the same as constitutional
adjudicatory authority to release and permanently enjoin non-debtor Appellants’ non-bankruptcy state law
claims against non-debtors without Appellants’ consent – or that “related to” jurisdiction confers such constitutional adjudicatory authority on the Bankruptcy
Court – the Bankruptcy Court’s analysis was incorrect.
That Appellants’ constitutional authority objection
was not addressed in the confirmation ruling is hardly
surprising, given that the argument was set forth less
than clearly in the papers and at oral argument. As
summarized at length above, this objection was barely
mentioned in pre-confirmation briefing, subsumed as
it was in Appellants’ subject matter jurisdiction arguments, and was not meaningfully addressed at oral argument on Plan confirmation or the Certification
Motion. Adjudicatory authority was not central to the
Bankruptcy Court’s certification opinion either.
Based on the foregoing lack of clarity in the parties’ papers, coupled with the exigencies of these chapter 11 cases – including the short timeframe within
which the Bankruptcy Court had to address Plan objections and rule on Plan confirmation, in order to
avoid government-ordered shutdown of the Debtors’
business – the Court is not convinced that the Bankruptcy Court ever had the opportunity to hear and rule
on the adjudicatory authority issue.27

27

See B.D.I. 206, 12/11/16 Hr’g. Tr. at 4 (“I’m ruling from the
bench because a prompt ruling is needed in this case, given the

App. 231
C. Merits of Appellants’ Arguments
There appears to be no dispute between the parties that Appellants’ state common law fraud and
RICO claims are non-bankruptcy claims between nondebtors which do not “stem[ ] from the bankruptcy itself ” and would not “necessarily be resolved in the
claims allowance process.” See Stern, 131 S. Ct. at
2618. Despite Debtors’ reliance on Charles Street, the
Court is not persuaded that these claims involve matters of “public rights” which could be assigned to a nonArticle III court. Rather these are claims “between two
private parties” based on state common law or statutes
that are not closely intertwined with a federal regulatory program. See Stern, 131 S.Ct. at 2614. As such,
Appellants appear to be entitled to Article III adjudication of these claims, and Stern dictates that no final
order could be entered on such claims by an Article I
court, barring consent of the parties (which has not
been provided here). The Court is further persuaded by
Appellants’ argument that the Plan’s release, which
permanently extinguished Appellants’ claims, is tantamount to resolution of those claims on the merits
against Appellants. See, e.g., Digital Impact, 223 B.R.
at 13 n.6 (“A release, or permanent injunction, contained in a confirmed plan . . . has the effect of a judgment – a judgment against the claimant and in favor
looming December 30 deadline under the settlement agreement
with the United – the U.S. settling parties; such that, a written
decision is not possible. Because of this, my ruling is not as concise as it would be, and it’s not as precise as it would be, or probably as well said as it would be if I had the time to draft an
opinion.”).

App. 232
of the non-debtor, accomplished without due process.
Neither the non-debtor, nor the claimant, have an opportunity to present their claims or defenses to the
court for determination. . . .”); see also CoreStates Bank
N.A. v. Huls America, Inc., 176 F.3d 187, 194 (3d Cir.
1999) (“The principle of claim preclusion applies to final orders overruling objections to a reorganization
plan in bankruptcy proceedings just as it does to any
other final judgment on a claim.”) The Court does not
agree with Debtors that the Plan release did not run
afoul of Stern because it was not a final adjudication of
the claims. If Article III prevents the Bankruptcy
Court from entering a final order disposing of a nonbankruptcy claim against a nondebtor outside of the
proof of claim process, it follows that this prohibition
should be applied regardless of the proceeding (i.e., adversary proceeding, contested matter, plan confirmation).
Debtors contend that any concerns that an Article
III court must consider the third party releases on a
final basis may be cured and mooted by this Court’s de
novo review, relying on the Supreme Court’s decision
in Executive Benefits Ins. Agency v. Arkison, 134 S. Ct.
2165 (2014).28 But this Court’s review of the Plan
28

In Executive Benefits, the Bankruptcy Court conducted
summary judgment proceedings on the merits of the trustee’s
fraudulent conveyance claims and entered judgment in the trustee’s favor. Id. at 2169. The District Court conducted de novo
review and affirmed. See id. at 2174. Because the District
Court would have done the same thing had the Bankruptcy
Court issued proposed findings of facts and conclusions of law,
the Supreme Court concluded that the District Court had in

App. 233
confirmation order does not satisfy constitutional concerns set forth in Stern and its progeny because there
has been no adjudication on the merits of the actions
released by the Plan: Appellants’ Fraud Action. The
Bankruptcy Court did not conduct any proceedings on
the merits of the Fraud Action, and this Court is not in
any position at this point to adjudicate those claims (on
which, among other things, no discovery has been
taken).29 Debtors’ argument that this Court’s de novo
review of the confirmation order can cure Stern concerns – as “the factual record is uncontroverted and
satisfies the controlling standard for approval of nonconsensual third party releases” – misses the point.
As Appellants argue, affirming the Bankruptcy Court’s
approval of the release would do nothing more
than ratify the entry of a judgment extinguishing
fact adjudicated the fraudulent conveyance claims and entered a
valid final judgment in compliance with Article III. See id. at
2175.
29
Debtors assert that Appellants had the opportunity in the
Bankruptcy Court to present whatever evidence they wished at
the Plan confirmation hearing, suggesting that Appellants have
already been offered the trial to which Appellants claim they have
been unconstitutionally deprived. (See D.I. 44, 10/7/16 Hr’g. Tr. at
14-15; 69-70) The Court understands Debtors’ argument essentially to be that even if Appellants are correct that they had a
right to a trial on their fraud and RICO claims, Appellants waived
that right. This issue has not been presented yet to the Bankruptcy Court. As part of the proceedings on remand, the Bankruptcy Court is free to consider whether, even if Appellants had a
right to a trial that was impermissibly eliminated by the thirdparty nonconsensual releases that, in any event, Appellants independently waived their right to such a trial. The Court does not
mean to suggest it has already determined the correct answer to
this question.

App. 234
Appellants’ claims without an actual adjudication of
them on the merits by an Article III judge. Thus,
this Court’s review of the Plan Confirmation Order
cannot resolve the constitutional concerns set forth
in Stern.
D. Remand for Further Proceedings
Notwithstanding the seeming merits of Appellants’ arguments, the Court will not rule on an issue
that the Bankruptcy Court itself may not have ruled
upon, especially in light of the fact that this issue has
now become Appellants’ primary argument on appeal.
Further proceedings are necessary. The Court will
therefore remand this case to the Bankruptcy Court to
consider whether, or clarify its ruling that, the Bankruptcy Court had constitutional adjudicatory authority to approve the nonconsensual release of Appellants’
direct non-bankruptcy common law fraud and RICO
claims against the Non-Debtor Equity Holders; and,
if it does not have such authority, to submit proposed findings of fact and conclusions of law regarding
the final disposition of these claims through the Confirmation Order, or, alternatively, to strike the nonconsensual release of Appellants’ claims from the
Confirmation Order.
The Court recognizes such a remand is far from
ideal at this stage of the Chapter 11 proceedings. Still,
given its experience and expertise, the Bankruptcy
Court should rule on this issue first.

App. 235
VI. CONCLUSION
For the reasons explained above, the Court will
deny without prejudice the Motion to Dismiss the Appeal as equitably moot and remand to the Bankruptcy
Court for further proceedings. A separate Order will be
entered.
March 20, 2017
Wilmington, Delaware
[CORRECTED VERSION]
/s/ Leonard P. Stark
HON. LEONARD P. STARK
UNITED STATES DISTRICT JUDGE

App. 236
IN THE UNITED STATES DISTRICT COURT
FOR THE DISTRICT OF DELAWARE
IN RE:
MILLENNIUM LAB
HOLDINGS II, LLC, et al.,
Debtors.

:
:
:
:
__________________________ :
:
OPT-OUT LENDERS,
:
:
Appellants,
:
v.
:
:
MILLENNIUM LAB
HOLDINGS II, LLC, et al., :
:
TA MILLENIUM, INC.,
:
and JAMES SLATTERY,
:
Appellees.
:

Chapter 11
Bankr. Case No.
15-12284-LSS
(Jointly
Administered)
Civ. No. 16-110-LPS.

ORDER
(Filed Mar. 17, 2017)
At Wilmington, this 17th day of March, 2017, for
the reasons set forth in the accompanying Memorandum issued this date, IT IS HEREBY ORDERED that:
1. The Motion to Dismiss (D.I. 6) is DENIED
WITHOUT PREJUDICE.
2. The Confirmation Order is remanded for further proceedings: (i) the Bankruptcy Court shall consider
whether, or clarify its ruling that, it had constitutional
adjudicatory authority to approve the non-consensual
release of Appellants’ direct non-bankruptcy common

App. 237
law fraud and RICO claims against the Non-Debtor
Equity Holders; (ii) if not, to issue proposed findings of
fact and conclusions of law regarding final disposition
of these claims through the Confirmation Order, or alternatively, to strike the nonconsensual release of Appellants’ claims from the Confirmation Order; and
(iii) in connection with the foregoing, to conduct any
further proceedings the Bankruptcy Court deems just
and necessary.
/s/ Leonard P. Stark
HON. LEONARD P. STARK
UNITED STATES DISTRICT JUDGE

App. 238
IN THE UNITED STATES BANKRUPTCY
COURT FOR THE DISTRICT OF DELAWARE
In re:

Chapter 11

MILLENNIUM LAB
HOLDINGS II, LLC,
et al.1

Case No. 15-12284 (LSS)

Debtors.

(Jointly Administered)
Re: Docket Nos.
202, 203, 205, 234, 243

ORDER PURSUANT TO 28 U.S.C. § 158(D)(2)
CERTIFYING DIRECT APPEAL
(Filed Jan. 12, 2016)
AND NOW, this 12th day of January, 2016, for the
reasons set forth in the Memorandum Opinion of even
date,
IT IS HEREBY ORDERED that:
The Opt-Out Lenders’ Emergency Motion for Certification of Direct Appeal to the United States Court
of Appeals for the Third Circuit Pursuant to 28 U.S.C.
§ 158(D)(2) [D.I. 203] from this Court’s Findings of
Fact, Conclusions of Law and Order (I) Approving the
(A) Prepetition Solicitation Procedures, (B) Forms of
Ballots, (C) Adequacy of Disclosure Statement Pursuant to Sections 1125 and 1126(c) of the Bankruptcy
Code, and (D) Form and Manner of Notice of Combined
Hearing and Commencement of Chapter 11 Cases,
and (II) Confirming the Prepackaged Joint Chapter 11
1

The Debtors are as follows: Millennium Lab Holdings II,
LLC; Millennium Health, LLC; and RxAnte, LLC.

App. 239
Plan of Reorganization of Millennium Lab Holdings II,
LLC, et al. [D.I. 195] is GRANTED.
BY THE COURT:
/s/ Laurie Selber Silverstein
LAURIE SELBER SILVERSTEIN
UNITED STATES
BANKRUPTCY JUDGE

App. 240
IN THE UNITED STATES BANKRUPTCY
COURT FOR THE DISTRICT OF DELAWARE
--------------------------------------- x
Chapter 11
In re:
Case No. 15-12284 (LSS)
MILLENNIUM LAB
Jointly Administered
HOLDINGS II, LLC, et al.,
Related D.I. 195, 203,
Debtors.1
204, 209, 213, 220
--------------------------------------- x
ORDER DENYING MOTION OF THE
OPT-OUT LENDERS FOR STAY PENDING
APPEAL OF ORDER CONFIRMING
AMENDED PREPACKAGED JOINT PLAN
OF REORGANIZATION OF MILLENNIUM
LAB HOLDINGS II LLC, ET AL.
(Filed Dec. 18, 2015)
Upon the Court’s consideration of the Motion of
the Opt-Out Lenders For Stay Pending Appeal of Order Confirming Amended Prepackaged Joint Plan Of
Reorganization Of Millennium Lab Holdings II, LLC,
et al. [D.I. 204] (the “Stay Motion”); and upon consideration of the Debtor’s and the Ad Hoc Consortium’s objections to the Stay Motion [D.I. 212 and 213]; and
upon consideration of the Opt-Out Lenders’ reply in
support of the Stay Motion [DI 220]; and upon the
1

The Debtors and the last four digits of their respective
taxpayer identification numbers are as follows: Millennium Lab
Holdings II, LLC (5299); Millennium Health, LLC (5558); and
RxAnte, LLC (0219). The Debtors’ address is 16981 Via Tazon,
San Diego, California, 92127.

App. 241
record of the confirmation hearing proceedings [D.1.
190; transcript]; and for the reasons set forth by the
Court on the record at the hearing held on December
11, 2015 [DI 206; transcript]; and upon consideration
of the arguments of counsel at the hearing held on December 17, 2015 to consider the Stay Motion; and for
the reasons set forth by the Court on the record at the
hearing held on December 18, 2015; and good and sufficient cause appearing therefor, it is hereby
ORDERED, ADJUDGED, AND DECREED
THAT:
1.

The Stay Motion is DENIED.

2. This Court’s Order Temporarily Staying Confirmation Order [DI 209] is vacated in its entirety, and
the temporary stay imposed by that order is no longer
in effect.
3. This Court shall retain jurisdiction to hear
and resolve any disputes arising from or related to the
interpretation and/or implementation of this Order.
Dated: Wilmington, Delaware
December 18, 2015
/s/ Laurie Selber Silverstein
The Honorable Laurie Selber
Silverstein
UNITED STATES
BANKRUPTCY JUDGE

App. 242
IN THE UNITED STATES BANKRUPTCY COURT
FOR THE DISTRICT OF DELAWARE
---------------------------------------- x
In re:
:
:
MILLENNIUM LAB
HOLDINGS II, LLC, et al., :
:
Debtors.1
:
:
---------------------------------------- x

Chapter 11
Case No. 1512284 (LSS)
Jointly Administered
Related Docket
No. 14, 15, 182

FINDINGS OF FACT, CONCLUSIONS OF
LAW AND ORDER (I) APPROVING THE (A)
PREPETITION SOLICITATION PROCEDURES,
(B) FORMS OF BALLOTS, (C) ADEQUACY
OF DISCLOSURE STATEMENT PURSUANT
TO SECTIONS 1125 AND 1126(c) OF THE
BANKRUPTCY CODE, AND (D) FORM
AND MANNER OF NOTICE OF COMBINED
HEARING AND COMMENCEMENT OF
CHAPTER 11 CASES, AND (II) CONFIRMING
THE PREPACKAGED JOINT CHAPTER 11
PLAN OF REORGANIZATION OF
MILLENNIUM LAB HOLDINGS II, LLC, ET AL.
(Filed Dec. 14, 2015)
Upon the motion (the “Motion”) of the Debtors (i) for
entry of an order (a) approving the Debtors’ prepetition
1

The Debtors and the last four digits of their respective taxpayer identification numbers are as follows: Millennium Lab Holdings II, LLC (5299); Millennium Health, LLC (5558); and RxAnte,
LLC (0219). The Debtors’ address is 16981 Via Tazon, San Diego,
California, 92127.

App. 243
solicitation procedures (the “Solicitation Procedures”),
(b) scheduling a combined hearing on (x) the adequacy
of the Debtors’ Offering Memorandum and Solicitation
for Out-of-Court Transaction and Disclosure Statement
for Prepackaged Plan of Reorganization, dated October
29, 2015 [Docket No. 151 (the “Disclosure Statement”),
with respect to the Prepackaged Joint Plan of Reorganization of Millennium Lab Holdings II, LLC et al.,
dated October 29, 2015 [Docket No. 14] (as amended
in the form attached to this Order, the “Plan”),2 and (y)
confirmation of the Plan; (c) approving the procedures
for objecting to the adequacy of the Disclosure Statement and confirmation of the Plan, and (d) approving
the form and manner of notice of the combined hearing
and commencement of these chapter 11 cases; (ii) for
entry of an order (a) approving the adequacy of the Disclosure Statement and (b) confirming the Plan; and (iii)
for entry of an order authorizing the Debtors to assume
the USA Settlement Agreements and the RSA; and
upon the order dated November 12, 2015, granting, in
part, the Motion (the “Scheduling Order”) [Docket No.
60]; and the Court having considered the Debtors’
Memorandum of Law in Support of Entry of an Order
Confirming the Joint Prepackaged Chapter 11 Plan of
Reorganization of Millennium Lab Holdings II, LLC et
al. (the “Confirmation Brief ”), the Declaration of William Brock Hardaway in Support of (I) Confirmation
of the Debtors’ Plan and (II) Debtors’ Response to Voya
Objection to Confirmation of Debtors’ Chapter 11 Plan
2

Capitalized terms used but not defined herein have the
meaning set forth in the Plan.

App. 244
(the “Hardaway Declaration”) [Docket No. 133], the
Declaration of David S. Kurtz in Support of (I) Confirmation of the Debtors’ Plan and (II) Debtors’ Response
to Voya Objection to Confirmation of Debtors’ Chapter
11 Plan (the “Kurtz Declaration”) [Docket No. 134],
the Declaration of George D. Pillari in Support of (I)
Confirmation of the Debtors’ Plan and (II) Debtors’ Response to Voya Objection to Confirmation of Debtors’
Chapter 11 Plan (the “Pillari Declaration”), the Debtors’ Response to Voya Objection to Confirmation of
Proposed Chapter 11 Plan [Docket No. 131), the Declaration of David A. Aloise in Support of Confirmation of
Debtors’ Chapter 11 Plan (the “Aloise Declaration” and,
together with the Pillari Declaration, the Hardaway
Declaration and the Kurtz Declaration, the “Declarations”) [Docket No. 135], the TA Millennium, Inc. Joinder and Brief in Support of Plan Confirmation and in
Opposition to Voya’s Plan Objection [Docket No. 124],
and the Joinder of James Slattery in Support of Confirmation of the Prepackaged Joint Plan of Reorganization of Millennium Lab Holdings II, LLC, et al [Docket
No. 136]; and the Court having considered the two objections filed, one of which was limited to raising objections to the third-party releases, bar order and
injunction provisions of the Plan and one of which objected to the Plan on grounds that (i) the Plan actually
impairs the “unimpaired” classes; (ii) the Plan’s nonconsensual third-party releases are not permissible;
and (iii) the Debtors have not established that the appropriateness of the Debtor releases; and the Court
having held a hearing on December 10, 2015 pursuant
to sections 1128 and 1129 of the Bankruptcy Code to

App. 245
consider confirmation of the Plan (the “Confirmation
Hearing”); and the Court having admitted into the record and considered evidence at the Confirmation Hearing; and after due deliberation thereon and good and
sufficient cause appearing therefor, it is hereby
ORDERED, ADJUDGED, AND DECREED THAT:
FINDINGS OF FACT AND
CONCLUSIONS OF LAW3
A. Jurisdiction; Venue; Core Proceeding (28 U.S.C.
§§ 157(b)(2) and 1334(a)). This Court has jurisdiction
over the above-captioned jointly administered Chapter
11 Cases pursuant to 28 U.S.C. §§ 157 and 1334. Venue
is proper pursuant to 28 U.S.C. §§ 1408 and 1409. Confirmation of the Plan is a core proceeding pursuant to
28 U.S.C. § 157(b)(2)(L), and this Court has jurisdiction
to determine whether the Plan complies with the applicable provisions of the Bankruptcy Code and should
be confirmed.
B. Filing of Plan. On November 10, 2015, the
Debtors filed the Plan and the Disclosure Statement.
C. Plan Supplements. On November 25, 2015 the
Debtors filed a supplement (the “First Plan Supplement”) to the Plan [Docket No. 114]. The First Plan
3

Each finding of fact set forth or incorporated herein, to the
extent it is or may be deemed a conclusion of law, shall also constitute a conclusion of law. Each conclusion of law set forth or incorporated herein, to the extent it is or may be deemed a finding
of fact, shall also constitute a finding of fact

App. 246
Supplement contained the following documents: (i) the
New Term Loan Agreement, (ii) the New Holdco Charter, (iii) the New Holdco Bylaws, (iv) the Millennium
Corporate Claim Trust Agreement, and (v) the Millennium Lender Claim Trust Agreement. On December 1,
2015 the Debtors filed a second supplement (the “Second Plan Supplement”) to the Plan [Docket No. 115].
The Second Plan Supplement contained the Form of
Guarantee and Collateral Agreement for the New
Term Loan Facility, New Holdco’s Registration Rights
Agreement and the Amended and Restated Operating
Agreement of New Holdco. In addition, on December 9,
2015 the Debtors filed a third supplement (the “Third
Plan Supplement” and, together with the First Plan
Supplement and the Second Plan Supplement, the
“Plan Supplements”) to the Plan [Docket No. 179]. The
Third Plan Supplement contained (i) blackline documents reflecting changes to certain of the documents
previously filed with the First Plan Supplement and
the Second Plan Supplement, (ii) a list of the members
selected by the Ad Hoc Group Majority to the New
Board and the officers of the Reorganized Debtors, as
applicable, as well as information relating to the compensation of the directors and officers of New Holdco
and the Reorganized Debtors, as applicable, (iii) a Loan
Agreement between the Millennium Corporate Claim
Trust and Millennium and (iv) a Loan Agreement between the Millennium Lender Claim Trust and Millennium. The Third Plan Supplement also disclosed the
identity and compensation of the persons who have
been designated to serve as the Trustee and Trust

App. 247
Advisory Board of each of such Trusts and the terms of
their compensation.
D. Transmittal of Solicitation Package. As set
forth in the Declaration of James Daloia of Prime Clerk
LLC Regarding the Solicitation of Votes and Tabulation of Ballots Cast on the Prepackaged Joint Plan of
Reorganization of Millennium Lab Holdings II, LLC.
dated November 9, 2015 [Docket No. 17] (the “Tabulation Declaration”), prior to the Petition Date, the Debtors caused, among other documents identified in the
Tabulation Declaration, the ballot, in the form attached to the Motion as Exhibit A (the “Ballots”), and
copies of the Disclosure Statement and Plan (the “Solicitation Packages”) to be distributed as required by
sections 1125 and 1126 of Title 11 of the United States
Code (the ‘Bankruptcy Code”), Rules 3017 and 3018 of
the Federal Rules of Bankruptcy Procedure (the
“Bankruptcy Rules”), the Local Rules of Bankruptcy
Practice and Procedure of the United States Bankruptcy Court for the District of Delaware (the “Local
Rules”), all other applicable provisions of the Bankruptcy Code, the Scheduling Order, and all other applicable rules, laws, and regulations applicable to such
solicitation, including section 4(a)(2) of the Securities
Act of 1933 (as amended, and including the rules and
regulations promulgated thereunder, the “Securities
Act”). The Plan and the Disclosure Statement were
transmitted to all creditors entitled to vote on the Plan
and sufficient time was prescribed for creditors to accept or reject the Plan. Such transmittal and service

App. 248
was adequate and sufficient under the circumstances
and no other or further notice is or shall be required.
E. Mailing and Publication of Combined Notice.
On November 12, 2015, the Debtors caused (i) the Notice of Non-Voting Status in substantially the form attached to the Scheduling Order as Exhibit B to be
mailed to all of the Debtors’ known creditors and interests holders not entitled to vote on the Plan and (ii) the
Confirmation Hearing Notice in substantially the form
attached to the Scheduling Order as Exhibit C (the
“Combined Notice”) to be mailed to all of the Debtors’
known creditors and interest holders of record, and all
other parties required to be served under the Scheduling Order. See Affidavit of Service of Steven Gordon
re: Notice of Commencement of Chapter 11 Cases, Imposition of Automatic Stay and Combined Hearing
[Docket No. 101]. Additionally, the Debtors published
notices (the “Publication Notice”) substantially similar
to the Combined Hearing Notice in the New York
Times on November 23, 2015 and in the San Diego Union Tribune on November 24, 2015. See Affidavit of Service of David M. Smith re: Publication Notice [Docket
No. 141]. Publication of the Publication Notice was in
substantial compliance with the Scheduling Order and
Bankruptcy Rule 2002(l). The Debtors have given
proper, adequate and sufficient notice of the hearing
to approve the Disclosure Statement as required by
Bankruptcy Rule 3017(a). The Debtors have given
proper, adequate and sufficient notice of the Confirmation Hearing as required by Bankruptcy Rule 3017(d).
Due, adequate, and sufficient notice of the Disclosure

App. 249
Statement, the Plan, along with deadlines for filing objections to the Plan and the Disclosure Statement, has
been given to all known holders of Claims and Equity
Interests substantially in accordance with the procedures set forth in the Scheduling Order. No other or
further notice is or shall be required.
F. Objections. All objections and all reservations
of rights that have not been withdrawn, waived or settled, pertaining to confirmation of the Plan are overruled on the merits.
G. Adequacy of Disclosure Statement. Because
the Plan was solicited prior to the Petition Date, the
adequacy of the Disclosure Statement is governed by
Bankruptcy Code sections 1125(b) and (g). The information contained in the Disclosure Statement contained adequate material information regarding the
Debtors for parties entitled to vote on the Plan to make
informed decisions regarding the Plan. Additionally,
the Disclosure Statement contains adequate information as that term is defined in Bankruptcy Code
section 1125(a) and complies with any additional requirements of the Bankruptcy Code, the Bankruptcy
Rules, and the Local Rules, as well as with applicable
non-bankruptcy law. The Disclosure Statement complies with the requirements of Bankruptcy Rule 3016(c)
by sufficiently describing in specific and conspicuous
language the provisions of the Plan that provide for releases and injunctions against conduct not otherwise
enjoined under the Bankruptcy Code and sufficiently
identifies the persons and entities that are subject to
the releases and injunctions. The only objections to the

App. 250
adequacy of the Disclosure Statement timely made
were submitted by Voya and the United States Trustee, those objections are hereby overruled, and the voting on the Plan was overwhelmingly in support.
H. Solicitation. Sections 1125(g) and 1126(b) of the
Bankruptcy Code apply to the solicitation of acceptances
and rejections of the Plan prior to the commencement
of these Chapter 11 Cases. Votes for acceptance or rejection of the Plan were solicited in good faith and in
compliance with sections 1125 and 1126 of the Bankruptcy Code, Bankruptcy Rules 3017 and 3018, and all
other applicable provisions of the Bankruptcy Code,
the Bankruptcy Rules, the Local Rules, and all other
rules, laws, and regulations. In particular, the solicitation of the Plan commenced on October 29, 2015, in accordance with applicable non-bankruptcy law, and
remained open until November 8, 2015 (the “Voting
Deadline”). The establishment of the Voting Deadline
as November 8, 2015 was reasonable under Bankruptcy Rule 3018(b) and did not prescribe an unreasonably short time for creditors to accept or reject the
Plan. The form of the Ballot was adequate and appropriate and complied with Bankruptcy Rule 3018(c).
The form of the Ballot was sufficiently consistent with
Official Form No. 14 and adequately addressed the particular needs of these Chapter 11 Cases and were appropriate for the Class entitled to vote to accept or
reject the Plan. Substantially all of the Holders of Existing Credit Agreement Claims, the only Holders of
Claims entitled to vote under the Plan, cast a ballot.
The only objections to the adequacy of the solicitation

App. 251
which were timely made were submitted by Voya and
the U.S. Trustee, those objections are hereby overruled,
and the voting on the Plan was overwhelmingly in support. Accordingly, the solicitation of the Plan, including
the Solicitation Procedures and the Solicitation Packages, complied with the provisions of Bankruptcy Code
section 1125(g).
I. Good Faith Solicitation (11 U.S.C. § 1125(e)).
All persons who solicited votes on the Plan, including
any such persons released or exculpated pursuant to
Article X of the Plan, solicited such votes in good faith
and in compliance with the applicable provisions of the
Bankruptcy Code and are entitled to the protections
afforded by section 1125(e) of the Bankruptcy Code,
and, with respect to the Exculpated Parties and the
USA Settlement Parties, to the exculpation and limitation of liability provisions set forth in Article X.D of
the Plan. No objection to the good faith of the Debtors
was timely made, and the voting on the Plan was overwhelmingly in support.
J. Tabulation Results. On November 10, 2015,
the Debtors filed the Tabulation Declaration, certifying
the method and results of the ballot tabulation for the
Class entitled to vote under the Plan (the “Voting
Class”). As evidenced by the Tabulation Declaration,
the Voting Class has accepted the Plan with respect to
each of the Debtors in accordance with section 1126 of
the Bankruptcy Code. Specifically, 93.02% of the Holders of all Class 2 Existing Credit Agreement Claims,
representing 93.74% of the aggregate principal amount
of all Existing Credit Agreement Claims, voted to

App. 252
accept the Plan. All procedures used to tabulate the
Ballots were fair and reasonable and conducted in accordance with the applicable provisions of the Bankruptcy Code, the Bankruptcy Rules, the Local Rules,
and all other applicable rules, laws, and regulations. As
set forth in the Declaration of Ray Garson in Support
of Confirmation of Debtors’ Chapter 11 Plan [Docket
No. 169], following the tabulation of the Ballots, a
member of the Ad Hoc Group advised the Debtors that
it had purchased $1,460,838.88 of Class 2 Existing
Credit Agreement Claims formerly held by JPMorgan
Chase Bank, N.A. (the, “Post-Tabulation JP Morgan
Assigned Claims”), which had voted to reject the Plan,
and that pursuant to its obligations under the RSA it
wished to change the vote cast in respect to such PostTabulation JP Morgan Assigned Claims to a vote in favor of the Plan. Pursuant to Bankruptcy Rule 3018(a),
good and sufficient cause exists to allow the assignee
of the Post-Tabulation JP Morgan Assigned Claims to
change the votes submitted in respect to such claims
to votes in favor of the Plan.
K. As set forth in the Declaration of Thomas
Ewald in Support of Confirmation of Debtors’ Chapter
11 Plan [Docket No 170], following the tabulation of
the Ballots, a second member of the Ad Hoc Group
further informed the Debtors that it had a pending
purchase of other Class 2 Existing Credit Agreement
Claims in the amount of $5,984,848.48 formerly held
by an entity that had not cast a ballot in respect of
such Claims (the “Post-Tabulation Pending Claims
Purchase”, the Claims which are the subject of such

App. 253
purchase, the “Post-Tabulation Pending Purchased
Claims” and, together with the Post Tabulation JP
Morgan Claims, the “Post-Tabulation Claims”).
L. As members of the Ad Hoc Group which
signed the RSA, the Persons who purchased or have a
binding legal obligation to acquire the Post-Tabulation
Claims are obligated to make such claims subject
to the RSA when they acquire such Post-Tabulation
Claims. The holders of the Post-Tabulation Claims
have represented to the Court that such Persons desire
to include the Post-Tabulation Claims in the amount
they hold as Consenting Lenders for purposes of the
RSA and the amount used for purposes of calculating
(1) the respective percentage beneficial interests in the
Millennium Corporate Claim Trust held by all Holders
of Existing Credit Agreement Claims, (ii) in the Millennium Lender Claim Trust held by all Consenting
Lenders, and (iii) the amount of the Retained Lender
Causes of Action which have been assigned to each
such Trust. The Court determines that allowing the
Post-Tabulation Claims to be considered as having accepted the Plan and allowing the Post-Tabulation
Claims to be included in the amounts used for calculating the beneficial interests in the Millennium
Lender Claims Trust and the amount of the Retained
Lender Causes of Action which have been assigned to
such Trust is consistent with the RSA, fair and reasonable to Consenting Lenders and in the best interests of
the Estates.
M. Bankruptcy Rule 3016. The Plan is dated and
identifies the entities submitting it, thereby satisfying

App. 254
Bankruptcy Rule 3016(a). The filing of the Disclosure
Statement with the clerk of the Court simultaneously
with the Plan satisfied Bankruptcy Rule 3016(b).
N. Burden of Proof. As more fully set forth
herein, the Debtors, as proponents of the Plan, have
met their burden of proving each of the elements of sections 1129(a) and 1129(b) of the Bankruptcy Code by a
preponderance of the evidence, which is the applicable
evidentiary standard for confirmation of the Plan.
O. Plan Compliance with Bankruptcy Code (11
U.S.C. § 1129(a)(1)). The Plan satisfies section 1129(a)(1)
of the Bankruptcy Code because it complies with the
applicable provisions of the Bankruptcy Code, including, but not limited to: (a) the proper classification
of Claims and Equity Interests (11 U.S.C. §§ 1122,
1123(a)(1)); (b) the specification of Unimpaired Classes
(11 U.S.C. § 1123(a)(2)); (c) the specification of treatment of Impaired Classes (11 U.S.C. § 1123(a)(3)); (d)
provision for the same treatment of each Claim or Equity Interest within a Class (11 U.S.C. § 1123(a)(4));
(e) provision for adequate and proper means for implementation (11 U.S.C. § 1123(a)(5)); (f ) the prohibition
against the issuance of non-voting equity securities (11
U.S.C. § 1123(a)(6)); (g) adequate disclosure of the procedures for determining the identities and affiliations
of the directors, members and officers with respect to
the Reorganized Debtors (11 U.S.C. § 1123(a)(7)); and
(h) the inclusion of additional plan provisions permitted to effectuate the restructuring of the Debtors (11
U.S.C. § 1123(b)).

App. 255
(a) Proper Classification (11 U.S.C. §§ 1122
and 1123(a)(1)). In particular, Article III of the Plan
adequately and properly identifies and classifies all
Claims and Equity Interests. The Plan designates
eight (8) Classes of Claims and three (3) Classes of Equity Interests. The Claims or Equity Interests placed
in each Class are substantially similar to other Claims
or Equity Interests, as the case may be, in each such
Class, and such classification therefore satisfies section 1122 of the Bankruptcy Code. Valid business and
legal reasons exist for the various Classes of Claims
and Equity Interests created under the Plan, and such
Classes do not unfairly discriminate between holders
of Claims or Equity Interests. Thus, the Plan satisfies
section 1123(a)(1) of the Bankruptcy Code.
(b) Specified Treatment of Unimpaired Classes (11 U.S.C. 1123(a)(2)). The Plan specifies in Article
III that Classes 1, 3, 4, 5, 6, 8, 9 and 11 are Unimpaired
under the Plan, thereby satisfying section 1123(a)(2) of
the Bankruptcy Code.
(c) Specified Treatment of Impaired Classes
(11 U.S.C. § 1123(a)(3)). The Plan specifies in Article III
that Classes 2, 7 and 10 are Impaired under the Plan
and sets forth the treatment of the Impaired Classes
in Article III of the Plan, thereby satisfying section
1123(a)(3) of the Bankruptcy Code.
(d) No Discrimination (11 U.S.C. § 1123(a)(4)).
Article III of the Plan provides for the same treatment
for each Claim or Equity Interest in each respective
Class unless the holder of a particular Claim or Equity

App. 256
Interest has agreed to a less favorable treatment of
such Claim or Equity Interest. Accordingly, the Plan
satisfies section 1123(a)(4) of the Bankruptcy Code.
(e) Implementation of the Plan (11 U.S.C.
§ 1123(a)(5)). Article V of the Plan provides adequate
and proper means for implementation of the Plan,
thereby satisfying section 1123(a)(5) of the Bankruptcy Code.
(f ) Nonvoting Equity Securities (11 U.S.C.
§ 1123(a)(6)). Article V.K of the Plan provides that the
New Holdco Organizational Documents and Reorganized Debtors Organizational Documents shall be
amended and restated as necessary to satisfy the provisions of the Plan and the Bankruptcy Code, including
section 1123(a)(6). Accordingly, the Plan satisfies section 1123(a)(6) of the Bankruptcy Code.
(g) Selection of Officers and Directors (11
U.S.C. § 1123(a)(7)). The Debtors have identified proposed directors and officers of the Reorganized Debtors
(or have provided for the selection thereof ), as applicable. Officers of Millennium and RxAnte LLC immediately prior to the Effective Date will remain officers of
each of Reorganized Millennium and Reorganized
RxAnte LLC on the Effective Date. The Third Plan
Supplement discloses the identity of the members of
the New Board as designated by the Ad Hoc Group Majority. As the Ad Hoc Group Majority will own all of the
equity in New Holdco upon the consummation of the
Plan, New Holdco will own all of the equity in Reorganized Millennium and Reorganized Millennium will

App. 257
own all of the equity in RxAnte LLC, the Ad Hoc Group
Majority’s selection of the officers and members of the
new boards of such Reorganized Debtors and New
Holdco, as applicable, is consistent with the interests
of holders of Claims and Equity Interests and with
public policy. The manner of selection and appointment
of directors of each of the Reorganized Debtors and
New Holdco under the Plan is consistent with the interests of holders of Claims and Equity Interests and
with public policy and, thus, satisfies section 1123(a)(7)
of the Bankruptcy Code.
(h) Additional Plan Provisions (11 U.S.C.
§ 1123(b)(6)). The Plan’s additional provisions are appropriate and not inconsistent with the applicable provisions of the Bankruptcy Code.
P. Debtors’ Compliance with Bankruptcy Code
(11 U.S.C. § 1129(a)(2)). The Debtors have complied
with the applicable provisions of the Bankruptcy Code,
the Bankruptcy Rules, the Scheduling Order, and other
orders of this Court, thereby satisfying section
1129(a)(2) of the Bankruptcy Code. In particular, the
Debtors are proper debtors under section 109 of the
Bankruptcy Code. The Debtors are proper proponents
of the Plan pursuant to section 1121(a) of the Bankruptcy Code. The Debtors, as proponents of the Plan,
complied with the applicable provisions of the Bankruptcy Code, the Bankruptcy Rules, the Local Rules
and the Scheduling Order in transmitting the Plan,
the Disclosure Statement, the Ballots and notices and
in soliciting and tabulating votes on the Plan.

App. 258
Q. Plan Proposed in Good Faith (11 U.S.C.
§ 1129(4)(3)). The Debtors have proposed the Plan in
good faith, for proper purposes and not by any means
forbidden by law, thereby satisfying section 1129(a)(3)
of the Bankruptcy Code. In determining that the Plan
has been proposed in good faith, the Court has examined the totality of the circumstances surrounding the
filing of the Chapter 11 Cases, the formulation of the
Plan and all modifications thereto. The Chapter 11
Cases were filed, and the Plan and all modifications
thereto were proposed, with the legitimate and honest
purpose of reorganizing and maximizing the value of
the Debtors and the recovery to stakeholders. No objection to the good faith of the Debtors was timely
made, and the voting on the Plan was overwhelmingly
in support.
R. Payments for Services or Costs and Expenses
(11 U.S.C. § 1129(a)(4)). Pursuant to Article II.A(i) of
the Plan, professionals holding Professional Fee
Claims are required to file their final fee applications
with the Court no later than forty five (45) days after
the Effective Date. These applications remain subject
to Court approval under the standards established by
the Bankruptcy Code, including the requirements of
sections 327, 328, 330, 331, 503(b) and 1103 of the
Bankruptcy Code, as applicable. In addition, on or as
soon as reasonably practicable after the Equity Transfer Date, the Administrative Agent shall receive payment in full in Cash of the Administrative Agent Fees,
and Brown Rudnick, LLP, FTI, and Delaware Counsel
to the Ad Hoc Group shall receive payment in full of

App. 259
any fees and expenses owed to them under the RSA as
advisors to the Ad Hoc Group. The payment of such
fees shall be subject to paragraph 14(d) of the Interim
Cash Collateral Order. Finally, Article IX of the Plan
provides that the Court will retain jurisdiction after
the Effective Date to hear and determine all applications for allowance of compensation or reimbursement
of expenses authorized pursuant to the Bankruptcy
Code or the Plan, including requests by Professionals.
Accordingly, the Plan fully complies with the requirements of section 1129(a)(4) of the Bankruptcy Code.
S. Board of Directors and Officers (11 U.S.C.
§ 1129(a)(5)). The Debtors have sufficiently disclosed
the initial officers and members of the new boards of
each of New Holdco and the Reorganized Debtors, as
applicable, including the identity of any insider that
will be employed or retained by the Reorganized Debtors. The Third Plan Supplement discloses the identity
of the officers and members of the new boards (or have
provided for the selection thereof ) of each of New
Holdco and the Reorganized Debtors, as applicable, as
well as the nature of the compensation that will be received by any insider of the Debtors. The appointment
to, or continuance in, such office of each individual, and
the methods established therefore, are consistent with
the interests of holders of Claims and Equity Interests,
and with public policy. Therefore, section 1129(a)(5) of
the Bankruptcy Code is satisfied with respect to the
Plan.
T. No Rate Changes (11 U.S.C. § 1129(a)(6)). Section 1129(a)(6) of the Bankruptcy Code is satisfied

App. 260
because the Plan does not provide for any change in
rates over which a governmental regulatory commission has jurisdiction.
U. Best Interests Test (11 U.S.C. § 1129(a)(7)).
The liquidation analysis attached as Exhibit I to
the Disclosure Statement, the Pillari Declaration, and
other evidence proffered or adduced at the Confirmation Hearing (1) are persuasive and credible, (2) are
based upon reasonable and sound assumptions, (3)
provide a reasonable estimate of the liquidation values
of the Debtors in the event the Debtors were liquidated
under Chapter 7 of the Bankruptcy Code, (4) have not
been controverted by other credible evidence or sufficiently challenged in any objection to the Plan, and (5)
establish that each holder of a Claim or Equity Interest in an Impaired Class that has not accepted the
Plan will receive or retain under the Plan, on account
of such Claim or Equity Interest, property of a value,
as of the Effective Date, that is not less than the
amount that such holder would receive or retain if the
Debtors were liquidated under Chapter 7 of the Bankruptcy Code on such date. Therefore, the Plan satisfies
section 1129(a)(7) of the Bankruptcy Code.
V. Acceptance By Certain Classes (11 U.S.C.
§ 1129(a)(8)). Classes 1, 3, 4, 5, 6, 8, 9 and 11 are Unimpaired by the Plan and, therefore, under section
1126(f ) of the Bankruptcy Code, such Classes are conclusively presumed to have accepted the Plan. Class 2
was entitled to vote on the Plan and such Class has
voted to accept the Plan. Accordingly, Bankruptcy Code
section 1129(a)(8) has been satisfied with respect to

App. 261
Classes 1 through 6, 8, 9 and 11. Classes 7 and 10 are
deemed to reject the Plan pursuant to Bankruptcy
Code section 1126(g), but, as found below, the Plan is
confirmable under Bankruptcy Code section 1129(b)
notwithstanding the rejections by such Classes. Therefore, section 1129(a)(8) of the Bankruptcy Code has not
been satisfied with respect to these Classes.
W. Treatment of Administrative and Priority Tax
Claims and Priority Non-Tax Claims (11 U.S.C.
§ 1129(a)(9)). The treatment of Administrative Claims
and Other Priority Claims under the Plan satisfies the
requirements of section 1129(a)(9)(A) and (B) of the
Bankruptcy Code, and the treatment of Priority Tax
Claims under the Plan satisfies the requirements of
section 1129(a)(9)(C) of the Bankruptcy Code.
X. Acceptance By Impaired Class (11 U.S.C.
§ 1129(a)(10)). At least one Impaired Class of Claims
voted to accept the Plan determined without including
any acceptance of the Plan by any “insiders.” Therefore,
section 1129(a)(10) of the Bankruptcy Code is satisfied
with respect to the Plan.
Y. Feasibility (11 U.S.C. § 1129(a)(11)). The Plan
does not provide for the liquidation of all or substantially all of the property of the Debtors. The financial
projections in Exhibit H to the Disclosure Statement,
the Hardaway Declaration, and the evidence proffered
or adduced at the Confirmation Hearing (i) are persuasive and credible, (ii) have not been controverted by
other credible evidence or sufficiently challenged in
any of the objections to the Plan, and (iii) establish that

App. 262
the Plan is feasible and that confirmation of the Plan
is not likely to be followed by the liquidation of the Reorganized Debtors or the need for further financial reorganization of the Reorganized Debtors. Therefore,
the Plan satisfies section 1129(a)(11) of the Bankruptcy Code.
Z. Payment of Fees (11 U.S.C. § 1129(a)(12)). The
Debtors have paid or, pursuant to the Plan, will pay by
the Effective Date, fees payable under 28 U.S.C. § 1930,
thereby satisfying section 1129(a)(12) of the Bankruptcy Code.
AA. Retiree Benefits (11 U.S.C. 1129(a)(13)). Article VI.G of the Plan provides that employment and
severance policies, and all compensation and benefit
plans, policies, and programs of the Debtors generally
applicable to their employees, retirees, and the employees and retirees of their subsidiaries, including, without limitation, all savings plans, retirement plans,
healthcare plans, disability plans, severance benefit
plans, incentive plans, life, and accidental death and
dismemberment insurance plans, are treated as Executory Contracts under the Plan and on the Effective
Date will be assumed. To the extent that such plans or
agreements providing for bonuses or severance to insiders may fall within Article VI.G of the Plan, such
plans and agreements will not be assumed; provided,
however, that such insiders may assert any claims
arising under such plans or agreements against the
applicable Debtors as Class 6 Claims. Therefore the
payment of all retiree benefits (as defined in section
1114 of the Bankruptcy Code) shall continue at the

App. 263
previously established levels, thereby satisfying section 1129(a)(13) of the Bankruptcy Code.
BB. Miscellaneous Provisions (11 U.S.C.
§§ 1129(a)(14)-(16)). Sections 1129(a)(14)-(16) are inapplicable as the Debtors (i) have no domestic support obligations (1129(a)(14)), (ii) are not individuals
(1129(a)(15)), and (iii) are for-profit businesses
(1129(a)(16)).
CC. Section 1129(b); Confirmation of Plan Over
Nonacceptance of Impaired Classes. Holders of Claims
and Existing Equity Interests in Classes 7 and 10 are
deemed to have rejected the Plan (the “Deemed Rejecting Classes”). All of the requirements of section 1129(a)
of the Bankruptcy Code, other than section 1129(a)(8)
with respect to such Classes, have been met. Notwithstanding the fact that the Deemed Rejecting Classes
are deemed to reject the Plan and thus do not satisfy
section 1129(a)(8), the Plan may be confirmed pursuant to section 1129(b)(1) of the Bankruptcy Code because the Plan does not discriminate unfairly and is
fair and equitable with respect to the Deemed Rejecting Classes. After entry of this Confirmation Order and
upon consummation of the Plan, the Plan shall be
binding upon the members of the Deemed Rejecting
Classes.
DD. The Plan does not unfairly discriminate because members within each Class are treated similarly. In particular, all Holders of Class 7 MLH Tax
Note Claims and Class 10 Existing Equity Interests in
Millennium are placed into their individual classes

App. 264
and given the same respective treatment. Accordingly,
the Plan does not discriminate unfairly in respect to
the Deemed Rejecting Classes or any other Class of
Claims or Equity Interests.
EE. The Plan is fair and equitable with respect
to the Deemed Rejecting Classes. Specifically, Class 7
is composed of certain insiders that agreed pursuant
to the RSA to allow their MLH Tax Note Claims to be
cancelled. Similarly, holders of equity interests in
Class 10 agreed pursuant to the RSA to allow their Existing Equity Interests in Millennium to be cancelled.
Additionally, the reinstatement of Class 9 Existing
Equity Interests in Holdings and Class 11 Existing Equity Interests in RxAnte, LLC does not violate Bankruptcy Code sections 1129(b)(2)(B) and (C). The senior
creditors, who are entitled to all value under the Plan,
have consented to these Classes, both of whom have
lower priority, being reinstated. Holdings will retain no
assets. The preservation of Existing Equity Interests
in Holdings and RxAnte does not enable any claimholder or interest holder junior to the Deemed Rejecting Classes to retain or recover any value under the
Plan. Accordingly, the Plan is fair and equitable and
does not discriminate unfairly, as required by section
1129(b) of the Bankruptcy Code, and may be confirmed
under Bankruptcy Code section 1129(b) notwithstanding the Deemed Rejecting Classes’ deemed rejection of
the Plan.
FF. Only One Plan (11 U.S.C. § 1129(e)). Only
one Plan is being sought to be confirmed in the Chapter

App. 265
11 Cases. Accordingly, the requirements of section
1129(c) of the Bankruptcy Code have been satisfied.
GG. Principal Purpose of Plan (11 U.S.C. § 1129(d)).
The principal purpose of the Plan is not the avoidance
of taxes or the avoidance of the application of section 5
of the Securities Act of 1933 (15 U.S.C. § 77e). Accordingly, the Plan satisfies the requirements of section
1129(d) of the Bankruptcy Code.
HH. Small Business Case (11 U.S.C. § 1129(e)).
Section 1129(e) is inapplicable because these Chapter
11 Cases do not qualify as small business cases thereunder.
II. Satisfaction of Confirmation Requirements.
Based upon the foregoing, the Plan satisfies the requirements for confirmation set forth in section 1129
of the Bankruptcy Code.
JJ. Executory Contracts. The Debtors have exercised reasonable business judgment in determining
whether to assume or reject their executory contracts
and unexpired leases pursuant to Article VI of the
Plan. Each assumption of an executory contract or unexpired lease pursuant to Article VI of the Plan shall
be legal, valid and binding upon the applicable Debtor
or Reorganized Debtor and their assignees or successors and all non-Debtor parties (and their assignees or
successors) to such executory contract or unexpired
lease, all to the same extent as if such assumption had
been effectuated pursuant to an order of the Court entered before the date of the entry of this Confirmation
Order (the “Confirmation Date”) under section 365 of

App. 266
the Bankruptcy Code. The Debtors are not assigning
any Executory Contracts or Unexpired Leases pursuant to Article VI.B of the Plan, and therefore the
provisions of the Plan addressing assignment of Executory Contracts or Unexpired Leases shall have no
force or effect. The Debtors are not rejecting any Executory Contracts or Unexpired Leases.
KK. Adequate Assurance. The Debtors have
cured, or the Reorganized Debtors shall promptly cure,
defaults (if any) under or relating to each of the executory contracts and unexpired leases that are being assumed by the Debtors pursuant to the Plan, including,
without limitation, the performance of the Debtors and
Reorganized Debtors of each one’s obligations under
the USA Settlement Agreements, and the Debtors’
and Reorganized Debtors’ continued participation in
the Medicare and Medicaid programs in the ordinary
course of business to be governed by and subject to, the
terms and conditions of the Medicare and Medicaid
Agreements and the Medicare statutes, regulations,
policies and procedures, including the recovery of overpayments in the ordinary course of business.
LL. Injunctions and Releases. This Court has jurisdiction under sections 1334(a) and (b) of title 28
of the United States Code to approve the injunction,
bar order, exculpation and releases set forth in Article
X of the Plan. Each of the injunctions and releases set
forth in Article X of the Plan are fair and necessary to
the Plan, thereby satisfying the requirements of In re
Continental Airlines, Inc., 203 F.3d 203, 214 (3d Cir.
2000), and other applicable case law. Such releases and

App. 267
injunctions are given in exchange for and are supported by fair, sufficient, and adequate consideration
provided by each and all of the parties providing such
releases. Pursuant to section 1123(b) of the Bankruptcy Code and Bankruptcy Rule 9019(a), the releases
and injunctions set forth in the Plan and implemented
by this Order are fair, equitable, reasonable, and in the
best interests of the Debtors, the Debtors and their Estates, and the holders of claims and equity interests.
This Court’s findings of fact to support the approval of
the Plan’s injunctions and releases provisions, based
on the record established at the Confirmation Hearing,
including the Declarations, are set forth below.
(a) Compromise and Settlement. The Plan
memorializes the significant compromises and agreements by and among the Released Parties that were
agreed upon in the RSA and as reflected in the USA
Settlement Agreements and the Plan. The Released
Parties’ commitments under the USA Settlement Agreements and the Plan are contingent upon the corresponding commitments by the other Released Parties
and the Releasing Parties. In consideration for the classification, distributions, and other benefits provided under the Plan (including the releases, injunctions and
bar order), the provisions of the Plan constitute a good
faith compromise and settlement of all Causes of Action and controversies among the Released Parties
to the extent and subject to the terms set forth in
the Plan, whether known or unknown, contingent or
non-contingent, matured or unmatured, suspected
or unsuspected, foreseen or unforeseen, liquidated or

App. 268
unliquidated, disputed or undisputed, secured or unsecured, assertable directly or derivatively, whether arising before, on, or after the Petition Date, in contract or
in tort, in law or in equity, or pursuant to any other
theory of law, relating to or in connection with the business or affairs of or transactions with the Debtors or
as otherwise set forth in the Plan. These compromises
and settlements are (i) in the best interests of the
Debtors, their Estates and creditors, and other parties
in interest; (ii) fair, equitable, proposed in good faith
and reasonable; and (iii) an essential element of the
resolution of these Chapter 11 Cases in accordance
with the Plan. Each of the release, bar order, and indemnification provisions set forth in the Plan: (i) is
within the jurisdiction of the Court under 28 U.S.C.
§§ 157(a), 157(b)(2), and 1334(a); (ii) is an essential
means of implementing the Plan pursuant to section
1123(a)(5) of the Bankruptcy Code; (iii) is an integral
element of the compromises and settlements identified
in the Plan; (iv) confers material benefit on, and is in
the best interest of the Debtors, their Estates and their
creditors; (v) is important to the overall objectives of
the Plan to finally resolve all Causes of Action among
or against the Released Parties; and (vi) is consistent
with sections 105, 1123, 1129 and other applicable provisions of the Bankruptcy Code.
(b)

Fairness.

(i) The Released Parties have provided, or have agreed to provide, a substantial
contribution that was essential to make the

App. 269
Plan feasible and to provide a fair result and
fair consideration for affected creditors.
(ii) MLH is contributing $178.75
million in connection with the Plan and TA is
contributing $146.25 million, which together
with other contributions and benefits form the
combined Settlement Contribution of $325
million in cash, to be paid to, or for the benefit
of, Millennium pursuant to the terms of the
USA Settlement Agreements, the RSA, and
the Plan as the sole means of satisfaction of
the terms of the USA Settlement Agreement.
MLH and TA are also contributing the guaranty of the Initial USA Settlement Deposit. In
addition, MLH and TA have agreed to transfer ownership of the equity interests in the
Debtors to the Prepetition Lenders as set
forth in the Plan. These contributions are reasonable, particularly in light of the complexity, difficulty, and time that would be required
to litigate the disputes being settled.
(iii) Each of the non-Debtor Released
Parties will waive their Claims and any distributions, other than those distributions provided for in the Plan, to which each would be
entitled on account of such Claims against the
Debtors and the other Released Parties or
have otherwise provided substantial contributions to the Plan. These compromises together
with the Settlement Contribution provide a
substantial contribution and are critical to
the Plan.

App. 270
(iv) A majority of the Prepetition
Lenders and their Related Parties extensively
negotiated and assisted in formulating the
Plan, entered into the RSA, and under the
Plan have agreed to convert their Existing Credit Agreement Claims into Pro Rata
shares of the New Term Loan and equity in
Reorganized Millennium, each of which provides substantial benefits to the Debtors’ estates, the Prepetition Lenders and the Debtors’
other constituencies as a result of MLH’s and
TA’s contributions under the Plan and the
RSA and the USA Settlement Agreements.
(v) The contributions provided in
exchange for the releases and injunctions represent an exchange of fair consideration. The
sole voting class, containing the Prepetition
Lenders, overwhelmingly voted to accept the
Plan and the Prepetition Lenders are receiving their pro rata share of 100% of the equity
in Reorganized Millennium (subject to traditional dilution), the $600 million New Term
Loan, the beneficial interests in the Millennium Corporate Claim Trust, and as applicable, the Millennium Lender Claim Trust. The
Settlement Contribution provided by MLH
and TA, and the other consideration provided
by all of the non-debtor Released Parties and
their Related Parties provides the Prepetition
Lenders with a substantial recovery and allows all other holders of Claims to remain
unimpaired. Moreover, Reorganized Millennium will have a substantially deleveraged
balance sheet and is projected to generate
positive EBITDA and excess cash flow. The

App. 271
uncontroverted evidence presented at the
Confirmation Hearing also demonstrates that
the equity in Reorganized Millennium has
substantial value. The value of the consideration provided to creditors under the Plan,
made possible by, and relative to, the Settlement Contribution, attests to the fairness of
the Plan settlements and compromises.
(vi) As reflected in the Tabulation
Declaration, Holders of 93.02% of all Existing
Credit Agreement Claims voted in support of
the Plan, thus confirming the reasonableness
of the settlements. Accordingly, the Plan has
been overwhelmingly accepted by the Class of
creditors primarily affected by the releases.
(vii) Each Non-Consenting Lender
will receive more value under the Plan than
they would in liquidation and, accordingly, receive fair and reasonable consideration in exchange for the releases and injunctions under
the Plan.
(c) Necessity to the Reorganization. The injunctions and releases provisions are critical to the
success of the Plan. Without the releases, and the enforcement of such releases through the Plan’s injunction provisions, the Released Parties are not willing to
make their contributions under the Plan. Absent those
contributions, the Debtors will be unable to satisfy
their obligations under the USA Settlement Agreements and no chapter 11 plan will be feasible and the
Debtors would likely shut down upon the revocation of
their Medicare enrollment and billing privileges.

App. 272
(d) Record Supports Specific Findings. The
record of the Confirmation Hearing and the Chapter
11 Cases is sufficient to support the injunctions and
releases provisions contained in the Plan.
(e) Extraordinary Circumstances. The filing
of the Chapter 11 Cases was the consensual culmination of months of negotiations among the Debtors, the
USA Settlement Parties, the Prepetition Lenders,
MLH and TA and provides a global resolution through
the settlements embodied in the RSA and the USA
Settlement Agreements, subject to approval and implementation through the Plan. The Plan avoids the
need for contentious and value-destroying litigation
and preserves the Debtors business as a going concern
and maximizes the value of the Estates. The extensive
efforts and substantial contributions by each of the Released Parties, along with the magnitude of the recoveries provided under the Plan to Holders of Allowed
Claims constitute extraordinary circumstances warranting the injunctions and releases provisions set
forth in the Plan.
(f ) Identity of Interest. For the reasons
listed below, there is a substantial identity of interest
between the Debtors and the Released Parties and
their respective Related Parties, such that a Cause of
Action asserted against a Released Party or its Related
Parties is essentially a Claim against the Debtors to
the extent the Released Party or Related Party (as applicable) has indemnification rights against the Debtors.

App. 273
(i) Each of the Released Parties share
a common goal of resolving their competing
and interrelated claims and achieving fair
and equitable distributions through the Plan.
Absent the involvement of the Released Parties, none of the settlements required for, or
entered into in connection with, the confirmation of the Plan would be possible, and few
business assets would be available for distribution to creditors if the Debtors’ Medicare enrollment and billing privileges were revoked
and the Debtors were forced to cease operations.
(ii) Many of the Debtors’ Related
Parties allege that they may have direct or
indirect indemnification rights against the
Debtors arising out of one or more of the
following: (i) specific board actions or resolutions; (ii) certificates of formation of the Debtors; (iii) bylaws and operating agreements of
the Debtors; (iv) employment agreements; or
(v) statutory or common law. Claims successfully asserted by any of the Debtors’ Related
Parties under any of the foregoing bases
would deplete the assets of the Debtors’ Estates.
(iii) Many of the Debtors’ Related
Parties share insurance policies with the
Debtors. As a result claims asserted against
the Debtors’ Related Parties would deplete
the assets of the Debtors’ Estates to the extent
such claims were covered under the shared insurance policies.

App. 274
MM. Bar Order and Injunction. The bar order
and injunction provisions set forth in Sections X.J and
X.K of the Plan are essential to the Plan, and are necessary to implement the Plan and to preserve and enforce the releases and the exculpation. The bar order
and injunction provisions are appropriately tailored to
achieve the foregoing purposes.
NN. Retained Claims and Other Matters. The
provisions set forth in Sections X.L an [sic] X.M of the
Plan are specifically negotiated and tailored provisions
to provide various protections to MLH and TA in respect of certain specified matters relating to Preserved
Estate Claims and Preserved Lender Claims. These
bargained for protections are an essential part of the
compromise that allowed for the continuation of the
Preserved Estate Claims and the Preserved Lender
Claims notwithstanding the funding of the Settlement
Contribution. These provisions strike a fair and appropriate balance between allowing for the preserved
claims and providing protection to MLH and TA from
litigation that is not being settled under the Plan.
These provisions are an inextricable part of the Plan
transactions and are necessary to implement the Plan
and preserve the benefit of the contemplated releases.
OO. Issuance of New Common Stock. The issuance of the New Holdco Common Stock is an essential
element of the Plan and is in the best interests of the
Debtors, their Estates, and their creditors. New Holdco
is authorized, without further approval of this Court or
any other party, to issue the New Holdco Common
Stock in accordance with the Plan and to execute and

App. 275
deliver all agreements, documents, instruments, and
certificates relating thereto.
PP. New Term Loan Agreement. The credit facility contemplated by the New Term Loan Agreement
(the “New Term Loan Facility”) is an essential element
of the Plan and is in the best interests of the Debtors,
their Estates, and their creditors. Pursuant to this Order and the Plan, without any requirement of further
action by security holders, directors, members or managers of the Debtors or execution of the New Term
Loan Agreement by any of the Prepetition Lenders, the
New Term Loan Agreement and the other New Term
Loan Documents will constitute legal, valid, enforceable and binding agreements of the parties thereto and
the Lenders referred to therein in accordance with paragraph 18 of this Confirmation Order.
QQ. Appointment of Certain Persons Under the
Plan. The appointment of (i) Marc Kirshner to serve as
the Trustee of the Millennium Lender Claim Trust,
(ii) Gene Davis, Alan Halperin and Matt Cantor to
serve as the three-member Millennium Lender Claim
Trust Advisory Board, (iii) Marc Kirshner to serve as
the trustee of the Millennium Corporate Claim Trust
and (iv) Gene Davis, Alan Halperin and Matt Cantor
to serve as the three-member Millennium Corporate
Claim Trust Advisory Board respectively, is hereby approved in all respects.
RR. Millennium Corporate Claim Trust Agreement. The Millennium Corporate Claim Trust Agreement is an essential element of the Plan and is in the

App. 276
best interests of the Debtors, their Estates, and their
creditors. The Debtors are authorized, without further
approval of this Court or any other party, to enter into
and to perform their respective obligations under the
Millennium Corporate Claim Trust Agreement in accordance with the Plan. Upon its execution pursuant
to this Order and the Plan, the Millennium Corporate
Claim Trust Agreement will constitute a legal, valid,
enforceable and binding agreement of the parties
thereto.
SS. Millennium Lender Claim Trust Agreement.
The Millennium Lender Claim Trust Agreement is an
essential element of the Plan and is in the best interests of the Debtors, their Estates, and their creditors.
The Debtors are authorized, without further approval
of this Court or any other party, to enter into and to
perform their respective obligations under the Millennium Lender Claim Trust Agreement in accordance
with the Plan. Upon its execution pursuant to this Order and the Plan, the Millennium Lender Claim Trust
Agreement will constitute a legal, valid, enforceable
and binding agreement of the parties thereto.
TT. Exemption from Securities Laws (11 U.S.C.
§ 1145). Pursuant to the Plan, any securities issued
and any subsequent sales, resales, transfers, or other
distributions of any such securities shall be exempt
from any federal or state securities laws registration
requirements, including section 5 of the Securities Act,
to the fullest extent permitted by section 1145 of the
Bankruptcy Code. The issuance and distribution of the
New Holdco Common Stock and the Equity Interests

App. 277
in Millennium and any interest in either the Millennium Corporate Claim Trust or the Millennium
Lender Claim Trust, to the extent any such interest
may be considered a security, will be made in reliance
on the exemption from registration provided by section
1145(a) of the Bankruptcy Code, or section 4(a)(2) of
the Securities Act or Regulation D promulgated thereunder, and will be exempt from registration under applicable securities laws.
UU. Restructuring Transactions. The Reorganized
Debtors’ entry into and assumption of all obligations
under and in respect of the transactions contemplated
by Article V of the Plan and the other transactions contemplated by the Plan, including without limitation
the Restructuring Transactions, is an exercise of reasonable business judgment, proposed in good faith,
critical to the success and feasibility of the Plan and in
the best interests of the Debtors, the Reorganized
Debtors, the Estates and creditors. The Restructuring
Transactions were negotiated, proposed, and entered
into or will be entered into, as the case may be, by the
Debtors, the Reorganized Debtors, and the counterparties thereto without collusion, in good faith, and from
arm’s-length bargaining positions. All documents heretofore executed in connection with the Restructuring
Transactions are valid, binding and enforceable agreements and are not in conflict with any applicable federal or state law, and all documents to be executed
following entry of this Confirmation Order in connection with the Restructuring Transactions, upon their
execution, will be valid, binding and enforceable

App. 278
agreements and will not be in conflict with any applicable federal or state law.
VV. Plan Conditions to Confirmation. The conditions to confirmation set forth in Article VIII.A of the
Plan have been satisfied or waived in accordance with
the terms of the Plan.
WW. Plan Conditions to Consummation. Each of
the conditions to the Effective Date, as set forth in Article VIII.B of the Plan, is reasonably likely to be satisfied or waived in accordance with the terms of the Plan.
XX. Plan Conditions to the Equity Transfer
Date. Each of the conditions to the Equity Transfer
Date, as set forth in Article VIII.C of the Plan, is reasonably likely to be satisfied or waived in accordance
with the terms of the Plan.
YY. Retention of Jurisdiction. The Court properly
may retain jurisdiction over the matters set forth in
Article IX.A of the Plan.
DECREES
NOW, THEREFORE, IT IS HEREBY ORDERED,
ADJUDGED AND DECREED THAT:
Confirmation of Plan and Related Matters
1. Approval Of Disclosure Statement. Pursuant
to Bankruptcy Rule 3017(b), the Disclosure Statement
is approved under Bankruptcy Code sections 1125(a)
and 1125(g).

App. 279
2. Solicitation. The Solicitation Procedures including the procedures for transmittal of Solicitation Packages (as defined in the Motion), the form of
Ballots, and the Voting Deadline, are approved under
sections 1125 and 1126 of the Bankruptcy Code, Bankruptcy Rules 3017 and 3018, the Local Rules, all other
applicable provisions of the Bankruptcy Code, and all
other rules, laws, and regulations applicable to such
solicitation. The solicitation materials are approved
under sections 1125 and 1126 of the Bankruptcy Code,
Bankruptcy Rules 3017 and 3018, the Local Rules, all
other applicable provisions of the Bankruptcy Code,
and all other applicable rules, laws, and regulations.
3. Confirmation. The Plan, including all provisions thereof (whether or not specifically approved
herein), all Plan Supplements and all Exhibits attached thereto, is approved and confirmed under section 1129 of the Bankruptcy Code. All acceptances and
rejections previously cast for or against the Plan are
hereby deemed to constitute acceptances or rejections
of the Plan.
4. Confirmation Order Binding on All Parties.
Subject to the provisions of the Plan and Bankruptcy
Rule 3020(e), in accordance with section 1141(a) of the
Bankruptcy Code and notwithstanding any otherwise
applicable law, upon the occurrence of the Effective
Date, the terms of the Plan and this Confirmation Order shall be binding upon, and inure to the benefit of:
(a) the Debtors; (b) the Reorganized Debtors; (c) any
and all holders of Claims or Equity Interests (irrespective of whether such Claims or Equity Interests are

App. 280
Impaired under the Plan or whether the holders of
such Claims or Equity Interests accepted, rejected or
are deemed to have accepted or rejected the Plan);
(d) any other person giving, acquiring or receiving
property under the Plan; (e) any and all non-Debtor
parties to executory contracts or unexpired leases with
any of the Debtors; and (f ) the respective heirs, executors, administrators, trustees, affiliates, officers, directors, agents, representatives, attorneys, beneficiaries,
guardians, successors or assigns, if any, of any of the
foregoing. On the Effective Date, except as otherwise
set forth in the Plan or paragraph 5 of this Confirmation Order, all settlements, compromises, releases,
waivers, discharges, exculpations and injunctions set
forth in the Plan shall be effective and binding on all
Persons who may have had standing to assert any settled, compromised, released, waived, discharged, exculpated or enjoined causes of action, and no other Person
or entity shall possess such standing to assert such
causes of action after the Effective Date.
5. Unimpaired Claims. Notwithstanding the effectiveness and application of the provisions of Articles
III.E.(i), III.E.(iii), III.E.(iv), V.I and X.C, X.H, X.I, X.J
and X.K of the Plan as of the Effective Date, or any
other provision of the Plan, the Disclosure Statement,
the Plan Supplements, the RSA, any other document
related to the Plan, or this Confirmation Order, that
provides that a Claim is settled, satisfied, resolved, released, discharged, barred or enjoined, until a Claim
that is against any of Holdings, Millennium or RxAnte,
LLC, and which arises prior to the Effective Date of the

App. 281
Plan and falls under Class 4 or 6 (including Claims
arising from the rejection of Executory Contracts or
Unexpired Leases and Claims arising under section
502(h) of the Bankruptcy Code) of the Plan or is a Cure
Claim, has been (x) paid in full by Millennium or
RxAnte, LLC, or Reorganized Millennium or Reorganized
RxAnte, LLC, as applicable, in accordance with applicable law, or on such terms as may otherwise be agreed
to between the Holder of such Claim and Millennium
or RxAnte, LLC, or Reorganized Millennium or Reorganized RxAnte, LLC, as applicable, or in accordance
with the terms and conditions of the particular transaction giving rise to such Claim as modified herein as
to Holdings or (y) otherwise satisfied or disposed of
as determined by a court of competent jurisdiction:
(a) Holders of such Claims against Holdings, Millennium or RxAnte, LLC or Reorganized Millennium
or Reorganized RxAnte, LLC, may pursue or enforce
solely such Claims against Reorganized Millennium or
Reorganized RxAnte, LLC, and (b) the property of each
of Millennium’s or RxAnte, LLC’s Estates that vests in
the applicable Reorganized Debtor pursuant to section
V.C of the Plan shall not be free and clear of such
Claims; provided, that for the avoidance of doubt, the
foregoing shall not apply to paragraphs 30, 31, 32, 34,
41 and 47 of this Confirmation Order, and for the
avoidance of doubt, nothing herein shall apply, or have
any force and effect, with respect to any Claims against
any Released Party or any of their Related Parties
(other than Millennium or RxAnte, LLC, or Reorganized
Millennium or Reorganized RxAnte, LLC) and, as such,
the provisions of Articles IIIE.(i), III.E.(iii), III.E.(iv),

App. 282
V.I and X.C, X.H, X.I, X.J and X.K of the Plan shall apply, without limitation, in all respects from and after
the Effective Date in favor of all Released Parties
and their Related Parties (other than Millennium or
RxAnte, LLC, or Reorganized Millennium or Reorganized RxAnte, LLC) as against all Holders of Claims
falling under Classes 4 or 6 and Cure Claims. Holders
of Claims falling under Classes 4 or 6 of the Plan and
Cure Claims shall not be required to file a Proof of
Claim with the Bankruptcy Court. Holders of Claims
falling under Classes 4 or 6 and Cure Claims shall
not be subject to any claims resolution process in
Bankruptcy Court in connection with their Claims,
and shall retain all their rights under applicable nonbankruptcy law to pursue their Class 4 or 6 Claims,
and Cure Claims, against Millennium or RxAnte, LLC
or Reorganized Millennium or Reorganized RxAnte,
LLC or other Entity in any forum with jurisdiction over the parties. Millennium, RxAnte, LLC, Reorganized Millennium, and Reorganized RxAnte, LLC
shall retain all defenses, counterclaims, rights to setoff,
and rights to recoupment as to Claims falling under
Classes 4 or 6 of the Plan and as to Cure Claims. Notwithstanding the foregoing, nothing herein limits the
retained jurisdiction of the Bankruptcy Court under
Article IX of the Plan. Any Holders of Claims in Classes 4 and 6 that hold Claims against Holdings shall be
deemed to hold such Claims solely against Reorganized Millennium and Reorganized RxAnte, LLC
and the provisions of this paragraph shall apply to
such Claims as against Reorganized Millennium and
Reorganized RxAnte, LLC.

App. 283
6. Notice. Notice of the Plan, the exhibits thereto
(and all amendments and modifications thereto), the
Disclosure Statement, the Solicitation Packages and
the Confirmation Hearing was proper and adequate.
7. Objections. All objections and all reservations
of rights that have not been withdrawn, waived or settled, pertaining to the confirmation of the Plan are
overruled on the merits.
8. Authorization and Effectiveness of All Actions.
All actions contemplated by the Plan are hereby authorized and approved in all respects (subject to the
provisions of the Plan). The approvals and authorizations specifically set forth in this Confirmation Order
are nonexclusive and are not intended to limit the authority of any Debtor or Reorganized Debtor or any officer or director thereof to take any and all actions
necessary or appropriate to implement, effectuate and
consummate any and all documents or transactions
contemplated by the Plan or this Confirmation Order.
Pursuant to this Order, Delaware General Corporate
Law section 303, and other applicable law, the Debtors,
the Reorganized Debtors and New Holdco are authorized and empowered, without action of their respective
stockholders or members or boards of directors or managers (but subject to consent rights, if any, set forth in
the Plan, and in the case of Holdings, also subject to
the agreements governing the respective rights of the
members of Holdings) to take any and all such actions
as any of their executive officers may determine are
necessary or appropriate to implement, effectuate and
consummate and perform any and all documents

App. 284
(including, without limitation, the New Term Loan
Agreement and any and all documents relating thereto,
including, without limitation, all security agreements,
all related or ancillary documents and agreements, any
mortgages contemplated thereby and the fee letter
with the Administrative Agent for the New Term Loan
(collectively, the “New Term Loan Documents”), the
Millennium Lender Claim Trust Agreement and the
Millennium Corporate Claim Trust Agreement) or
transactions contemplated by the Plan or this Confirmation Order.
9. Vesting of Assets in the Reorganized Debtors.
Except as provided in the Plan, including Article V.J of
the Plan with respect to the property and assets not
vesting free and clear of any Claims reserved for Governmental Units, Article V.F of the Plan with respect
to the property and assets to be transferred to the Millennium Corporate Claim Trust, in the USA Settlement Agreements, or in this Confirmation Order, on or
after the Equity Transfer Date, all property and assets
of the Estates (including, without limitation, Causes of
Action and Avoidance Actions, but only to the extent
such Causes of Action and Avoidance Actions have not
been waived or released pursuant to the terms of the
Plan, pursuant to an order of the Bankruptcy Court, or
otherwise) and any property and assets acquired by
the Debtors pursuant to the Plan, will vest in the Reorganized Debtors, free and clear of all Liens or
Claims. Except as may be otherwise provided in the
Plan, on and after the Effective Date, the Reorganized
Debtors may operate their businesses and may use,

App. 285
acquire or dispose of property and compromise or settle
any Claims without supervision or approval by the
Bankruptcy Court and free of any restrictions of the
Bankruptcy Code or Bankruptcy Rules, other than
those restrictions expressly imposed by the Plan and
this Confirmation Order. Without limiting the foregoing, the Reorganized Debtors will pay the charges that
they incur after the Effective Date for Professionals’
fees, disbursements, expenses or related support services (including reasonable fees relating to the preparation of Professional fee applications) in the ordinary
course of business and without application or notice to,
or order of, the Bankruptcy Court.
10. Release of Liens, Claims and Equity Interests. Except as otherwise provided in paragraph 5 of
this Confirmation Order, the Plan or in any contract,
instrument, release or other agreement or document
entered into or delivered in connection with the Plan,
on the Equity Transfer Date and concurrently with the
applicable distributions made pursuant to the Plan, all
Liens, Claims, or Equity Interests in or against the
property of the Estates will be fully released, terminated, extinguished and discharged, in each case without further notice to or order of the Bankruptcy Court,
act or action under applicable law, regulation, order, or
rule or the vote, consent, authorization or approval of
any Entity. Any Entity holding such Liens, Claims, or
Equity Interests will, pursuant to section 1142 of the
Bankruptcy Code, promptly execute and deliver to the
Reorganized Debtors such instruments of termination,
release, satisfaction and/or assignment (in recordable
form) as may be reasonably requested by the

App. 286
Reorganized Debtors and shall incur no liability to any
Entity in connection with its execution and delivery
of any such instruments. Without limitation of the
generality of the foregoing, all mortgages, deeds of
trust, security interests and other liens granted as security for the Existing Credit Agreement (including,
but not limited to, the deeds of trust granted by the
Debtors in respect to their interest as lessee under
the JS Real Estate Leases and recorded in the jurisdictions where such properties are located) (the “Existing Leasehold Mortgages”) shall be released,
terminated, extinguished and discharged as provided
above and the Debtors and the other parties to such
Existing Leasehold Mortgages are hereby authorized
and directed to execute and deliver any appropriate
instruments or documents which may be reasonably
requested by the Ad Hoc Group or the Prior Administrative Agent to evidence such releases of record at the
applicable filing offices (including, but not limited, discharges of the Existing Leasehold Mortgages).
11. Corporate Structure. On or prior to the Equity
Transfer Date, the Debtors or Reorganized Debtors are
authorized to reorganize their corporate structure as
contemplated by Article V.B of the Plan, including by
completing the transactions under the Plan that would
result in (i) New Holdco being formed and becoming
the parent entity of Reorganized Millennium and, (ii)
to the extent deemed necessary or desirable by the
Debtors or Reorganized Debtors and an Ad Hoc Group
Majority, the conversion of Millennium Health, LLC
from a California limited liability company into a Delaware limited liability company. Furthermore, on or

App. 287
prior to the Equity Transfer Date, New Holdco is authorized to enter into or otherwise adopt the New
Holdco Organizational Documents.
12. Restructuring Transactions. The Restructuring Transactions are approved, and the Debtors and
Reorganized Debtors and their officers, managers and
directors are authorized, subject to the consent rights
contained in the Plan, to execute, adopt and/or amend
such documents (including, without limitation, the
New Term Loan Agreement and the other New Term
Loan Documents, the Millennium Lender Claim Trust
Agreement and the Millennium Corporate Claim Trust
Agreement, the New Holdco Organizational Documents and, if deemed necessary or desirable by the
Debtors or the Reorganized Debtors and an Ad Hoc
Group Majority, all documents relating to the conversion of Millennium Health, LLC from a California limited liability company into a Delaware limited liability
company, including without limitation the Plan of Entity Conversion and Amended and Restated Operating
Agreement) and take such actions as may be reasonably required to implement the Restructuring Transactions in a manner Consistent With The Restructuring
Term Sheet, as defined in the Plan, and the tax provisions discussed therein.
13. Cancellation of Notes, Certificates and Instruments. On the Equity Transfer Date, and provided
that the New Securities and Debt Documents have
been executed by New Holdco and the Reorganized
Debtors, as applicable and delivered to the party or
parties entitled thereto and all amounts outstanding

App. 288
under the Early Commitment Facility have been paid,
except as otherwise provided in the Plan or this Confirmation Order, all notes, stock, instruments, certificates, agreements and other documents evidencing the
Early Commitment Facility, the Existing Credit Agreement Claims and the Existing Equity Interests in Millennium will be canceled, and the obligations of the
Debtors thereunder or in any way related thereto will
be fully released, terminated, extinguished and discharged, in each case without further notice to or order
of the Bankruptcy Court, act or action under applicable
law, regulation, order, or rule or any requirement of further action, vote or other approval or authorization by
any Person. On the day following the date that the final distribution is made by Administrative Agent, the
Administrative Agent will be released and discharged
from any further responsibility under the Existing
Loan Documents; provided, however, that any and all
rights of indemnification applicable to the Administrative Agent (including, without limitation, any rights related to reimbursement of Administrative Agent Fees)
or the Prior Administrative Agent, respectively, under
the Existing Loan Documents and related documents
shall survive and remain in full force and effect; provided further, however, until the Administrative Agent
Fees have been paid in full, the Administrative Agent
will retain its charging liens under the Existing Loan
Documents with respect to any cash distributions to be
made under the Plan by the Administrative Agent.
14. Preservation and Maintenance of Debtor
Causes of Action. Except as otherwise provided in the

App. 289
Plan or this Confirmation Order, or in any contract, instrument, release, or other agreement entered into in
connection with the Plan as provided for in the Plan,
after the Equity Transfer Date, Reorganized Millennium shall be automatically deemed to have transferred the Retained Corporate Causes of Action and
the other Trust Assets (as defined below) to the Millennium Corporate Claims Trust free and clear of all liens,
encumbrances, claims or interests as provided in Paragraph 25 hereof and the Reorganized Debtors or the
Millennium Corporate Claim Trust (in accordance
with Article V.F of this Plan), as applicable pursuant to
the Plan, shall retain any and all rights to commence,
pursue, litigate or settle, as appropriate, any and all
Causes of Action that are not Released Claims, whether
existing as of the Petition Date or thereafter arising, in
any court or other tribunal including, without limitation, in an adversary proceeding filed in the Chapter
11 Cases. The Reorganized Debtors, as the successors
in interest to the Debtors and the Estates, or the Millennium Corporate Claim Trust (in accordance with
Article V.F of the Plan) as the transferee of the Retained Millennium Corporate Claims, as applicable,
may, in their sole and absolute discretion, and will
have the exclusive right to, enforce, sue on, settle, compromise, transfer or assign (or decline to do any of the
foregoing) any claims or Causes of Action that are not
Released Claims without notice to or approval from the
Bankruptcy Court. The Reorganized Debtors or the
Millennium Corporate Claim Trust, as applicable, or
their successor(s) may pursue such retained claims,
rights or Causes of Action, suits, or proceedings as

App. 290
appropriate, but for the avoidance of doubt, not any Released Claims, in accordance with the best interests of
the Reorganized Debtors or the Millennium Corporate
Claim Trust, as applicable, or their successor(s) who
hold such rights as determined by the Reorganized
Debtors or the Millennium Corporate Trust, in their
discretion.
15. Unless a Cause of Action against a Holder of
a Claim or an Equity Interest or other Entity is (A) expressly waived, relinquished, released, compromised
or settled in the Plan or any Final Order (including,
without limitation, Released Claims released pursuant
to this Confirmation Order), or (B) subject to the bar
order and injunction provisions in Article X.J of the
Plan, Article X.K of the Plan, and this Confirmation
Order, such Cause of Action (including, without limitation, other than with respect to Released Claims,
Causes of Action not specifically identified or of which
the Debtors may presently be unaware or which may
arise or exist by reason of additional facts or circumstances unknown to the Debtors at this time or facts or
circumstances that may change or be different from
those the Debtors now believe to exist and all Retained
Corporate Causes of Action) is expressly reserved for
later adjudication by the Debtors and, therefore, no
preclusion doctrine, including, without limitation, the
doctrines of res judicata, collateral estoppel, issue preclusion, claim preclusion, waiver, estoppel (judicial, equitable or otherwise) or laches will apply to such
Causes of Action upon or after the Confirmation of the
Plan or the Effective Date of the Plan based on the

App. 291
Plan or the Confirmation Order, except where such
Causes of Action have been expressly released in the
Plan (including, without limitation, and for the avoidance of doubt, the releases contained in Article X of
the Plan) or any other Final Order (including, without limitation, the Confirmation Order). Any Retained
Corporate Causes of Action shall be transferred to the
Millennium Corporate Claim Trust in accordance with
Article V.F of the Plan and Paragraph 25 hereof and
the terms of such Trust for later adjudication by the
Millennium Corporate Claim Trust. In addition, except
in respect to the Retained Corporate Causes of Action,
the right to pursue or adopt any claims alleged in any
lawsuit in which any Debtor is a plaintiff; defendant or
an interested party, against any Entity, including,
without limitation, the plaintiffs or co-defendants in
such lawsuits is expressly reserved for the Debtors and
the Reorganized Debtors.
16. Distribution Agent. Except as provided in the
Plan, all distributions under the Plan shall be made by
the Reorganized Debtors, New Holdco, or the Administrative Agent, respectively, as Distribution Agent, or
by such other Entity designated by the Reorganized
Debtors or New Holdco as a Distribution Agent on the
Effective Date. The Distribution Agent shall not be required to give any bond or surety or other security for
the performance of the Reorganized Debtors’ duties as
Distribution Agent unless otherwise ordered by this
Court. For purposes of distributions under the Plan to
the Holders of Existing Credit Agreement Claims, the
Administrative Agent will be and shall act as the

App. 292
Distribution Agent and in acting in such capacity shall
be entitled to all of the rights, protections, and indemnities afforded to the Administrative Agent under the
Existing Credit Agreement.
17. The Distribution Agent shall be empowered
to (a) effect all actions and execute all agreements, instruments, and other documents necessary to perform
its duties under the Plan; (b) make all distributions
contemplated hereby; (c) employ professionals to represent it with respect to its responsibilities; and (d) exercise such other powers as may be vested in the
Distribution Agent by order of the Bankruptcy Court,
pursuant to the Plan, or as deemed by the Distribution
Agent to be necessary and proper to implement the
provisions hereof. If the Distribution Agent is an entity
other than a Reorganized Debtor or New Holdco, such
entity shall be paid its reasonable fees and expenses,
including the reasonable fees and expenses of its attorneys or other professionals.
18. New Term Loan Facility. The terms of the
New Term Loan Facility are hereby approved and the
Debtors (other than Holdings) are authorized, without
further approval of this Court or any other party, to
(1) enter into, execute, deliver and perform all obligations under the New Term Loan Agreement and the
New Term Loan Documents in accordance with the
Plan, (2) grant such liens and security interests as
necessary to provide security for the New Term Loan
Facility in accordance with the New Term Loan Documents, (3) perform all of their obligations under the
New Term Loan Agreement and the other New Term

App. 293
Loan Documents, and (4) take all such other actions as
the Debtors may determine are necessary, appropriate
or desirable in connection with the consummation of
the transactions contemplated by the New Term Loan
Facility. Each Prepetition Lender, upon the effectiveness of the New Term Loan Agreement, is deemed to
have consented and agreed to, and will be bound by the
terms of the New Term Loan Agreement, including,
without limitation, all obligations of the Lenders thereunder, notwithstanding the failure of any such Prepetition Lender to execute a signature page to the New
Term Loan Agreement. The collateral agent for the
New Term Loan Facility shall be granted Liens on the
collateral, including all of the Debtors’ interests in the
JS Real Estate Leases, which Liens shall be deemed
perfected and effective as of the Effective Date.
19. Millennium Corporate Claim Trust. On the
Equity Transfer Date, but after the transactions described in clauses (i) and (ii) of the definition of Equity
Transfer Date as set forth in the Plan, the Millennium
Corporate Claim Trust shall be created by Millennium
and shall be funded by Reorganized Millennium in the
amount of $1,000,000 in Cash on the terms set forth in
the Plan. Substantially simultaneously with the formation of the Millennium Corporate Claim Trust, the
Retained Corporate Causes of Action are authorized to
be and shall be automatically deemed to have been
contributed to the Millennium Corporate Claim Trust
free and clear of any liens, encumbrances, claims or interests pursuant to Paragraph 25 hereof.

App. 294
20. The beneficiaries of the Millennium Corporate
Claim Trust are the Holders of Existing Credit Agreement Claims. For purposes of allocating and distributing beneficial interests in the Millennium Corporate
Claims Trust, the Post-Tabulation Claims Purchases
shall be given effect. Solely to the extent of any net proceeds recovered from any Non-Contributing MLH
Shareholder Claims, the Backstop MLH Shareholders
shall be entitled to the reimbursement rights as follows: with respect to any net proceeds recovered by
the Millennium Corporate Claim Trust from any NonContributing MLH Shareholder Claims, such net proceeds shall be reimbursed first to the Backstop MLH
Shareholders, in the aggregate with any net proceeds
received from the Millennium Lender Claim Trust up
to the amount of the Non-Contributing MLH Shareholders’ Pro Rata share of MLH Contribution. Subject
to the reimbursement rights of the Backstop MLH
Shareholders in accordance with Article V.F(iii) of the
Plan, the Holders of Existing Credit Agreement Claims
shall receive their Pro Rata share of beneficial interests in the Millennium Corporate Claim Trust, as provided in Article III.C(ii)(2) of the Plan.
21. The Millennium Corporate Claim Trust is
hereby authorized, subject to the teens of the Millennium Corporate Claim Trust Agreement and the Plan,
to appoint Marc Kirschner as the initial trustee of the
Millennium Corporate Claim Trust and Gene Davis,
Alan Halperin and Matt Cantor as the members of the
Trust Advisory Board of such Trust, in each case on
the terms set forth in the Plan and the Millennium

App. 295
Corporate Claim Trust Agreement as filed with the
Third Plan Supplement. All such persons are authorized to serve in their respective capacities as provided
under the Plan, the Millennium Corporate Claim Trust
Agreement and any related documents approved by
this Court and, in connection therewith, are authorized
to take any and all actions necessary in furtherance of
the discharge of such persons’ obligations under the
Plan and any related documents approved by the
Court. To the extent necessary, the appointment of
such persons in their respective capacities under the
Plan is approved pursuant to section 1123(b)(3)(B) of
the Bankruptcy Code. The compensation of any such
persons as set forth in the Millennium Corporate
Claim Trust Agreement is hereby deemed reasonable
and approved.
22. Millennium Lender Claim Trust. On the Equity Transfer Date, but after the transactions described in clauses (i) and (ii) of the definition of Equity
Transfer Date as set forth in the Plan, the Millennium
Lender Claim Trust shall be created and shall be
funded by Reorganized Millennium in the amount of
$2,000,000 Cash on the terms set forth in the Plan.
Substantially simultaneously with the formation of
the Millennium Lender Claim Trust, the Consenting
Lenders are authorized to be and shall each be automatically deemed to have been [sic] contributed the
Retained Lender Causes of Action to the Millennium
Lender Claim Trust.
23. The beneficiaries of the Millennium Lender
Claim Trust are the Consenting Lenders (which term

App. 296
shall include the Post-Tabulation Claims). Solely to the
extent of any net proceeds recovered from any NonContributing MLH Shareholder Claims, the Backstop
MLH Shareholders shall be entitled to the reimbursement rights as follows: with respect to any net proceeds
recovered by the Millennium Lender Claim Trust from
any Non-Contributing MLH Shareholder Claims, such
net proceeds shall be reimbursed first to the Backstop
MLH Shareholders, in the aggregate with any net proceeds received from the Millennium Corporate Claim
Trust up to the amount of the Non-Contributing MLH
Shareholders’ Pro Rata share of MLH Contribution.
Subject to the reimbursement rights of the Backstop
MLH Shareholders in accordance with this Article
V.G(iii), the Consenting Lenders shall receive their Pro
Rata share, based on the aggregate principal amount
of only those Existing Credit Agreement Claims held
by all Consenting Lenders, of beneficial interests in the
Millennium Lender Claim Trust, as provided in Article
III.C(ii)(2) of the Plan.
24. The Millennium Lender Claim Trust is
hereby authorized, subject to the terms of the Millennium Lender Claim Trust Agreement and the Plan, to
appoint Marc Kirschner as the initial trustee of the
Millennium Lender Claim Trust and Gene Davis, Alan
Halperin and Matt Cantor as the Members of the Trust
Advisory Board of such Trust on the terms set forth in
the Plan and the Millennium Lender Claim Trust
Agreement as filed with the Third Plan Supplement.
All such persons are authorized to serve in their respective capacities as provided under the Plan, the

App. 297
Millennium Lender Claim Trust Agreement and any
related documents approved by this Court and, in connection therewith, are authorized to take any and all
actions necessary in furtherance of the discharge of
such persons’ obligations under the Plan and any related documents approved by the Court. To the extent
necessary, the appointment of such persons in their respective capacities under the Plan is approved pursuant to section 1123(b)(3)(B) of the Bankruptcy Code.
The compensation of any such persons as set forth in
the Millennium Lender Claim Trust Agreement is
hereby deemed reasonable and approved.
25.

Additional Trust Matters.

(a) On the Equity Transfer Date, the Retained Corporate Causes of Action and all of the other
Trust Assets (as such term is used in the Millennium
Corporate Claim Trust Agreement) shall be automatically deemed transferred to the Millennium Corporate
Claims Trust and the Consenting Lenders shall each
be automatically deemed to have contributed the Retained Lender Causes of Action to the Millennium
Lender Claim Trust and the Retained Corporate
Causes of Action and the other Trust Assets (as used
in the Millennium Lender Claim Trust Agreement)
will be automatically be deemed to have been transferred to and vested in the Millennium Lender Claim
Trust, in each case pursuant to the Plan and the terms
of the applicable trust agreement and free and clear of
any and all liens, claims, encumbrances, or interests of
any kind in such property except as expressly provided
in Section X.L of the Plan. Upon the transfer of the

App. 298
Retained Corporate Causes of Action to the Millennium Corporate Claims Trust, the Millennium Corporate Claims Trust shall succeed to all of Reorganized
Millennium’s and its Estates’ right, title and interest
in all of the Retained Corporate Causes of Action and
other Trust Assets of such Trust and neither Reorganized Millennium nor its Estate shall have any interest in or with respect to such Retained Corporate
Causes of Action except as provided in the Millennium
Corporate Claims Trust Agreement. Upon the transfer
of the Retained Lender Causes of Action to the Millennium Lender Claims Trust, the Millennium Lender
Claims Trust shall succeed to all right, title and interest of each of the Consenting Lenders in the Retained
Lender Causes of Action and all right, title or interest
of the Consenting Lenders or the Reorganized Debtors
and their Estates in and to the other Trust Assets (as
defined in the Millennium Lender Claims Trust Agreement) and none of the Consenting Lenders nor the Reorganized Debtors or their Estates shall have any
interest in or with respect to such Retained Lender
Causes of Action or such other Trust Assets, except for
their respective beneficial interests in the Millennium
Lender Claim Trust Agreement.
(b) On the Equity Transfer Date, Reorganized
Millennium is authorized and directed to fund the Millennium Corporate Claim Trust with the initial contribution of $1,000,000 and the Millennium Lender
Claim Trust with the initial contribution of $2,000,000
required under Sections V(F) and (G) of the Plan
and the terms of the applicable trust agreement and

App. 299
Reorganized Millennium is further authorized and directed to thereafter continue to fund the reasonable
fees and expenses of each of such Trusts up to an aggregate of $10,000,000 as provided under such Sections of the Plan and the terms of the respective trust
agreements.
(c) The Trust Delayed Draw Facility is an essential element of the Plan and is in the best interests
of the Debtors, their Estates and their creditors. Reorganized Millennium is hereby authorized, without further approval of the Court or any other party, to enter
into the Trust Delayed Draw Facility in accordance
with the Plan. Upon its execution, pursuant to this Order and the Plan, the Trust Delayed Draw Facility will
constitute a legal, valid, enforceable and binding
agreement.
(d) On the Equity Transfer Date, pursuant
to the terms of the Millennium Corporate Claims Trust
and the Millennium Lender Claim Trust, any Privileges (as defined in the Millennium Corporate Claims
Trust Agreement) associated with any of the Retained
Corporate Causes of Action held by Reorganized Millennium or its Estate, and the right to assert and waive
such privileges, shall be deemed to have been automatically, without further order of the Court or any other
party, vested in the Trustee of the Millennium Corporate Claims Trust pursuant to the terms of the applicable trust agreement. The transfer and assignment of
such privileges is an essential element of the Plan and
is in the best interests of the Debtors, their Estates and
their creditors. The Court further finds that each of the

App. 300
Millennium Corporate Claims Trust and the Millennium Lender Claims Trust have a joint or common
interest in respect of the Retained Corporate Causes of
Action and the Retained Lender Causes of Action
against the Excluded Parties and authorizes the Trustee of the Millennium Corporate Claims Trust in his
discretion, to provide privileged documents and communications to the Millennium Lender Claims Trust
as provided in the Millennium Lender Claims Trust
Agreement. Reorganized Millennium is further authorized and directed to cooperate with the Millennium Corporate Claims Trust and the Millennium
Lenders Claim Trust as required pursuant to the
terms of the applicable trust agreement.
26. Issuance of New Securities and Debt Documents. On the Equity Transfer Date, but after the
transactions described in clause (i) of the definition of
Equity Transfer Date, as defined in the Plan, the transfer to New Holdco described in clause (ii) of the definition of Equity Transfer Date, as defined in the Plan, is
authorized and shall be effected, and the Reorganized
Debtors and New Holdco are authorized to, and will,
issue and execute, as applicable, the New Securities
and Debt Documents and any related documents, in
each case without further notice to or order of the
Bankruptcy Court, act or action under applicable law,
regulation, order, or rule or the vote, consent, authorization or approval of any Entity. The issuance and distribution of the New Holdco Common Stock will be
made in reliance on the exemption from registration
provided by section 1145(a) of the Bankruptcy Code, or

App. 301
section 4(a)(2) of the Securities Act or Regulation D
promulgated thereunder, and will be exempt from registration under applicable securities laws. Without
limiting the effect of section 1145 of the Bankruptcy
Code, or section 4(a)(2) of the Securities Act or Regulation D promulgated thereunder, all financing documents, agreements, and instruments entered into and
delivered on or as of the Equity Transfer Date contemplated by or in furtherance of the Plan, including, without limitation, the New Term Loan Agreement and the
other New Term Loan Documents, the New Holdco
Common Stock, the New Holdco Registration Rights
Agreement and any other agreement or document related to or entered into in connection with any of the
foregoing, will become effective and binding in accordance with their respective terms and conditions upon
the parties thereto, in each case without further notice
to or order of the Bankruptcy Court, act or action under applicable law, regulation, order, or rule or the vote,
consent, authorization or approval of any Entity (other
than as expressly required by such applicable agreement). The New Holdco Common Stock, when issued,
will be duly and validly issued, fully paid and nonassessable.
27. Upon the Equity Transfer Date, after giving
effect to the transactions contemplated hereby, the authorized capital stock or other equity securities of New
Holdco will be that number of shares of New Holdco
Common Stock as may be designated in the New
Holdco Organizational Documents.

App. 302
28. Executory Contracts and Unexpired Leases.
Except as otherwise provided in the Plan, or in any
contract, instrument, release, or other agreement or
document entered into in connection with the Plan, as
of the Effective Date, the Debtors shall be deemed to
have assumed each Executory Contract and Unexpired
Lease to which it is a party in accordance with, and
subject to, the provisions and requirements of sections
365 and 1123 of the Bankruptcy Code, unless such Executory Contract or Unexpired Lease expired or terminated pursuant to its own terms before the Effective
Date.
29. All Executory Contracts or Unexpired Leases
assumed by the Debtors pursuant to the foregoing (the
“Assumed Agreements”) shall remain in full force and
effect for the benefit of the Reorganized Debtors, as
applicable, and be enforceable by the Reorganized
Debtors, as applicable, in accordance with their terms
notwithstanding any provision in such Assumed
Agreements that purports to prohibit, restrict or condition such assumption. Any provision in the Assumed
Agreements that purports to declare a breach or default based in whole or in part on the above-captioned
cases is hereby deemed unenforceable, and the Assumed Agreements shall remain in full force and effect.
30. Without limitation, the following executory
contracts shall be assumed by the Debtors under 11 U.S.C.
§ 365 and Article VI of the Plan: (1) Facility Participation Agreement dated February 1, 2011 and amended on
June 1, 2014 (the “FPA”), between UnitedHealthcare

App. 303
Insurance Company and its affiliates (collectively referred to herein as “United”), and Millennium Health,
LLC f/k/a Millennium Laboratories, Inc.; (ii) Master
Services Agreement between United and RxAnte, LLC
dated May 1, 2015, as well as the underlying Statement of Work No. 1 (Analytics, Decision Support & Provider Engagement); and (iii) Settlement and Release
Agreement dated as of November 9, 2015 (the “Settlement”), between United and Millennium Health, LLC
and its affiliates.
31. Notwithstanding anything to the contrary
herein or in the Plan, defaults under the FPA shall be
cured in accordance with 11 U.S.C. § 365(b) as follows:
(a) other than as specified in subsection (c) below,
United’s claims for overpayments under the FPA for
services rendered by the Debtors on or before November 9, 2015, shall be cured by the Debtors’ performance
under the Settlement; (b) United’s rights to deny, in
whole or in part, and seek recovery for overpayment
of claims submitted by the Debtors bearing dates of
service between November 10, 2015 and the Effective
Date shall be expressly preserved, and such claims
and/or overpayments will be paid or set-off in accordance with the terms of the FPA; and (c) United’s rights
to deny, in whole or in part, and seek recovery for overpayment of, claims submitted by the Debtors bearing
dates of service within 12 months prior to November 9,
2015, for reasons arising in the ordinary course of
business, which reasons are unrelated to United’s allegations in the ARBITRATION (as defined in the
Settlement) (the “Ordinary Course Reasons”), shall be

App. 304
expressly preserved, and such claims and/or overpayments will be paid or set-off in accordance with the
terms of the FPA; provided, however, that the Debtors
reserve all of their rights under the FPA with regard
to United’s determination of the claims and overpayments as described in subsections (b) and (c) above. Examples of Ordinary Course Reasons include, but are
not limited to, the following: services were rendered before or after member had coverage under applicable
benefit plan; coordination of benefits; untimely submission of claim; incorrect contract rate applied; subrogation; claim paid at incorrect benefit level; and duplicate
claim submissions.
32. For the avoidance of doubt, that certain
Agreement, dated October 26, 2015, by and among Millennium Health LLC and certain of its affiliates on the
one hand and Aetna, Inc., Aetna Health Management,
LLC, and Coventry Health Care, Inc. on the other
hand, shall be treated as an Executory Contract under
Plan and on the Effective Date will be assumed pursuant to sections 365 and 1123 of the Bankruptcy Code
and thereafter deemed an Assumed Agreement.
33. USA Settlement. Pursuant to Article III.C(v)(2)
of the Plan, on or as soon as reasonably practicable after the Effective Date, but in any event, at least one
(1) Business Day prior to the Equity Transfer Date,
and in no event later than December 30, 2015, the
Debtors shall pay (or cause to be paid) the Government
Claims in full from the proceeds of the USA Settlement
Funding Contribution plus Cash from Millennium in
an amount equal to all costs and fees to the extent

App. 305
required by the USA Settlement Agreements. The USA
Settlement Funding Contribution shall be paid to the
USA. If the USA Settlement Funding Contribution is
not paid to the USA, then the USA shall receive Cash
in the amount of $206 million, plus all interest, costs,
and fees as required by the USA Settlement Agreements no later than December 31, 2015. The Cash payment of the Initial USA Settlement Deposit shall be
final and irrevocable and shall not be subject to any
Avoidance Action or any other avoidance or recovery
on any basis in law or equity. Any and all claims
against the USA Settlement Parties on account of payment of the Initial USA Settlement Deposit shall be
waived by the Debtors and their Estates and no Entity
shall bring any claim against the USA Settlement Parties on account of payment of the Initial USA Settlement Deposit, and all such claims by any Entity are
permanently and indefinitely prohibited, barred, and
enjoined.
34. Reorganized Millennium shall abide by the
requirements and obligations set out in that certain
Corporate Integrity Agreement executed by and between the Office of Inspector General of the Department of Health and Human Services and Millennium
Health, LLC on or about October 16, 2015 with respect
to all insurance claims for payment submitted to any
of Allstate Insurance Company, Allstate Indemnity
Company, Allstate Property and Casualty Insurance
Company, Allstate New Jersey Insurance Company, Allstate New Jersey Property and Casualty Insurance Company, Allstate Fire and Casualty Insurance Company

App. 306
f/k/a Forestview Mortgage Insurance Company, Encompass Indemnity Company, Encompass Insurance
Company of America, Encompass Insurance Company
of New Jersey and Encompass Property and Casualty
Insurance Company of New Jersey and each of their
respective Related Parties (collectively, the “Allstate
Entities”) as if said insurance claims for payment had
been submitted to Medicare. The Allstate Entities shall
adjust insurance claims submitted by Reorganized Millennium in the ordinary course of business as it adjusts
claims submitted by other providers.
35. Boards of Directors. Immediately upon the
occurrence of the Effective Date, (i) the authority,
power and incumbency of the individuals then serving
as directors of the Debtors shall be terminated and
such individuals shall be deemed to have resigned and
(ii) the members of the New Board and each of the
boards of the Reorganized Debtors, as applicable, as
designated under Article VI of the Plan will be appointed and commence serving in such capacity without further order of the Bankruptcy Court or any
action by the boards of directors or shareholders of
New Holdco, the Debtors or Reorganized Debtors.
36. Exemption from Certain Transfer Taxes. The
issuance, transfer or exchange of debt and equity under the Plan, the creation of any mortgage, deed of
trust, or other security interest, the making or assignment of any contract, lease or sublease, or the making
or delivery of any deed or other instrument of transfer
under, in furtherance of, or in connection with the Plan
shall be exempt from all taxes (including, without

App. 307
limitation, stamp tax or similar taxes) to the fullest
extent permitted by section 1146 of the Bankruptcy
Code, and the appropriate state or local governmental
officials or agents shall not collect any such tax or governmental assessment and shall accept for filing and
recordation any of the foregoing instruments or other
documents without the payment of any such tax or governmental assessment.
37. Payment of Fees. All fees due and payable
pursuant to section 1930 of Title 28 of the U.S. Code
prior to the Effective Date shall be paid by the Debtors
on or prior to the Effective Date. After the Effective
Date, the Reorganized Debtors shall pay any and all
such fees when due and payable, and shall file with the
Bankruptcy Court quarterly reports in a form reasonably acceptable to the U.S. Trustee. Each and every one
of the Debtors shall remain obligated to pay quarterly
fees to the Office of the U.S. Trustee until the earliest
of that particular Debtor’s case being closed, dismissed
or converted to a case under Chapter 7 of the Bankruptcy Code.
Discharge of Debtors, Releases
and Injunctions, Retained Claims
38. Discharge of Debtors. To the fullest extent
provided under section 1141(d)(1)(A) and other applicable provisions of the Bankruptcy Code, except as
otherwise expressly provided by the Plan or this Confirmation Order, all consideration distributed under
the Plan will be in exchange for, and in complete

App. 308
satisfaction, settlement, discharge, and release of, all
Claims and Causes of Action, whether known or unknown, including any interest accrued on such Claims
from and after the Petition Date, against, liabilities of,
Liens on, obligations of, rights against, and Equity Interests in the Debtors or any of their assets or properties, and regardless of whether any property will have
been distributed or retained pursuant to the Plan on
account of such Claims or Equity Interests. Except as
otherwise expressly provided by the Plan or the Confirmation Order, upon the Effective Date, the Debtors
and their Estates will be deemed discharged and released under and to the fullest extent provided under
section 1141(d)(1)(A) and other applicable provisions of
the Bankruptcy Code from any and all Claims and Equity Interests of any kind or nature whatsoever, including, but not limited to, demands and liabilities that
arose before the Confirmation Date, and all debts of
the kind specified in section 502(g), 502(h), or 502(i) of
the Bankruptcy Code. This Confirmation Order shall
be a judicial determination of the discharge of all
Claims against and Equity Interests in the Debtors,
subject to the occurrence of the Effective Date. However, the foregoing provisions will have no effect on the
Debtors’ liabilities as reserved by the USA Settlement
Agreements and as provided for in Article V.J of the
Plan, whether such liabilities arose prior to or after the
Confirmation Date.
39. Propriety of Releases, Injunction, and Limitation of Liability Provisions. Based on the findings of
fact set forth in this Confirmation Order, including

App. 309
paragraphs LL and MM, and the record established at
the Confirmation Hearing, the releases, injunctions,
bar order and limitation of liability provisions of the
Plan are appropriate under applicable law:
(a) Substantial contributions by or on behalf
of the Released Parties are being made to fund the distributions provided under the Plan.
(b) The Plan has been overwhelmingly accepted by the sole voting Class of creditors, which
Class is affected by the injunctions, bar order, releases,
and limitation of liability provisions of the Plan.
(c) The Third Party Releasing Parties are receiving fair consideration in exchange for the injunctions, bar order, releases, and limitation of liability
provisions of the Plan.
(d) The injunctions, bar order, releases, and
limitation of liability provisions are necessary and critical provisions of the Plan, without which the Plan
would not be feasible,
(e) The record of the Confirmation Hearing
and the Chapter 11 Cases is sufficient to support the
injunctions, bar order, releases, and limitation of liability provisions of the Plan.
(f ) The Plan is the product of a global settlement that was reached due to the extraordinary circumstances of these Chapter 11 Cases. These extraordinary
circumstances (which include the imminent revocation
of the Debtors’ Medicare enrollment and billing privileges) support the approval of the injunctions, bar

App. 310
order, releases, and limitation of liability provisions of
the Plan.
(g) There is a substantial identity of interest
between the Debtors and TA, MLH and other Released
Parties, such that a Cause of Action asserted against
any of them is essentially a Cause of Action against the
Debtors and thus any Cause of Action asserted against
any of them has a direct impact on the Debtors’, their
assets, and their reorganization.
(h) This Court has subject matter jurisdiction over the third party claims against the Released
Parties because of the unity of interest between the
Released Parties and the Debtors and the proper application of Bankruptcy Code 105 to this Court’s confirmation of the Plan.
40. Releases; Limitation of Liability; Indemnification. The releases set forth in Article X.E, F, G and H
of the Plan, the limitation of liability provisions set
forth in Article X.D of the Plan, and the indemnification obligations set forth in Article VI.F and X.M of the
Plan are incorporated in this Confirmation Order as if
set forth in full herein and are hereby approved and
authorized in their entirety and, except as otherwise
set forth in paragraph 5 of this Confirmation Order,
shall be, and hereby are, effective and binding, subject
to the respective terms thereof, on all persons and entities who may have had standing to assert released
Claims or Causes of Action, and no person or entity
shall possess such standing to assert such Claims or
Causes of Action after the Effective Date.

App. 311
41. In addition to the foregoing, for the avoidance
of doubt, the Debtors and each of their Related Parties
(collectively, the “Millennium Entities”) waive any and
all payment or claim for payment on unpaid claims and
previously-denied claims submitted to any of the Allstate Entities and/or for which any of the Allstate Entities are the responsible payor in all States within the
United States of America for all dates of services
through the Effective Date (the “Waived Claims”). The
Millennium Parties shall not balance bill or otherwise
seek payment from any person insured under a policy
issued by any of the Allstate Entities and/or for whom
any of the Allstate Entities are the responsible payor
with respect to the Waived Claims. Further, for the
avoidance of doubt, the Allstate Entities waive any and
all claims against the Debtors related to the Allstate
Litigation (as defined below) subject to the Allstate Entities’ rights and obligations under this Order and the
Plan.
42. Bar Order. Except as otherwise set forth in
paragraph 5 of this Confirmation Order, the commencement or prosecution by any Entity, including,
without limitation all Third Party Releasing Parties,
any Non-Consenting Lenders, each Excluded Party,
and, for the avoidance of doubt, any Consenting Lender,
whether directly, derivatively or otherwise, of any
claims or Causes of Action released pursuant to this
Plan, including but not limited to the claims and
Causes of Action released in Articles X.E, F, G, and H
are hereby permanently enjoined. For the avoidance of
doubt, this injunction shall permanently bar, enjoin,

App. 312
and restrain (i) all persons and entities (including,
without limitation, each Non-Consenting Lender, each
Third Party Releasing Party, and each Excluded Party)
from commencing or prosecuting any litigation or asserting any claims against Holdings, TA, MLH, and/or
their respective Related Parties based on any Released
Claims; and (ii) to the maximum extent possible under
applicable law, each Excluded Party and each Third
Party Releasing Party from commencing, prosecuting,
or asserting against any of the Released Parties any
Claims, actions or proceedings for contribution or indemnity, or otherwise, including any Claims, actions or
proceedings for contribution or indemnity or otherwise
with respect to any liability or obligation of any Excluded Party to Millennium or the Lenders arising out
of or in connection with any Retained Claims. The foregoing provision shall not operate to enjoin the commencement or prosecution by the USA Settlement
Parties of any action or proceeding to enforce the Guarantee Agreement, an exhibit to the USA Settlement
Agreements.
43. The Released Parties and their Related Parties shall have no liability to any Excluded Party, Millennium or the Lenders with respect to any Retained
Claims that are, immediately prior to the Effective
Date, subject to contractual or other indemnity by Millennium in favor of the Excluded Parties, and all such
claims shall be barred, enjoined and released.
44. Injunctions. Except as otherwise provided in
the Plan or this Order, from and after the Effective
Date, all Entities are permanently enjoined from

App. 313
commencing or continuing in any manner, any suit,
action or other proceeding, or creating, perfecting or
enforcing any Lien of any kind, on account of or respecting any Claim, demand, liability, obligation, debt,
right, Cause of Action, Equity Interest, or remedy released or to be released, exculpated or to be exculpated,
or discharged or to be discharged pursuant to the Plan
or this Confirmation Order. From and after the Effective Date, all Entities are permanently enjoined from
commencing or continuing in any manner any Avoidance Action or any other action to avoid or recover the
Initial USA Settlement Deposit. Except as otherwise
set forth in paragraph 5 of this Confirmation Order,
by accepting distributions pursuant to the Plan, each
Holder of an Allowed Claim or Equity Interest will be
deemed to have specifically consented to this injunction.
45. Continued Effect of Stay and Injunctions. All
injunctions or stays in effect in the Chapter 11 Cases
under sections 105 or 362 of the Bankruptcy Code or
any order of the Bankruptcy Court, and extant on the
Confirmation Date (excluding any injunctions or stays
contained in the Plan or the Confirmation Order), shall
remain in full force and effect until the Effective Date.
As of the Effective Date, all injunctions, stays or exculpation provisions contained in the Plan or the Confirmation Order shall remain in full force and effect in
accordance with their terms.
46. Retained Claims. The Retained Claims are
preserved for prosecution by the Retained Claim Plaintiffs against the Excluded Parties pursuant to Article

App. 314
X.L of the Plan. The terms of Article X.L of the Plan
(including, without limitation, the terms relating to a
Retained Claim Judgment with respect to an Excluded
Party) are incorporated in this Confirmation Order as
if set forth in full herein and are hereby approved and
authorized in their entirety, including, but not limited
to, with respect to contribution claims and Non-Contribution Actions.
47. In full and final satisfaction of the claims
asserted by the Allstate Entities against the [sic] Millennium in that certain action captioned Allstate Insurance Company, et al. v. Millennium Health, LLC
f/k/a Millennium Laboratories, Inc., et al., Case No.
2:15-cv-06391 (E.D.N.Y.) (the “Allstate Litigation”),
Allstate Insurance Company shall receive an Allowed
Class 6 General Unsecured Claim against Millennium
in the amount of $475,000 (the “Allstate Allowed
Claim”). The Allstate Allowed Claim shall be paid in
full, in cash, as soon as practicable in January 2016.
The Allstate Entities shall file a stipulation of dismissal with prejudice as to their causes of action against
Millennium, James Slattery, Howard Appel, and William B. Hardaway set out in the Allstate Litigation
within five (5) business days of receipt of the Allstate
Allowed Claim payment amount.
48. Government Claims and Actions. Notwithstanding anything to the contrary in the Plan, the Plan
documents, or elsewhere in this Confirmation Order,
nothing shall preclude, bar, or enjoin the United States
of America, or its agencies, from taking any and all
actions to enforce its police or regulatory powers, to

App. 315
regulate and administer its federal programs, to bring
any claim, action, proceeding, defense, or cause of action, or to assert setoff or recoupment rights (which
are expressly preserved) except to the extent barred
by the USA Settlement Agreements. Notwithstanding
anything to the contrary in the Plan, the Plan documents, or elsewhere in this Confirmation Order, nothing shall release, discharge, or immunize the Debtors,
Reorganized Debtors, or any third party or nondebtor
entity from any debt, obligation, liability, claim, action,
proceeding, defense, or cause of action in connection
with any claim, action, proceeding, defense, or cause of
action brought by the United States of America or its
agencies, except as provided in the USA Settlement
Agreements.
49. IRS Matters. Notwithstanding anything to
the contrary in the Plan, the Plan documents, or elsewhere in this Confirmation Order: (a) the IRS will not
be bound by any designation, allocation or other characterization, for tax purposes, of any proposed tax benefit or any transaction as set forth in these documents;
(b) the IRS shall not be bound by any characterizations, for tax purposes of any valuation of any property
as set forth in these documents; and (c) the Debtors
and the Reorganized Debtors shall comply with the
provisions of the Internal Revenue Code.
Notice and Other Provisions
50. Notice of Confirmation Order. On or before
the fifth (5th) business day following the occurrence of

App. 316
the Effective Date, the Debtors shall serve notice of entry of this Confirmation Order pursuant to Bankruptcy
Rules 2002(f )(7), 2002(k), and 3020(c), on (i) the U.S.
Trustee; (ii) counsel to the Ad Hoc Group of Prepetition
Lenders; (iii) counsel to Millennium Lab Holdings, Inc.;
(iv) counsel to TA Millennium, Inc.; (v) the United
States Department of Justice; (vi) the parties included
on the Debtors’ consolidated list of twenty (20) largest
unsecured creditors; (vii) all holders of Claims and Equity Interests, and (viii) all parties who have filed requests for notice in these cases under Bankruptcy Rule
2002, by causing a notice of this Confirmation Order in
substantially the form of the notice annexed hereto as
Exhibit A (the “Notice of Confirmation”), which form is
hereby approved, to be delivered to such parties by first
class mail, postage prepaid.
51. Notice need not be given or served under the
Bankruptcy Code, the Bankruptcy Rules, or this Confirmation Order to any Person to whom the Debtors
mailed a Combined Notice, but received such notice returned marked “undeliverable as addressed,” “moved –
left no forwarding address,” “forwarding order expired,”
or similar reason, and as to which no new address was
indicated, unless the Debtors have been informed in
writing by such Person of that Person’s new address.
52. Reversal/Stay/Modification/Vacatur of Confirmation Order. Except as otherwise provided in the
Confirmation Order, if any or all of the provisions of
the Confirmation Order are hereafter reversed, modified, vacated or stayed by subsequent order of the
Court, or any other court, such reversal, stay,

App. 317
modification or vacatur shall not affect the validity or
enforceability of any act, obligation, indebtedness, liability, priority or lien incurred or undertaken by the
Debtors or the Reorganized Debtors, prior to the effective date of any such reversal, stay, modification or
vacatur, including, without limitation the validity of
any obligation, indebtedness or liability incurred by
the Reorganized Debtors. Notwithstanding any such
reversal, stay, modification or vacatur of the Confirmation Order, any such act or obligation incurred or undertaken pursuant to, or in reliance on, the
Confirmation Order prior to the effective date of such
reversal, stay, modification or vacatur shall be governed in all respects by the provisions of the Confirmation Order and the Plan or any amendments of
modifications thereto. Specifically, notwithstanding any
such reversal, stay, modification or vacatur of the Confirmation Order, any obligation, indebtedness or liability incurred by the Debtors or the Reorganized Debtors
shall be governed in all respects by the provisions of
the Confirmation Order and the Plan or any amendments or modifications thereto.
53. Mailing of the Notice of Confirmation in
the time and manner set forth in the preceding paragraphs shall be good and sufficient notice under the
particular circumstances and in accordance with the
requirements of Bankruptcy Rules 2002 and 3020(c),
and no other or further notice is necessary. The Notice
of Confirmation shall constitute sufficient notice of the
entry of the Confirmation Order to any filing and recording officers, and shall be a recordable instrument

App. 318
notwithstanding any contrary provision of applicable
non-bankruptcy law.
54. Failure to Consummate Plan and Substantial Consummation. If the Effective Date does not occur as of December 30, 2015, then the Plan, any
settlement or compromise embodied in the Plan (including the fixing or limiting to an amount certain any
Claim or Class of Claims), the assumption or rejection
of executory contracts or unexpired leases effected by
the Plan, and any document or agreement executed
pursuant to the Plan, shall be null and void. In such
event, nothing contained in the Plan or this Confirmation Order, and no acts taken in preparation for consummation of the Plan, shall, or shall be deemed to,
(a) constitute a waiver or release of any Claims by or
against or Equity Interests in the Debtors or any other
Entity, (b) prejudice in any manner the rights of the
Debtors or any Entity in any further proceedings involving the Debtors, (c) constitute an admission of any
sort by the Debtors or any other Entity, or (d) be construed as a finding of fact or conclusion of law with respect thereto.
55. References to Plan Provisions. The failure to
include or specifically reference any particular provision of the Plan in this Confirmation Order shall not
diminish or impair the effectiveness of such provision,
it being the intent of the Court that the Plan be confirmed in its entirety.
56. Exhibits. Each reference to a document,
agreement or summary description that is in the form

App. 319
attached as an exhibit to the Plan in this Confirmation
Order, or in the Plan shall be deemed to be a reference
to such document, agreement or summary description
in substantially the form of the latest version of such
document, agreement or summary description filed
with the Court (whether filed as an attachment to the
Plan or filed separately).
57. Plan Provisions Mutually Dependent. The
provisions of the Plan are hereby deemed nonseverable
and mutually dependent.
58. Confirmation Order Provisions Mutually Dependent. The provisions of this Confirmation Order are
hereby deemed nonseverable and mutually dependent.
59. Confirmation Order Supersedes. It is hereby
ordered that this Confirmation Order shall supersede
any orders of this Court issued prior to the Confirmation Date that may be inconsistent with this Confirmation Order.
60. Conflicts Between Confirmation Order and
Plan. The provisions of the Plan and of this Confirmation Order shall be construed in a manner consistent
with each other so as to effect the purposes of each;
provided, however, that (other than typographical errors or manifestly clear errors or oversights that can
be corrected) if there is determined to be any inconsistency between any provision of the Plan, or any Plan
Supplement, or any Exhibit to the same, and any provision of this Confirmation Order that cannot be so reconciled, then, solely to the extent of such inconsistency,
the provisions of this Confirmation Order shall govern

App. 320
and any such provision of this Confirmation Order
shall be deemed a modification of the Plan and shall
control and take precedence.
61. Separate Confirmation Orders. This Confirmation Order shall be deemed to be a separate confirmation order with respect to each Debtor and it shall
be sufficient for the purposes thereof that the Clerk
of this Court enters this Confirmation Order in the
docket of the jointly administered case.
62. Retention of Jurisdiction. Pursuant to sections 105(a) and 1142 of the Bankruptcy Code, and notwithstanding the entry of this Confirmation Order or
the occurrence of the Effective Date, this Court, except
as otherwise provided in the Plan or herein, including,
without limitation, the matters set forth in Article
IX.B, shall retain exclusive jurisdiction over all matters arising out of, and related to, the Chapter 11 Cases
and the Plan to the fullest extent permitted by law, including, but not limited to, the matters set forth in Article IX.A of the Plan.
63. Immediate Effectiveness. Notwithstanding
Bankruptcy Rules 3020(e), 6004(h), 7062, 8001, 8002
or otherwise, immediately upon the entry of this Confirmation Order, the terms of the Plan, the Plan Supplements, and this Confirmation Order shall be, and
hereby are, immediately effective and enforceable and
deemed binding upon the Debtors, the Reorganized
Debtors, any and all holders of Claims or Equity Interests (irrespective of whether such Claims or Equity Interests are Impaired under the Plan or whether the
holders of such Claims or Equity Interests accepted,

App. 321
were deemed to have accepted, rejected or were deemed
to have rejected the Plan), any trustees or examiners
appointed in the Chapter 11 Cases, all persons and entities that are party to or subject to the settlements,
compromises, releases, discharges, injunctions, stays
and exculpation described in the Plan or herein, each
person or entity acquiring property under the Plan,
and any and all non-Debtor parties to executory contracts and unexpired leases with the Debtors and the
respective heirs, executors, administrators, successors
or assigns, affiliates, officers, directors, agents, representatives, attorneys, beneficiaries, or guardians, if
any, of any of the foregoing. The Debtors are authorized
to consummate the Plan at any time after the entry
of the Confirmation Order subject to satisfaction or
waiver of the conditions precedent to the Effective
Date and the Equity Transfer Date as set forth in Article VIII of the Plan.
64. Final Order. The Confirmation Order is a final order and the period in which an appeal must be
filed shall commence upon the entry hereof.
Dated: Wilmington Delaware
December 14, 2015
/s/ Laurie Selber Silverstein
Honorable
Laurie Selber Silverstein
UNITED STATES
BANKRUPTCY JUDGE
[Attachments omitted]

